App. 1
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 19-10315
-----------------------------------------------------------------------

SHKELZEN BERISHA,
Plaintiff - Appellant,
versus
GUY LAWSON,
ALEXANDER PODRIZKI,
SIMON & SCHUSTER, INC.,
RECORDED BOOKS, INC.,
Defendants - Appellees.
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the Southern District of Florida
-----------------------------------------------------------------------

(September 2, 2020)
Before MARTIN, NEWSOM, and O’SCANNLAIN,* Circuit Judges.

* Honorable Diarmuid F. O’Scannlain, United States Circuit
Judge for the Ninth Circuit, sitting by designation.

App. 2
O’SCANNLAIN, Circuit Judge:
We must decide whether the son of the former
Prime Minister of Albania, who alleges that he was defamed in a book that accused him of being involved in
an elaborate arms-dealing scandal in the early 2000s,
may succeed in his defamation action against the
book’s author and its publisher.
I
This case arises out of brief references to Shkelzen
Berisha—the son of the former Prime Minister of Albania, Sali Berisha—in Guy Lawson’s 2015 book Arms
and the Dudes: How Three Stoners from Miami Beach
Became the Most Unlikely Gunrunners in History. The
book tells the supposedly true story of Efraim Diveroli,
David Packouz, and Alex Podrizki, three young Miami,
Florida, men who became international arms dealers
during the early 2000s.
A
We recount the tale as it is presented in Lawson’s
book. According to the book, in the early 2000s, Diveroli, a teenager in Miami, came up with a plan to open
a business specializing in arms trading in order to fulﬁll defense contracts with the United States government. At that time, private companies were permitted
to bid on large military contracts through a website operated by the federal government, FedBizOpps.com.
Diveroli was originally inspired to enter the trade after
working for his uncle’s arms company while living with
him for a few years in Los Angeles. After a falling out

App. 3
with his uncle, Diveroli returned to Miami and convinced his father to sell him an unused shell company
to build his own arms-trading enterprise: AEY, Inc.
Diveroli had signiﬁcant early success bidding on small
contracts unlikely to attract the attention of major
arms dealers, and he quickly grew both his business’s
capital and his own connections with arms vendors.
Eager to see his operation expand, Diveroli later
brought on his childhood friend David Packouz to help
him run the business.
Much of the book, and Berisha’s alleged involvement in the operation, revolves around AEY’s biggest
procurement deal: a roughly $300 million contract that
AEY won in the summer of 2006 to equip Afghan security forces ﬁghting the Taliban. The contract required
AEY to ship 100-million rounds of AK-47 ammunition
to Afghanistan. At the time, AEY had a deal with a
Swiss middleman, Heinrich Thomet, who had access to
surplus ammunition in Albania that AEY could purchase at low prices. Thomet had purchased the ammunition through the Military Export Import Company
(“MEICO”), an Albanian state-owned arms-dealing
company. Packouz hired another childhood friend, Alex
Podrizki, to travel to Albania, to collect the ammunition, and to load it onto planes to Afghanistan.
In Albania, Podrizki inspected the ammunition
and found it packed in Chinese crates—potentially
raising a signiﬁcant issue, because federal regulations
barred AEY from fulﬁlling the contract with Chinese
ammunition. Packouz and Diveroli decided to use the
ammunition anyway, with a plan to repackage the

App. 4
rounds to conceal their Chinese origin. AEY hired Albanian businessman Kosta Trebicka to coordinate the
repackaging job. In the course of his work, Trebicka
discovered that Thomet—the middleman between AEY
and the Albanian state-owned MEICO—had charged
AEY nearly twice the price he paid to MEICO for the
ammunition.
According to Lawson’s book, in May 2007, after
Trebicka told Diveroli of the overcharges, Diveroli ﬂew
to Albania to renegotiate the price and to attempt to
remove Thomet from the deal. Diveroli’s supposed trip
to Albania in 2007 is the subject of signiﬁcant dispute
by the parties here. According to the book, Diveroli and
Podrizki met with Ylli Pinari, the director of MEICO,
who drove the pair to an abandoned, half-completed
building in Tirana, where he introduced them to
Mihail Delijorgji. Delijorgji is described in the book as
a “hard-looking” man who offered to lower the AEY’s
price if his own company were paid to repackage it instead of Trebicka’s. As Lawson tells it, the Americans
also saw another man, who appeared to be in his mid20s, who was never introduced and who remained silent throughout. According to the book, Diveroli and
Podrizki would later learn that this man was Berisha
and that the entire operation was involved in organized crime. The relevant passages in the book read
(with emphasis to the portions relating to Berisha
added):
Ylli Pinari escorted Diveroli and Podrizki
to . . . an abandoned construction site for a
partially completed ofﬁce building. Pinari led

App. 5
the pair up a set of stairs and along a corridor
until they reached a door. Stepping inside,
they found . . . a hard-looking man—a real
thug, Podrizki thought, fear rising. . . .
This was Mihail Delijorgji. Diveroli and
Podrizki then turned to see a young man
around their age sitting in the corner. Dressed
in a baseball cap and a sweater, he had dark
hair, a soft chin, and sharklike eyes. He wasn’t
introduced. This was Shkelzen Berisha, the
son of the prime minister of Albania, they
would later be told by Pinari. Shkelzen was
part of what was known in Albania as “the
family,” the tight-knit and extremely dangerous group that surrounded and lived at the
beneﬁcence of the prime minister, Sali Berisha. . . .
Delijorgji said that if Diveroli wanted a
discount he would have to change the arrangements for the repackaging operation . . .
by giving the contract to repack to Delijorgji’s
company. The son of the prime minister remained silent. . . .
Diveroli and Podrizki departed.
“That guy looked stupid enough to be
dangerous,” Diveroli said of Delijorgji.
“Did we just get out of a meeting with the
Albanian maﬁa?” Podrizki joked.
“Absolutely. Absofuckinglutely.”
Ultimately, the group brokered a deal to purchase
the ammunition at a discount, cutting Trebicka out of

App. 6
the scheme in favor of Delijorgji. Angered at being removed from the deal, Trebicka sought to blow the whistle on kickbacks that he believed Diveroli and AEY
were paying to Albanian ofﬁcials. Hoping to substantiate his claims, Trebicka recorded a telephone call with
Diveroli, in which Diveroli told him that he could not
help bring Trebicka back into the scheme because the
corruption “went up higher, to the prime minister, to
his son.”
Trebicka’s allegations—and his recorded conversation with Diverolibecame the source of a number of
public reports about AEY’s illegal scheme. Most notably, on March 27, 2008, the New York Times published
a front-page story, which reported the allegations that
AEY had illegally trafﬁcked in Chinese ammunition
and paid kickbacks to Albanian ofﬁcials, including
Pinari and Minister of Defense Fatmir Mediu. The
story quoted Diveroli’s statements that the scheme
“went up higher to the prime minister and his son” and
that Berisha was part of “this maﬁa.” The article also
reported on another recent matter Trebicka had blown
the whistle on (and accused Berisha of being involved
in): the tragic explosion of an Albanian munitions
stockpile, which had killed 26 people in the village of
Gerdec and for which Delijorgji and Pinari had been
arrested. Several months later, the New York Times
ran another article that reported the supposedly accidental death of Trebicka, and detailed suspicions that
Trebicka had actually been murdered—perhaps with
the involvement of the Berisha family—to prevent him
from testifying about the AEY and Gerdec matters.

App. 7
Once again, the Times story quoted Diveroli’s statement about the corruption going “all the way up” to
Berisha.
At the same time, federal agents were investigating AEY for violating the embargo against shipping
Chinese ammunition. On August 23, 2007, federal investigators raided AEY’s ofﬁces in Miami while Podrizki was still abroad in Albania. In 2008, federal
prosecutors charged Diveroli, Packouz, and Podrizki
with defrauding the United States government. All
three pled guilty and were convicted; Podrizki and
Packouz were sentenced to house arrest, while Diveroli
was sentenced to four years in prison.
B
Lawson ﬁrst published an account of the AEY saga
in a March 2011 feature article in Rolling Stone, entitled “Arms and The Dudes: How Two Stoner Kids from
Miami Beach Became Big Time Arms Dealers—Until
the Pentagon Turned on Them.” It was told largely
from “the dudes’ perspective, whom Lawson found to
be quite unlike the “hardened criminals” that the New
York Times coverage and federal government had portrayed them to be. Relevant here, like the New York
Times story, Lawson’s article reported that AEY’s deal
to purchase ammunition from MEICO was structured
to pay kickbacks to Albanian government ofﬁcials and
quoted Diveroli’s statement that the scheme went “up
higher to the prime minister and his son.” Lawson’s
article also reported that the repackaging job was

App. 8
transferred to “a friend of the president’s son.” Though
he was aware of the article, Berisha never sued Lawson or Rolling Stone for anything printed in the article.
Following the success of the article, Simon &
Schuster, Inc., entered into a publishing agreement
with Lawson to expand the story into a non-ﬁction
book. After four years of additional research, including
interviews with Podrizki and Packouz (who were paid
life rights for the story), Lawson published his full account of the saga in his June 2015 book. He also sold
the movie rights to Warner Brothers, which turned the
story into the 2016 major motion picture War Dogs,
starring Jonah Hill and Miles Teller.
C
On June 8, 2017, Berisha sued Lawson, Diveroli,1
Podrizki, Packouz, and Simon & Schuster, and also
named Recorded Books, Inc., which was responsible for
producing the audio version of Lawson’s book. The
complaint alleges that Berisha was defamed by a few
scattered references to him in Lawson’s book. In addition to the passage about the 2007 meeting in Tirana
quoted above—which, as Berisha emphasizes on appeal, is the core of his allegations—the complaint also
takes exception with the following references:
•

1

On page 150, the book states that “Diveroli
had agreed to cut Trebicka out of the repacking job, which was now being done by a

Diveroli was later dismissed from the lawsuit following a
settlement.

App. 9
company called Alb-Demil, an entity seemingly controlled by the prime minister’s son
and Mihail Delijorgji.”
•

On page 160, the book quotes the conversation
that Trebicka recorded with Diveroli, and
which was featured in the 2008 New York
Times article. In that conversation, Diveroli
said, “The more it went up higher, to the prime
minister, to his son—this Maﬁa is too strong
for me. I can’t ﬁght this Maﬁa. It got too big.
The animals got too out of control.”

•

The book features a photo of Berisha with the
caption: “Also involved, the dudes discovered,
was the prime minister’s son, Shkelzen Berisha.”

Over the next year, the parties conducted extensive discovery, in which the defendants assert they produced nearly 20,000 documents, including all of the
research relied upon by Lawson in writing his book
and nearly all communications relevant to the book’s
editorial process. On July 13, 2018, however, Berisha
moved to compel production of additional communications that were exchanged between Lawson and Simon
& Schuster’s attorneys as part of the publishing house’s
legal pre-publication review. A magistrate judge denied that motion, ﬁnding the materials to be privileged
after viewing the defendants’ privilege log and viewing
some of the documents in camera.

App. 10
D
Following discovery (which was twice extended),2
the defendants moved for summary judgment, arguing
that there was not sufﬁcient evidence to allow a reasonable juror to conclude that Lawson or the other
defendants had defamed Berisha. The district court
agreed and granted summary judgment against Berisha.
Berisha timely appealed.
II
Berisha ﬁrst challenges the district court’s ﬁndings as to the merits of his claims. Speciﬁcally, the
court found that Berisha is a “limited public ﬁgure for
purposes of the controversy at issue in this case,” and
that he therefore can prevail only by demonstrating that the defendants acted with “actual malice”
against him. The court then granted summary judgment against Berisha, ﬁnding that the evidence in the
record could not reasonably support the conclusion
that the defendants had acted with such malice.

2

The district court extended the discovery deadline (once on
a joint motion and once at Berisha’s request) a total of two
months—from June 1, 2018, ultimately to August 1, 2018. Two
weeks before discovery was set to close (and three weeks before
summary judgment motions were due), Berisha sought even more
time to take discovery. The court denied the motion but permitted
the parties to “agree to conduct discovery beyond the discovery
deadline.”

App. 11
Berisha argues that the district court erred both:
(1) in requiring him to show actual malice in the ﬁrst
place and, even if that were the correct standard to apply, (2) in concluding that the record evidence could not
support such a ﬁnding.
A
We ﬁrst ask: is Berisha a public ﬁgure for purposes
of his defamation suit?
Because of the expressive freedom guaranteed
by the First Amendment, a defendant may not be held
liable for defaming a public ﬁgure about a matter of
public concern unless he is shown to have “acted with
actual malice.” Silvester v. Am. Broad. Cos., 839 F.2d
1491, 1493 (11th Cir. 1988); see generally N.Y. Times
Co. v. Sullivan, 376 U.S. 254, 270-83 (1964). Berisha
does not dispute that Lawson’s book concerned matters
of public interest; the only question is whether the district court erred in ﬁnding him to be a “public ﬁgure.”
An individual may qualify as a public ﬁgure either generally—that is one with such fame and notoriety that
he will be a public ﬁgure in any case—or for only “limited” purposes, where the individual has thrust himself
into a particular public controversy and thus must
prove actual malice in regard to certain issues. Turner
v. Wells, 879 F.3d 1254, 1272 (11th Cir. 2018). Here, the
district court found that Berisha fell within the second
category—a public ﬁgure at least for the limited purpose of this lawsuit.

App. 12
We apply a two-part test to determine whether
someone is a limited public ﬁgure: “First, [we] must
determine whether the individual played a central role
in the controversy. Second, [we] must determine
whether the alleged defamation was germane to the
individual’s role in the controversy.” Id. at 1273 (citations omitted). Two “fundamental” criteria help draw
the line between public and private ﬁgures: (1) “public
ﬁgures usually have greater access to the media which
gives them a more realistic opportunity to counteract
false statements than private individuals normally enjoy”; and, more importantly, (2) public ﬁgures typically
“voluntarily expose themselves to increased risk of injury from defamatory falsehoods.” Silvester, 839 F.2d at
1494 (internal quotation marks omitted).
Lawson suggests that Berisha—who according to
one survey in our record had one hundred percent
name recognition in Albania—might qualify as a public ﬁgure generally. Putting that question aside, we
agree with the district court that he at least is a public
ﬁgure for the limited purpose of this lawsuit. As described above, the lawsuit concerns whether Berisha
was defamed in Lawson’s description of AEY’s involvement in a corrupt scheme to defraud the United States
in conjunction with certain Albanian government ofﬁcials and an Albanian “maﬁa.” Berisha’s purported role
in that scheme was covered by news media in both Albania and the United States—including in two New
York Times stories reporting Berisha’s supposed connections to the AEY deal and to a so-called Albanian
maﬁa. These same matters were also addressed in a

App. 13
television documentary produced by Al Jazeera, which
covered, among other things, Berisha’s supposed role
in corrupt arms dealing and in the Gerdec explosion.
Berisha contends that he cannot be a public ﬁgure
because he did not voluntarily insert himself into the
publicity surrounding these affairs. But the record
shows that Berisha did indeed place himself in the
public eye regarding the Albanian arms-dealing scandal. Of course, if the many press reports about his involvement in that affair are true, then there can be no
doubt he entered into the matter voluntarily. But even
putting aside the truth of such reports, Berisha undoubtedly forced himself into the public debate over his
supposed involvement in these activities. First, he admits that he privately met with Kosta Trebicka in an
effort to convince him that he was not involved in the
AEY matter—and that shortly thereafter Trebicka
produced a statement “to the media” retracting his allegations against Berisha. Berisha also admits that he
contacted a group of “media representatives” to request that they publish a statement presenting what
he called the “truth [of ] the accusations against me,”
which explicitly “encourage[d] the press to follow this
story to the end and investigate it.” We have recently
held that an individual may insert himself into a controversy—and thus become a public ﬁgure with respect
to that controversy—by encouraging third parties to
make public statements in his defense and by inviting
further public attention in an effort to inﬂuence the debate. See Turner, 879 F.3d at 1273.

App. 14
Moreover, even if Berisha never voluntarily sought
public attention, federal courts have long made clear
that one may occasionally become a public ﬁgure even
if “one doesn’t choose to be.” Rosanova v. Playboy Enters., Inc., 580 F.2d 859, 861 (5th Cir. 1978); see also,
e.g., Turner, 879 F.3d at 1273 (citing approvingly the
statement that “[i]t may be possible for someone to become a public ﬁgure through no purposeful action of
their own” (internal quotation marks omitted)). As this
circuit3 once put it, the “purpose served by [the public
ﬁgure standard] would often be frustrated if the subject of publication could choose whether or not he
would be a public ﬁgure. Comment upon people and activities of legitimate public concern often illuminates
that which yearns for shadow.” Rosanova, 580 F.2d at
861; see also Silvester, 839 F.3d at 1496 (where a person “involuntarily and, against his will, assumes a
prominent position” in the outcome of a public controversy, will be treated as a public ﬁgure “[u]nless he rejects any role in the debate”). Berisha argues cases of
involuntary public ﬁgures must be kept “exceedingly
rare,” Gertz v. Robert Welch, Inc., 418 U.S. 323, 345
(1974), and refers us to a decision from the Fourth Circuit in this regard. See Wells v. Liddy, 186 F.3d 505, 539
(4th Cir. 1999) (“[B]ecause the usual and natural conception of a public ﬁgure encompasses a sense of voluntary participation in the public debate, . . . the class
of involuntary public figures must be a narrow one. . . .”).
3

Rosanova is a Fifth Circuit case from shortly before that
circuit was divided, making it precedential for today’s Eleventh
Circuit. See Bonner v. City of Pritchard, 661 F.2d 1206 (11th Cir.
1981) (en banc).

App. 15
But Berisha’s is exactly the rare case in which courts
recognize involuntary public-ﬁgure status. The purposes underlying the public ﬁgure doctrine apply unequivocally to Berisha: he was widely known to the
public, he had been publicly linked to a number of
high-proﬁle scandals of public interest, he availed himself of privileged access to the Albanian media in an
effort to present his own side of the story, and he was
in close proximity to those in power. Even under the
Fourth Circuit case that he invokes, Berisha would
still be regarded as a public ﬁgure. See id. (individual
may be involuntary public figure where she has “sought
to publicize her views on the relevant controversy” or
“has taken some action . . . in circumstances in which
a reasonable person would understand that publicity
would likely inhere”).
The district court was correct to apply the heightened defamation standard for claims brought by public
ﬁgures.
B
Next, did the district court err in ﬁnding that
there was insufﬁcient evidence to support Berisha’s
claim that the defendants acted with actual malice?
Because Berisha is a public figure, he cannot
prevail in this suit unless he shows, by clear and convincing evidence, that the defendants acted with actual malice toward him. Harte-Hanks Commc’ns, Inc.
v. Connaughton, 491 U.S. 657, 659 (1989). That is, he
must be able to show—well beyond a preponderance

App. 16
of the evidence—that the defendants published a defamatory statement either with actual knowledge of its
falsity or with a “high degree of awareness” of its “probable falsity.” Garrison v. Louisiana, 379 U.S. 64, 74
(1964). It is a subjective test, which asks whether the
publisher “in fact entertained serious doubts as to the
truth of his publication.” Silvester, 839 F.2d at 1498
(emphasis added) (internal quotation marks omitted);
see also St. Amant v. Thompson, 390 U.S. 727, 731
(1968) (standard “is not measured by whether a reasonably prudent man would have published, or would
have investigated before publishing”). Even an “extreme departure from professional [publishing] standards” does not necessarily rise to the level of actual
malice. Harte-Hanks, 491 U.S. at 665.
Thus, the question here is whether the record
could allow a reasonable juror to conclude (clearly and
convincingly) that Lawson held serious doubts about
the truth of the book’s portrayal of Berisha as involved
in the AEY scheme.
1
Although Berisha has little evidence to suggest
Lawson knowingly published falsehoods about him,
Berisha argues that a juror could reasonably ﬁnd that
Lawson at least held serious doubts about his portrayal of Berisha, because he knew better than to trust
his ﬁrsthand sources for that account: primarily the
three “dudes.” For his part, Lawson testiﬁed that he
did believe his sources, and that in particular he found

App. 17
Podrizki and Packouz to be “extremely reliable,” with
information that consistently matched the other evidence available. But, as Berisha points out, these were
not the most dependable individuals. They had been
convicted of fraud, Packouz and Podrizki were self-interested in providing Lawson with a proﬁtable story,
and, in the book, Lawson himself describes Diveroli as
“a liar . . . [who] misled directly, indirectly, compulsively.” Thus, Berisha argues, evidence of Lawson’s
awareness of these many credibility ﬂaws could clearly
show that Lawson must have doubted what they said
about Berisha. Berisha, however, greatly overstates
the signiﬁcance of such evidence.
a
First, though factors like those Berisha identiﬁes
might undermine a source’s credibility, they do not
show that a publisher necessarily acted with malice by
relying on the source. See, e.g., Spacecon Specialty Contractors, LLC v. Bensinger, 713 F.3d 1028, 1045 (10th
Cir. 2013) (“That Bensinger knew Wilson . . . may have
been biased . . . is not evidence Bensinger had obvious
reasons to doubt Wilson’s veracity or the accuracy of
his report”); Cobb v. Time, Inc., 278 F.3d 629, 638 (6th
Cir. 2002) (publisher could rely on paid source who was
a drug user with a “criminal background”); Reuber v.
Food Chem. News, Inc., 925 F.2d 703, 715 (4th Cir.
1991) (“Actual malice cannot be proven simply because
a source of information might also have provided the
information to further the source’s self-interest.”). Further, Lawson’s book explicitly informed the reader of

App. 18
these supposed problems with the men’s credibility,
describing them as young partiers who drank, used
drugs, and committed a major international fraud.
With regard to Diveroli, the book explicitly described
his penchant for lying in order to further his own interests. In other words, the book makes clear that the
account offered by these men might be dubious. As we
have recently recognized, where a publisher in this
manner “inform[s] its audience that its primary source
[is] not an unimpeachable source of information, it
serve[s] to undermine claims showing that the report
was issued with actual malice.” Michel v. NYP Holdings, Inc., 816 F.3d 686, 703 (11th Cir. 2016) (internal
quotation marks omitted).
b
Second, whatever one might say about the “dudes’
credibility, Lawson did not rely solely on their assertions about Berisha but rather found their stories corroborated by several other sources.
Most obviously, Lawson relied on the many prior
published reports that had similarly accused Berisha
of being involved in the AEY fraud and in an Albanian criminal underworld. These include: at least
four published news articles, including two in the New
York Times, two separate books (one published in the
United States and one in Albania), leaked diplomatic

App. 19
cables published on WikiLeaks,4 and the investigative
report by Al Jazeera. The law is clear that individuals
are entitled to rely on “previously published reports”
from “reputable sources” such as many of these. Liberty
Lobby, Inc. v. Dow Jones & Co., 838 F.2d 1287, 1297
(D.C. Cir. 1988). Thus, as the district court recognized,
Lawson’s reliance on these many independent sources,
alone, should defeat any claim of actual malice. See Rosanova, 580 F.2d at 862 (“[S]ubjective awareness of
probable falsity . . . cannot be found where, as here, the
publisher’s allegations are supported by a multitude of
previous reports upon which the publisher reasonably
relied.” (emphasis added)).
Further, Lawson interviewed several additional
sources who corroborated the claims about Berisha.
For example, Erion Veliaj, the mayor of Tirana, told
Lawson that the Berisha family was like a “wolf pack”
that used individuals like Delijorgji to protect Shkelzen
and that he was not surprised to hear that Berisha was
involved in the AEY deal. Likewise, Trebicka’s daughter told Lawson that she believed her father had been
removed from the AEY deal in order to make way for
“Berisha’s son” and that she considered Berisha to be
a suspect in her father’s mysterious death. Finally,
Andy Belliu, a former worker at the Gerdec factory,
called Berisha the “shadow” behind the factory and implicated him in “maﬁa” dealings.

4

These leaked cables purport to show John Withers, the
then-U.S. Ambassador to Albania, reporting allegations that Berisha had personally been involved in the Gerdec matter.

App. 20
Berisha contends that these additional sources
had their own credibility problems, for example suggesting that the prior publications themselves all trace
back to Diveroli or that the other individuals were biased against him and his father. But even if that is so,
it was not Lawson’s (perhaps impossible) duty to ﬁnd
only pure, unimpeachable sources of information. Even
if Berisha might nitpick each source for one reason or
another, this wealth of evidence considered altogether
does not permit a reasonable juror to ﬁnd clear and
convincing proof that Lawson held serious doubts
about the depiction of Berisha in his book.
2
In addition to his attacks on the credibility of Lawson’s sources, Berisha argues that he can show Lawson
exhibited a general pattern of dishonesty in his book,
which—when considered “in the aggregate”—undermines the notion that Lawson actually believed his
portrayal of Berisha. Again, Berisha overstates the signiﬁcance of such evidence, which is largely irrelevant
to the truth of the claims made about him in the book.
a
First, Berisha asserts that evidence shows that
Lawson was determined to publish a preconceived
story about him, regardless whether it could be supported. He quotes Lawson as boasting at various times
that his forthcoming book might “bring down the
Prime Minister of Albania.” But each of these quoted

App. 21
emails was sent by Lawson after he had done substantial work on the book. In other words, such statements
do nothing to show that Lawson began with an unfounded plan to take down Berisha and his father, but
rather reﬂect only that after Lawson had reported and
begun writing the book he believed that the story he
had discovered might do so. Accordingly, this evidence
offers no reason to doubt the sincerity of Lawson’s belief in the many sources that corroborated his depiction
of Berisha.
b
Second, Berisha argues that evidence shows that
Lawson intentionally fabricated at least two details in
the book. But even if that were true, neither minor detail would reasonably cast doubt on whether Lawson
harbored serious doubts about his broader depiction of
Berisha.
i
First, Berisha claims that Lawson made up the fact
that speciﬁcally Ylli Pinari told Podrizki and Diveroli
that Berisha was present at their Tirana meeting. The
passage in question reads (with emphasis added):
Diveroli and Podrizki then turned to see a
young man around their age sitting in the corner. Dressed in a baseball cap and a sweater,
he had dark hair, a soft chin, and sharklike
eyes. He wasn’t introduced. This was Shkelzen

App. 22
Berisha, the son of the prime minister of Albania, they would later be told by Pinari.
Berisha argues that the Pinari attribution is not
sourced to anyone other than Diveroli (whom, again,
he casts as utterly unreliable). He points out that, at
least according to Podrizki, Berisha was identiﬁed to
them by Trebicka, not Pinari. And because Lawson
himself admitted that Trebicka would not have known
whether Berisha attended the Tirana meeting, Berisha
argues that a “reasonable jury could conclude that
Lawson manufactured the provenance of his information (i.e., Pinari) to hide the unreliability of his actual ‘sourcing’ ”—i.e., Diveroli.
Even if we assume that Lawson did fabricate the
Pinari detail,5 that still would not be enough to demonstrate he acted with actual malice. As the district court
recognized, under applicable Florida law,6 the key
question in a defamation case is whether the “gist or
sting” of the challenged statements was defamatory.
Levan v. Capital Cities/ABC, Inc., 190 F.3d 1230, 1240
(11th Cir. 1999). The “gist” and “sting” of Lawson’s depiction of Berisha was that he was involved in the
5

Lawson of course disputes this, and the record certainly
does not prove that Lawson did fabricate the attribution of the
identiﬁcation by Pinari. Lawson argues that the attribution to
Pinari was his own conclusion as the most likely source following
his research.
6
Florida law governs the merits of Berisha’s defamation action, though standards for public ﬁgures and “actual malice” derive from the First Amendment and thus, as discussed above, are
matters of federal law. See, e.g., Nelson Auto Ctr., Inc. v. Multimedia Holdings Corp., 951 F.3d 952, 956 (8th Cir. 2020).

App. 23
ammunition repackaging fraud and, more broadly,
with an Albanian criminal underworld. The gist does
not include which of the many individuals involved in
the scheme ﬁrst identiﬁed Berisha’s presence to the
Americans. Indeed, as written, the book still conveys
the undisputed truth that Diveroli and Podrizki said
they were told secondhand that Berisha was present
at their meeting. At worst, the book misidentiﬁes
where they claimed to have received such information.
The general irrelevance of this minor detail is apparent when considered in context. The sentence in the
book with which Berisha takes issue reads: “This was
Shkelzen Berisha, the son of the prime minister of Albania, [Diveroli and Podrizki] would later be told by
Pinari.” We agree with the district court that the overall “gist” of the book’s depiction of Berisha would not
materially change if instead that sentence simply read:
“This was Shkelzen Berisha, the son of the prime minister of Albania, Diveroli and Podrizki would later be
told.’ ”7

7

Along similar lines, Berisha makes much of the fact that
Lawson originally hoped to include the following sentence in his
description of a meeting between New York Times journalist
Nicholas Wood and Kosta Trebicka: “The head of MEICO Ylli
Pinari had told Trebicka that the Prime Minister’s son was involved in the AEY contract. . . .” At one point, Lawson shared that
passage with Wood, out of concern that the claim “might be a
slight stretch,” depending on what Trebicka discussed with Wood.
No response to that email is included in the record, but in the ﬁnal
version of the book, Lawson omits any reference to Pinari and instead simply says that “Trebicka had heard the allegation that
the prime minister’s son was involved in the AEY contract.”

App. 24
ii
Second, Berisha claims that Lawson “deliberately
falsified” an interview between Albanian Defense
Minister Fatmir Mediu and New York Times reporter
Nicholas Wood, in an effort to “reinforce his claim of
Berisha’s involvement with AEY.” The passage in question details an interview during which Wood prodded
Mediu with questions about, among other things, Albanian ofﬁcials’ involvement in the AEY scandal. At one
point, according to Wood, Mediu burst out in anger after Wood asked a question about Mediu’s previous conviction on drug charges. In the book, Lawson presents
Mediu as lashing out in response to a different question “describing how Albanian ofﬁcials were allegedly
being paid kickbacks on AEY’s contract, including
Diveroli’s recorded description of the Albanian ‘Maﬁa’
and the prime minister’s son.” Berisha argues that
Lawson changed the timing of Mediu’s outburst to imply that Mediu knew Diveroli’s accusations about Berisha were true.
Berisha’s insinuations about Lawson’s depiction
of this interview are misguided. Berisha does not dispute that Wood did interview Mediu about accusations
of Albanian governmental involvement in the AEY
Berisha suggests that Lawson’s hope to include a “stretched”
reference to Pinari shows that Lawson planned to put “dramatic
effect” before “the truth.” But, as Lawson points out, the fact that
he ran this passage by Wood before publishing—and then subsequently edited it—shows exactly the opposite. This sort of fact
checking is exactly what Berisha suggests Lawson should have
done.

App. 25
scheme. And the record includes an email in which
Wood told Lawson that, after the interview, Mediu
threatened both the cameraman ﬁlming the interview
and one of Wood’s sources for the AEY allegations
(Trebicka). Thus, even if Mediu’s outburst was directly
prompted by a question about his drug conviction, the
record of this conversation supports Lawson’s broader
narrative that Mediu was angered by the interview
and by Trebicka’s accusations of an Albanian-government conspiracy with AEY. As Lawson testiﬁed in his
deposition, “Nick Wood made it clear that [Mediu’s outburst] was a cumulative thing but that it deﬁnitely included AEY. And the accusations about AEY were
infuriating to him.” Lawson further said that Wood
reviewed that passage in the book and did not object
to it.
Even if Lawson did somewhat misrepresent Mediu’s outburst, this again is a relatively immaterial detail in the context of the book overall. The overall effect
of any change is minimal when it remains true that:
(1) Wood confronted Mediu with accusations that Albanian ofﬁcials were involved in the AEY scheme and
(2) Mediu was upset by his interview with Wood, to the
point that he threatened Wood’s cameraman and a
source for the AEY accusations. Whether or not Lawson had included the additional detail of Wood discussing Mediu’s unrelated drug conviction in the book, the
“gist” remains the same: a reporter from the New York
Times attempted to discuss the AEY matter with Mediu and in the end received only anger and threats as
a result.

App. 26
c
Finally, Berisha makes much of the fact that early
drafts of Lawson’s book included passages discussing
various issues that arguably could not be veriﬁed. In
support, he cites an email from an editor at Simon &
Schuster, who contended that Lawson’s early manuscript focused too much on the Pentagon’s supposed involvement in the AEY scheme, which she believed
“put[ ] the book on shaky ground—both from a narrative stance and in terms of credibility (to take down the
Pentagon you need armor-proof evidence).” He also
cites an email from C.J. Chivers, a writer from the New
York Times, whom Lawson had contacted to clarify certain details that Lawson wanted to print regarding the
supposed inferior quality of the ammunition AEY provided (which were related to a photo that had been included in Chivers’s reporting). In response, Chivers
wrote angrily that Lawson’s questions suggested that
his book would misrepresent Chivers’s reporting and
indicated that Lawson had “written a factually unsupportable tale and hope[d] that it might stick.”
But, in the ﬁnal book, Lawson substantially cut
back the Pentagon narrative, he independently researched and veriﬁed his claims related to the photo of
the AEY ammunition, and—even more to the point—
neither of these matters had anything do with Lawson’s depiction of Berisha’s involvement with AEY.
Even if it were true that Lawson had at one point attempted to pursue unsupported details about unrelated matters, that would not show that he clearly

App. 27
harbored serious doubts about the well-sourced assertion of Berisha’s connection to the AEY fraud.
In sum, none of Berisha’s various attacks on other
portions of Lawson’s book can reasonably be viewed to
undermine his reliance on a variety of sources to support the book’s core claims about Berisha.8
III
Next, Berisha contends that the district court
abused its discretion in denying his motion to compel
production of certain communications between Lawson
8

Because the evidence is insufﬁcient to support a conclusion
that Lawson himself acted with actual malice, Berisha’s claims
against the remaining defendants—Simon & Schuster, Recorded
Books, Packouz, and Podrizki—fail as well. Though Berisha
broadly asserts that Simon & Schuster “was aware of Lawson’s
. . . tendency to put his narrative before the facts,” he does not
identify evidence which could show “clearly and convincingly” this
to be true. Indeed, the only evidence he identiﬁes in support of
such a claim is Lawson’s early inclusion of the under-sourced Pentagon-conspiracy storyline, which after feedback from Simon &
Schuster, Lawson largely removed from the book. Berisha has no
evidence that anyone at Simon & Schuster actually harbored
doubts—let alone serious doubts—about the accuracy of Lawson’s
depictions of Berisha, which again were corroborated by various
sources.
Second, Berisha does not identify evidence to support his conclusory assertion that Packouz or Podrizki “fabricated Berisha’s
involvement with AEY” in order make money from Lawson. Regardless whether these two might have had such motives to lie,
Berisha offers no evidentiary support for the notion that they indeed did lie.
Finally, Berisha acknowledges that there is no evidence on
which to prove that Record Books acted with actual malice.

App. 28
and Simon & Schuster’s attorneys. See Bogle v.
McClure, 332 F.3d 1347, 1358 (11th Cir. 2003). The district court found that the communications were protected from disclosure by, among other things, the
attorney-client privilege. We consider whether, under
New York law,9 that is correct.
The attorney-client privilege protects from disclosure conﬁdential communications between an attorney
and his or her client made to solicit or to provide legal
advice. Ambac Assurance Corp. v. Countrywide Home
Loans, Inc., 57 N.E.3d 30, 34 (N.Y. 2016). The communications at issue here concern Lawson’s interaction
with Simon & Schuster’s lawyer, as the lawyer conducted a pre-publication legal review of the contents of
the book. Berisha does not seriously dispute that, if
Lawson were the lawyer’s client—for example if he
were a representative of Simon & Schuster—then
the communications would be properly shielded. See,
e.g., Liberty Lobby, 838 F.2d at 1302 (“Pre-publication
9

Florida choice-of-law principles determine which forum’s
privilege law applies. See Manuel v. Convergys Corp., 430 F.3d
1132, 1139 (11th Cir. 2005). In many areas, Florida follows “a ﬂexible test to determine which state has the most signiﬁcant relationships” to the matter, though in matters of contract Florida has
rejected this in favor of a more traditional “lex loci” application of
the law of the place of contracting. See State Farm Mut. Auto. Ins.
Co. v. Roach, 945 So. 2d 1160, 1163-64 (Fla. 2006). Though it is
not readily apparent what approach Florida courts would apply
to resolve a conﬂict over the claim of privilege here, we need not
decide that question, because (as the parties agree) New York law
would likely apply under either approach given that the publishing contract was entered in New York, both Simon & Schuster
and Lawson are New York residents, and the communications
took place in New York.

App. 29
discussions between libel counsel and editors or reporters would seem to come squarely within the scope
of the privilege. . . .”). He argues, however, that because
Lawson was merely a third-party contractor of the
publishing house, his communications are not swept
within the privilege. Lawson responds that, at least for
purposes of the legal pre-clearance review, he was, as a
practical matter, effectively a Simon & Schuster employee, and is therefore covered by the privilege.
A
The disagreement between the parties asks us to
consider the “employee equivalent” doctrine—an extension of the Supreme Court’s seminal decision in
Upjohn Co. v. United States, 449 U.S. 383 (1981). In
Upjohn, the Supreme Court held that, where an attorney represents a corporation, the corporation’s attorney-client privilege extends beyond individuals who
“control” the corporation to include other employees
with whom the lawyer must consult in order to advise
the company. See id. at 391-92. New York courts have
incorporated the Upjohn rule into the state’s own attorney-client privilege law. Cf. Niesig v. Team I, 558
N.E.2d 1030, 1033-34 (N.Y. 1990) (discussing Upjohn).
Led by the Eighth Circuit, some courts have since
held that the principles announced in Upjohn suggest
that even a non-employee like a contractor or consultant may be covered by the attorney-client privilege
where he or she acts as the functional equivalent of an
employee for the relevant matter. In In re Bieter Co.,

App. 30
16 F.3d 929, 937 (8th Cir. 1994), the Eighth Circuit held
that, for purposes of the Upjohn rule, “it is inappropriate to distinguish between those on the client’s payroll
and those who are instead, and for whatever reason,
employed as independent contractors.” The court emphasized that the very point of Upjohn is to ensure
that the lawyer may consult with knowledgeable employees to “know all that relates to the client’s reasons
for seeking representation [so that] the professional
mission [can] be carried out.” Id. (quoting Upjohn, 449
U.S. at 389). To this end, the court observed there “undoubtedly are situations . . . in which too narrow a definition of ‘representative of the client’ will lead
attorneys not being able to confer conﬁdentially with
nonemployees who, due to their relationship to the client, possess the very sort of information that the privilege envisions ﬂowing most freely.” Id. at 937-38. Thus,
in order to vindicate the concerns of Upjohn, the privilege must be afforded to certain “nonemployees who
possess a signiﬁcant relationship to the client and the
client’s involvement in the transaction that is the subject of the legal services.” Id. at 938 (alterations and
internal quotation marks omitted).
Several courts—including courts in New York—
have followed the Eighth Circuit’s lead. See, e.g., United
States v. Graf, 610 F.3d 1148, 1158-59 (9th Cir. 2010)
(adopting Bieter and collecting cases in lower courts
doing the same); Alliance Constr. Solutions, Inc. v. Dep’t
of Corrs., 54 P.3d 861, 869 (Colo. 2002) (adopting Bieter
into Colorado law); Frank v. Morgans Hotel Grp. Mgmt.
LLC, 116 N.Y.S.3d 889, 891-93 (N.Y. Sup. Ct. 2020)

App. 31
(applying Bieter under New York law); Sieger v. Zak,
No. 19978/05, 2008 WL 598344, at *9 (N.Y. Sup. Ct. Feb.
21, 2008) (same); Waste Admin. Servs., Inc. v. Krystal
Co., No. E2017-01094-COAR9-CV, 2018 WL 4673616,
at *4-5 (Tenn. Ct. App. Sept. 27, 2018) (applying Bieter
under Tennessee law). Indeed, Berisha does not seriously dispute that New York would embrace an “employee equivalent” extension of the Upjohn doctrine.
B
Berisha argues, however, that this doctrine is too
narrow to apply in this case. In Berisha’s telling, the
doctrine applies only where an individual “looks, acts,
and smells like a company employee,” such as where
the individual exercises authority on behalf of the company or falls within its chain of command. Because
Lawson did not have “control over Simon & Schuster’s
decision to publish the [blook,” Berisha argues that he
was not, in any meaningful sense, the “equivalent” of a
Simon & Schuster employee. Berisha’s argument essentially rests on the premise that, for purposes of New
York’s attorney-client privilege law, the scope of the
“employee-equivalent” doctrine is to be understood
similarly to the deﬁnition of an “employee” in the context of agency or employment law. Cf. In re Vega, 35
N.Y. 3d 131,145-51 (2020) (Rivera, J., concurring) (discussing difference between employees and independent contractors under New York law).
Berisha’s argument might seem reasonable on its
face, and indeed, in some cases the employee-equivalent

App. 32
doctrine has been applied to individuals who have
effectively “assumed the functions and duties of a fulltime employee.” Frank, 116 N.Y.S.3d at 892 (alterations and internal quotation marks omitted); see also
id. (citing cases). However, Berisha’s suggestion that
the employee-equivalent doctrine must be limited only
to such cases misconceives the purposes underlying
the doctrine. As expressed in Upjohn, an overly restrictive view of the individuals who qualify as representatives of an attorney’s corporate client threatens to
frustrate the attorney’s efforts to formulate sound legal advice based on information possessed by those directly involved in the matter. See generally Upjohn,
449 U.S. at 391-92. Bieter extended this logic with the
recognition that “there undoubtedly are situations . . .
[where even] nonemployees . . . , due to their relationship with the client, possess the very sort of information that the privilege envisions ﬂowing most
freely.” Bieter, 16 F.3d at 938. Bieter’s core holding is
thus that the privilege must extend to cover “nonemployees who possess a signiﬁcant relationship to the
client and the client’s involvement in the transaction
that is the subject of legal services,” and who therefore
“have the relevant information needed by corporate
counsel” to advise the client. Id. (internal quotation
marks and alterations omitted). By its very nature,
this includes individuals whom we might not—for
other purposes in the law—consider to behave as “employees” of the corporation. Cf. Alliance Constr. Solutions, 54 P.3d at 869 (“[W]e agree with the Bieter court
that a formal distinction between an employee and an
independent contractor conﬂicts with the purposes

App. 33
supporting the privilege. An independent contractor
with a meaningful relationship to the [corporation]
may possess important information needed by the
attorney to provide effective representation.”). Thus,
while factors like those referenced by Berisha are useful in evaluating the nonemployee’s “relationship to
the client,” an absence of such factors does not necessarily destroy the application of the doctrine. See generally Bieter, 16 F.3d at 938.
C
We are mindful that an overly broad employeeequivalent rule might threaten to sweep within the
privilege conversations between a lawyer and various
individuals who have not previously been considered
to fall within the ambit of the privilege—for example
mere third-party witnesses. Here, fortunately, we need
not probe the outer limits of the doctrine. Regardless
of his employment status, Lawson’s “relationship” to
Simon & Schuster and his “involvement in the transaction” that was the subject of the legal services—i.e.,
Simon & Schuster’s legal review of the contents of the
book he wrote for publication by the company—could
hardly be more signiﬁcant. As the president of the
Adult Publishing group at Simon & Schuster stated in
an afﬁdavit, because “the author is the sole proprietor
of the sourcing and background information that went
into the manuscript, the author’s cooperation is essential to the pre-publication legal review process.”
It would, in his words, “be impossible to conduct a

App. 34
meaningful pre-publication legal review without the
author.”
And, while their working relationship may not
bear many of the hallmarks of a traditional employeremployee relationship, it is hardly the case (as Berisha
is eager to suggest) that Lawson was utterly disconnected from Simon & Schuster—as if he were simply a
witness or passerby to the company’s activities. If it
were not apparent from the nature of the work itself,
the publishing contract makes clear that Lawson and
Simon & Schuster were indeed engaged in a joint effort
to produce a published book to their mutual satisfaction and for their mutual beneﬁt. Among other things,
that contract speciﬁed that the company would pay
Lawson an advance for his work toward producing a
publishable book, laid out a process by which they
would mutually attempt to work through editorial
changes requested by the company prior to publication, and detailed how the parties would split royalties
and various rights to the continuing use and publication of the work after it was completed.
D
For these reasons, some courts—including at
least one applying New York law—have found individuals in nearly identical circumstances to Lawson to
be covered by the attorney-client privilege. For example, in Davis v. Costa-Gavras, 580 F. Supp. 1082, 1098
(S.D.N.Y. 1984), the court (applying New York law)
found that the attorney-client privilege applied to

App. 35
conversations between lawyers for a movie studio and
the author of the book that had served as the basis
for a ﬁlm’s screenplay. Even though the author “was
not a Universal employee and did not participate in the
production of the ﬁlm,” the court found that “his participation in the [legal preclearance] meeting was functionally equivalent to that of an author of a magazine
or newspaper article who submits his work to in-house
counsel for prepublication libel review and should thus
come within the rule of Upjohn.” Id. The same should
be said for Lawson here.
More recently, in another case out of the Southern
District of New York, the court found that the privilege
applied to conversations between a movie studio’s attorney and the ﬁlm’s director and script writer, both of
whom were independent contractors. See Twentieth
Century Fox Film Corp. v. Marvel Enters., No. 01 Civ.
3016, 2002 WL 31556383 (S.D.N.Y. Nov. 15, 2002). The
court explained that, given their roles in making the
movie, the director and writer were “the functional
equivalent of employees” of the studio that would produce it. Id. at *2. In a passage that could easily describe
the book industry, the court elaborated:
Fox’s determination to conduct its business
through the use of independent contractors is
a result of the sporadic nature of employment
in the motion picture industry; for a wide variety of reasons, producers, directors and actors generally do not ‘turn out’ movies with
the same mechanical regularity with which
most tangible products are produced. The fact

App. 36
that the nature of the industry dictates the
use of independent contractors over employees should not, without more, create greater
limitations on the scope of the attorney-client
privilege.
Id. At least one court outside of New York has reached
a similar conclusion. See, e.g., Tyne v. Time Warner
Entm’t Co., 212 F.R.D. 596, 600-01 (M.D. Fla. 2002)
(disclosure of in-house legal advice from one movie studio to another involved in the joint production of a ﬁlm
did not waive attorney client privilege). And Berisha
has not cited a single case in which a court disagreed
that the employee-equivalent doctrine would apply in
circumstances like these.
For the reasons elaborated above, we agree that
the employee-equivalent doctrine would likely shield
from discovery the communications at issue here. The
district court did not abuse its discretion in denying
Berisha’s motion to compel.10
IV
Finally, Berisha brieﬂy asserts that “summary
judgment was premature” because the district court
10

Because we conclude that the communications were protected under the attorney-client privilege, we do not consider the
defendants’ assertions of other privileges.
Likewise, because the district court did not err in ﬁnding the
communications to be privileged (and thus protected from production), we do not consider Berisha’s argument that it was premature to grant summary judgment without allowing additional
time for these materials to be produced.

App. 37
denied his July 17, 2018, motion to extend further discovery so that he could depose four of Lawson’s foreign
sources. Berisha suggests that he would have liked this
additional evidence but does not explain why exactly it
would be critical to this case. More importantly, he presents no argument as to how the district court’s failure
to extend discovery for a third time was legally erroneous. At that point (only two weeks before discovery was
set to end) Berisha had been given substantial opportunity to initiate such discovery, the district had twice
extended the discovery deadline, and the court had explicitly allowed him “to conduct discovery beyond the
discovery deadline,” if he so chose. Yet, Berisha did not
bother to take even the ﬁrst step in securing these depositions (ﬁling the requisite letters of issue) until June
27, 2018—even though he supposedly had known he
wanted to take those depositions for months.
In short, Berisha presents no grounds upon which
we could conclude that the district court abused its discretion in denying him an additional and last-minute
extension of the discovery deadline. See, e.g., Quiet
Tech. DC-8, Inc. v. Hurel-Dubois UK Ltd., 326 F.3d
1333, 1351-52 (11th Cir. 2003) (no abuse of discretion
where district court denied a third extension of the discovery deadline).
V
The judgment of the district court is AFFIRMED.

App. 38
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 17-22144-Civ-COOKE/LOUIS
SHKELZEN BERISHA,
Plaintiff,
vs.
GUY LAWSON, et al.,
Defendants.

/

ORDER GRANTING DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT
(Filed Dec. 21, 2018)
THIS MATTER is before me on the Motion for
Summary Judgment (ECF No. 138) ﬁled by Defendants Guy Lawson, Alexander Podrizki, David Packouz,
Simon & Schuster, Inc. (“S&S”) and Recorded Books,
Inc. Defendants’ motion is fully briefed and ripe for review. For the reasons set forth herein, the motion is
granted.
I.

BACKGROUND

Plaintiff Shkelzen Berisha is the son of Sali Berisha, the former Prime Minister (and before that the
President) of Albania. Defs.’ Stmt. of Facts, ECF No.
139 (“DSOF”), at ¶ 3. In this defamation action, Plaintiff challenges statements made about him by Defendant Lawson, principally in Lawson’s book entitled
“Arms & The Dudes: How Three Stoners from Miami

App. 39
Beach Became the Most Unlikely Gunrunners in History,” published by Defendant S&S in June 2015. Id.
at ¶ 1. The book tells the “unlikely” story of Efraim
Diveroli,1 Defendant Packouz and Defendant Podrizki,
Florida residents and childhood friends who became
international arms dealers.2 Id. at ¶ 2. The challenged
statements are all to the effect that Plaintiff was involved in corrupt arms dealing, and that he was afﬁliated with the Albanian maﬁa. Id. at ¶ 3.
A. The Albanian Deal and Its Aftermath
In 2005, Defendant Packouz began working for
AEY, Inc., a company run by his childhood friend
Diveroli. DSOF at ¶ 4. AEY made its money by bidding
on and satisfying arms procurement contracts posted
online by the United States military. Id. In 2006, AEY
won a contract to provide equipment to the Afghan military, a deal worth approximately $300 million. Id. at
¶¶ 5–6. The largest component of the deal was the delivery of 100 million rounds of AK-47 ammunition to
Afghanistan. Id. at ¶ 7.
Using a middleman, AEY found a trove of the required ammunition in Albania, at what appeared to
be a bargain price. Id. at ¶ 8. AEY’s plan was for its
1

Diveroli was originally named as a Defendant in this action. Compl., ECF No. 1. By Order dated May 9, 2018, the Court
dismissed the claims against Diveroli, as well as those against
Incarcerated Entertainment, LLC, and terminated both Defendants from the case. Order, ECF No. 70.
2
Cinema fans will recognize this plot from the 2016 ﬁlm War
Dogs, which was adapted from Lawson’s book.

App. 40
middleman to use a shell company to buy the ammunition from Albania’s Military Export Import Company
(“MEICO”), a state-owned company tasked with disposing of the immense stockpiles of weapons left
over from the Cold War. Id. at ¶¶ 9, 12. The middleman
would then sell the ammunition to AEY. Id. at ¶ 9. Realizing that AEY needed someone “on the ground” in
Albania, Packouz enlisted another childhood friend,
Defendant Podrizki. Id. at ¶ 10. Packouz chose Podrizki because of the latter’s familiarity with ﬁrearms
and, evidently, with illicit trafﬁcking. Id.; Pl.’s Stmt. of
Facts, ECF No. 154 (“PSOF”), at ¶ 10.
Podrizki traveled to Albania and met Ylli Pinari,
the head of MEICO. DSOF at ¶ 11. Pinari showed the
supply of Cold War-era ammunition to Podrizki, who
determined that it was of good quality despite its age.
Id. at ¶ 2. However, Podrizki noticed that some of the
ammunition’s packaging bore Chinese markings, a potential deal-breaker given that there was an embargo
barring American companies from selling Chinesemade ammunition. Id. at ¶ 13. Podrizki told Packouz
about the markings, but AEY decided to try to conceal
the ammunition’s Chinese origin and ship it in contravention of the embargo. Id.
To that end, Podrizki engaged an Albanian businessman, Kosta Trebicka, to remove the ammunition
from its original packaging and place it into nondescript plastic bags and cardboard boxes. Id. at ¶ 14.
Once on the job, Trebicka discovered that AEY’s middleman was selling the ammunition to AEY at nearly
double the price he was paying to MEICO. Id. at ¶ 15.

App. 41
Packouz speculated that the price differential was being funneled into “kickbacks” for Albanian ofﬁcials,
perhaps including Pinari. Id. at ¶ 16.
In May 2007, Diveroli learned about the situation
and ﬂew to Albania to negotiate directly with MEICO.
Id. at ¶ 17. Diveroli and Podrizki met with Pinari in
Tirana, the Albanian capital. Id. at ¶ 18. They also
met3 with Pinari’s business associate, Mihail Delijorgji,
and another individual, about the same age as Podrizki, who remained silent and was not introduced.
Id. at ¶¶ 19–22. Diveroli was informed that AEY
could have a price reduction on the ammunition if
the contract for the repackaging was taken away from
Trebicka and given to a company controlled by Delijorgji. Id. at ¶ 20. Later, Diveroli and Trebicka told Podrizki that the silent, unidentiﬁed man at the meeting
was the son of the Albanian Prime Minister. Id. at ¶ 23.
Per the new arrangement reached at the meeting,
Delijorgji’s company was given the repackaging deal.
Id. at ¶ 24. Trebicka, having been cut out, started communicating with journalists, including at the New York
Times, in an effort to expose those involved in the AEY
deal. Id. at ¶¶ 24–25. In an effort to collect incriminating evidence, Trebicka recorded one of his telephone
calls with Diveroli. Id. at ¶ 26. During that recorded
call, Diveroli told Trebicka that he could not bring him
back into the deal because the corruption surrounding
3

Whether there was only one meeting with all the parties,
or an initial meeting with Pinari followed by a second meeting, is
not clear. See DSOF at ¶¶ 18–19; Diveroli Decl., ECF No. 152-36,
at ¶¶ 13–14.

App. 42
it “went up higher to the prime minister and his son.”
Id. at ¶ 27. “I can’t ﬁght this maﬁa,” Diveroli told
Trebicka, adding: “It got too big. The animals just got
out of control.” Id.
On August 23, 2007, AEY’s ofﬁce in Miami Beach
was raided by federal investigators. Id. at ¶ 28. Throughout the ensuing investigation, both Packouz and Podrizki cooperated with law enforcement. Id. at ¶ 29.
Diveroli, Packouz and Podrizki were all ultimately
indicted and entered guilty pleas. Id. at ¶¶ 42–43.
Packouz and Podrizki were sentenced to house arrest,
while Diveroli received a four-year prison sentence. Id.
at ¶ 44.
B. The Gerdec Explosion
On March 15, 2008, a factory where workers were
dismantling ammunition for scrap exploded in the Albanian town of Gerdec. DSOF at ¶ 30. The explosion
killed 26 people and injured hundreds of others. Id.
The Gerdec disaster, dubbed a “Political Hiroshima”
by the local press, grew into a major scandal. Id. at
¶ 114. It led to the arrests and convictions of MEICO
chief Pinari and his associate Delijorgji, who were
found to have been involved in the corrupt dealings
that resulted in stockpiles of heavy munitions being
dismantled by untrained civilians in the middle of a
residential area. Id. at ¶ 31; Ex. 8 to Lawson Decl.
News reports suggested that both Plaintiff and the Albanian Defense Minister were involved as well, but
neither individual was prosecuted. DSOF at ¶ 32.

App. 43
C. The New York Times Articles
On March 27, 2008, while AEY was still in business, the New York Times published a front-page article about the company under the headline “Supplier
Under Scrutiny on Arms for Afghans.” DSOF at ¶ 34;
Ex. 2 to Lawson Decl., ECF No. 126-2, at p. 1. Quoting
the recording that Trebicka had made of Diveroli, including the latter’s statement that “the prime minister
and his son” were involved in “maﬁa” dealings, the article stated that the “secretly recorded” conversation
“suggested corruption” in AEY’s Albanian deal. Ex. 2 to
Lawson Decl., ECF No. 126-2, at pp. 2, 12.
Plaintiff was aware of the Times article shortly after it was published, but never sued the Times or asked
it to issue a correction. DSOF at ¶¶ 38–39. To this day,
the article remains available in its original form. Id. at
¶ 40.
On October 8, 2008, the Times reported that
Trebicka had been “found dead . . . on a rural roadside
near his car.” Ex. 6 to Lawson Decl., ECF No. 126-6, at
p. 2. The article noted that Trebicka had been a witness
in the investigation into the Gerdec explosion and,
while the police had ruled his cause of death to be a car
crash, that finding was being “strongly questioned”
by the Albanian media, with some suspecting a “more
sinister” cause. Id. Paraphrasing the contents of
Trebicka’s recorded call with Diveroli, the article
stated that “Mr. Diveroli [had] said the corruption
went all the way up to the Albanian prime minister,
Sali Berisha, and his son.” Id. at p. 4.

App. 44
D. Lawson’s Rolling Stone Article
On March 16, 2011, Rolling Stone magazine published an article about AEY written by Defendant Lawson, an investigative journalist. DSOF at ¶¶ 45–46.
The article was entitled “Arms & The Dudes: How Two
Stoner Kids from Miami Beach Became Big-Time
Arms Dealers—Until the Pentagon Turned on Them.”
Id. at ¶ 46. In researching the article, Lawson relied on
court records, news articles and information and documents that he had obtained from Packouz. Id. at ¶ 47.
Lawson has stated that he found Packouz to be “smart,
credible and reliable.” Id. Rolling Stone subjected Lawson’s article to fact-checking prior to publication. Id. at
¶ 48.
Lawson’s article reported that AEY’s Albanian
deal had been structured to pay kickbacks to local ofﬁcials, and it quoted the now-familiar recorded call in
which Diveroli had stated that the corruption in Albania “went up higher, to the prime minister and his son.”
Id. at ¶ 49. The article also reported that the deal to
repackage the ammunition had been taken away from
Trebicka so that it could be given to Mihail Delijorgji,
“a friend of the prime minister’s son.” Id. at ¶ 50.
Lawson’s article received a “huge” amount of attention and was nominated for the 2012 Best Feature
Prize awarded by the American Society of Magazine
Editors. Id. at ¶ 51. As with the original New York
Times article, Plaintiff was aware of the Rolling Stone
article around the time it was published. Id. at ¶ 52.
Plaintiff claims that he sent Lawson and his Rolling

App. 45
Stone editor an email in response to the article, but
Lawson denies having received it, and no such email
has been produced in this action. Id. at ¶ 53–56; PSOF
at ¶ 74. As with the Times article, the Rolling Stone
article is still available in its original form. DSOF at
¶ 53.
E. Additional Reporting on AEY, Gerdec
and Plaintiff
In addition to the New York Times and Rolling
Stone articles discussed above, the events and allegations at issue in this case were reported on by various
media sources over the course of several years.
On February 5, 2009, the Broward Palm Beach
New Times published an article discussing Trebicka’s
“mysterious[ ]” death, noting that “Trebicka had recorded a tape . . . in which Diveroli said corruption in
[Albania] ‘went up . . . to the prime minister and his
son.’ ” DSOF at ¶ 86; Ex. 7 to Lawson Decl., ECF No.
126-7, at p. 2. This article is still available in its original form. DSOF at ¶ 87.
In May 2009, a book entitled “The Gerdec Disaster: Its Causes, Culprits, and Victims,” by Ardian Klosi,
was published in Albania. Ex. 10 to Lawson Decl., ECF
No. 12610, at pp. 6–7. Klosi wrote in the book that “the
prime minister’s son” had reportedly been present at
an arms-dealing meeting with Pinari and Delijorgji. Id.
at p. 89.

App. 46
In 2010, Al Jazeera broadcast a half-hour investigative report about the Gerdec explosion, called “Bullets and Bucks.” DSOF at ¶ 88; Ex. 8 to Lawson Decl.4
The report sought to answer the question: “Why was a
dangerous ammunition facility ever sited in the middle
of a residential area?” Ex. 8 to Lawson Decl. The answer, it said, lay in a “corrupt scheme” in the “murky
depths of Albanian politics.” Id. The report stated that
“the Prime Minister’s son”—Plaintiff—“was allegedly
involved with the company behind the Gerdec factory
right from the start.” Id. The report featured debates
from the ﬂoor of the Albanian parliament, with legislators demanding to know the identity of the mysterious “Shkelzen” referred to documents related to the
Gerdec project. Id. It also tied the disaster to the AEY
affair, stating that those who were “behind the scenes
at Gerdec” were “the same people” allegedly “involved
in the [AEY] scam.” Id. Finally, the report stated that
despite these allegations Plaintiff had not been questioned by investigators, something for which the Gerdec inquiry had been “widely criticized.” Id.
In his deposition, Plaintiff acknowledged that the
Al Jazeera report was “damaging.” DSOF at ¶ 90.
Plaintiff states that he “informed Al Jazeera of the falsity of [the report’s] allegations,” but that he did not ﬁle
suit “in deference to his father’s wishes.” PSOF at ¶ 91.
The report remains online to this day. DSOF at ¶ 91.

4

A copy of the video report was conventionally ﬁled and has
been reviewed by the Court.

App. 47
In 2011, a book entitled “The Shadow World: Inside the Global Arms Trade,” by Andrew Feinstein, was
published in the United States. Ex. 15 to Lawson Decl.,
ECF No. 12616, at pp. 3–4. In his discussion of AEY’s
Albanian deal, Feinstein wrote: “Importantly, the son
of Sali Berisha, the Prime Minister, was alleged to have
been involved in at least one meeting with Delijorgji
and Pinari, leading to speculation that he too was in
on the deal.” Id. at p. 10.
Also in 2011, classiﬁed cables written by John
Withers, the former U.S. Ambassador to Albania, were
disseminated by WikiLeaks. Id. at ¶ 92. In one cable,
Ambassador Withers reported that the former head of
the Albanian army had approached him out of fear for
his safety, stating that Plaintiff had put him under “direct pressure” to continue delivering “high caliber ammunition to Gerdec and to do so without delay.” Id. The
army chief later denied making those statements.
PSOF at ¶ 92. In a second cable, Ambassador Withers
noted that Albanian news organizations had been reporting on evidence, leaked from the Gerdec investigation, that implicated Plaintiff in corrupt arms dealing.
DSOF at ¶ 93.
On October 29, 2012, the New Republic published
an article repeating the original New York Times reporting that, “[i]n 2008, on a secretly recorded phone
call, an American arms dealer [had] complained that
his scheme to sell illegal ammo from Albanian junkyards to the U.S. Army had become entangled in an
Albanian ‘mafia’ involving Berisha and his son.” Id.
at ¶ 97; Ex. 16 to Lawson Decl., ECF No. 126-17, at

App. 48
p. 6. The article was never corrected and is still available. DSOF at ¶ 98.
Plaintiff has made other news in Albania as well.
Local media have reported that he was involved in corruption related to an energy utility company and the
country’s lottery. Id. at ¶ 115. Plaintiff receives attention through his relationship with Armina Mevlani, a
former Miss World contestant with approximately one
million social media followers. Id. at ¶ 121; Ex. 68 to
McNamara Decl., ECF No. 140, at p. 41. Plaintiff maintains an email list of Albanian journalists, to whom he
sends comments about their reporting, and those comments are often published. DSOF at ¶¶ 118–19. Plaintiff ’s Facebook posts are similarly picked up and
published by media outlets. Id. at ¶ 120. And Plaintiff
has ﬁled at least ten libel claims against Albanian
news organizations in the last seven years, which lawsuits are themselves the subject of press releases put
out by his attorneys. Id. at ¶ 116; Ex. 68 to McNamara
Decl., ECF No. 140, at p. 44. The result of all this media
contact is reﬂected in a survey produced by Plaintiff,
which shows that he has a remarkable “100%” name
recognition among the population of Albania. Ex. A to
Suppl. McNamara Decl., ECF No. 1672, at p. 7 (out of
1,000 respondents, all 1,000 answered “Yes” to the
question: “Do you know who Shkelzen Berisha is?”).
F. Lawson’s Research for the Book
On June 28, 2011, Lawson entered into a publishing agreement with S&S to expand his Rolling Stone

App. 49
article into a book. DSOF at ¶ 57. Under the agreement, Lawson assumed sole responsibility for ensuring
that the book was factually accurate. Id. at ¶ 58. Neither S&S nor Recorded Books, which purchased the
right to record an audio version of the book, performed
any fact-checking on it. Id. at ¶ 59–60.
Lawson spent four years conducting interviews
and reviewing tens of thousands of pages of documentary evidence, including the two New York Times articles, the Broward Palm Beach New Times article, the
New Republic article, the leaked diplomatic cables, the
Klosi and Feinstein books and the Al Jazeera broadcast referenced above. Id. at ¶ 62, 82–100.
Lawson also entered into “life rights” agreements
with Packouz and Podrizki. Id. at ¶ 63. Under those
agreements, Packouz and Podrizki provided Lawson
with interviews, access to documents and other services, while Lawson retained exclusive editorial control over the book’s content. Id. at ¶ 64. As with
Packouz, Lawson states that he found Podrizki to be
an “extremely reliable source[ ].” Id. at ¶ 65. Packouz
and Podrizki, for their part, maintain that they “told
Lawson the truth to the best of their ability.” Id. at
¶ 66.
To ﬂesh out the details of the Tirana meeting allegedly attended by Plaintiff, Lawson relied on the account given him by Podrizki, as well as the latter’s
identiﬁcation of Plaintiff from a photograph Lawson
provided. Id. at ¶ 101. While Podrizki had previously
been unable to identify Plaintiff during an interview

App. 50
with law enforcement, the photograph used in that earlier attempt had been of poor quality. Id.
Lawson also interviewed Erion Veliaj, a political
opponent of Plaintiff ’s father and the current mayor of
Tirana, who told Lawson that in Albania the Berishas
were known simply as “the family,” and that they were
the “chief ﬁxers in th[e] country.” Lawson Decl., ECF
No. 126, at ¶¶ 70–71. Veliaj told Lawson that he suspected “that Plaintiff was involved in the corrupt AEY
deal[.]” Id.
Lawson interviewed Andi Belliu, a former worker
at the Gerdec munitions facility, who called Plaintiff
the “shadow” behind that ill-fated project. DSOF at
¶ 104. Belliu wrote in a follow-up email that MEICO
was “an albanian style maﬁa company [sic]” that was
“backed up by Shkelzen Berisha.” Id. at ¶ 104.
Lawson also communicated with the late Kosta
Trebicka’s daughter, who told him that she considered
Plaintiff a suspect in her father’s mysterious death. Id.
at ¶ 106. She told Lawson that her father had said he
was removed from the AEY repackaging deal because
“Berisha’s son . . . wanted it for himself.” Id. at ¶ 107.
G. Plaintiff ’s Complaint
Plaintiff brought this action against Defendants
in June 2017, alleging one count of defamation and
one count of defamation per se. Compl., ECF No. 1, at

App. 51
¶¶ 143–67. In the Complaint, Plaintiff challenges ﬁve
speciﬁc statements made about him by Lawson.5
First, a scene in Lawson’s book describes the meeting in Tirana attended by Diveroli, Packouz, Podrizki,
Pinari, Delijorgji and “a young man . . . sitting in the
corner.” Compl., ECF No. 1, at ¶ 87. The book states:
“Dressed in a baseball cap and a sweater, [the young
man] had dark hair, a soft chin, and sharklike eyes. He
wasn’t introduced. This was Shkelzen Berisha, the son
of the prime minister of Albania, they would later be
told by Pinari. Shkelzen was part of what was known
in Albania as ‘the family,’ the tight-knit and extremely
dangerous group that surrounded and lived at the beneﬁcence of the prime minister. . . . The son of the
prime minister remained silent. . . . Diveroli and Podrizki departed. . . . ‘Did we just get out of a meeting
with the Albanian maﬁa?’ Podrizki joked. ‘Absolutely.
Absofuckinglutely.’ ” Id.
Later, the book states that “Diveroli had agreed to
cut Trebicka out of the repacking job, which was now
being done by a company . . . seemingly controlled by
the prime minister’s son and Mihail Delijorgji.” Id. at
¶ 103.

5

Plaintiff also challenges statements that do not refer to
him, but rather refer to the Albanian Prime Minister or to “Albanian mobsters” in the abstract. Compl., ECF No. 1, at ¶¶ 101–02,
107. This Order does not address those statements, which, in any
event, can only have the same thrust as the statements listed
here—namely, that Plaintiff has ties to the maﬁa and has engaged in arms dealing.

App. 52
The book also quotes the recorded conversation between Diveroli and Trebicka that was printed in the
original New York Times article, in which Diveroli said:
“[The corruption] went up higher to the prime minister
and his son. I can’t ﬁght this maﬁa. It got too big. The
animals just got out of control.” DSOF at ¶ 27; see also
Compl., ECF No. 1, at ¶ 105.
In the book’s photograph section, Plaintiff ’s image
appears with the caption: “Also involved, the dudes6
discovered, was the prime minister’s son, Shkelzen
Berisha.” Compl., ECF No. 1, at ¶ 104.
Finally, in a 2016 interview on Albanian television,
Lawson stated: “[T]he ex-prime-minister’s son met
with the Dudes when they were in Albania to arrange
the delivery and repackaging of these munitions at . . .
twice the price that the Albanian government was getting. . . . So what happened to all that money? Well, the
implication is clear that the prime minister’s son, . . .
and other ofﬁcials, were proﬁteers and the money was
shipped off to a Cyprus holding company and then vanished.” Id. at ¶ 108.
Plaintiff contends that these statements “demonstrate malice, egregious defamation, and grave insult.”
Id. at ¶ 169. Plaintiff seeks a court order requiring that
the statements referring to him be “remove[d]” from

6

Per the book’s title, Diveroli, Packouz and Podrizki are referred to as “the dudes” throughout the record and the Parties’
motion papers.

App. 53
Lawson’s book, as well as compensatory damages of
$60 million and additional, punitive damages. Id.
II.

LEGAL STANDARDS

A. Summary Judgment
“A party may move for summary judgment, identifying each claim or defense—or the part of each claim
or defense—on which summary judgment is sought.”
Fed. R. Civ. P. 56(a). “The court shall grant summary
judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Id. In reviewing a
motion for summary judgment, the court is “required
to view the evidence and all factual inferences therefrom in the light most favorable to the non-moving
party, and resolve all reasonable doubts about the facts
in favor of the non-movant.” Feliciano v. City of Miami
Beach, 707 F.3d 1244, 1247 (11th Cir. 2013) (quoting
Skop v. City of Atlanta, 485 F.3d 1130, 1143 (11th Cir.
2007)).
B. Defamation Claims
Under Florida law, a plaintiff alleging defamation
must prove ﬁve elements: “(1) publication; (2) falsity;
(3) the statement was made with knowledge or reckless disregard as to the falsity on a matter concerning
a public ofﬁcial, or at least negligently on a matter
concerning a private person; (4) actual damages; and
(5) the statement must be defamatory.” Turner v. Wells,
879 F.3d 1254, 1262 (11th Cir. 2018) (citing Jews For

App. 54
Jesus, Inc. v. Rapp, 997 So. 2d 1098, 1106 (Fla. 2008)).
An otherwise false and defamatory statement is considered defamatory per se, obviating the need to prove
special damages, if “it charges that a person has committed an infamous crime . . . [or] it tends to injure one
in his trade or profession.” Klayman v. Judicial Watch,
Inc., 22 F. Supp. 3d 1240, 1247 (S.D. Fla. 2014) (quoting
Richard v. Gray, 62 So. 2d 597, 598 (Fla. 1953)).
“The test for determining liability in a defamation
case turns on whether the libeled party is a public or
private ﬁgure and on whether the defamatory publication addresses a public or private concern.” Silvester v.
Am. Broad. Cos., 839 F.2d 1491, 1493 (11th Cir. 1988).
“If the injured party is a public ﬁgure or ofﬁcial and
the defamatory material involves issues of legitimate
public concern, the plaintiff must prove that the defendant acted with actual malice to establish liability.”
Id. (citations omitted). Issues of legitimate public concern include “all matters of corruption.” Id.; see also Rosanova v. Playboy Enters., 580 F.2d 859, 861 (5th Cir.
1978) (“The nature of [plaintiff ’s] reported associations
and activities concerning organized crime, are, without
dispute, subjects of legitimate public concern.”).
As to whether a plaintiff is a public ﬁgure, that “is
a question of law to be determined by the court[.]”
Turner, 879 F.3d at 1271 (quoting Mile Marker, Inc. v.
Petersen Publ’g, LLC, 811 So. 2d 841, 845 (Fla. Dist. Ct.
App. 2002)). In making that determination, the court
must be guided by two “fundamental” criteria. Silvester, 839 F.2d at 1494. “First, public ﬁgures usually
have greater access to the media which gives them ‘a

App. 55
more realistic opportunity to counteract false statements than private individuals normally enjoy.’ ” Id.
(quoting Gertz v. Robert Welch, Inc., 418 U.S. 323, 344
(1974)). Second, public ﬁgures “voluntarily expose
themselves to increased risk of injury from defamatory
falsehoods concerning them.” Silvester, 839 F.2d at
1494 (quoting Gertz, 418 U.S. at 345). Although the second factor has been labeled the “more important[ ]” of
the two, id., it is nevertheless “possible for someone to
become a public ﬁgure through no purposeful action of
their own.” Turner, 879 F.3d at 1273 (quoting Friedgood v. Peters Publ’g Co., 521 So. 2d 236, 239 (Fla. Dist.
Ct. App. 1988)); see also Rosanova, 580 F.2d at 861 (“It
is no answer to the assertion that one is a public ﬁgure
to say, truthfully, that one doesn’t choose to be.”).
The court must also determine “which type of public ﬁgure” a plaintiff is. Turner, 879 F.3d at 1272. “[T]he
Supreme Court has identiﬁed two types of public ﬁgures in this context.” Tobinick v. Novella, 848 F.3d 935,
945 n.9 (11th Cir. 2017), cert. denied, 138 S. Ct. 449
(2017). General public ﬁgures are those who “occup[y]
positions of such persuasive power and inﬂuence that
they are deemed public ﬁgures for all purposes.” Id.
(quoting Silvester, 839 F.2d at 1494). “A limited public
figure, by contrast, ‘ha[s] thrust [himself] to the forefront of particular public controversies in order to
influence the resolution of the issues involved.’ ” Tobinick, 848 F.3d at 945 n.9 (quoting Silvester, 839 F.2d
at 1494). “If the existence of a public controversy is established, . . . the court must apply a two-part test to
determine if a speciﬁc individual is a limited public

App. 56
ﬁgure for the purpose of that controversy.” Turner, 879
F.3d at 1272–73. “First, the court must determine
whether the individual played a central role in the controversy.” Id. at 1273. “Second, it must determine
whether the alleged defamation was germane to the
individual’s role in the controversy.” Id.
Both general and limited public ﬁgures must
prove by clear and convincing evidence “that the defamatory statements were made with actual malice.”
Tobinick, 848 F.3d at 945 & n.9. “This is a subjective
test,” requiring proof “that the false statement was
made ‘with knowledge that it was false or with reckless
disregard of whether it was false or not.’ ” Turner, 879
F.3d at 1273 (quoting Michel v. NYP Holdings, 816 F.3d
686, 702 (11th Cir. 2016)). This is also a stringent test:
It is not enough to show the “existence of a false statement,” the “failure to conduct a thorough and objective
investigation,” or even “ill will” on the part of a defendant. Tobinick, 848 F.3d at 946–47. Indeed, even
an “extreme departure from professional [journalistic]
standards” is “plainly” insufﬁcient to sustain a ﬁnding
of actual malice. Harte-Hanks Commc’ns, Inc. v. Connaughton, 491 U.S. 657, 665 (1989). What is required is
proof that “the defendant ‘actually entertained serious
doubts as to the veracity of the published account, or
was highly aware that the account was probably false.’
Turner, 879 F.3d at 1273 (quoting Michel, 816 F.3d at
702–03).

App. 57
III.

DISCUSSION

Defendants move for summary judgment on both
counts of the Complaint. Defs.’ Mot. for Summ. J., ECF
No. 138, at p. 1. Defendants argue that Plaintiff is, if
not a general public ﬁgure, at least a limited public ﬁgure for purposes of the AEY arms-dealing controversy
recounted in Lawson’s book. Id. at pp. 13–17. As a public ﬁgure, they say, Plaintiff must prove by clear and
convincing evidence that Defendants acted with actual
malice in publishing the challenged statements.7 Id. at
p. 17. Defendants argue that Plaintiff cannot make
that showing where the statements were based on a
wealth of evidence, including multiple prior reports
from reputable news organizations, all with the same
import: that Plaintiff was involved in corrupt arms
dealing in Albania. Id. at pp. 17–18. For the reasons set
forth below, the Court agrees with Defendants in each
respect.8

7

For purposes of their motion for summary judgment, Defendants assume arguendo that the challenged statements are
false. Defs.’ Mot. for Summ. J., ECF No. 138, at p. 13 n.6. This
Order proceeds on the same assumption.
8
Defendants have also ﬁled a motion pursuant to Section
768.295 of the Florida Statutes (“the SLAPP Statute”). Defs.’
SLAPP Mot., ECF No. 134. In that motion, Defendants ask the
Court to hold a hearing on and resolve their summary judgment
motion on “an expedited basis,” and to award them attorneys’
fees. Id. at p. 3. However, the cases Defendants cite in support of
their request do not establish that the SLAPP Statute must be
applied here. See, e.g., Tobinick, 848 F.3d at 944 (holding that
plaintiffs had “waived their challenge to the district court’s application of California’s anti-SLAPP statute”). Nor does the Statute
provide for attorneys’ fees incurred in the “defense against an

App. 58
A. A. Plaintiff ’s Public Figure Status
“The test for determining liability in a defamation
case turns on whether the libeled party is a public or
private ﬁgure and on whether the defamatory publication addresses a public or private concern.” Silvester,
839 F.2d at 1493. The challenged statements in this
case describe corruption in the Albanian government
and in the sale of arms to the United States for use in
the war in Afghanistan. As the Parties do not dispute,
these are matters of public concern. See, e.g., id. (“The
public is legitimately interested in all matters of corruption[.]”).
The critical question, then, is whether Plaintiff is
a public ﬁgure. This is a question of law, Turner, 879
F.3d at 1271, and in answering it the Court must be
guided by two “fundamental” criteria. Silvester, 839
F.2d at 1494. “First, public ﬁgures usually have greater
access to the media which gives them ‘a more realistic
opportunity to counteract false statements than private individuals normally enjoy.’ ” Id. (quoting Gertz,
action that was ﬁled in violation” of the Statute, as Defendants
contend. Defs.’ SLAPP Mot., ECF No. 134, at p. 2. Rather, the
Statute provides only for “attorney fees and costs incurred in connection with a claim that an action was ﬁled in violation of this
section”—in other words, fees and costs incurred in connection
with the SLAPP motion itself. Fla. Stat. § 768.295(4) (emphasis
added). It further appears that such fees and costs can only be
awarded after a hearing. See id. The Court ﬁnds that the stated
purpose of the SLAPP Statute—the “expeditious resolution” of
certain defamation claims, id.—would not be furthered by holding
a hearing at this juncture. Accordingly, Defendants’ SLAPP motion is, along with all other pending motions in this matter, denied as moot.

App. 59
418 U.S. at 344). Second, public ﬁgures “voluntarily expose themselves to increased risk of injury from defamatory falsehoods concerning them.” Silvester, 839 F.2d
at 1494 (quoting Gertz, 418 U.S. at 345).
Here, Plaintiff is the son of Sali Berisha, who has
been both the President and the Prime Minister of Albania. DSOF at ¶ 3. As is undisputed, Plaintiff is alleged to have been at the epicenter of not one but two
major arms-dealing scandals. Id. at ¶ 114. The ﬁrst
was the AEY Albanian deal that was the subject of
Lawson’s book. Id. The second was the Gerdec disaster,
which resulted in 26 deaths, hundreds of injuries and
the conviction of Ylli Pinari, the head of Albania’s
state-run Military Export Import Company. Id. The
Gerdec disaster has been likened to a “Political Hiroshima” in the Albanian press. Id. Plaintiff is also alleged to have been involved in corruption surrounding
the privatization of an energy utility company and Albania’s national lottery. Id. at ¶ 115. Not all of the
press has been negative: Plaintiff also receives attention through his relationship with Armina Mevlani, an
Albanian celebrity who has approximately one million
social media followers. Id. at ¶ 121; Ex. 68 to
McNamara Decl., ECF No. 140, at p. 41. Nevertheless,
for better or worse, Plaintiff has attained a level of
“fame or notoriety in [his] community” that few other
ﬁgures could likely match. Turner, 879 F.3d at 1272.
Indeed, a survey produced by Plaintiff shows that
he has an astonishing 100 percent name recognition
among Albanians. Ex. A to Suppl. McNamara Decl.,
ECF No. 167-2, at p. 7.

App. 60
Plaintiff argues that all of the above may be true,
but it is despite his best efforts. In other words, Plaintiff argues that he has not “voluntarily expose[d]” himself to the public spotlight and its attendant “risk of
injury from defamatory falsehoods.” Silvester, 839 F.2d
at 1494 (quoting Gertz, 418 U.S. at 345). Plaintiff insists that, although he is the son of Albania’s former
national leader, he “has attempted to lead a private
life.” PSOF at ¶ 139. If Plaintiff has ever had to interact with the press, he says, it was only “in response to
false allegations manufactured by opponents of [his]
father.” Id. Apart from that, Plaintiff claims that he
“has never voluntarily sought media attention,” and
he “has never had[ ] privileged access” to the press. Id.
Indeed, Plaintiff states that he has “speciﬁcally requested that [Ms. Mevlani] limit the posting of photographs that include” him on social media. Id.
Plaintiff ’s claim that he “has never had[] privileged access to the media” is difficult to square with
the fact that he is in direct email contact with numerous Albanian journalists and editors, as well as the
fact that his Facebook posts have been published in
news articles. DSOF at ¶¶ 118–20. But, even if the
Court credits Plaintiff ’s assertions, “the status of public figure vel non does not depend upon the desires of
an individual.” Rosanova, 580 F.2d at 861. Plaintiff did
not choose to be the former Albanian Prime Minister’s
son, but that is what he is, and other “children of famous parents” have been held to be public figures
on no wider grounds than that. Meeropol v. Nizer,
381 F. Supp. 29, 34 (S.D.N.Y. 1974) (ﬁnding that the

App. 61
children of Julius and Ethel Rosenberg were public ﬁgures despite having “renounced the public spotlight” as
adults), aff ’d, 560 F.2d 1061 (2d Cir. 1977).
Moreover, Plaintiff ’s claim that he has not voluntarily sought attention is “no answer to the assertion
that [he] is a public ﬁgure” where, as here, Plaintiff
“has been the subject of published newspaper and
other media reports” connecting him with “organized
crime.” Rosanova, 580 F.2d at 861. In Rosanova, as in
this case, plaintiff sued for defamation based on defendant’s printed reference to him “as a ‘mobster.’ ” 580
F.2d at 860. There, as here, plaintiff “assert[ed] that he
ha[d] never sought” to be a public ﬁgure, “and that, in
truth, he ought not have become one.” Id. at 861. The
Fifth Circuit rejected this argument and found plaintiff to be a public ﬁgure. Id. As is the case here, the
court noted that there had been “widespread media
reports” about plaintiff ’s alleged “associations and
activities concerning organized crime,” which were,
“without dispute, subjects of legitimate public concern.” Id. “Comment upon people and activities of legitimate public concern,” the court observed, “often
illuminates that which yearns for shadow.” Id.
The Florida state court case of Friedgood v. Peters
Publishing Co. is also instructive. In Friedgood, the
District Court of Appeal noted that in some defamation
cases “the issues of truth [of defendant’s statement]
and voluntariness [of plaintiff ’s entry into the controversy] are the same and are in dispute[.]” 521 So. 2d at
240. The instant case falls within that category. Here,
Plaintiff contends that he is a “private citizen” who has

App. 62
been dragged into a public controversy through Defendants’ “elaborate deceptions.” Pl.’s Mem. in Opp’n,
ECF No. 153, at pp. 1, 20. If Defendants’ statements
about him were in fact deceptions, then Plaintiff ’s participation in the controversy “would be involuntary.”
Friedgood, 521 So. 2d at 240. If, on the other hand,
the Prime Minister’s son was involved in organized
crime and arms trafficking, then it would have to be
said that he had “voluntarily engaged in a course that
was bound to invite attention and comment.” Rosanova, 580 F.2d at 861. Friedgood’s solution is simple:
Where the issues of truth and voluntariness are so entangled, a plaintiff can be deemed a public ﬁgure “without regard to whether . . . [he] initially thrust [him]self
into the case.” 521 So. 2d at 240. Instead, “the other
factors, prominence and access to media, alone may be
examined to determine public ﬁgure status.” Id.
Judged by the standards set forth above, it is clear
that Plaintiff is a public ﬁgure in Albania. His proximity to power, his access to the media and his alleged
presence at the center of multiple corruption scandals
all compel that ﬁnding.
The harder question is one the Parties have not
briefed. That question is whether it matters where
Plaintiff is a public ﬁgure. The Parties have focused on
Plaintiff ’s status in Albania, including his universal
public awareness there. But Lawson’s book was not
published solely for an Albanian audience. And while
Plaintiff has not pointed to any surveys showing his
name recognition in, say, the United States, it is safe to
assume that the ﬁgure is less than 100 percent. To be

App. 63
sure, Plaintiff would feel any defamatory “sting” less
sharply in a country where he is not a household name,
but he would also have fewer means to defend himself
there. See Gertz, 418 U.S. at 344 (1974) (“[P]ublic ﬁgures usually enjoy signiﬁcantly greater access to the
channels of effective communication and hence have a
more realistic opportunity to counteract false statements[.]”).
As noted, Plaintiff has failed to make any arguments in this connection. Even if the Court were to
reach the issue, however, the case law shows that
Plaintiff should be deemed at least a “limited” public
ﬁgure for purposes of the AEY controversy. For example, in Lluberes v. Uncommon Productions, LLC, the
First Circuit Court of Appeals expressly rejected plaintiffs’ “geographic” argument that they were not “public
ﬁgures in the United States.” 663 F.3d 6, 20 (1st Cir.
2011). Plaintiffs in that case were the owners of sugarcane plantations in the Dominican Republic, who sued
over their depiction in a ﬁlm exposé called “The Price
of Sugar.” Id. at 10. The First Circuit noted that a limited public ﬁgure is “deﬁned . . . not in terms of geography but in terms of the controversy that he has stepped
into.” Id. at 20. In that case, the controversy in which
plaintiffs were involved “was not conﬁned to the shores
of the Dominican Republic,” but “resounded in the
United States.” Id. at 21. The court therefore upheld
their designation as “public ﬁgures in the United
States for purposes of this lawsuit.” Id.
The Fifth Circuit Court of Appeals reached similar conclusions in two cases, Trotter v. Jack Anderson

App. 64
Enterprises and Time, Inc. v. McLaney. In Trotter,
plaintiff was an American lawyer “who was president
of a Guatemalan soft drink bottling company.” 818 F.2d
431, 432 (5th Cir. 1987). He sued for defamation based
on articles in the United States describing him as an
“orchestrator[ ]” of “anti-union violence” at a bottling
plant in Guatemala. Id. The Fifth Circuit, noting that
what happens in foreign countries can be of “domestic concern,” afﬁrmed the district court’s ﬁnding that
plaintiff was a limited public ﬁgure, notwithstanding
his “low public proﬁle” in the United States. Id. at 433–
36. Similarly, in McLaney, plaintiff was a “professional
gambler” who sued based on a Lift magazine article
linking him to the political machinations of “mobsters”
in the Bahamas. 406 F.2d 565, 567–70 (5th Cir. 1969).
The court held that plaintiff was a public ﬁgure, noting
that allegations of corruption “in a small foreign country” were a “proper subject of inquiry and of public interest” in the United States. Id. at 573.
In this case, Plaintiff is widely reported to have
been involved in several distinct corruption scandals
in his home country of Albania. DSOF at ¶¶ 114–15.
One of those was the AEY controversy at issue here, a
controversy that involved an American defense contractor selling Chinese ammunition, acquired in Albania, to the United States military for use in the war in
Afghanistan. Id. at ¶ 114. This was a matter of public
interest in the United States, and no doubt in much of
the rest of the world as well. While the Court presumes
that Plaintiff does not enjoy the same prominence and
access to media in this country as he does in his own—

App. 65
and, again, Plaintiff has not made this point himself—
Plaintiff nevertheless has signiﬁcant resources at his
disposal, and certainly no less than were available to
the “professional gambler” in McLaney. 406 F.2d at
570.
Finally, the Court finds that Plaintiff meets the
“two-part test” used “to determine if a specific individual is a limited public figure for the purpose of [a
public] controversy.” Turner, 879 F.3d at 1272–73.
First, Plaintiff ’s role in the AEY controversy was
“central.” Id. at 1273. Plaintiff was alleged to have
been personally present at the 2007 meeting in Tirana
along with Diveroli, Pinari and others, and to have
been positioned at the “high[ ]” end of Albania’s corruption ladder. DSOF at ¶¶ 19–22, 27. Second, “the alleged
defamation” was “germane” to Plaintiff ’s role in the
AEY controversy—indeed, that Plaintiff was centrally
involved in the controversy was the alleged defamation. Id.
Accordingly, the Court ﬁnds that Plaintiff is a limited public ﬁgure for purposes of the controversy at issue in this case. As a public ﬁgure, Plaintiff must
demonstrate actual malice to prevail in his defamation
claim.
B. Actual Malice
In his response to Defendants’ motion for summary judgment, Plaintiff has made clear what his argument for actual malice would be if this case went
to trial. Plaintiff ’s theory is that Diveroli, Defendant

App. 66
Packouz and Defendant Podrizki “conspired” in order
“to fabricate [Plaintiff ’s] involvement” in AEY’s Albanian deal. Pl.’s Mem. in Opp’n, ECF No. 153, at p. 15.
Plaintiff contends that the “dudes” did so in order to
scare off Kosta Trebicka, whom they had decided to remove from his role in repackaging the ammunition. Id.
at pp. 3, 15, 17. Years later, when Defendant Lawson
was writing his book, Packouz and Podrizki recognized
that it was “in [Lawson’s] interest—ﬁnancially and
professionally—to tell a new, bigger story,” and they
obligingly told him “what he wanted to hear.” Id. at pp.
3–4. Packouz and Podrizki gave Lawson a ‘good’ story”
about “Albanian corruption,” which Lawson used to sell
copies of his book. Id. at pp. 4–5. In return, Lawson
paid Packouz and Podrizki for their “life rights,” and
provided them with “reputational rehabilitation” by
portraying them positively in the book. Id. at p. 3.
Plaintiff ’s conspiracy theory falls far short of establishing actual malice by clear and convincing evidence. See Gertz, 418 U.S. at 342. In order to meet that
standard, Plaintiff must prove that Defendants “actually entertained serious doubts as to the veracity of the
published account, or [were] highly aware that the account was probably false.” Turner, 879 F.3d at 1273
(quoting Michel, 816 F.3d at 702–03). Here, Lawson
and his publishers were no doubt motivated by the desire to sell books—but that motive is “immaterial” in
this context. New York Times Co. v. Sullivan, 376 U.S.
254, 266 (1964). Likewise, the fact that Packouz and
Podrizki were paid as part of “life rights” agreements,
which are “standard” in the book publishing industry,

App. 67
does not establish actual malice on their part or on
Lawson’s. DSOF at 63; cf. Silvester, 839 F.2d at 1498 &
n.5 (rejecting plaintiff ’s actual malice claim where one
of the sources for the allegedly defamatory news report
was hired and paid as a “consultant”). As for the effect
of Lawson’s book on Packouz’s and Podrizki’s reputations, that can only be guessed.
Set against Plaintiff ’s insinuations is the critical
fact that, by the time Lawson’s book was published in
2015, Plaintiff ’s alleged involvement in arms dealing
was already the subject of “widespread media reports.”
Rosanova, 580 F.2d at 861. First, in 2008, the New York
Times published a front-page article about AEY. DSOF
at ¶ 34; Ex. 2 to Lawson Decl., ECF No. 126-2, at p. 1.
The Times article quoted Trebicka’s “secretly recorded”
call with Diveroli, in which the latter stated that the
“prime minister and his son” were involved in “maﬁa”
dealings. Ex. 2 to Lawson Decl., ECF No. 126-2, at pp.
2, 12. Later the same year, the Times published a second article reporting that Trebicka had been “found
dead . . . on a rural roadside.” Ex. 6 to Lawson Decl.,
ECF No. 126-6, at p. 2. The article again noted
Trebicka’s recorded call with Diveroli, stating that “Mr.
Diveroli [had] said the corruption went all the way up
to the Albanian prime minister, Sali Berisha, and his
son.” Id. at p. 4.
Later articles in the Broward Palm Beach New
Times and the New Republic repeated this information
about Plaintiff ’s alleged involvement in the AEY deal.
DSOF at ¶¶ 86, 97; Ex. 7 to Lawson Decl., ECF No. 1267, at p. 2; Ex. 16 to Lawson Decl., ECF No. 126-17, at

App. 68
p. 6. Indeed, it was not only in articles that this claim
appeared but also in two books published prior to Lawson’s—one in the United States and one in Albania. Ex.
10 to Lawson Decl., ECF No. 126-10, at pp. 6–7; Ex. 15
to Lawson Decl., ECF No. 126-16, at pp. 3–4.
Plaintiff argues that all of the publications that
followed the original Times article were merely repeating what that ﬁrst article had said, and that article, in
turn, was based solely on Diveroli’s comments in the
recorded call with Trebicka. Pl.’s Mem. in Opp’n, ECF
No. 153, at p. 19. Thus, rather than representing the
independent investigations of so many news sources,
all of these stories boiled down to a single comment
made by Diveroli, whom Plaintiff more than once describes as a “pathological liar.” Id. at pp. 10, 19, 27.
There are several problems with this argument.
First, it is well established that “[t]he failure to conduct a thorough and objective investigation, standing
alone, does not prove actual malice[.]” Tobinick, 848
F.3d at 947. The New York Times article that ﬁrst broke
the AEY story presented Diveroli’s “secretly recorded”
comments as news ﬁt to print, Ex. 2 to Lawson Decl.,
ECF No. 126-2, at p. 2, and Lawson was entitled to rely
on that “previously published report[ ]” from a “reputable source[ ].” Liberty Lobby, Inc. v. Dow Jones & Co.,
838 F.2d 1287, 1297 (D.C. Cir. 1988); see also, e.g., Fodor
v. Berglas, 1995 WL 505522, at *5 (S.D.N.Y. Aug. 24,
1995) (no actual malice where defendant “bas[ed] his
conclusions on only one source, namely an article previously published in New York Magazine”).

App. 69
In any event, Lawson did conduct his own investigation, which included interviews with sources who
corroborated Diveroli’s claim. First, and critically, Lawson relied on the account given to him by Podrizki, who
identiﬁed Plaintiff as being at the Tirana meeting.
DSOF at ¶ 101. Lawson also interviewed Erion Veliaj,
the mayor of Tirana, who told Lawson that he believed
“Plaintiff was involved in the corrupt AEY deal[.]”
Lawson Decl., ECF No. 126, at ¶¶ 70–71. Lawson interviewed Andi Belliu, a former worker at the Gerdec
factory, who called Plaintiff the “shadow” behind the
factory and implicated him in “maﬁa” dealings. DSOF
at ¶ 104. Finally, Lawson spoke with Trebicka’s daughter, who said that her father had been removed from
the AEY deal in order to make way for “Berisha’s son.”
Id. at ¶¶ 106–07. Trebicka’s daughter also told Lawson
that she considered Plaintiff a suspect in her father’s
death. Id. at ¶ 106.
Still another problem with Plaintiff ’s argument is
that the New York Times article was not the only original reporting available about Plaintiff ’s alleged “maﬁa” ties. In fact, there was an entire body of reporting
about Plaintiff ’s alleged involvement in the Gerdec
disaster, not the least of which was the half-hour Al
Jazeera segment entitled “Bullets and Bucks,” which
Plaintiff himself concedes was “damning.” Id. at ¶ 90.
Diveroli’s recorded comments were not the only evidence underlying this reporting, as Plaintiff appears to
have been explicitly referred to in documents tied to
the Gerdec project. See Ex. 8 to Lawson Decl. There
were also the cables of the former U.S. Ambassador to

App. 70
Albania, disseminated by WikiLeaks in 2011. DSOF at
¶ 92. In one of those cables, the Ambassador reported
that the former head of the Albanian army had come
to him out of fear for his own safety, stating that Plaintiff had put him under “direct pressure” to continue delivering “high caliber ammunition to Gerdec and to do
so without delay.” Id.
As Defendants note, a critical consideration in any
defamation case under Florida law is the “gist or sting”
of the challenged statements. Levan v. Capital Cities/
ABC, Inc., 190 F.3d 1230, 1240 (11th Cir. 1999). Here,
the gist of Lawson’s book about AEY and the gist of the
reporting on Gerdec were the same, insofar as they related to Plaintiff. The gist of both stories was that
Plaintiff had been involved in corrupt dealings surrounding Albania’s vast, largely defunct, but still dangerous Cold War arsenals. Thus, it was not Lawson
who broke the story about Plaintiff—as Defendants
put it, by the time Lawson’s book came out in 2015,
these allegations were already “old news.” Defs.’ Mot.
for Summ. J., ECF No. 138, at p. 2. Lawson merely incorporated the story into his book, and in doing so he
was entitled to rely on the “multitude of previous reports” implicating Plaintiff in arms-related scandals.
Rosanova, 580 F.2d at 862.
Plaintiff argues that Lawson cannot “feign[ ] reliance” on those prior reports because Lawson knew
more than the other reporters knew—in particular,
he knew that Diveroli, Packouz and Podrizki were all
“liars and criminals.” Pl.’s Mem. in Opp’n, ECF No.
153, at pp. 1–2. Plaintiff emphasizes that Defendants

App. 71
Packouz and Podrizki, Lawson’s “primary sources” for
the book, had both defrauded the government, forged
documents and used false identities, in addition to
“many other misdeeds.” Id. However, while Lawson asserts that he found Packouz and Podrizki to be reliable
sources, DSOF at ¶¶ 48, 65, he hardly presented them
to his readers as unassailable witnesses—indeed, the
book ends with both of them being convicted of fraud.
Id. at ¶¶ 42–44; Cf. Michel, 816 F.3d at 703 (“[W]here a
news report inform[s] its audience that its primary
source [is] ‘not an unimpeachable source of information,’ it serve[s] to undermine claims showing that
the report was issued with actual malice.” (quoting Silvester, 839 F.2d at 1498)).
As for Diveroli, who is no longer a party to this
case, Plaintiff characterizes him as a “pathological liar”
unworthy of belief—except, that is, when Plaintiff is
citing Diveroli as a witness. Pl.’s Mem. in Opp’n, ECF
No. 153, at p. 10 & n.1 (“Diveroli admits that he madeup [sic] the story about Plaintiff ’s involvement[.]”). To
be sure, Diveroli, whose recorded call with Trebicka
was the source of the original Times article, now denies
that Plaintiff was involved in AEY’s Albanian deal. Id.
at p. 10 n.1. So does the former head of MEICO [sic],
Ylli Pinari, who was deposed and convicted following
the Gerdec disaster. Id. And so did Trebicka himself,
before he was “found dead . . . on a rural roadside” in
eastern Albania. Ex. 6 to Lawson Decl., ECF No. 126-6,
at p. 2. But that does not mean that Diveroli, Pinari
and Trebicka are the ones who must be believed. A review of the record in this case indicates that arms

App. 72
dealing has at times been a shady business. Here, Lawson, an experienced investigative journalist reporting
on the AEY controversy, had to rely on the witnesses to
the story whom he found to be most credible. Lawson
concluded that Packouz and Podrizki were those witnesses, and the Court declines to second guess him.
The remainder of Plaintiff ’s response papers is devoted to cataloguing examples of Defendants’ “elaborate deceptions” and “slipshod, bad-faith reporting.”
Pl.’s Mem. in Opp’n, ECF No. 153, at p. 1. Several of
these examples have nothing to do with Plaintiff himself, and some never made it into Lawson’s book. See
id. at pp. 5–6, 11–12. Among the examples that have
more direct bearing on the case, the key one Plaintiff
focuses on is the scene in Lawson’s book describing the
2007 meeting in Tirana. See id. at p. 9. Plaintiff argues
that Lawson distorted the evidence to bolster his claim
that Plaintiff was the silent young man sitting in the
corner at the meeting. Id. Ultimately, however, Plaintiff ’s defamation claim does not turn on this narrow
point. Rather, Plaintiff ’s claim turns on whether “the
‘gist’ or ‘sting’ of the [challenged] statement[s] is defamatory.” Levan, 190 F.3d at 1240. Here, the “gist” of
Lawson’s reporting, and of myriad other reports by reputable news organizations for several years running,
was that Plaintiff had his hands in the corrupt management of Albania’s aging weapons stockpiles. That
Plaintiff attended a speciﬁc meeting on that subject
was not, as he claims, a “fundamentally different” allegation from those that had long been “swirling in the
. . . media.” Stern v. Cosby, 645 F. Supp. 2d 258, 271

App. 73
(S.D.N.Y. 2009); Cf. Ex. 8 to Lawson Decl. (Al Jazeera
reporting that Plaintiff attended “almost daily meetings” regarding the corrupt Gerdec project).
For all of these reasons, Plaintiff has failed to show
that Defendants “actually entertained serious doubts
as to the veracity of the[ir] published account, or [were]
highly aware that the account was probably false.”
Turner, 879 F.3d at 1273 (quoting Michel, 816 F.3d at
702–03). Defendants’ motion for summary judgment
must therefore be granted, and this case must be dismissed.
IV.

CONCLUSION

Accordingly, it is hereby ORDERED and ADJUDGED that Defendants’ Motion for Summary
Judgment (ECF No. 138) is GRANTED. The Clerk
shall CLOSE this case. All pending motions are DENIED as moot. A separate judgment will issue pursuant to Rule 58 of the Federal Rules of Civil Procedure.
DONE and ORDERED in Chambers in Miami,
Florida, this 21st day of December 2018.
/s/ Marcia G. Cooke
MARCIA G. COOKE
United States District Judge
Copies provided to:
Lauren Louis, U.S. Magistrate Judge
Counsel of Record

App. 74
19-10315
===========================================================================================
IN THE

United States Court of Appeals
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

SHKELZEN BERISHA,
Plaintiff-Appellant,
-v.GUY LAWSON, ALEXANDER PODRIZKI, DAVID PACKOUZ,
SIMON & SCHUSTER, INC., RECORDED BOOKS, INC.,
Defendants-Appellees.
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF FLORIDA

BRIEF FOR DEFENDANTS-APPELLEES
(Filed Jul. 2, 2019)
ELIZABETH A. MCNAMARA
JOHN M. BROWNING
DAVIS WRIGHT TREMAINE LLP
1251 Avenue of the Americas,
21st Floor
New York, New York 10020
(212) 489-8230

App. 75
MICHAEL C. MARSH
RYAN A. ROMAN
AKERMAN LLP
Three Brickell City Centre
98 Southeast Seventh Street,
Suite 1100
Miami, Florida 33131
(305) 374-5600
Attorneys for Defendants-Appellees
CERTIFICATE OF INTERESTED PERSONS
Pursuant to Federal Rule of Appellate Procedure
26.1 and Eleventh Circuit Rules 26.1-1 through 26.1-5,
undersigned counsel for Defendants-Appellees Simon
& Schuster, Inc., Recorded Books, Inc., Guy Lawson,
Alexander Podrizki and David Packouz hereby certify
that the following corporations have an interest in the
outcome of this appeal:
1.

Akerman LLP (Counsel for Defendants-Appellants
Guy Lawson, Alexander Podrizki, David Packouz,
Simon & Schuster, Inc. and Recorded Books, Inc.)

2.

AIG Claims, Inc. (an afﬁliate of American International Group Inc.; ticker “AIG”)

3.

AT&T (stock symbol: T) (Owner of Warner Media,
LLC; Warner Bros. Pictures is a division of Warner
Media, LLC)

4.

AXS Law Group, PLLC (Counsel for PlaintiffAppellant Shkelzen Berisha)

5.

Berisha, Shkelzen (Plaintiff-Appellant)

App. 76
6.

Browning, John M. (Counsel for DefendantsAppellants Guy Lawson, Alexander Podrizki, David
Packouz, Simon & Schuster, Inc. and Recorded
Books, Inc.)

7.

CBS Corporation (stock symbol: CBS) (Holder of
more than 10% of the stock of Simon & Schuster,
Inc.)

8.

CBS Operations, Inc.

9.

Cooke, Marcia G. (U.S. District Judge)

10. Davis Wright Tremaine LLP (Counsel for Defendants
Appellants Guy Lawson, Alexander Podrizki, David
Packouz, Simon & Schuster, Inc. and Recorded
Books, Inc.) 9.
11. Diveroli, Efraim (Former Defendant)
12. Florida Mediation Group, Inc. (Court-Appointed
Mediator)
13. French Street Management LLC
14. Frost & Fire Consulting, SH.P.K. (Counsel for
Plaintiff Shkelzen Berisha)
15. Goodman, Jonathan (U.S. Magistrate Judge)
16. Gutchess, Jeffrey W. (Counsel for Plaintiff-Appellant
Shkelzen Berisha)
17. Houston, Mary Ruth (Counsel for Attempted Intervenor Warner Bros. Pictures)
18. Incarcerated Entertainment, LLC (Former Defendant)
19. Kelliçi, Reshard (Counsel for Plaintiff-Appellant
Shkelzen Berisha)

App. 77
20. Kline, Matthew (Counsel for Attempted Intervenor Warner Bros. Pictures)
21. Lawson, Guy (Defendant-Appellee)
22. Louis, Lauren Fleischer (U.S. Magistrate Judge)
23. Marsh, Michael Constantine (Counsel for Defendants
Appellants Guy Lawson, Alexander Podrizki, David
Packouz, Simon & Schuster, Inc. and Recorded
Books, Inc.)
24. McNamara, Elizabeth A. (Counsel for DefendantsAppellants Guy Lawson, Alexander Podrizki, David
Packouz, Simon & Schuster, Inc. and Recorded
Books, Inc.)
25. National Amusements, Inc.
26. Nicholson, Allene D. (Court-Appointed Mediator)
27. O’Melveny & Myers, LLP (Counsel for Attempted
Intervenor Warner Bros. Pictures)
28. Packouz, David (Defendant-Appellee)
29. Podrizki, Alexander (Defendant-Appellee)
30. Reaves, Taaj M. (Counsel for Defendants-Appellants
Guy Lawson, Alexander Podrizki, David Packouz,
Simon & Schuster, Inc. and Recorded Books, Inc.)
31. Recorded Books Holdings, Inc.
32. Recorded Books, Inc. (Defendant-Appellee)
33. Roman, Ryan (Counsel for Defendants-Appellants
Guy Lawson, Alexander Podrizki, David Packouz,
Simon & Schuster, Inc. and Recorded Books, Inc.)

App. 78
34. Rose, Brandon P. (Counsel for Plaintiff-Appellant
Shkelzen Berisha)
35. Shutts & Bowen LLP (Counsel for Attempted Intervenor Warner Bros. Pictures)
36. Simon & Schuster, Inc. (Defendant-Appellee)
37. Spahia, Rezart (Counsel for Plaintiff-Appellant
Shkelzen Berisha)
38. Summerscales, Joanna E. (Counsel for DefendantsAppellants Guy Lawson, Alexander Podrizki, David
Packouz, Simon & Schuster, Inc. and Recorded
Books, Inc.)
39. Teurbe-Tolon, Jose Javier (Counsel for Former
Defendants Incarcerated Entertainment, LLC and
Efraim Diveroli)
40. Warner Bros. Pictures (Intervenor)
41. Zoladz, Jason M. (Counsel for Plaintiff-Appellant
Shkelzen Berisha)
CORPORATE DISCLOSURE STATEMENT
Pursuant to Fed. R. App. P. 26.1 and Eleventh Circuit Rules 26.1, counsel for Defendant-Appellee Simon
and Schuster, Inc. (“S&S”), a non-governmental party,
states that S&S’s direct and indirect parent entities
are French Street Management LLC, CBS Operations,
Inc. and CBS Corporation. CBS Corporation (“CBS
Corp.”; ticker: CBS) is a publicly held corporation. National Amusements, Inc., a privately held company,
beneﬁcially owns the majority of the Class A voting
stock of CBS Corp. CBS Corp. is not aware of any other

App. 79
ownership of the Class A voting stock of CBS Corporation in the amount of 10% or more.
Counsel for Defendant-Appellee Recorded Books,
Inc. (“Recorded Books”), a non-governmental entity,
certiﬁes that it is 100% owned by Recorded Books
Holdings, Inc. and that no publicly held corporation
owns 10% or more of Recorded Books’ stock.
STATEMENT REGARDING ORAL ARGUMENT
Defendants-Appellees Guy Lawson (“Lawson”),
Alexander Podrizki, David Packouz, Simon & Schuster,
Inc. (“S&S”) and Recorded Books, Inc. (“Recorded
Books”) do not oppose the request of Plaintiff-Appellant
Shkelzen Berisha for oral argument.
TABLE OF CONTENTS
Page
COUNTERSTATEMENT OF ISSUES ................

1

STATEMENT OF THE CASE..............................

1

STATEMENT OF FACTS ....................................

3

A.

AEY and the Albanian Deal ......................

3

B.

The Press Reports that Berisha Was Involved AEY Corruption ..............................

8

C.

The Book and Berisha’s Complaint ........... 10

D.

Evidence Substantiating the Statements
about Berisha’s Involvement in Corrupt
Arms Dealing and Mafia Activity .............. 13

App. 80
PROCEDURAL HISTORY .................................. 18
A.

Order Granting Defendants’ Motion for
Summary Judgment .................................. 18

B.

Orders Denying Berisha’s Motions for an
Extension of the Discovery Deadline ........ 19

C.

Order Denying Berisha’s Motion to Compel Privileged Documents .......................... 20

STANDARD OF REVIEW ................................... 21
SUMMARY OF ARGUMENT .............................. 21
ARGUMENT ........................................................ 22
I.

DEFENDANTS’ RELIANCE ON PRIOR
NEWS REPORTS FROM REPUTABLE
SOURCES PRECLUDES A FINDING OF
ACTUAL MALICE ..................................... 25
A. The Defamatory Gist of the Statements Is that Berisha Was Involved in
Corrupt Arms Dealing and Was Associated with a Dangerous Mafia ........... 25
B. There Can Be No Actual Malice Because Defendants Were All Aware of
Reliable Prior Reports that Berisha
Was Involved in Corrupt Arms Dealing and Mafia Activity ......................... 27
C. The Book’s Description of the Tirana
Meeting Does Not Support a Finding
of Actual Malice ................................... 35
D. Berisha’s Remaining Actual Malice
Arguments Are Not Supported by Evidence and Have No Merit .................... 38

App. 81
i. There Is No Evidence that Lawson
Acted with Actual Malice ............... 39
ii. There Is No Evidence that S&S
Acted with Actual Malice ............... 45
iii. There Is No Evidence that Packouz
or Podrizki Acted with Actual Malice .................................................... 47
II.

BERISHA IS UNQUESTIONABLY A PUBLIC FIGURE SUBJECT TO THE ACTUAL
MALICE STANDARD ............................... 49

III.

THE PRE-PUBLICATION LEGAL REVIEW COMMUNICATIONS BERISHA
SEEKS ARE PRIVILEGED ....................... 56
A. Factual Background ............................ 58
B. Procedural History .............................. 61
C. Standard of Review ............................. 62
D. The Communications Are Protected by
Attorney-Client Privilege .................... 63
E. The Communications Are Protected by
the Common Interest Privilege ........... 69

IV.

BERISHA HAS NO GROUNDS FOR REOPENING DISCOVERY ........................... 72

CONCLUSION..................................................... 74
CERTIFICATE OF COMPLIANCE ..................... 75

App. 82
TABLE OF AUTHORITIES
Page(s)
Cases
Ambac Assurance Corp. v. Countrywide
Home Loans, Inc.,
57 N.E.3d 30 (N.Y. 2016) .........................................69
Associated Fin. Corp. v. Fin. Servs. Info. Co.,
No. CV-88-6636 SVW, 1989 U.S. Dist.
LEXIS 16263 (C.D. Cal. July 27, 1989) ............ 29, 30
Barrett v. Walker Cty. Sch. Dist.,
872 F.3d 1209 (11th Cir. 2017) ................................72
Biro v. Conde Nast,
807 F.3d 541 (2d Cir. 2015) .....................................44
Bivens v. Stein,
759 F. App’x 777 (11th Cir. 2018) ............................62
Bogle v. McClure,
332 F.3d 1347 (11th Cir. 2003) .......................... 62, 63
Bose Corp. v. Consumer Union of U.S., Inc.,
466 U.S. 485 (1984) .................................................23
Cobb v. Time, Inc.,
278 F.3d 629 (6th Cir. 2002) .............................. 41, 48
Cox v. Administrator U.S. Steel & Carnegie,
17 F.3d 1386 (11th Cir. 1994) ..................................62
Crescenz v. Penguin Grp. (USA), Inc.,
561 F. App’x 173 (3d Cir. 2014) ...............................46
D.A.R.E. Am. v. Rolling Stone Magazine,
101 F. Supp. 2d 1270 (C.D. Cal. 2000),
aff ’d, 270 F.3d 793 (9th Cir. 2001) ..........................39

App. 83
Davis v. Costa-Gavras,
580 F. Supp. 1082 (S.D.N.Y. 1984) .................... 65, 70
Deripaska v. Associated Press,
282 F. Supp. 3d 133 (D.D.C. 2017) ..........................51
Dunn v. Air Line Pilots Ass’n,
193 F.3d 1185 (11th Cir. 1999) ................................33
Eastwood v. National Enquirer, Inc.,
123 F.3d 1249 (9th Cir. 1997) ..................................24
Every Penny Counts, Inc. v. American Exp. Co.,
No. 8:07-cv-1255, 2008 WL 2074407 (M.D.
Fla. May 15, 2008) ............................................. 64, 66
Fodor v. Berglas,
No. 95 Civ. 1153 (SAS), 1995 WL 505522
(S.D.N.Y. Aug. 24, 1995) .................................... 29, 45
Fojtasek v. NCL (Bahamas) Ltd.,
262 F.R.D. 650 (S.D. Fla. 2009) ...............................69
Friedgood v. Peters Publ’g Co.,
521 So. 2d 236 (Fla. Dist. Ct. App. 1988) .... 29, 52, 55
Garrison v. Louisiana,
379 U.S. 64 (1964) ...................................................23
Harte-Hanks Commc’ns, Inc. v. Connaughton,
491 U.S. 657 (1989) ........................................... 23, 37
Haynes v. McCalla Raymer, LLC,
793 F.3d 1246 (11th Cir. 2015) ................................57
In re Abilifi, (Aripiprazole) Prods. Liability Litig.,
No. 3:16-md-2734, 2017 WL 6757558 (N.D.
Fla. Dec. 29, 2017) ...................................................67
Jankovic v. Int’l Crisis Grp.,
822 F.3d 576 (D.C. Cir. 2016) ..................................45

App. 84
Klayman v. City Pages,
650 F. App’x 744 (11th Cir. 2016) ............................24
Levan v. Capital Cities/ABC, Inc.,
190 F.3d 1230 (11th Cir. 1999) ........................ passim
Levesque v. Doocy,
560 F.3d 82 (1st Cir. 2009) ......................................36
Liberty Lobby, Inc. v. Dow Jones & Co.,
838 F.2d 1287 (D.C. Cir. 1988) ........................ passim
Mawk v Kaplan Univ.,
No. 6:13-CV-1469-ORL-22, 2015 WL 4694055
(M.D. Fla. Aug. 6, 2015)...........................................48
McFarland v. Esquire Magazine,
74 F.3d 1296 (D.C. Cir. 1996) ..................................23
McFarlane v. Sheridan Square Press,
91 F.3d 1501 (D.C. Cir. 1996) ..................................48
McManus v. Doubleday & Co.,
513 F. Supp. 1383 (S.D.N.Y. 1981) ..........................45
Meisler v. Gannett Co,
12 F.3d 1026 (11th Cir. 1994) ............................ 29, 39
Michel v. NYP Holdings, Inc.,
816 F.3d 686 (11th Cir. 2016) ..................................41
Montgomery v. Risen,
197 F. Supp. 3d 219, 263 (D.D.C. 2016),
aff ’d, 875 F.3d 709 (D.C. Cir. 2017) .........................42
Murray v. Bailey,
613 F. Supp. 1276 (N.D. Cal. 1985) .........................46
N. Y Times Co. v. Sullivan,
376 U.S. 254 (1964) .................................................22

App. 85
Ofﬁce Depot, Inc. v. Nat’l Union Fire Ins. Co.,
No. 09-80554-CIV, 2010 WL 11505167
(S.D. Fla. Aug. 17, 2010) ..........................................64
Rinaldi v. Holt, Rinehart & Winston, Inc.,
42 N.Y.2d 369 (1977) ...............................................45
Rosanova v. Playboy Enters., Inc.,
580 F.2d 859 (5th Cir. 1978) ............................ passim
Salazar v. Telemundo Network Grp., LLC,
No. 03-15272 CA 23, 2006 WL 1650723
(Fla. Cir. Ct. May 30, 2006) .....................................29
Secord v. Cockburn,
747 F. Supp. 779 (D.D.C. 1990) ................... 29, 39, 41
Silvester v. American Broad. Co.,
650 F. Supp. 766 (S.D. Fla. 1986),
aff ’d, 839 F.2d 1491 (11th Cir. 1988) ......................40
Silvester v. American Broad. Cos.,
839 F.2d 1491 (11th Cir. 1988) ........................ passim
St. Amant v. Thompson,
390 U.S. 727 (1968) ..................................... 23, 24, 37
Tobinick v. Novella,
848 F.3d 935 (11th Cir. 2017),
cert. denied, 138 S. Ct. 449 (2017) ........ 21, 24, 28, 38
Turner v. Wells,
879 F.3d 1254 (11th Cir. 2018) ........................ passim
Tyne v. Time Warner Entm’t Co. LP,
212 F.R.D. 596 (M.D. Fla. 2002) ...................... passim
Upjohn Co. v. United States,
449 U.S. 383 (1981) .................................................66
Vantage View, Inc. v. QBE Ins. Corp.,
400 F. App’x 420 (11th Cir. 2010) ............................62

App. 86
Visual Scene, Inc. v. Pilkington Bros. PLC,
508 So.2d 437(Fla. DCA 3rd) ..................................69
Watkins v. Broward Sheriff ’s Ofﬁce,
___ F. App’x ___, 2019 WL 1962071
(11th Cir. May 2, 2019) ...........................................62
Wells v. Liddy,
186 F.3d 505 (4th Cir. 1999) ....................................56
[1] COUNTERSTATEMENT OF ISSUES
1. Whether the trial court correctly dismissed
Berisha’s defamation claims because the evidence conclusively demonstrates the absence of actual malice,
which Berisha must prove by clear and convincing evidence to satisfy the First Amendment.
2. Whether the trial court correctly held that
Berisha is a public ﬁgure because of his prominence,
enhanced access to the media and central role in multiple arms dealing scandals.
3. Whether the trial court abused its discretion
by denying Berisha’s motion to compel production of
communications exchanged by Lawson and the S&S
attorney engaged to conduct a pre-publication legal review for the Book because those communications are
protected by the attorney-client and the common interest privileges.
4. Whether the trial court abused its discretion
by denying Berisha’s requests for more time to complete discovery.

App. 87
STATEMENT OF THE CASE
This defamation action arises out of the brief appearance of plaintiff Shkelzen Berisha’s (“Berisha”) –
the son of the former Prime Minister of Albania – in a
non-ﬁction book, Arms and the Dudes: How Three Stoners from Miami Beach Became the Most Unlikely Gunrunners in History (the “Book”). The book [2] tells the
incredible true story of three 20-something “stoner
dudes,” who became major international arms dealers.
See D.E.126-1, passim. The handful of statements in
the Book that concern Berisha state or imply the same
thing – that he was involved in corrupt arms dealing
and maﬁa activity. Berisha ﬁled this libel suit against
the Book’s author (Lawson), publisher (S&S), two of
the titular “dudes” (Packouz and Podrizki) and the audio book publisher (Recorded Books) (collectively, “Defendants”).
The fatal ﬂaw in Berisha’s claim is that his role at
the center of multiple arms dealing scandals was “old
news” by the time the Book was published: for nearly
a decade before the Book was published, his involvement in corrupt arms deals had been reported in the
New York Times (the “Times”), Rolling Stone, New
Republic, Al Jazeera, two books and other reliable
sources. Berisha cannot – and does not – deny that Defendants relied on these reports. As the lower court
correctly recognized, Defendants were “entitled to rely
on ‘the multitude of previous reports’ implicating
[Berisha] in arms-related scandal” and there can be
no actual malice as a result. D.E.193(p.20) (quoting
Rosanova v. Playboy Enters., Inc., 580 F.2d 859, 862

App. 88
(5th Cir. 1978)). Berisha lacks any evidence of actual
malice – let alone the clear and convincing evidence required – and summary dismissal should be afﬁrmed.
[3] This Court should also reject Berisha’s entreaties to compel production of privileged documents
and reopen discovery. Since Berisha had full discovery
on actual malice – including nearly 20,000 documents
and depositions from all Defendants – there is no legitimate reason to revive his constitutionally defective
claim.
STATEMENT OF FACTS
Berisha refers the Court to his Complaint for
“background context,” but makes no serious effort to
provide a coherent statement of facts based on record
evidence. Appellant’s Opening Brief (“Br.”) 6.1 Defendants set forth the following material facts to correct
Berisha’s partial and misleading presentation of the
record:
A. AEY and the Albanian Deal
In the early-to-mid-2000’s, Efraim Diveroli was a
teenager in Miami who fulﬁlled arms procurement
contracts for the U.S. Government through his company, AEY. D.E.125(¶¶4-5). At that time, private
1

Berisha also rejected Defendants request to collaborate on
a Joint Appendix and omitted most of the evidence favorable to
Defendants in his unilateral Appellants’ Appendix. As instructed
by the Court Clerk, Defendants will ﬁle a Supplemental Appendix
containing all materials in support of their arguments.

App. 89
companies (including AEY) were permitted to bid on
large military contracts through a free website called
FedBizOpps.com. Id.(¶4). Diveroli made millions of
dollars by brokering [4] deals to supply munitions to
the government and, as he sought to grow the business,
enlisted the help of his childhood friend David Packouz. Id. Packouz’ role was to identify opportunities on
FedBizOpps.com, bid on suitable contracts and (if successful) work with arms dealers to fulﬁl the contract as
cheaply as possible. Id.
In the summer of 2006, AEY won a $300 million
contract to equip the Afghan security forces to ﬁght the
Taliban during the U.S. War on Terror (the “Afghan
Contract”). Id.(¶¶5-7). The Afghan Contract required
AEY to ship 100-million rounds of AK-47 ammunition
to Afghanistan. Id. AEY had an exclusive deal with a
Swiss middleman, Heinrich Thomet, who had earmarked stockpiles of surplus AK-47 ammunition in
Albania that AEY could purchase at an extremely low
price. Id.(¶8).
Packouz realized that he needed someone on the
ground in Albania to collect the ammunition from various Soviet-era bunkers and put it on planes to Afghanistan. Id.(¶10). To perform this task, Packouz hired
another childhood friend, Alex Podrizki. Id. Podrizki
travelled to Tirana, the Albanian capital, in late-April
2007, while Packouz remained in Miami to oversee
global logistics. Id.(¶11).
In Tirana, Podrizki met Ylli Pinari, who was head
of MEICO, the state-owned company created to take

App. 90
over and dispose of Albania’s vast weapons [5] stockpiles left over from the Cold War. Id. Thomet bought
the ammunition from MEICO through a Cyprus-shell
company and resold it to AEY. Id.(¶¶7-9). Unbeknownst to AEY, Thomet sold the ammunition to AEY
for double the price he paid MEICO. D.E.130(¶14). The
large markup provided Thomet with money to bribe local ofﬁcials like Pinari, which is common practice in
Albania and the world of arms dealing. D.E.1262(p.415);D.E.125(¶16);126-1(p.71).
Meanwhile, Podrizki inspected the Albanian AK47 ammunition to determine whether it was serviceable. D.E.125(¶12). Although the ammunition was very
old, it seemed to work properly when Podrizki testﬁred it. Id. But Podrizki noticed Chinese markings on
the crates and metal canisters in which the ammunition was packed, which created a problem because
American companies like AEY are prohibited from
dealing Chinese ammunition. Id.(¶13).
After Podrizki told Diveroli and Packouz about the
Chinese markings, the U.S. Government conﬁrmed
that AEY could not fulﬁl the Afghan Contract with
Chinese-made ammunition. Id. Diveroli and Packouz
decided to use MEICO’s ammunition anyway and devised a plan to conceal the Chinese markings on the
crates and canisters by repackaging the 100-million
rounds required to fulﬁl the order. Id.(¶¶13-14). AEY
engaged local businessman Kosta Trebicka to provide
boxes and labor to accomplish the task of unpacking
and repacking each canister of ammunition. Id.

App. 91
[6] Soon after the repackaging commenced,
Trebicka discovered that Thomet charged AEY double
the price he paid MEICO for ammunition. Id.(¶15).
Trebicka told Diveroli, who ﬂew to Albania to renegotiate the purchase price, preferably in a way that
would remove Thomet from the deal. Id.(¶17). Diveroli
and Podrizki met Pinari at his ofﬁce in the Albanian
Ministry of Defense in Tirana. Id. (¶19). At that meeting, Diveroli tried to negotiate a lower price by showing
Pinari documents forged by Packouz to make it look
like AEY could buy cheaper ammunition elsewhere.
Id.(¶¶18-19);D.E.126-1(p.138). Pinari recognized the
documents as fakes and, having reached an impasse,
suggested meeting someone else to discuss price reductions. Id.
Pinari took Diveroli and Podrizki to a half-completed building and introduced them to a thuggishlooking man named Mihail Delijorgji. D.E.131(¶10).
Delijorgji offered to lower the price of the ammunition
if his company was paid to do the repackaging job. Id.
Also present in the room was a man who looked to be
in his mid-20s, who was not introduced and remained
silent throughout. Id.(¶11). After the meeting (the “Tirana Meeting”), Podrizki and Diveroli felt like they had
just met with dangerous individuals, associated with
the Albanian maﬁa, and Diveroli asked Podrizki to
sleep in his hotel room for security. D.E.126-19(p.8).
[7] The next day, Podrizki met Diveroli and
Trebicka at the hotel where Diveroli was staying.
D.E.125(¶23). Podrizki learned from Trebicka and
Diveroli that the unidentiﬁed man at the meeting was

App. 92
Berisha, the son of Albania’s Prime Minister. Id. Diveroli eventually struck a deal to purchase MEICO’s ammunition at a discount and he left Albania. Id.(¶24).
The new deal cut Trebicka out of the repackaging job
and awarded the contract to Delijorgji instead. Id.
Angered at being squeezed out and seeking to recover money he was owed, Trebicka tried to blow the
whistle on the kickbacks he believed AEY was indirectly paying Albanian ofﬁcials. Id.(¶25). In an effort to
back up his corruption claims, Trebicka recorded a telephone call with Diveroli. Id.(¶26). In that call, Diveroli told Trebicka to bribe Pinari with $20,000, but
lamented that he could not help Trebicka with the repackaging deal because the corruption “went up
higher, to the prime minister, and his son (i.e. Berisha),” adding “this Maﬁa is too strong for me.”
Id.(¶27);D.E.126-1(p.160). Trebicka also contacted reporters from the Times (as well as Albanian news outlets), who obtained a copy of the recorded phone call.
D.E.125(¶¶25-26,35).
Meanwhile, federal agents were investigating
AEY for violating the embargo against shipping Chinese ammunition and, on August 23, 2007, they raided
AEY’s ofﬁces. Id.(¶28). By that time, Packouz had
fallen out with Diveroli and left AEY, but he found out
about the raid and alerted Podrizki (who was still in
[8] Albania). D.E.131(¶14). Podrizki called AEY’s ofﬁce
in Miami, but an AEY employee lied to him in an effort
to conceal the raid. D.E.125(¶28). Fearing that he was
being set up by Diveroli, Podrizki left Albania by boat
and, on his journey to Italy, dropped his AEY laptop

App. 93
into the Adriatic Sea (although he had previously
saved his correspondence to hand over to investigators). Id. Packouz and Podrizki cooperated fully with
investigators in the hope of avoiding an indictment.
D.E.125(¶29).
B. The Press Reports that Berisha Was Involved AEY Corruption
In March 2008, while the criminal investigation
into AEY was ongoing, the Times published a lengthy
front-page article, which reported that AEY illegally
trafﬁcked Chinese ammunition and paid kickbacks to
Albanian ofﬁcials, including Pinari and then-Minister
of Defense Fatmir Mediu (the “Times Article”).
D.E.126-2. In the context of describing “corruption in
[AEY’s] dealings in Albania,” the Times Article quoted
Diveroli’s recorded statement to Trebicka that the
graft “went up higher to the prime minister and his
son” and that Berisha was part of “this mafia.”
Id.(p.11). Berisha never obtained a correction of the
Times Article, which remains available to this day, and
never ﬁled suit to challenge its reporting. D.E.125(13940).
The Times Article also reported on a tragic explosion that destroyed the Albanian village of Gerdec days
earlier. D.E.126-2(p.8). On March 15, 2008, [9] workers
employed by Delijorgji – the same man who had taken
over the AEY repackaging job – were dismantling
stockpiles of artillery shells owned by MEICO – the
company that sold AEY Chinese ammunition – when

App. 94
the ammunition exploded, killing 26 people and injuring hundreds. D.E.125(¶30). The Gerdec explosion was
a major scandal in Albania; Pinari and Delijorgji were
jailed for their involvement, while Defense Minister
Mediu avoided prison by hiding behind parliamentary
immunity. D.E.125(¶¶31-32).
Despite compelling evidence that Berisha was involved in MEICO arms dealing – including records of
phone calls he made to Delijorgji and Mediu immediately after the blast – Berisha was never charged in
connection with AEY or Gerdec. D.E.125(¶32);D.E.1268. Berisha admits that he was acquainted with Delijorgji
and close with Mediu; he also admits making the telephone calls on the day of the explosion, but denies involvement. D.E.133-3(pp.9-10);D.E.151(¶¶20-23). Many
Albanians have asserted that Berisha’s role in the
Gerdec explosion and the corrupt AEY deal was covered up by his father, who was the Albanian Prime
Minister at that time. D.E.125(¶33).
Back in the United States, the Times Article created a backlash against AEY. Prosecutors charged
Diveroli, Packouz and Podrizki with multiple charges
of fraud. D.E.125(¶42). All three pled guilty to defrauding the U.S. Government. [10] Id.(¶43). Packouz and
Podrizki were given house arrest, while Diveroli was
sentenced to four years in prison. Id.(¶44).
C. The Book and Berisha’s Complaint
The Book was published in June 2015 after nearly
ﬁve years of painstaking work by its author, Guy

App. 95
Lawson, a highly-experienced, award-winning investigative journalist. Id. (¶¶45,71).
The Book started out as a March 2011 feature article about AEY that Lawson wrote for Rolling Stone,
entitled Arms & The Dudes: How Two Stoner Kids from
Miami Beach Became Big Time Arms Dealers (the “RS
Article”). Id.(¶¶45-48);D.E.126-4. Like the Times Article that preceded it, the RS Article reported that AEY’s
deal to purchase ammunition from MEICO was structured to pay kickbacks to Albanian officials and
quoted Diveroli’s statement that this corruption went
“all the way to the prime minister and his son.”
D.E.125(¶49);D.E.126-4(pp.11-12). The RS Article also
reported that the ammunition “repackaging job” was
transferred to “a friend of the prime minister’s son,
Mihail Delijorgji.” D.E.125(¶50);D.E.126-4(pp.11).
The RS Article was a huge success. Warner Bros.
acquired the movie rights and turned it into the major
motion picture War Dogs, starring Jonah Hill and [11]
Bradley Cooper. D.E.126(¶20).2 Berisha became aware
of the RS Article around the time it was published –
including the statements implicating him in corrupt
arms dealing and “maﬁa” activity – but he never disputed the accuracy of Lawson’s reporting or requested
a correction. D.E.125(¶52). The RS Article was never
corrected or retracted and it remains available to this
day. Id.(¶¶52-53). On June 28, 2011, Lawson entered
2

A paperback version of the Book was published in July 2016
to tie in with the release of the Book’s movie adaptation.
D.E.125(¶71).

App. 96
into a publishing agreement with S&S to expand the
RS Article into a book (the “Publishing Agreement”).
Id.(¶57). Recorded Books purchased an exclusive license to record the audio version of the Book.
Id.(¶61).
Lawson spent four years researching his Book,
during which time he reviewed tens of thousands of
pages of documentary evidence and interviewed scores
of people. Id.(¶62). Lawson also entered into life-rights
agreements with Packouz and Podrizki – which are
common in the book publishing world – under which
Lawson paid for exclusive access to documents, interviews and the beneﬁt of their ﬁrsthand experiences
working for AEY. Id.(¶¶63-64). When the Book was
published, Defendants all believed it to be true and accurate. Id.(¶¶72-73).
On June 8, 2017 – almost two years after the Book
was published and mere days before the longest possible statute of limitations expired – Berisha ﬁled this
[12] libel action against Defendants. D.E.1.3 The Complaint alleges that Berisha was defamed by the handful of statements about him in the Book, which amount
to approximately two paragraphs out of 244 pages.
D.E.1(¶¶87,99-105). Speciﬁcally, the Complaint identiﬁes four statements that refer to Berisha:

3

Berisha also sued Diveroli and his production company, but
voluntarily withdrew his claims against them on June 9, 2018.
See D.E.70.

App. 97
i.

On page 150, the Book reports that “Diveroli
had agreed to cut Trebicka out of the repacking job, which was now being done by a company called Alb-Demil, an entity seemingly
controlled by the prime minister’s son and
Mihail Delijorgji;”

ii.

In the Photograph section of the Book, a photo
of Plaintiff appears with the caption: “Also involved, the dudes discovered, was the prime
minister’s son, Shkelzen Berisha;”

iii. On page 160, the Book quotes the recorded
conversation between Diveroli and Trebicka
that was featured in the Times Article, in
which Diveroli said, “The more it went up
higher, to the prime minister, to his son—this
Maﬁa is too strong for me . . . I can’t ﬁght this
Maﬁa. It got too big. The animals got too out
of control;” and
iv. On pages 139-40, the Book describes the 2007
Tirana Meeting between Podrizki, Packouz,
Pinari, Delijorgji, and “a young man around
their age sitting in the corner . . . He wasn’t
introduced. This was Shkelzen Berisha, the
son of the prime minister of Albania, they
would later be told by Pinari. Shkelzen was
part of what was known in Albania as ‘the
family,’ the tight-knit and extremely dangerous group that surrounded and lived at the
beneﬁcence of the prime minister, Sali Berisha. . . . Delijorgji said that if Diveroli wanted
a discount he would have to change the arrangements for the repacking [13] operation

App. 98
at the airport . . . The son of the prime minister remained silent.”
Id. (the “Statements”).4
D. Evidence Substantiating the Statements
about Berisha’s Involvement in Corrupt
Arms Dealing and Maﬁa Activity
At the time the Book was published, Defendants
were all familiar with the reporting in the Times and
RS Articles that AEY’s corruption “went all the way up
to” Berisha and that he was part of a dangerous “maﬁa.” D.E.125(¶¶81-82).5
Lawson’s research provided additional corroboration for the Statements through additional news
reporting, books, leaked diplomatic cables and interviews with sources. Id.(¶¶80-113). For instance, Lawson read a second Times article, published several
months after the Times Article broke the AEY story
in 2008, which reported that Trebicka had died in a
suspicious car accident. Id.(¶83);D.E.126-6. An ofﬁcial
4

The Complaint also challenged two references in the Book
to “Albanian mobsters” and “an Albanian Maﬁoso,” but those
statements refer to Delijorgji, not Berisha. Id.(¶¶101-02). Apart
from the Book, the Complaint identiﬁed two statements Lawson
made to the media, although one refers to the “prime minister of
Albania” (not Berisha) and the other merely recaps the gist of
what was said in the Book (i.e., that Berisha was involved in the
corrupt AEY arms deal). Id.(¶¶107-08).
5
Recorded Books was not aware of the Times Article, but its
Chief Content Ofﬁcer had read the RS Article before licensing the
rights to produce the audio version of the Book. Id.

App. 99
investigation concluded that Trebicka died in an accident. D.E.126-6(p.1). But the article laid out evidence
to support local [14] suspicions that the Berisha family
staged the crash to prevent Trebicka from testifying
about Berisha’s involvement in corrupt arms dealing,
including local reports “that a former bodyguard of
[Berisha’s father] played a major role in the investigation.” Id.(p.3). For a second time, the Times quoted
Diveroli’s statement “that the corruption went all the
way up to the Albanian prime minister . . . and his
son.” Id. Again, Berisha did not challenge or take action against the Times. D.E.125(¶85).
Lawson also watched – and took detailed notes on
– an October 6, 2010 Al Jazeera documentary by the
prominent investigative journalist Ilva Tare, which focused on Berisha’s role in corrupt arms dealing (the “Tare
Documentary”). D.E.125(¶¶88,90);D.E.126-8;D.E.1269. Berisha admitted that the Tare Documentary was
“damning” and “damaging.” D.E.125(¶90);D.E.12668(Tr.90:16-91:21). In a detailed and well-documented
presentation, the Tare Documentary reports that Berisha was at the center of both the Gerdec and AEY
scandals. D.E.125(¶89);D.E.126-8. The incriminating
evidence tying Berisha to arms dealing included a
draft bill to enable weapons decommissioning at Gerdec that was faxed to Berisha’s attention at the Ministry of Defense, calendar entries showing that Berisha
had visited Defense Minister Mediu on a near daily basis while the legislation was being drafted, records of
Berisha’s 56 phone calls with Delijorgji in the months
leading up to the blast (including a call 35 minutes

App. 100
after [15] the event), interviews with survivors who
“criticized [prosecutors] for not questioning the Prime
Minister’s son, Shkelzen Berisha,” and most compelling, footage from heated debates in the Albanian Parliament denouncing Berisha’s involvement. Id.
But the Times articles and the Tare Documentary
were not the only evidence relied on by Lawson. He
also reviewed a February 5, 2009 proﬁle of Diveroli in
the Broward Beach Palm Times, which reported that
“Trebicka had recorded a tape . . . in which Diveroli
said corruption in that country ‘went up . . . to the
prime minister and his son’ ” and that the cause of
the Gerdec disaster “may be hard to prove” because
of Trebicka’s death. D.E.125(¶86);D.E.126-7(pp.1-2).
Lawson also relied on an October 29, 2012 New Republic proﬁle of Mitt Romney’s then-campaign advisor,
who had worked for Berisha’s father. D.E.125(¶¶9697);D.E.126-17(p.6). As an example of the father’s corruption, the article relied on the “secretly recorded
phone call” in which “an American arms dealer complained that his scheme to sell illegal ammo . . . had
become entangled in an Albanian ‘maﬁa’ involving Berisha and his son.” Id.
And Lawson also reviewed two books that reported that Berisha was involved in corrupt arms
dealing and had attended the Tirana Meeting. First,
Lawson read a 2009 book about Gerdec by Albanian
author Ardian Klosi, which reported that “all those
involved in the affair of the bullets for Afghanistan were in [16] a fever” because “[a]mong other
people, the prime minister’s son was mentioned as

App. 101
present at a meeting with Pinari and Delijorgji.”
D.E.125(¶100);D.E.126-11(pp.85-86). The American
journalist Andrew Feinstein also wrote that “the son of
Sali Berisha, the Prime Minister, was alleged to have
been involved in at least one meeting with Delijorgji
and Pinari leading to speculation that he too was in on
the deal.” D.E.125(¶100);D.E.126-16(p.347).
Perhaps most revealing were leaked diplomatic
cables from the former U.S. Ambassador to Albania,
John Withers, which Lawson relied on. D.E.125¶¶9294. One of these remarkable dispatches reports that
during the fall-out of the Gerdec investigation, the former head of the Albanian Army had come to the U.S.
Embassy in fear for his life after Berisha had personally pressured him to deliver heavy munitions to the
disaster-site. D.E.126-13(pp.1-2). Another cable discussed a media and “political circus” surrounding revelations of Berisha’s involvement in the Gerdec
scandal, including a “seized note[ ] from [Ministry of
Defense] secretaries reveal[ing] that . . . Shkelzen allegedly urged Mediu to increase the tempo of the provision of munitions to Gerdec.” D.E.126-15(pp.1-4).
Just as he failed to sue over the Times or RS Articles, Berisha never sued any of the entities or individuals that accused him of engaging in corrupt arms
dealing, maﬁa activity and high-level cover-ups, even
though these claims were repeated over the course of a
decade by several of the world’s most prominent [17]
news organizations. D.E.125(¶¶91,95). None of this reporting was ever corrected or retracted and it remains
available to this date. D.E.125(¶¶39,52,91,95,98).

App. 102
In addition to the prior reporting listed above,
Lawson also relied on interviews he carried out with
knowledgeable sources. Podrizki provided Lawson
with his eyewitness account of the Tirana Meeting
through interviews, emails and written statements.
D.E.125(¶101);D.E.126(160-66). In the course of their
correspondence, Lawson asked Podrizki to review a
photograph of Berisha and conﬁrm he was the unidentiﬁed young man in the meeting, which he did. Id.
Podrizki also reviewed drafts of the Book to ensure accuracy. D.E.126(¶¶67-69).
Lawson interviewed Erion Veliaj, the future
mayor of Tirana, who stated that Berisha’s family was
referred to as “the family” and – judging from “the
family’s” prominent role in Albanian corruption –
that he was unsurprised to learn that Berisha had
been accused of attending the Tirana Meeting.
D.E.125(¶103);D.E.126(170-72).
A former worker at the Gerdec decommissioning
site, Andi Belliu, told Lawson that he considered Berisha the “shadow” responsible for the Gerdec disaster
and wrote Lawson an email stating that MEICO was
“an albanian [sic] style mafia company” that was
“backed up by Shkelzen Berisha.” D.E.125(¶104);
D.E.126-31(p.2);D.E.126-32(p.2).
[18] Lawson also communicated with Kosta
Trebicka’s daughter, Genta, who remembered her father telling her that he was removed from the AEY
packaging deal because “Berisha’s son . . . wanted it for
himself.” D.E.125(¶107);D.E.126-35(p.3). Genta also

App. 103
told Lawson that she believes Berisha may have
caused her father’s untimely death. D.E.125(¶106);
D.E.126(¶75);D.E.125-34(p.2).
Finally, Lawson obtained additional details through
interviews and email correspondence with Times journalist Nick Wood, who provided reporting for the Times
Article from Albania, including information about conversations he had with Trebicka before his death.
D.E.125(¶105).
In sum, Lawson relied on multiple news articles, a
half hour documentary and two books – none of which
Berisha ever challenged – as well as leaked diplomatic
cables and multiple interviews, including one with an
eyewitness who placed Berisha at the Tirana meeting.
Given the wealth of evidence conﬁrming Berisha’s involvement in corrupt arms dealing and Lawson’s ﬁrm
belief that Berisha was intent on covering-up his involvement, Lawson did not seek comment from Berisha prior to the Book’s publication. D.E.125(¶¶11113).
PROCEDURAL HISTORY
A. Order Granting Defendants’ Motion for
Summary Judgment
On December 21, 2018, Judge Cooke granted Defendants’ motion for summary judgment and dismissed Berisha’s defamation claims in their entirety.
[19] D.E.193 (the “SJ Order”). The lower court held
that Berisha “is a limited public ﬁgure for the purposes

App. 104
of the controversy at issue in this case” and “must
demonstrate actual malice to prevail in his defamation
claim.” Id.(p.17). See also Section II, infra. Next, the
Court reviewed the uncontroverted evidence substantiating the Statements and held that Berisha could not
establish actual malice because he “failed to show that
Defendants ‘actually entertained serious doubts as to
the veracity of the[ir] published account, or [were]
highly aware that the account was probably false.’ ” SJ
Order, 22 (quoting Turner, 879 F.3d at 1273). Because
Berisha could not prove actual malice by clear and convincing evidence, the lower court dismissed his libel
claims against all Defendants. Id., 22.
B. Orders Denying Berisha’s Motions for
an Extension of the Discovery Deadline
On April 2, 2018, the parties ﬁled a joint motion
seeking a four-and-a-half month extension of the time
for discovery and, in response, the Court extended the
deadline by two months. See D.E.53;D.E.74;D.E.85;
D.E.87. In the ﬁnal weeks before Defendants’ summary judgment motion was due, Plaintiff ﬁled three
unilateral motions requesting additional time to take
discovery. D.E.102;D.E.112; D.E.123. The lower court
declined to modify the case schedule, but permitted
Berisha “to conduct discovery beyond the discovery
deadline.” D.E.104;D.E.117;D.E.135. (“Discovery Deadline Orders”).
[20] By close of discovery, Defendants produced
nearly 20,000 documents – including all the research

App. 105
relied upon by Lawson for the Book and virtually all
communications relevant to editorial process for the
Book – and Berisha had deposed each Defendant together with every non-foreign witness he elected to depose.
C. Order Denying Berisha’s Motion to Compel Privileged Documents
On July 13, 2018, Berisha moved to compel production of privileged communications that were exchanged during the pre-publication legal review for the
Book. D.E.100. Apart from this limited category of documents, Berisha has not raised any issues with the sufﬁciency of Defendants’ production. On August 3, 2018,
Magistrate Judge Louis issued an order denying Berisha’s motion to compel on the grounds that the communications at issue were protected by the attorneyclient and common defense privileges. D.E.121 (the
“Privilege Order”). Berisha ﬁled objections to the Privilege Order on August 7, 2018, which Defendants opposed. D.E.145;D.E.168. Judge Cooke dismissed this
action without addressing Berisha’s objections to the
Privilege Order. SJ Order, 22.
On January 17, 2019, Berisha ﬁled a notice of appeal seeking to challenge the SJ Order, the Discovery
Deadline Orders and Privilege Order. D.E.¶197.

App. 106
[21] STANDARD OF REVIEW
The SJ Order is subject to de novo review. See Tobinick v. Novella, 848 F.3d 935, 943 (11th Cir. 2017),
cert. denied, 138 S. Ct. 449 (2017). For the reasons set
forth more fully below, abuse of discretion is the correct
standard of review for the Privilege Order and Discovery Deadline Orders. See Sections III, IV, infra.
SUMMARY OF ARGUMENT
The SJ Order should be afﬁrmed because Defendants’ “good faith reliance on previously published reports in reputable sources” – all of which reported on
Berisha’s involvement in corrupt arms deals and maﬁa
activity – “precludes a ﬁnding of actual malice as a
matter of law.” Liberty Lobby, Inc. v. Dow Jones & Co.,
838 F.2d 1287, 1297 (D.C. Cir. 1988). Largely ignoring
this undisputed and dispositive evidence, Berisha
makes a number of scattershot arguments that all fail
because he lacks any evidence of actual malice – let
alone the clear and convincing evidence required.
The SJ Order’s holding that Berisha is a public ﬁgure should be afﬁrmed because the evidence establishes that he is a household name in Albania (with
100% name recognition), had ready access to the media, enjoys prominence as the son of the former Albanian Prime Minister and “played a central role in [two
arms-dealing] controvers[ies].” Turner v. Wells, 879
F.3d 1254, 1273 (11th Cir. 2018).

App. 107
[22] The Privilege Order should also be afﬁrmed.
Berisha had full and fair discovery of Defendants’ editorial process and overreaches by demanding communications exchanged between Lawson and counsel for
S&S in the course of the pre-publication legal review
for the Book. As Magistrate Judge Louis correctly held
in her well-reasoned decision, these communications
are protected by attorney-client privilege because they
were essential to the “rendition of legal services” S&S
engaged its lawyer to provide. Tyne v. Time Warner
Entm’t Co. LP, 212 F.R.D. 596, 599-600 (M.D. Fla.
2002). The common interest privilege provides another
legitimate ground for withholding these communications, as the lower court correctly recognized.
Finally, the Discovery Deadline Orders should also
be afﬁrmed because it was well within the lower court’s
discretion to deny Berisha more time to take foreign
depositions, especially since Berisha’s inability to obtain this evidence was his own fault.
ARGUMENT
Because the First Amendment guarantees our
“profound national commitment to the principle that
debate on public issues should be uninhibited, robust
and wide-open,” N.Y. Times Co. v. Sullivan, 376 U.S.
254, 270 (1964), public ﬁgures like Berisha “must prove
that the defendant acted with actual malice [23] to establish liability.” Silvester v. American Broad. Cos., 839
F.2d 1491, 1493 (11th Cir. 1988).

App. 108
The constitutional standard imposed on Berisha
is “daunting.” McFarland v. Esquire Magazine, 74 F.3d
1296, 1308 (D.C. Cir. 1996)). A public ﬁgure libel plaintiff “must show that [a defendant] acted with knowledge that [the defamatory statement] was false,”
Silvester, 839 F.2d at 1498 (internal quotation marks
omitted), or that a defendant published a defamatory
statement despite a “high degree of awareness” of its
“probable falsity.” Garrison v. Louisiana, 379 U.S. 64,
74-75 (1964). Actual malice requires a strictly subjective test, which asks whether the publisher actually believed that the statement in suit was false or very
likely to be false at the time of publication, but published it anyway. Silvester, 839 F.2d at 1498 (citing
St. Amant v. Thompson, 390 U.S. 727, 731 (1968)); see
also Bose Corp. v. Consumer Union of U.S., Inc., 466
U.S. 485, 512 (1984).
While courts sometimes use the phrase “reckless
disregard” as a shorthand for the high degree of awareness of probable falsity required to establish actual
malice, “recklessness” in this context “is not measured
by whether a reasonably prudent man would have published, or would have investigated before publishing.”
St. Amant, 390 U.S. at 731. In other words, reckless
conduct – or even an “extreme departure from professional standards” – does not rise to the level of actual
malice. Harte-Hanks Commc’ns, Inc. v. Connaughton,
491 U.S. 657, 665 [24] (1989). Instead, “[t]here must be
sufﬁcient evidence to permit the conclusion that defendant in fact entertained serious doubts as to the

App. 109
truth of his publication.” St. Amant, 390 U.S. at 731
(emphasis added).
The actual malice requirement is also daunting
because the First Amendment requires “clear and convincing evidence” that the publisher actually knew the
statement at issue was false or likely to be false. Levan
v. Capital Cities/ABC, Inc., 190 F.3d 1230, 1239 (11th
Cir. 1999) (citing Gertz v. Robert Welch, 418 U.S. 323,
342 (1974)); see also Klayman v. City Pages, 650 F.
App’x 744, 752 (11th Cir. 2016). This standard of proof
imposes “a heavy burden [on plaintiffs] far in excess of
the preponderance sufﬁcient for most civil litigation.”
Eastwood v. National Enquirer, Inc., 123 F.3d 1249,
1252 (9th Cir. 1997) (citation omitted).
Last, actual malice is a constitutional requirement
that stands separate and apart from the requirement
that a plaintiff must establish the falsity of the challenged statements. Simply put, “[t]he mere existence of
a false statement does not, on its own, demonstrate . . .
knowledge of its falsity.” Tobinick, 848 F.3d at 946. In
other words, even a demonstrably false statement about
a public figure is not actionable so long as the publisher
believed it to be true at the time of publication.
[25] I. DEFENDANTS’ RELIANCE ON PRIOR
NEWS REPORTS FROM REPUTABLE
SOURCES PRECLUDES A FINDING OF
ACTUAL MALICE
The actual malice analysis begins and ends with
the undisputed evidence that Defendants relied upon

App. 110
reports of Berisha’s involvement in corrupt arms dealing at the time when the Statements – repeating virtually identical charges – were published. In short,
Berisha is precluded from establishing actual malice
by a decades-old precept of defamation law: “[t]he subjective awareness of probable falsity required [to prove
actual malice] cannot be found where, as here, the publisher’s allegations are supported by a multitude of
prior reports upon which the publisher reasonably relied.” Rosanova, 580 F.2d at 862 (internal citation omitted).
A. The Defamatory Gist of the Statements
Is that Berisha Was Involved in Corrupt Arms Dealing and Was Associated
with a Dangerous Mafia
As this Court has recognized, the “ﬁrst job” in the
actual malice analysis “is to determine the gist or
sting” of the Statements at issue. Levan, 190 F.3d at
1240. In other words, courts “determine what the report, taken as a whole, is actually alleging about [Berisha], and then determine if [Defendants published]
that meaning with actual malice.” Id. at 1240 n.28.
“The gist of any statement within a publication or
broadcast is found only by reference to the entire context” and, “[i]f [26] the gist is substantially true, then
minor inaccuracies are insufﬁcient to prove actual
malice.” Id. at 1240.
Berisha attempts to avoid this common-sense approach by arguing that the ‘gist’ or ‘sting’ analysis” is

App. 111
part of the substantial truth defense and has “nothing
whatsoever to do with” actual malice (Br. 36), but this
claim is ﬂatly rejected by the Levan decision that he
cites. As that Court explained, “[i]n using the term ‘gist’
we do not mean to confuse the issues at hand.” Levan,
190 F.3d at 1240 n.28. While “‘[g]ist’ is a term typically
associated with the common law defense of substantial
truth,” it is used in this context as a “shorthand for
[the] concept” that courts should “ask what is the ‘effect
on the mind of the reader’ of a given statement before
deciding whether the statement was published with
reckless disregard for the truth. Id.
Berisha also argues that the “district court’s ‘gist’
or ‘sting’ analysis makes no sense given its professed
assumption ‘that the challenged statements are false’”
(Br. 36), but the Levan decision expressly rejects this
contention as well: it is the court’s “job” to determine
the gist of a publication because “ascertaining the gist
does not depend on resolving credibility issues, which
are better left to the factﬁnder.” Levan, 190 F.3d at
1240 n.29.
As the district court correctly recognized, the gist
of the Book’s reporting is that Berisha “had been involved in corrupt dealings surrounding Albania’s vast,
[27] largely defunct, but still dangerous Cold War arsenals.” SJ Order, 22. Berisha does not dispute this conclusion. Nor could he, since the Complaint interpret
the Statements to mean that Berisha “receiv[ed] illegal
kickbacks in connection with illicit arms dealing[ ]”
and was “part of an extremely dangerous group” or
“maﬁa.” D.E.1(¶99). Moreover, Berisha conceded that

App. 112
the Book’s description of the Tirana Meeting is defamatory because “it implicates [Berisha] in the AEY deal,
possible corruption and it associates [Berisha] with a
dangerous maﬁa.” D.E.131-1(Tr.16:16-18:16). Berisha
further testiﬁed that the Times Article’s quotation of
Diveroli (used in the Book) defamed him because it
“implicated [him] in the AEY deal which may have involved illegal inﬂuence” and stated that he was “connected to a maﬁa.” Id.(Tr.19:15-23:3).
Because Berisha has conceded that the gist of the
Statements is that he was involved in corrupt arms
dealing and maﬁa activity, the burden is on him to
come forward with clear and convincing evidence that
Defendants knew that Berisha was falsely accused or
“entertained serious doubts [about the] thrust” of the
Book’s reporting on Berisha’s corruption and maﬁa
ties. Levan, 190 F.3d at 1241.
B. There Can Be No Actual Malice Because Defendants Were All Aware of Reliable Prior Reports that Berisha Was
Involved in Corrupt Arms Dealing and
Mafia Activity
The lower court correctly held that the Statements
were not published with actual malice because “by the
time Lawson’s book came out in 2015, these [28] allegations were already ‘old news’ and Defendants “were
entitled to rely on the ‘multitude of previous reports’
implicating [Berisha] in arms-related scandals.” SJ Order, 20 (quoting Rosanova, 580 F.2d at 862).

App. 113
Time and again, this Court has afﬁrmed the basic
principle underlying the SJ Order, which is that “good
faith reliance on previously published reports in reputable sources . . . precludes a ﬁnding of actual malice
as a matter of law.” Liberty Lobby, 838 F.2d at 1297.
Just last year, this Court held that a publisher’s reliance on “trustworthy sources[ ] demonstrates his lack
of subjective belief that the [allegedly defamatory] articles [in suit] contained false statements.” Tobinick,
848 F.3d at 947 (holding that the author of an article
about “quack clinics” and “health fraud” did not publish with actual malice because he had “consulted [a]
Los Angeles Times article” about disciplinary action
taken against the plaintiff-doctor for “unprofessional
conduct”). Similarly, this Court found no actual malice
when journalists relied on “other news media who were
investigating” the same subject as the allegedly defamatory broadcast in suit and “came up with much of the
same allegations and support.” Silvester, 839 F.2d at
1498. This Court (in its former incarnation as the Fifth
Circuit) also held that a publisher could not be held
liable for referring to a libel plaintiff as a “mobster” because the “[t]here is no dispute that [the plaintiff ] has
been the subject of published newspaper and other media reports of his [alleged maﬁa] activities.” Rosanova,
580 F.2d at 862. See [29] also Salazar v. Telemundo
Network Grp., LLC, No. 03-15272 CA 23, 2006 WL
1650723, at *3 (Fla. Cir. Ct. May 30, 2006) (no actual
malice when journalists relied on foreign coverage of

App. 114
the plaintiff because “[t]he Peruvian media is a reliable
source of the information that was broadcast”).6
Faced with this mountain of precedent, Berisha
claims that “a prior report is just another source” and
there is no “authority holding that the actual malice
analysis ends simply because other media outlets have
reported something similar.” Br. at 36. But the established law is to the contrary. Reliance on even a single,
credible report (much less than the multitude of prior
reports relied on here) is sufﬁcient to prove the absence
of actual malice. See, e.g., Fodor v. Berglas, No. 95 Civ.
1153 (SAS), 1995 WL 505522, at *6 (S.D.N.Y. Aug. 24,
1995) (no actual malice where book author relied on
single New Yorker article); Associated Fin. [30] Corp. v.
Fin. Servs. Info. Co., No. CV-88-6636 SVW (Sx), 1989
U.S. Dist. LEXIS 16263, at *20-23 (C.D. Cal. July 27,
1989) (no actual malice where publisher relied on a
single, twelve-year-old article in Forbes).

6

The list of decisions dismissing libel claims because the defendant relied on earlier news reporting goes on and on. See, e.g.,
Friedgood v. Peters Publ’g Co., 521 So. 2d 236, 242 (Fla. Dist. Ct.
App. 1988) (holding that there was no actual malice when the allegedly defamatory statements “were hardly more than a restatement of the news reports” previously published about plaintiff );
Meisler v. Gannett Co, 12 F.3d 1026, 1030 (11th Cir. 1994) (no
actual malice where reporter relied in good faith on factually incorrect Associated Press wire item); Secord v. Cockburn, 747
F. Supp. 779, 792 (D.D.C. 1990) (dismissing defamation claim because the reporter relied on news articles from the Times, Miami
Herald and the Christian Science Monitor); Liberty Lobby, 838
F.2d at 1296-97 (no actual malice where author relied on an article in The National Review, a newsletter, and a handful of other
publications).

App. 115
Here, it is undisputed that all Defendants (save
Recorded Books) read the Times Article and all Defendants read the RS Article. D.E.125(¶¶81-82). Accordingly, there can be no dispute that Defendants
relied on news articles reporting that the corruption in
the AEY deal went “higher to the prime minister and
his son,” that the AEY “repackaging job” was given to
“a friend of the prime minister’s son” and that Berisha
was part of “this maﬁa.” Id. As the district court correctly held, Berisha cannot possibly establish actual
malice because Defendants were “entitled to rely on
‘previously published reports’ from . . . ‘reputable
sources.’ ” SJ Order, 19 (quoting Liberty Lobby, Inc. v.
Dow Jones & Co., 838 F.2d at 1297).
The actual malice analysis ends there, but Berisha
persists in making irrelevant arguments. First, he argues that Defendants should not have relied on the
Times or RS Articles because their reporting on Berisha’s involvement in corrupt arms dealing “merely recounted the recorded statement of Diveroli.” Br. 36. But
these Articles did not “merely recount” Diveroli’s statements; they credited and published them as evidence
of Berisha’s role in the “corruption in [AEY’s] purchase
of more than 100 million ageing rounds in Albania.”
D.E.126-[31]2(p.1). As the lower court put it, the Times
Article “that ﬁrst broke the AEY story presented Diveroli’s ‘secretly recorded’ comments as news ﬁt to print.”
(SJ Order, 19) and, as precedent amply demonstrates,
Defendants were entitled to rely on articles publishing
Diveroli’s accusations against Berisha as news. Moreover, Rolling Stone, the New Republic and the Broward

App. 116
Beach New Times all quoted Diveroli’s recorded statements as evidence of Berisha’s involvement in corrupt
arms dealing, without any challenge from Berisha, and
this strongly supports the veracity of the pre-existing
reporting. D.E.125(¶¶49,86,96).
Next, Berisha asserts that “Lawson had obvious
reason to doubt – based upon his own research and interviews in the intervening years – the veracity of the
prior reporting, which he knew was based on the word
of Diveroli.” Br. 36. But there is no evidence to back up
Berisha’s claims that Diveroli provided “the sole ‘evidence’ Lawson had linking Berisha to AEY’s scheme”
(Br. 20) or that “Lawson had obvious reasons . . . to
doubt the veracity of Diveroli’s recorded statement.”
Br. 40. To the contrary, the evidence establishes that
Lawson’s research went far beyond Diveroli’s recorded
statements and conﬁrmed (rather than challenged) his
belief that Berisha engaged in corrupt arms dealing.
For instance, Lawson relied on the Times’ reporting that Trebicka may have been killed to prevent him
from incriminating Berisha. D.E.126(136-40). He also
read two books, which reported that Berisha attended
the Tirana Meeting with [32] Pinari and Delijorgji (a
detail not divulged in Diveroli’s recorded call).
Id.(¶¶46-47,55). Most signiﬁcantly, Lawson relied on
the Tare Documentary, which painted an admittedly
“damning” portrait of Berisha based on a wide range of
evidence connecting Berisha to the AEY and Gerdec
scandals, including government documents tying Berisha to the arms deal that precipitated the Gerdec
explosion, phone records showing that Berisha made

App. 117
multiple calls to Delijorgji on the day of the explosion
and interviews with Albanians expressing their indignation over the apparent cover up of Berisha’s corruption, all of which was the subject of widespread
reporting in Albania and even sparked debates on the
ﬂoor or the Albania parliament. Id.(¶¶43-45).
Lawson’s good faith belief in the Tare Documentary – and other prior reports of Berisha’s corrupt arms
dealing – was cemented when Berisha failed to sue the
publishers of any of these reports and did not obtain a
single correction. D.E.126(¶59). This “left . . . no doubt
as to the accuracy of the central allegation that Plaintiff inexplicably only now challenges in this action.” Id.
Thus, unlike the publishers in the inapposite cases
cited by Berisha who “knew the news reports were
wrong” (Br. 37 (quoting Flowers v. Carville, 310 F.3d
1118, 1129 (9th Cir. 2002))), there is no evidence that
remotely suggests that Lawson doubted (or had any
reason to doubt) the wealth of prior reporting on Berisha’s involvement in corrupt arms dealing and maﬁa
activity.
[33] Berisha’s only rejoinder to the insurmountable body of reporting on his corruption is to argue “even
if Berisha was involved in the Gerdec matter . . . that
does not justify Lawson’s allegations of corruption in
the AEY scheme.” Br. 41. As a threshold matter, this
argument fails because it ignores all the evidence of
Berisha’s involvement in corrupt arms dealing outside
of Gerdec. But more fundamentally, this argument deﬁes common sense and basic journalistic principles.
Facts and events do not “occur in a vacuum but as part

App. 118
of a series of ongoing events.” See, e.g., Dunn v. Air Line
Pilots Ass’n, 193 F.3d 1185, 1200 (11th Cir. 1999). See
also D.E.126(129-30) (“[N]o fact or event exists in a
vacuum . . . Based on the totality of the information I
reviewed, the only reasonable conclusion to draw was
that Plaintiff was involved in corrupt arms dealing.”).
Simply put, evidence showing that Berisha participated in one corrupt arms deal that led to Gerdec
makes it more likely that he also participated in another corrupt arms deal, the AEY deal, especially since
the two scandals involved the same major players
(MEICO, Mediu, Delijogji, Pinari) and occurred around
the same time.7
[34] Finally, there is no evidence to support the argument that Lawson discovered information that
might have caused him to “doubt” the prior reporting.
Br. 40. As the evidence shows, Lawson “conduct[ed] his
own investigation” and independently “corroborated
Diveroli’s claim” that Berisha participated in corrupt
arms dealing. SJ Decision, 19. For instance, Podrizki
provided Lawson with an eyewitness account of the Tirana Meeting and positively identified Berisha from
a photograph. D.E.126(¶¶65-66). Lawson also interviewed other witnesses who confirmed the corruption that had surrounded Berisha and his father’s
7

Unsurprisingly, the Tare Documentary drew the same obvious connection between AEY and Gerdec when it reported that
“several senior Albanian ofﬁcials, including Defense Minister Mediu and Pinari from the MEICO arms company were involved in
the [AEY] scam, along with the Prime Minister’s son Shkelzen
Berisha, the same people allegedly involved behind the scenes at
Gerdec.” D.E.126(¶44.e) (emphasis added).

App. 119
government, including Erion Veliaj, Andi Belliu, and
Genta Trebicka. Id.(¶70-76). Lawson even obtained
highly-incriminating cables written by the U.S. Ambassador to Albania, who wrote that the former head
of the Albanian army came to the U.S. Embassy out of
fear for his safety because Berisha had put him under
“direct pressure” to continue delivering “high caliber
ammunition to Gerdec and to do so without delay.”
Id.(¶¶48-54). All of the information Lawson obtained
in the course of his independent research thus backedup the Statements. Conversely, Berisha does not identify any evidence known to Lawson at the time the
Book was published that could possibly cause him to
doubt Berisha’s involvement in corrupt arms dealing.
In sum, Defendants’ reliance on previously published reports from reputable publications – and Lawson’s additional research conﬁrming these reports –
[35] “precludes a ﬁnding of actual malice as a matter
of law.” Liberty Lobby, 838 F.2d at 1297.
C. The Book’s Description of the Tirana
Meeting Does Not Support a Finding of
Actual Malice
Because Berisha cannot seriously dispute that reports of his corrupt arms dealing were widely published well before the Book, he ﬁxates on Lawson’s
description of the Tirana Meeting and argues that
Lawson should not have relied on Podrizki or Diveroli
as sources for that scene. See Br. 13-17, 20-21, 45-49.
This argument fails to recognize that the Book’s

App. 120
reporting on Berisha’s appearance at the Tirana Meeting – which simply states that he sat “silent[ly]”
throughout – does not add anything beyond the gist of
the Statements (i.e., that Berisha was involved in corrupt arms dealing). For the reasons set forth above,
this gist was amply supported and published without
actual malice. Moreover, even if details in the Book’s
account of the Tirana Meeting were false, this would
still not amount to actual malice because, “[i]f the gist
is substantially true, then minor inaccuracies are insufﬁcient to prove actual malice.” Levan, 190 F.3d at
1240.
Hoping to muddy the waters, Berisha argues that
Lawson relied exclusively on Podrizki and Diveroli
for the Book’s description of “Berisha’s attendance”
at the Tirana Meeting and did so with actual malice
because he had “obvious reasons to doubt the veracity of those sources.” Br. at 14. There are a number of
fatal flaws in this argument. First, Berisha ignores
that Lawson also read two books [36] which both reported (independently of Diveroli or Podrizki) that
Berisha attended at least one arms deal meeting with
Pinari and Delijorgji, key players in the AEY scandal.
D.E.125(¶100). But even if Lawson relied exclusively
on Podrizki to provide “color” (e.g., where the meeting
took place, what people wore, who said what), Lawson
never had any reason to “entertain[ ] serious doubts
[about the] thrust” of Podrizki’s account because it was
perfectly consistent with the prior reports that Berisha
was involved in corrupt arms deals and associated
with “thugs” like Delijorgji. Levan, 190 F.3d at 1241.

App. 121
See also Levesque v. Doocy, 560 F.3d 82, 91 (1st Cir.
2009) (ﬁnding no actual malice even though the allegedly defamatory statements were false because the “article presented them within larger, accurate comments
that could be corroborated with” prior reporting).
Next, Berisha argues that Lawson had obvious
reason to doubt his sources because there were supposed “red ﬂags in Podrizki’s accounts concerning the
May 2007 meeting.” Br. 29. But Berisha’s post hoc critique of Lawson’s journalistic techniques are not evidence of actual malice. For instance, Berisha criticizes
Lawson for asking Podrizki to identify Berisha from “a
link to an internet article about Berisha that (presumably) included a photo of him.” Br. 30. But even if this
process was “deliberately suggest[ive],” as Berisha suggests, the law is clear [37] thateven an “extreme departure from professional standards” does not rise to the
level of actual malice. Harte-Hanks, 491 U.S. at 665.8
Similarly, Berisha faults Lawson for being “aware
that Podrizki had failed to identify Berisha [during a
law enforcement interview], but chose not to ask Podrizki about it.” Br. 46. Even if this could be considered
a “failure to investigate” as Berisha seems to believe,
“[f ]ailure to investigate does not in itself establish”
8

There is no evidence that Lawson actually doubted Podrizki’s identification. Indeed, Lawson’s belief in Podrizki was
bolstered when Lawson asked him to identify another man – who
had ties to Berisha and organized crime – as attending the meeting and Podrizki truthfully replied that he did not know who it
was; if Podrizki was telling Lawson what he wanted to here, he
would have feigned recognition. D.E.126(¶66);D.E.126-25(p.1-2).

App. 122
actual malice. St. Amant, 390 U.S. at 732-33. Berisha
also asserts that it was unreasonable for Lawson to
rely on Podrizki in light of purported inconsistencies in
details unrelated to the Statements. Br. 31-32. But Berisha’s second-guessing is not evidence of actual malice
and does not diminish the evidence that Lawson subjectively believed Podrizki to be an “extremely reliable
source[ ]” (not least because the information he provided consistently matched up with the other evidence
available). D.E.126(¶24).
Finally, Berisha ﬁxates on a single word in a single
clause – “they would later be told by Pinari” – and
speculates that this was a “purposeful[ ] misrepresent[ation]” because “Podrizki never told Lawson that
he (or Diveroli) [38] learned [about Plaintiff ’s attendance at the Tirana Meeting] from Pinari.” Br. at 21-22.
Contrary to Berisha’s fevered speculation, the words
“they would later be told by Pinari” are not evidence
that Lawson “manufactured the provenance of his information . . . to hide the unreliability of his actual
sourcing.” Br. 21. As Lawson explained, he concluded
(after discussions with Podrizki) that Pinari must have
been the ultimate source of the information because
Trebicka was not at the Tirana Meeting and Diveroli
would not recognize Berisha, since he had no reason to
know who Berisha was before he was pointed out.
D.E.126(¶68). But even if Lawson was incorrect and
Pinari was not the ultimate source of this information,
this error no way changes the defamatory import of the
Book’s description of the meeting and – because the
gist of that description is amply supported by prior

App. 123
reports – Berisha cannot use the Tirana meeting to
create actual malice where none exists. Tobinick, 848
F.3d at 946.
In sum, actual malice is an exacting standard,
which Berisha cannot begin to meet because the gist of
the Statements – including the description of the Tirana Meeting – was perfectly consistent with prior reports (which Berisha failed to challenge) and was
corroborated by Lawson’s own research.
D. Berisha’s Remaining Actual Malice Arguments Are Not Supported by Evidence and Have No Merit
Since actual malice is precluded as a matter of law,
this Court need not go any further to afﬁrm dismissal.
But in a transparent effort to create the impression
[39] of complexity where none exists, Berisha throws
up a bevy of random actual malice arguments. These
arguments – which virtually all assert that Lawson’s
reporting was not “adequate” or “reasonable” – fail because the actual malice inquiry has nothing to do with
objective reasonableness. See Meisler, 12 F.3d at 1030
(“Negligence is not the appropriate standard for proving actual malice.”). Applying the correct test, there is
no evidence to show Defendants harbored subjective
doubts about the Statements.

App. 124
i. There Is No Evidence that Lawson
Acted with Actual Malice
Berisha’s various arguments attacking the sufﬁciency of Lawson’s investigative reporting and the conclusions he reached should be given short shrift.
First, Berisha asserts that Lawson acted with actual malice by failing “to even attempt to contact
multiple individuals with personal knowledge” about
Berisha’s involvement in corrupt arms dealing, including Berisha. Br. 33-34. But if the actual malice
“caselaw is clear on any point it is that an author is
under no duty to divulge the contents of a book prior
to publication in order to provide the subject an opportunity to reply.” Secord, 747 F. Supp. at 788. See
also D.A.R.E. Am. v. Rolling Stone Magazine, 101
F. Supp. 2d 1270, 1284 n.3 (C.D. Cal. 2000) (“Plaintiffs’
suggestion that Defendants’ failure to contact [plaintiff ] before publishing [the] article evidences actual
malice is . . . legally misguided. [40] Defendants were
not required to contact the subjects of the article before
publication.”), aff ’d, 270 F.3d 793 (9th Cir. 2001).
Here, the evidence shows that Lawson was well
aware that the Times had reached out to Prime Minister Berisha and his Defense Minister Mediu – but apparently not Plaintiff – for comment before the Times
Article ran and received only threats in response.
D.E.125(¶112). Not only would it have been futile to
seek comment, it was also unnecessary; given the staggering amount of readily available sourcing demonstrating that Plaintiff was involved in corrupt arms

App. 125
dealing, Lawson “was not required to continue [his] investigation until [he] found somebody who would stand
up for [Plaintiff ].” Levan, 190 F.3d at 1243 (rejecting
argument that failure to speak with source favorable
to plaintiff constituted actual malice).9
Second, Berisha repeats ad nauseam the argument that Lawson should not have relied on Podrizki,
Packouz or Diveroli because he knew they were convicted felons and “fraudsters.” See, e.g., Br. at 15, 16, 44.
But it would have been [41] impossible to write the
Book without the “dudes,” since the entire Book was
about their criminal enterprise. In any event, the law
is settled that “[t]he use of convicted felons” as sources
“cannot alone constitute a fact of actual malice.”
Secord, 747 F. Supp. at 794. See also Cobb v. Time, Inc.,
278 F.3d 629, 638 (6th Cir. 2002) (no actual malice
where journalist relied on “paid” source who was a
drug user with “criminal background”). Moreover, as
the district court properly recognized, when a publisher “inform[s] its audience that its primary source
[is] ‘not an unimpeachable source of information,’ it
serve[s] to undermine claims showing that the report was issued with actual malice.” Michel v. NYP
9

There is also no evidence that Lawson was aware of any
statement issued by Berisha denying involvement in AEY arms
dealing or other corruption. D.E.125(¶22). But even assuming
arguendo that Lawson was aware of such a denial, “[a] reporter
is not ‘required to accept denials of wrongdoing as conclusive’ and
a decision not to include “detailed refutations” does not establish
actual malice. Silvester v. American Broad. Co., 650 F. Supp. 766,
780 (S.D. Fla. 1986) (citation omitted), aff ’d, 839 F.2d 1491, 1493
(11th Cir. 1988).

App. 126
Holdings, Inc., 816 F.3d 686, 703 (11th Cir. 2016). Here,
it cannot be seriously disputed that Lawson presented
the “dudes” for what they were, since the Book clearly
identiﬁes instances in which they lied or shaded the
truth, labels Diveroli “a liar . . . [who] misled directly,
indirectly, compulsively” and ends with Packouz, Podrizki and Diveroli being convicted of fraud. D.E.1261(pp.38,109,138,142,236). See Turner, 879 F.3d at 1274
(holding that the inclusion of “information cut[ting]
against [ ] Defendants’ general conclusions” makes
“any allegation of actual malice less plausible.”).10
[42] Third, Berisha makes breathless claims that
Lawson “fabricated evidence,” “doctored quot[ations]”
and “manufactured intricate scenes.” Br. 20-29. But
none of the supposedly improper edits are remotely relevant to the Statements and, more to the point, none
10

Berisha also criticizes Lawson for crediting Veliaj and
other sources because they were “political opponent[s] of Berisha’s father with an obvious bias against the Berisha family,” or
because they did not have “any personal knowledge about Berisha,” or because he failed to credit that Berisha was prosecuted
in connection with the Gerdec scandal. Br. at 17, 42, 47. But the
law is clear that “the mere possibility that a source may be biased
in some way . . . does not, without more, create obvious reasons to
doubt a source’s accuracy or establish actual malice.” Montgomery
v. Risen, 197 F. Supp. 3d 219, 263 (D.D.C. 2016) (citing St Amant,
390 U.S. at 731, 733), aff ’d, 875 F.3d 709 (D.C. Cir. 2017). And
Lawson was not obligated to interpret facts in the light most favorable to Berisha, particularly when, as the Tare Documentary
reported, it was believed that Berisha avoided prosecution because his father helped to cover up his involvement. D.E.126-8.
Further, these witnesses all shared “personal knowledge” about
Berisha, despite Berisha’s claim to the contrary. D.E.126(¶¶7076).

App. 127
of the allegations of fabrication stand up to scrutiny.
Berisha cries actual malice because Lawson deleted
two passages from early drafts of the Book (Br. 26-28),
but this is evidence of good journalism because it
shows that Lawson checked drafts with sources and,
when those sources corrected him, declined to publish
incorrect information. See D.E.126(¶26) (explaining
“iterative” editing process “where drafts were written,
tested and sometimes discarded before [Lawson] could
gather enough evidence to be conﬁdent that [his] reporting on any given subject was accurate.”).
Next, Berisha claims that Lawson published “deliberately misrepresented” and “falsiﬁed” meetings
that the Times journalist Nicholas Wood had with Defense Minister Mediu and Trebicka, respectively. Br.
22-26. Berisha does not dispute [43] that these meetings happened as the Book described, but instead criticizes Lawson for omitting or conﬂating certain minor
details. But the choices made by Lawson to streamline
his narrative were “at heart . . . editorial decision[s],”
not actual malice. Levan, 190 F.3d at 1230.
Next, Berisha claims that Lawson “conceived a
story line in advance of an investigation and then consciously set out to make the evidence conﬁrm to the
preconceived story.” Br. 13 (quoting Eramo v. Rolling
Stone, LLC, 209 F. Supp. 3d 862, 872 (W.D. Va. 2016)).
This argument fails for the simple reason that Lawson
had no need to manufacture a narrative: he was aware
of Berisha’s involvement in corrupt arms dealing before he started writing the Book – from the Times Article and other reliable sources – and everything he

App. 128
learned since that time conﬁrmed his conclusion. In a
desperate attempt to save his “preconceived narrative”
argument, Berisha misleadingly cites an email from an
S&S editor stating that the “time and effort” Lawson
had expended on “researching a Pentagon ‘conspiracy’
. . . puts the book on shaky ground.” Br. at 13. Most importantly, the email does not remotely suggest anyone
believed there was anything “shaky” about the Book’s
reporting on Berisha. But Berisha also fails to mention
that Lawson took this editorial guidance and cut back
on the “Pentagon conspiracy” (because it was a distraction from the “dudes’ ” story). D.E.125(¶67). In a similar vein, Berisha points to an email from a Times
reporter, C.J. Chivers, complaining that [44] Lawson
had “written a factually unsupportable tale” concerning his use of a photograph in the Times Article and
suggests that it this is “evidence of Lawson putting
his agenda ahead of the facts.” Br. 29. But, again, Berisha ignores that the undisputed evidence shows
that Lawson responded to Chivers’ email by conducting additional research into the photograph until he
was able to locate the photographer and independently verify his characterization. D.E.126(¶¶8889);D.E.126-37;D.E.126-38. This is responsible journalism, not actual malice.
Finally, Berisha makes an oblique reference to a
declaration in which Diveroli attested that he “manufactured” Berisha’s involvement in the AEY scheme “to
discourage Trebicka . . . from exposing the illegal repackaging.” Br. at 14. But, this declaration was obtained after the Book was published and could not

App. 129
conceivably inform an inquiry into Defendants’ subjective thoughts at the time of publication. See Biro v.
Conde Nast, 807 F.3d 541, 546 (2d Cir. 2015) (holding
that “events that occurred after publication . . . cannot
be relevant” to actual malice analysis) (internal quotation omitted). Further, there is no evidence that Diveroli ever told any of the Defendants that he fabricated
Berisha’s involvement nor does the declaration suggest
that he involved Packouz or Podrizki in the scheme.
D.E.152-36. There is also no reason to credit Diveroli’s
highly suspicious declaration – which he signed in return for being dismissed as a defendant from this action, a decade after his statements were ﬁrst reported
in the Times; as the [45] court below pointedly noted,
Berisha “characterizes [Diveroli] as a ‘pathological liar’
unworthy of belief – except that is, when . . . citing
Diveroli as a witness.” SJ Order, 21.
In the end, “[e]ven taking [Berisha’s] ﬂawed evidentiary assertions together, no reasonable jury could
ﬁnd by clear and convincing evidence that [Lawson]
acted with actual malice” since what Berisha fails to
provide is any evidence that Lawson had “serious
doubts about the truth of the Statements. Jankovic v.
Int’l Crisis Grp., 822 F.3d 576, 597 (D.C. Cir. 2016).
ii. There Is No Evidence that S&S Acted
with Actual Malice
It is well established that book publishers are “entitled as a matter of law” to rely on an author’s “reputation[ ] and experience,” and there will be no ﬁnding

App. 130
of actual malice where, as here, they published a work
written by an author they believe to be reliable.
McManus v. Doubleday & Co., 513 F. Supp. 1383, 1390
(S.D.N.Y. 1981); see also Rinaldi v. Holt, Rinehart &
Winston, Inc., 42 N.Y.2d 369, 382-83 (1977) (granting
summary judgment for publisher where it “placed its
reliance upon [the author’s] reportorial abilities”);
Fodor, 1995 WL 505522, at *5. Since Lawson had
twenty years of experience as an investigative reporter
before he [46] started the Book and was nominated
for a prestigious national prize for the RS Article,
S&S were clearly entitled to rely on his expertise.
D.E.125(¶¶45,51).11
Berisha does not seriously dispute this conclusion.
In the single sentence devoted to S&S on appeal, Berisha asserts that S&S “was aware of Lawson’s grandiose agenda . . . and his tendency to put his narrative
before the facts.” Br. 49. It is unclear how this could
possibly constitute clear and convincing evidence of actual malice and the only evidence offered are bare citations to the Chivers claim letter and a handful of
references to routine editorial decisions. Br. 24, 49. But
Berisha once again ignores the evidence, which shows
that Chivers’ concern was resolved to the satisfaction
11

Lawson also warranted in his publishing agreement that
the Book does not “contain any matter libelous . . . of any third
persons,” an undertaking that the publisher is entitled to rely on.
(D.E.125(¶57);D.E.40). See Murray v. Bailey, 613 F. Supp. 1276,
1280-81 (N.D. Cal. 1985) (publisher did not act unreasonably
where, among other things, author represented and warranted
in contract that book was not libelous); Crescenz v. Penguin Grp.
(USA), Inc., 561 F. App’x 173, 179 (3d Cir. 2014).

App. 131
of S&S’s editors once “Guy did additional reporting to
prove his story” and “took the opportunity to address
that in his manuscript.” D.E.152-30(Tr.109:7-117:11).
Nor has Plaintiff adduced any evidence that S&S harbored “actual, subjective doubt” as to any of Lawson’s
reporting, since its editors uniformly testified that
they had no doubt as to the accuracy of the Statements and had full conﬁdence in Lawson’s reporting.
D.E.125(¶73). [47] Accordingly, the dismissal of Berisha’s defamation claims against S&S should be afﬁrmed.12
iii. There Is No Evidence that Packouz or
Podrizki Acted with Actual Malice
Berisha chides the lower court for failing to “explain its . . . reasoning” for dismissing the defamation
claims against Podrizki and Packouz (Br. 49), but the
lower court actually did address the threadbare argument Lawson makes on appeal and correctly rejected
it. As with S&S, Berisha expends a single sentence on
Packouz and Podrizki, in which he argues that “Podrizki and Packouz fabricated Berisha’s involvement
with AEY” in order to intimidate Trebicka, make
money from Lawson and/or rehabilitate their reputations. Br. 49. The lower court correctly rejected this
argument as a “conspiracy theory” lacking any evidentiary support. SJ Order, 18. The lower court also correctly held that “the fact that Packouz and Podrizki
12

Berisha has conceded his defamation claim against Recorded Books because “there is insufﬁcient evidence that Recorded
Books acted with actual malice.” Br. 49.

App. 132
were paid as part of ‘life rights’ agreements, which are
standard in the book publishing industry, does not establish actual malice on their part or on Lawson’s.” Id.
at 18. See Silvester, 839 F.2d at 1498 n.5 (no actual
malice even though producers of news broadcast paid
source “a total of $3,000, [48] plus expenses”); Cobb v.
Time, Inc., 278 F.3d 629, 633 (6th Cir. 2002) (offer to
pay source $15,000 to contribute ﬁrst person account
to article not actual malice).
Since Berisha has failed to identify any other
grounds for a ﬁnding of actual malice against Packouz
or Podrizki – and since both “dudes” indisputably relied on the prior reporting on Berisha in the Times and
RS Articles – Berisha’s remaining defamation claims
should be dismissed.13
***
In sum, “there is persuasive evidence” that Defendants ﬁrmly believed the Statements were entirely
accurate, “and the cumulative force of the evidence to
the contrary is very weak” (if any evidence exists at
all). McFarlane v. Sheridan Square Press, 91 F.3d
1501, 1514 (D.C. Cir. 1996). Since there is no clear and
convincing evidence that Defendants published any
13

The defamation claim against Packouz should be dismissed for the independent reason that there is no evidence that
Packouz was a source for or ever uttered any of the Statements.
D.E.139(¶19). See, e.g., Mawk v Kaplan Univ., No. 6:13-CV-1469ORL-22, 2015 WL 4694055, at *4 (M.D. Fla. Aug. 6, 2015) (defamation claim failed because plaintiff failed to establish the essential element of publication of a defamatory statement to third
party).

App. 133
Statement with actual malice, this Court should afﬁrm
the SJ Order dismissing this action.
[49] II. BERISHA IS UNQUESTIONABLY A
PUBLIC FIGURE SUBJECT TO THE ACTUAL MALICE STANDARD
Essentially conceding his public ﬁgure status, Berisha makes an abrupt, highly generalized argument at
the very end of his brief that he is a private ﬁgure because he never did anything to seek out notoriety. Br.
78. But Berisha’s ipse dixit assertion that he never
wanted to be a public figure does not overcome the
indisputable evidence of his public figure statues, including Berisha’s central role in multiple corruption scandals, his exceptional prominence in Albania
(where he enjoys 100% name recognition), and his privileged access to the media, which all conﬁrm his status
as a public ﬁgure.
When a libel plaintiff “is a public ﬁgure or ofﬁcial
and the defamatory material involves issues of legitimate public concern, the plaintiff must prove that the
defendant acted with actual malice to establish liability.” Silvester, 839 F.2d at 1493. There are two types of
public ﬁgure. General public ﬁgures are “individuals
who, by reason of fame or notoriety in a community,
will in all cases be required to prove actual malice.”
Turner, 879 F.3d at 1272. “Limited public ﬁgures, on
the other hand, are individuals who have thrust themselves forward in a particular public controversy and
are therefore required to prove actual malice only in

App. 134
regard to certain issues.” Id. This Court applies a twopart test for limited public ﬁgures: “First, the court
must determine whether the individual played a central role in the controversy. Second, it must determine
whether the alleged [50] defamation was germane to
the individual’s role in the controversy.” Id. at 1273.
Contrary to Berisha’s suggestion that it is “the role of
the fact ﬁnder” to decide whether a plaintiff is a public
ﬁgure (Br. 75), the Eleventh Circuit recently afﬁrmed
that “public ﬁgure status is a question of law to be determined by the court.” Turner, 879 F.3d at 1271 (citation and internal quotation marks omitted).
The evidence in this case is clear that Berisha is,
at a minimum, a limited public figure. Berisha concedes that the Statements involve quintessential
issues of legitimate public concern because they
“describe corruption in the Albanian government and
in the sale of arms to the United States for use in the
war in Afghanistan.” SJ Order, 13. See also Silvester,
839 F.2d at 1493 (“The public is legitimately interested
in all matters of corruption. . . .”); Rosanova, 580 F.2d
at 861 (“[R]eported associations and activities concerning organized crime are, without dispute, subjects of
legitimate public concern”).
Next, Berisha does not deny that news organizations had previously reported that his “role in the AEY
controversy was ‘central’ and must concede that the
Statements were “germane” to that controversy. SJ
Order, 17. Nor could he, since Berisha’s role in the
AEY and Gerdec scandals was front page news in Albania, generating the headline “Political Hiroshima.”

App. 135
D.E.125(¶¶114-15). Berisha was so central to the “political circus” that ensued in the media after the Gerdec scandal broke that the U.S. Ambassador to Albania
felt compelled to write about Berisha’s [51] reported
involvement in ofﬁcial cables. D.E.126-15(pp.1-5). Berisha’s connection to an “Albanian” maﬁa was also reported in the Times (twice), was re-reported in other
articles and was the subject of the in-depth Tare Documentary that concluded Berisha used his political connections to evade criminal charges for his role in the
Gerdec disaster. D.E.125(¶¶34,46,83,96,114,115). In
short, Berisha cannot seriously dispute his public ﬁgure status “given that [he] has been the subject of more
than a decade of media coverage” on topics related to
his involvement in corrupt arms dealing and maﬁa activity. Deripaska v. Associated Press, 282 F. Supp. 3d
133, 142 (D.D.C. 2017).14
Berisha’s main argument on appeal is that he cannot be a public ﬁgure because he “has taken no voluntary action to expose himself to the risk of defamation”
(Br. 76), but there is no factual or legal support for this
claim. Factually, Berisha ignores the powerful evidence
that he injected himself into various corruption scandals, including the AEY ﬁasco. Berisha admits that he
ﬁled no less than ten lawsuits in seven years against
Albanian journalists and politicians for speaking out
over his alleged obstruction of an energy project,
14

On the basis of this evidence alone, this Court could easily
ﬁnd that Berisha is a general purpose public ﬁgure in addition to
being a limited public ﬁgure as to any reporting on his involvement in corrupt arms dealing and maﬁa activity.

App. 136
mismanagement of the Albanian Lottery and failure to
pay taxes (although he [52] tellingly never ﬁled a lawsuit against any of the news organizations that reported on his corrupt arms dealing). D.E.125(¶¶11618).
Berisha “never disputed that he has associated
with various personalities” – like Delijorgji and Mediu
(D.E.151(120,23)) – with ties to corrupt arms deals and
organized crime, which is also strong evidence that
Berisha “voluntarily engaged in a course that was
bound to invite attention and comment.” Rosanova,
580 F.2d at 861. Berisha also admits that he attended
a meeting with Kosta Trebicka in a car belonging to a
mutual acquaintance, from which he extracted (and
sought to publicize) a highly suspicious afﬁdavit from
Trebicka stating that Berisha had “no involvement in
AEY whatsoever.” D.E.151(¶¶13,15).15 As per a recent
decision from this Court, Berisha thus “insert[ed] himself into the controversy” by “pushing” Trebicka “to
make a statement to the press defending” him against
negative allegations. Turner, 879 F.3d at 1273.
Next, Berisha claims that he is not a voluntary
public ﬁgure because he never “held a position from
which he could be expected to inﬂuence the AEY controversy” (Br. 77), but once again ignores the evidence
of his own “prominence and access to media.” Friedgood, 521 So. 2d at 240. Berisha was born into prominence because his father is the former President
15

Lawson was not aware of Trebicka’s afﬁdavit at the time
the Book was published. D.E.126(¶86).

App. 137
and Prime Minister of [53] Albania, but he also earned
notoriety in his own right as a central player in the
AEY and Gerdec scandals. D.E.125(9). In short, Berisha is a household name in Albania, who “has an
astonishing 100 percent name recognition among Albanians.” SJ Order, 14;D.E.167-2(p.7). That Berisha
“has attained a level of ‘fame or notoriety in a community’ that few other ﬁgures could likely match” leads to
the inescapable conclusion that he is a public ﬁgure. SJ
Order, 14 (quoting Turner, 879 F.3d at 1272).
Berisha’s limited public ﬁgure status is further cemented because, when the Book was published in 2015,
he “had long had ready access to the media.” Silvester,
839 F.2d at 1494, 1498 (“[P]ublic ﬁgures usually have
greater access to the media which gives them ‘a more
realistic opportunity to counteract false statements
than private individuals normally enjoy.”) (citation
omitted). Berisha claims that “it is highly contested
that [he] has greater access to the media” (Br. 75), but
this assertion cannot be taken seriously in light of the
evidence. For instance, it is undisputed that Berisha
has a “group of email addresses from media representatives” – including editors at major Albanian news organizations – that he uses to disseminate comments
and press releases in response to negative coverage.
D.E.125 mill 8-19);D.E.133-6(pp.2-7). While Berisha
demurs that “sometimes his responses are published
and sometimes they are not” (Br. 75), he indisputably
has a direct line to all the major news editors in Albania and that proves that he has [54] greater access
to the media than the general public. Berisha also

App. 138
neglects to mention that he is so famous in Albania
that newspapers sometimes publish his Facebook
posts, even on topics as mundane as the Kosovar soccer team joining the European Football Association.
D.E.125(¶¶120-21);D.E.133-9(pp.2-6).
The only scrap of “evidence” Berisha has mustered
to support his claim to be a “quintessential private ﬁgure” (D.E.1(¶133)) is his ipse dixit claim that he “never
voluntarily sought media attention” (D.E.150(¶139)),
but this is legally insufﬁcient. As the court below correctly noted, “even if the Court credits Berisha’s assertion[ ]” – which is highly dubious given his exalted
position in Albanian society – ‘the status of a public ﬁgure vel non does not depend upon the desires of an individual.’ ” SJ Decision, 14 (quoting Rosanova, 580 F.2d
at 861). While Berisha “did not choose to be the former
Albanian Prime Ministers son, . . . that is what he is,
and other ‘children of famous parents’ have been held
to be public ﬁgures on no wider grounds that that.” SJ
Decision, 15 (quoting Meeropol v. Nizer, 381 F. Supp.
29, 34 (S.D.N.Y. 1974) (holding that the children of Julius and Ethel Rosenberg were public ﬁgures despite
having “renounced the public spotlight” as adults)).
More fundamentally, courts have rejected precisely the argument Berisha attempts to make here because “[i]t is no answer to the assertion that one is a
public ﬁgure to say, truthfully, that one does not choose
to be.” Rosanova, 580 [55] F.2d at 861. It would be particularly inappropriate to Berisha to self-identify as a
private ﬁgure in light of the “published newspaper and
other media reports” connecting him with “organized

App. 139
crime” and his apparent determination to conceal his
activities. Id. As the court noted in Rosanova:
The purpose served by limited protection to
the publisher of comment upon a public ﬁgure
would often be frustrated if the subject of the
publication could choose whether or not he
would be a public ﬁgure. Comment upon people and activities of legitimate public concern
often illuminates that which yearns for
shadow.
Id. See also Friedgood, 521 So. 2d at 240 (“[P]ublic ﬁgure status may be determined without regard to
whether the individual had initially thrust herself into
the case.”). In other words, the law does not permit Berisha to evade public ﬁgure status by asserting that he
took “no voluntary action” to inﬂuence the controversy
because he did not commit the crimes he was accused
of. Br. 79. If this were the law (and it is not), any powerful ﬁgure suspected of criminal activity would be
deemed a private ﬁgure simply by denying the charges
against them. For obvious reasons, this would encourage cover-ups and eviscerate the First Amendment
protections for the investigative journalists seeking to
expose secret crimes.16
16

Berisha’s ﬁnal gambit is to ask the Court to eliminate “involuntary public ﬁgure” status, but this argument misses the
point on multiple levels. Br. 78-80 (citing Wells v. Liddy, 186 F.3d
505, 538 (4th Cir. 1999)). First, in this Circuit “[i]t may be possible
for someone to become a public ﬁgure through no purposeful action of their own.” Turner, 879 F.3d at 1273 (quoting Friedgood,
521 So. 2d at 239). Next, the Fourth Circuit decision he urges this
Court to adopt did not abolish the “involuntary public ﬁgure”

App. 140
[56] In sum, this Court should afﬁrm the district
court’s holding that Berisha is a public ﬁgure by virtue
of his “proximity to power, his access to the media and
his alleged presence at the center of multiple corruption scandals.” SJ Order, 16.
III. THE PRE-PUBLICATION LEGAL REVIEW
COMMUNICATIONS BERISHA SEEKS ARE
PRIVILEGED
Berisha’s privilege argument rests on a series of
misapprehensions, which need to be addressed as a
threshold matter. First, Berisha implies that he was
deprived of any evidence on “what Lawson and [S&S]
knew about the accuracy of Lawson’s allegations about
Mr. Berisha” (Br. 73), but this is not true given Defendants produced virtually all the documents relevant to
the research and publication of the Statements.
Next, Berisha suggests that this Court should vacate the SJ Order because the district court failed to
rule on his objections to the Magistrate Judge’s Privilege Order. Br. 53 (quoting Snook v. Tr. Co. of Georgia
Bank of Savannah, 859 F.2d 865, 871 (11th Cir. 1998)).
category but merely held that “[t]he involuntary public ﬁgure
must be recognized as a central ﬁgure” in the controversy at issue.
Wells, 186 F.3d at 540. Even under this standard, Berisha is a
public ﬁgure due to the central role he played in the AEY and
Gerdec arms dealing scandals. Finally, Berisha cannot seriously
argue that his public ﬁgure status is a result of “sheer bad luck,”
since he obtained his privileged status from his powerful father
and took voluntary steps that enmeshed him in multiple arms
dealing controversies.

App. 141
But unlike the case upon which Berisha relies – where
summary judgment was granted before any decision
was made on plaintiff ’s motion to compel (id. at 868) –
the lower court considered and rejected Berisha’s [57]
application. To the extent that Judge Cooke erred by
not addressing Berisha’s “appeal” of the Privilege Decision (Br. 52), that error was harmless and there are
no jurisdictional issues that preclude this Court from
reviewing the Privilege Order. See, e.g., Haynes v.
McCalla Raymer, LLC, 793 F.3d 1246, 1249 (11th Cir.
2015) (“[E]ven if the objections were not considered . . .
any failure to review them would have been harmless
error” because the “arguments were repetitive” and
without merit).17
Finally, while Berisha claims that Defendants are
trying to create a novel “book-publisher/book-author
privilege” (Br. 70), the privilege issues raised here are
subject to well-established and generally applicable
rules of attorney-client and common defense privilege.
For the reasons set forth below, the lower court correctly held that S&S “did not waive attorney-client
privilege when it permitted its attorney . . . to communicate with Lawson for the purpose of a pre-publication legal review of the Book” and that “Defendants
have advanced sufficient evidence to substantiate
17

Indeed, it would be a waste of judicial resources to remand
this case to the district court for the sole purpose of ruling on Berisha’s objections. No doubt, any decision rendered by Judge Cooke
would be appealed back to this Court, which would be obliged to
make a second ruling based on the same record it already has before it.

App. 142
their assertion of common interest privilege.” Privilege
Order, 9, 14.
[58] A. Factual Background
The Publishing Agreement for the Book, executed
on June 28, 2011, set forth the terms upon which
S&S agreed to publish Lawson’s work. D.E.125(¶57);
D.E.127-3(p.9). A material term in the Publishing
Agreement – which is standard in book publishing contracts – expressly obligated Lawson to participate in
the prepublication legal review for the Book: “If the
Publisher in its sole reasonable discretion determines
to submit the manuscript to a legal review, the Author
shall cooperate with the Publisher or Publisher’s counsel in such review.” D.E.127-3(p.9).
The Publishing Agreement also contains another
standard clause, which amounts to a prospective joint
defense agreement. Under those terms, Lawson warranted that his Book “does not . . . contain any matter
libelous . . . of any third person.” Id.(p.14). In the event
of any “suit, proceeding, claim or demand” arising out
of the Book’s publication, the Publishing Agreement
states that Lawson “shall be insured” under S&S’ liability policy and requires S&S to “retain counsel” to
jointly represent itself and Lawson. Id.(pp.15-16). In
return for coverage, the Publishing Agreement requires Lawson to allow S&S to “control the defense of
such claims” and “cooperate fully with . . . counsel in
such defense.” Id.

App. 143
Lawson and S&S received a claim letter before the
pre-publication libel review commenced. On June 14,
2014, Times reporter C.J. Chivers sent an email [59] to
Lawson and the Book’s editor, Emily Graff (who was an
S&S employee). D.E.125(¶68). This email, which copies
“the newspaper’s in-house lawyer,” asserts (without
identifying speciﬁc examples) that the Book was “riddled with unsupported surmises, factual errors, and
misleading conclusions” and instructs Lawson to explain to S&S’s “legal counsel the basis for any claims”
criticizing Chivers’ reporting. D.E.126-37(pp.2-3). On
October 9, 2014, S&S received a separate claim letter
from Diveroli’s lawyer, which contended (without
providing any speciﬁc examples) that the Book would
“defame [Diveroli], or at the very least, have serious
misstatements of fact.” D.E.127-8(pp.2).18
The receipt of Chivers’ claim letter caused Graff to
formally request a prepublication legal review for the
Book and S&S retained a lawyer, Elisa Rivlin, for this
purpose. D.E.109-1(W-8). Book publishers do not engage in fact checking – since they rely on authors to
ensure the factual accuracy of their work – and Rivlin
was not engaged to fact check the book. Id.(¶¶9-10).
Rather, the purpose of Rivlin’s pre-publication review
was to identify and advise on potentially actionable
content in Lawson’s manuscript. Id.(¶11). In practical
terms, Rivlin addressed a number of overlapping legal
18

Ultimately, neither Diveroli nor Chivers sued over the
Book and, by the time the Book was published, any issues raised
by their claim letters were resolved to the satisfaction of S&S and
Lawson. D.E.125(¶69).

App. 144
risks, including speciﬁc responses to claims made in
[60] the Chivers and Diveroli claim letters, as well as
general advice concerning potentially defamatory content. Id.(¶¶15-16). Since defamation only arises out of
false statements, Rivlin’s legal analysis on whether
particular statements might be actionable began with
collecting the facts to support the claim. Id.(¶12) In
this case, extensive communications with Lawson
were necessary because he was the sole proprietor of
the facts and sourcing that Rivlin needed to assess
the defamation risks posed by his reporting. Id.(¶13).
It was equally necessary for Rivlin to communicate
her legal advice back to Lawson (as well as S&S’s editorial staff, including Graff ) so that questions could be
answered and changes implemented in subsequent
drafts. Id.(¶17).
Rivlin commenced her pre-publication legal review of the manuscript in June 2014 and completed it
by April 2015 – in time for the publication of the Book’s
ﬁrst edition. Id.(¶8). Rivlin continued to correspond
with Lawson about pre-publication issues relating to
the paperback issues of the Book, which was released
in 2016. Id.(¶18). All of the privileged communications
sought by Berisha were exchanged during this time period, while the pre-publication legal review was taking
place. See Appellants’ Appendix A0543-79.
The pre-publication legal review process described
above (in which the publisher’s attorney communicates
extensively with an author to provide prepublication
legal advice on a manuscript) is standard in the
book publishing [61] industry. D.E.103-1(¶¶2,13).

App. 145
Thousands of non-ﬁction books have been subjected to
pre-publication legal review, with the justiﬁable understanding that communications exchanged between the
author and publisher’s lawyer are privileged.
B. Procedural History
On July 19, 2019, Magistrate Judge Louis held
oral argument on Berisha’s motion to compel the prepublication legal review communications. D.E.106. At
that hearing, Judge Louis asked the parties to provide
supplemental brieﬁng – which they did – and requested a representative sample of documents for in
camera review, including four documents discussed at
the hearing and ﬁve additional documents selected by
Berisha. D.E.109(pp.5-6) Defendants made these documents available to the Court. Id. (pp.8-9);D.E.1031(¶16). Defendants also submitted a revised privilege
log, which provided additional information about the
nature of each document for which privilege was
claimed. Appellants’ Appendix A0543-79.
Having considered the oral arguments advanced
by the parties, two rounds of brieﬁng, record evidence
(including witness testimony), privilege logs and communications produced for in camera review, the lower
court denied Berisha’s motion to compel. Privilege Order, 1-16.

App. 146
[62] C. Standard of Review
Abuse of discretion is the correct standard of review for the Privilege Order. It is well-established that
this Court “review[s] . . . evidentiary rulings for abuse
of discretion.” Bogle v. McClure, 332 F.3d 1347, 1358
(11th Cir. 2003). This Court routinely applies the abuse
of discretion standard to appeals involving lower court
decisions based on the attorney-client privilege. See,
e.g., id. (reviewing lower court’s privilege decision under abuse of discretion standard), Watkins v. Broward
Sheriff ’s Ofﬁce, ___ F. App’x ___, 2019 WL 1962071, at
*6 (11th Cir. May 2, 2019) (“We review a district court’s
decision to sustain an objection which invokes [the attorney-client] privilege for an abuse of discretion.”);
Vantage View, Inc. v. QBE Ins. Corp., 400 F. App’x 420,
421 (11th Cir. 2010) (per curiam).
Berisha asserts in conclusory fashion that the
Privilege Order is subject to de novo review because it
“may involve mixed questions of law and fact” (Br. 8),
but the cases he cites in passing do not support this
conclusion. In Bivens, this Court was forced to decide
the privilege issue de novo because the plaintiff “did
not raise his arguments about the attorney-client privilege before the district court.” Bivens v. Stein, 759 F.
App’x 777, 782-83 (11th Cir. 2018). And Cox raised a
genuinely mixed issue of law and fact, speciﬁcally
whether the court-made “Garner doctrine applies to a
union’s assertion of the attorney-client privilege
against its members.” Cox v. Administrator U.S. Steel
& Carnegie, 17 F.3d 1386, 1414 (11th Cir. 1994).

App. 147
[63] Here, by contrast, Berisha’s appeal turns on
whether the lower court correctly held that Defendants
shouldered their evidentiary “burden of proving that
an attorney-client relationship existed and that the
particular communications were conﬁdential.” Bogle,
332 F.3d at 1358 (citation omitted). This fact-driven
analysis – which turns in part on documents reviewed
by the lower court in camera that are not part of the
appellate record – is a routine exercise of the trial
court’s considerable discretion in controlling discovery
and should be reviewed as such.
Under any standard of review, the Privilege Order
should be afﬁrmed.
D. The Communications Are Protected by
Attorney-Client Privilege
It is undisputed that “information is protected
from disclosure by the attorney-client privilege when
it is a communication between a lawyer and client not
intended to be disclosed to third persons other than
those to whom disclosure is in furtherance of the rendition of legal services, or those reasonably necessary
for the transmission of the communication.” Tyne,
212 F.R.D. at 598-600 (citing Fla. Stat. § 90.502(1)(c))
(emphasis added).19 Courts applying this rule have

19

Defendants have reserved the issue of whether Florida or
New York law applies to this case, but the ultimate choice of law
has no impact on this appeal since the laws of both states are in
accord for these privilege issues.

App. 148
held that the attorney-client privilege does not automatically disappear when a lawyer representing a corporation communicates with a non-employee. Rather,
the attorney-client relationship survives “when an attorney needs to be able to confer [64] conﬁdentially
with ‘nonemployees who, due to their relationship to
the client, possess the very sort of information that the
privilege envisions ﬂowing most freely.’ ” Every Penny
Counts, Inc. v. American Exp. Co., No. 8:07-cv-1255,
2008 WL 2074407, at *2 (M.D. Fla. May 15, 2008)
(quoting In re Bieter Co., 16 F.3d 929 (8th Cir. 1994)).
See also Ofﬁce Depot, Inc. v. Nat’l Union Fire Ins. Co.,
No. 09-80554-CIV, 2010 WL 11505167, at *4 (S.D. Fla.
Aug. 17, 2010) (attorney-client privilege protects “communications with agents and representatives of the client when those communications further the rendition
of legal services.”).
These established principles have been applied in
three cases involving facts virtually identical to the
facts at issue here. In Tyne, the court held that the attorney-client privilege protected against disclosure of
communications between Warner Bros. and employees
of two co-defendant studios, who were involved in legal
clearances for the movie A Perfect Storm. Tyne, 212
F.R.D. at 600-01. Explaining its reasoning, the court
wrote that, while “employees [of the two studios] may
not be clients of the Warner Bros. legal department,
Warner Bros. required their cooperation with regard to
the production of A Perfect Storm in order to protect
Warner Bros.’ legal interests.” Id. at 600. In other
words, the privilege applied because “[t]he advice of

App. 149
the Warner Bros. legal department would be useless to
Warner Bros. if the advice could not be disseminated to
the few key individuals who were intimately involved
in the joint production of The Perfect [65] Storm.” Id.
Unable to ﬁnd a legitimate ground for distinguishing
Tyne, Berisha sniffs that it is “vague” and “in error”
(Br. 67), but his evasiveness merely conﬁrms that Tyne
strongly supports the application of privilege to Defendants.
Similarly, in Davis, a New York court held that
communications between lawyers for a movie studio
and the author of the book that served as the basis for
a screenplay were privileged. Notwithstanding that
the author was not a studio “employee and did not participate in the production of the ﬁlm,” the court held
that “his participation in [the] meeting was functionally equivalent to that of an author of a magazine or
newspaper article who submits his work to in-house
counsel for prepublication libel review and should thus
come within the rule of Upjohn . . . , protecting communications between corporate employees and the corporation’s attorney seeking to ‘ensure their client’s
compliance with the law.’” Davis v. Costa-Gavras, 580
F. Supp. 1082, 1098 (S.D.N.Y. 1984) (citing and quoting
Upjohn Co. v. United States, 449 U.S. 383, 392 (1981).
Berisha’s rejoinder that the author was “a lawyer . . .
paid for ‘legal consultation’” (Br. 68) is highly misleading – and should be rejected – because the ultimate decision to apply privilege was based on his role as a
source of information necessary for the prepublication

App. 150
legal review and had nothing to do with his incidental
status as a lawyer. See Davis, 580 F. Supp. 1098-99.
[66] In a decision in the context of print journalism, the D.C. Circuit held that “[p]re-publication discussions between libel counsel and editors or reporters
would seem to come squarely within the scope of the
privilege as deﬁned in Upjohn.” Liberty Lobby, 838 F.2d
at 1302. As Berisha notes, Liberty Lobby involved communications between editorial employees of a newspaper and that company’s libel counsel. Br. 67. But the
central holding of the case – that pre-publication libel
review falls within the ambit of privileged communications – clearly supports the application of privilege
here, where the only difference is that the journalist is
not an employee of the publisher.
Taken together, these three cases demonstrate
that the communications between counsel and a third
party author in the course of pre-publication legal review of editorial content are precisely the sort of communications “that the privilege envisions ﬂowing most
freely.’ ” Every Penny Counts, Inc., 2008 WL 2074407, at
*2.
Applying this principle, Magistrate Judge Louis
held that Defendants had provided sufﬁcient evidence
to “substantiat[e] their burden to demonstrate that
communications between counsel for the publisher,
Rivlin, and author of the book, Lawson, fall within the
scope of attorney-client privilege.” Privilege Order, 5.
In reaching this decision, the lower court credited testimony from S&S that “because Lawson was ‘the sole

App. 151
proprietor of the sourcing and background information
that [67] went into the manuscript,’ it would have been
‘impossible to conduct a meaningful pre-publication legal review without him.’” Id. (quoting D.E.109(p.6)).
Magistrate Judge Louis also found that the clause
in the Publishing Agreement requiring Lawson to
“cooperate with the Publisher or Publisher’s counsel”
evidenced S&S’ “need to involve Lawson in communications involving the prepublication legal review.”
Privilege Order, 5-6. Critically, the court below did not
just adopt this testimony – which it clearly could have
since it was undisputed – but it also engaged in an in
camera review of the evidence. Based on this review,
the Magistrate found that “it is clear from the Court’s
in camera review [of sample documents] that Rivlin’s
communications fell within the scope of her representation and were necessary for her engagement.”
Id. at 9. Finally, the lower court accepted the sufficiency of Defendants’ supplemental privilege log. Id.
at 11 n.4. Since this evidence proved that a legal review would be “useless” without Lawson’s participation, the lower court correctly held that S&S “did not
waive attorney-client privilege when it permitted its
attorney . . . to communicate with Lawson for the
purpose of a pre-publication legal review of the Book.”
Id. at 6, 9.20
20

The lower court also held that withheld communications
between Lawson and his S&S editor Graff were privileged because the privilege applies “to information gathered by non-attorneys for transmission to an attorney for the attorney to provide
legal advice on an issue or to provide legal advice regarding the
document or information gathered.” In re Abiliﬁ, (Aripiprazole)

App. 152
[68] Berisha makes no real effort to engage with
the evidence underpinning the Privilege Order, but
throws up a few random arguments instead. First, he
argues – without any support – that only “communication[s] between lawyer and client” can be privileged.
Br. 55. But he offers no cases to support his novel interpretation and no explanation why all the cases cited
in the Privilege Opinion held communications between
lawyers and non-clients, like Lawson, to be privileged.
It cannot be (as Berisha seems to suggest) that the
many courts who considered this “tricky” issue are all
wrong, but Berisha is right.
Similarly, Berisha proposes a formalistic “require[ment] that the third-party be an agent of the client” for privilege to apply. Br. 57. The cases Berisha
cites – only some of which actually involve “agents” –
do not support this proposition. As the lower court explained, “the fact that attorney-client privilege protects intermediaries and agents of corporations does
not mean that the privilege is exclusively limited to the
same” and Berisha’s cases do “not support such a narrow reading.” Privilege Order, 7. In short, regardless of
the label applied to Lawson, the “necessary” role he
played in the pre-publication review process triggers

Prods. Liability Litig., No. 3:16-md-2734, 2017 WL 6757558, at *7
(N.D. Fla. Dec. 29, 2017) (citations omitted). Crediting the evidence presented, Magistrate Judge Louis held that “the communications between Graff and Lawson were integral to Rivlin’s
ability to properly advise [S&S] and as such remain privileged.”
Privilege Order, 9.

App. 153
the [69] application of the attorney client privilege and
the Privilege Order should be afﬁrmed.
E. The Communications Are Protected by
the Common Interest Privilege
Lawson’s communications with S&S after Chivers
sent his June 2014 claim letter are independently privileged under the common interest doctrine. The common interest or joint defense doctrine is an exception
to the ordinary rule of third party waiver that “allows
parties facing a common litigation opponent to exchange privileged communications and attorney work
product in order to prepare a common defense without
waiving either privilege. The doctrine is not limited to
cases of actual co-defendants, rather it may apply to
cases of ‘potential’ litigation as well.” Fojtasek v. NCL
(Bahamas) Ltd., 262 F.R.D. 650, 654 (S.D. Fla. 2009)
(internal citations omitted). In determining whether
the common interest doctrine applies, courts look to
whether the information exchanged was “for the limited purpose of assisting in their common cause.” Visual Scene, Inc. v. Pilkington Bros., plc, 508 So.2d 437,
441 (Fla. DCA 3rd) (citation omitted). One New York
case has indicated that the parties must also be “engaged in or reasonably anticipate litigation” for the
doctrine to apply. Ambac Assurance Corp. v. Countrywide Home Loans, Inc., 57 N.E.3d 30, 37-38 (N.Y.
2016).
In determining that the common interest privilege
applied, the lower court relied on “three critical pieces

App. 154
of evidence.” Privilege Order, 12. First, the [70] Publishing Agreement was strong evidence of an agreement to pursue a common legal strategy since it
“prospectively require[d] cooperation in a joint defense.” Id. at 14. Next, the claim letters from Chivers
and Diveroli demonstrated that “Defendants reasonably perceived a credible threat of litigation arising
from publication of the Book.” Id. Based on this evidence, the lower court correctly held that “Defendants
have advanced sufﬁcient evidence to substantiate
their assertion of common interest privilege.” Id. The
Tyne and Davis decisions both buttress this holding.
See Davis, 580 F. Supp. at 1098-99 (common interest
doctrine applied because the author “was a potential
codefendant and thus the meeting was a pooling of information for joint defense”); Tyne, 212 F.R.D. at 600
(communications between production studio and employees of other companies “who have a common legal
interest” in the legal review of clearances for an upcoming movie do “not constitute a waiver of privilege).
Once again, Berisha’s response to an adverse decision is to ride roughshod over the evidence. First, Lawson claims that the Publishing Agreement “is not
evidence of agreement between Lawson and [S&S] to
cooperate in a common legal strategy to defend against
‘claims’ by Chivers, Diveroli, or anyone else.” Br. 63.
This interpretation is not tenable because the Publishing Agreement, on its face, states that “Publisher shall
retain counsel to represent Publisher and Author in
any proceeding brought with respect to all such claims
and shall control the defense of [71] such claims, and

App. 155
Author shall cooperate fully with Publisher and said
counsel in such defense.” D.E.40(¶25(d)). It deﬁes basic
comprehension to read this clause as anything other
than what it is: a joint defense agreement.
Next, Berisha devotes several pages to attempting
to diminish the impact of the Chivers and Diveroli
claim letters. Br. 63-66. The crux of Berisha’s argument
is that pre-publication legal review communications
“do not fall within the common legal interest exception” to the extent that they involved issues unrelated
to the claim letters. Br. 65. The problem with this argument is that the prepublication legal review triggered by the claim letters necessarily covered the
entire Book. It would be absurd – and a huge waste of
judicial resources – to force the lower court to sift
through these communications to make arbitrary distinctions about which advice related to Diveroli or
Chivers, as Berisha apparently demands. Br. 66. As the
lower court correctly observed, the common interest
privilege applies to Lawson’s pre-publication legal review communications with Rivlin because they “postdate the Chivers letter” and were thus generated at a
time when “when Lawson and [S&S] had a common legal interest against a common opponent with regard to
a speciﬁc claim.” Privilege Order, 14.
Finally, Berisha resorts to making up a new rule,
asserting that the “common legal interest exception
may not be invoked unless each party is represented
by separate counsel.” Br. 59. But the cases he misleadingly cites – which happen to [72] involve multiple clients with separate attorneys – do not stand for the

App. 156
proposition that the common interest privilege is inapplicable unless every client is represented by their own
attorney. Indeed, Berisha fails to identify a single case
declining to apply the common interest privilege
simply because one of the parties to the joint defense
was not represented by independent counsel, which is
unsurprising given that “[c]ourts having considered
the issue in this District previously have not recognized the restriction that Plaintiff would have this
Court impose.” Privilege Order, 14 (citing Royal Bahamian Ass’n, Inc. v. QBE Ins. Corp., No. 10-21511-CIVGOODMAN, 2010 WL 3637958, at *4 (S.D. Fla. Sept.
20, 2010); Fojtasek, 262 F.R.D. at 656).
In sum, this Court should afﬁrm the Privilege Order because the lower court clearly did not abuse its
discretion by holding that Defendants produced sufﬁcient evidence to meet their burden of establishing the
attorney-client and common interest privileges.
IV. BERISHA HAS NO GROUNDS FOR REOPENING DISCOVERY
In a last ditch effort, Berisha asks this Court to
reopen discovery pursuant to Rule 56(d). Br. 70-73. Despite his contention to the contrary (Br. 9), this Court
reviews “both the denial of a motion for extension of
time and the denial of a motion seeking discovery under the abuse-of-discretion standard.” Barrett v. [73]
Walker Cty. Sch. Dist., 872 F.3d 1209, 1230 (11th Cir.
2017). Whatever the standard of review, the Discovery
Deadline Orders should be afﬁrmed.

App. 157
First, Berisha argues that the lower court should
have given him more time to “compel production” of
Defendants’ privileged communications “and allow
additional time for discovery concerning those communications.” Br. 73. The obvious problem with this
argument is that those privileged documents were
properly withheld as per the Privilege Order. Because
there are no grounds to overrule the Privilege Order,
there is no harm to redress and Berisha must accept
that he is not entitled to the discovery he desires.
Second, Berisha requests more time “to depose
four of Lawson’s supposed ‘sources,’” who live abroad.
Br. 73. None of these witnesses have any bearing on
the dispositive actual malice analysis in this case and
it was within the district court’s discretion to deny Berisha additional time for this purpose. And this argument ignores that Judge Cooke actually allowed him
“to conduct discovery beyond the discovery deadline”
so that he could take these depositions and he still
failed to do so. D.E.104. Berisha also neglects to mention that he did even take the ﬁrst step in securing his
foreign depositions (i.e., ﬁling letters of issue) until
June 27, 2018 – even though he knew he wanted to
take foreign depositions since at least February of that
year. In other words, if Berisha feels like he ran out of
time to complete discovery, he only has himself to
blame.

App. 158
[74] CONCLUSION
For the reasons set forth above, Defendants respectfully request that the Court afﬁrm the Discovery
Deadline Orders, the Privilege Order and the SJ Order
granting Defendants’ motion for summary judgment
and dismissing Berisha’s defamation claims with prejudice.
DAVIS WRIGHT TREMAINE LLP
By: s/ Elizabeth A. McNamara
Elizabeth A. McNamara
John M. Browning
1251 Avenue of the Americas, 21st Floor
New York, NY 10020
(212) 603-6427
lizmcnamara@dwt.com
jackbrowning@dwt.com
AKERMAN LLP
Michael C. Marsh (Florida Bar No.
276383)
Ryan Roman (Florida Bar No. 025509)
Three Brickell City Center
98 S.E. 7th Street, Suite 1100
Miami, Florida 33131
(305) 374-5600
michael.marsh@akerman.com
ryan.roman@akerman.com
Attorneys for Defendants-Appellees
Simon & Schuster, Inc., Guy Lawson,
Alexander Podrizki, David Packouz
and Recorded Books, Inc.

App. 159
[75] CERTIFICATE OF COMPLIANCE
As counsel of record to Defendants-Appellees Simon & Schuster, Inc., Guy Lawson, Alexander Podrizki, David Packouz and Recorded Books, Inc., I
hereby certify that this brief complies with the typevolume limitations forth in
Rule 32(a)(7)(B) of the Federal Rules of Appellate
Procedure and 11th Cir. R. 28-1(m) – as extended by
order of this Court on April 29, 2019. I am relying upon
the word count of the word-processing system (Microsoft Word) used to prepare the brief, which indicates
that 16,995 words appear in the brief, except for the
portions excluded from the word count pursuant to
Federal Rule of Appellate Procedure 32(f ). This brief is
in 14-point Times New Roman proportional font.
s/ Elizabeth A. McNamara
Elizabeth A. McNamara
[76] CERTIFICATE OF SERVICE
I hereby certify that on June 2, 2019 I electronically ﬁled this document with the Clerk of Court using
the CM/ECF system, which will serve this document
on all counsel of record.
By: /s/ Elizabeth A. McNamara
Elizabeth A. McNamara

App. 160
UNITED STATES DISTRICT COURT FOR
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-cv-22144-COOKE-LOUIS
SHKELZEN BERISHA,
Plaintiff,
vs.
GUY LAWSON, EFRAIM
DIVEROLI, ALEXANDER
PODRIZKI, DAVID PACKOUZ, SIMON & SCHUSTER,
INC., RECORDED BOOKS,
INC., AND INCARCERATED
ENTERTAINMENT, LLC,
Defendants.

/

DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT AND INCORPORATED
MEMORANDUM OF LAW
(Filed Aug. 8, 2018)
Pursuant to Federal Rule of Civil Procedure 56(a)
and Southern District of Florida Local Rule 56.1, Defendants Guy Lawson (“Lawson”), Alexander Podrizki,
David Packouz, Simon & Schuster, Inc. (“S&S”) and
Recorded Books, Inc. (“Recorded Books”) (collectively
“Defendants”) move for summary judgment against

App. 161
plaintiff Shkelzen Berisha (“Plaintiff ”) as to both of
the two counts of the Complaint [ECF No. 1].1
PRELIMINARY STATEMENT
This defamation action is a transparent effort to
stiﬂe legitimate reporting on Plaintiff ’s widely publicized involvement in corrupt arms dealing and should
be summarily dismissed pursuant to the actual malice
standard imposed by the First Amendment. Plaintiff is
the son of the former Prime Minister of Albania and he
has sued Defendants for defamation based on his brief
appearance in a 234-page non-ﬁction book, Arms & the
Dudes: How Three Stoners from Miami Beach Became
the Most Unlikely Gunrunners in History, written by
Guy Lawson and published by S&S (the “Book”). As its
title suggests, the Book reports the true story of three
young men – Efraim Diveroli, David Packouz and Alexander Podrizki – who fulﬁlled procurement contracts
worth hundreds of millions of dollars for the U.S. Military and became embroiled in an audacious scheme to
ship 100 million rounds of surplus ammunition from
Albania to Afghanistan, for use in the War on Terror.
The three “dudes’ adventure came to an end when they
were convicted of fraud for their role in shipping the
Albanian ammunition.
In this action, Plaintiff challenges a handful of the
Book’s statements, which together all state or imply
1

Pursuant to Florida Statute Section 768.295 (the “SLAPP
Law”), Defendants have ﬁled a concurrent motion for expeditious
resolution of their summary judgment motion.

App. 162
the same thing: that Plaintiff was involved in the
dudes’ Albanian deal, including corruption and kickbacks, and that he was associated with a dangerous
Albanian “maﬁa.” Yet, the record establishes that
starting in 2008, and consistently for years thereafter,
widespread press reports had implicated Plaintiff in
corrupt arms deals and associated him with “thugs” or
“maﬁa.” Indeed, these contentions were originally published in a 2008 front page New York Times article,
then repeated over and over in the Albanian press with
fresh and incriminating details, including a highly
damning 2010 news broadcast by a prominent Albanian investigative journalist, stated on the ﬂoor of the
Albanian Parliament, and even found their way into
diplomatic cables written by the U.S. Ambassador to
Albania that were leaked to the press in 2011. Then,
these same allegations were included in Lawson’s 2011
Rolling Stone article that was expanded into the 2015
Book. In short, by the time the Book was published, the
fact that Plaintiff was involved in corrupt arms deals,
or consorted with “maﬁa,” was “old news.” And it was
news that during this entire period Plaintiff never
challenged in litigation, and he never obtained any correction or retraction of these myriad prior reports.
That is, until he brought this action, almost two years
to the day after the Book was originally published.
The First Amendment ensures that meritless defamation actions should be dismissed at summary judgment. Because of his prominence, ready access to the
media and widely reported involvement in corruption,
Plaintiff is, at least, a limited purpose public ﬁgure.

App. 163
(POINT I, infra.) As a public ﬁgure, Plaintiff must
come forward with clear and convincing evidence that
each Defendant published the statements about him
with actual malice (i.e., that Defendants subjectively
knew the statements were false or harbored serious
doubts about the accuracy of the reporting). Yet even
after a year of extensive discovery, during which Defendants have produced nearly 20,000 documents and
have all submitted to depositions, Plaintiff has failed
to ﬁnd a single scrap of evidence that any Defendant
doubted the accuracy of the Book’s reporting on Plaintiff ’s involvement in corrupt arms dealing. To the contrary, the evidentiary record shows that Defendants
reasonably relied on the enormous volume of prior reporting that Plaintiff was not only involved in corrupt
dealing with the dudes but also played a role in a corrupt arms deal that led to the deaths of 26 people in
Gerdec, Albania. (POINT II, infra).
The law is clear and dispositive. Plaintiff cannot
establish that any Defendant published the Book with
actual malice when the same claims of corruption and
maﬁa activity had been published for nearly a decade
without retraction or repudiation. Simply put, “[t]he
subjective awareness of probable falsity required [ ]
cannot be found where, as here, the publisher’s allegations are supported by a multitude of previous reports
upon which the publisher reasonably relied.” Rosanova
v. Playboy Enters., 580 F.2d 859, 862 (5th Cir. 1978).
Since Plaintiff cannot establish a necessary element
of his defamation claim as a matter of settled law,

App. 164
summary judgment should be awarded in favor of Defendants.
STATEMENT OF FACTS
A. AEY and the Albanian Deal2
In the early-to-mid-2000s, while he was still in his
teens, Efraim Diveroli ran a company called AEY that
fulﬁlled procurement contracts for the U.S. Government, specializing in weapons and ammunition. SOF
¶4-5. Diveroli was able to enter and thrive in this business as a teenager because, at that time, the Government permitted any private company to bid on large
government contracts (including contracts for supplying weapons to the military) via a free website called
FedBizOpps.gov (“FedBizOpps”) with relatively little
oversight. Id. ¶4.
In late 2005, after Diveroli had already made millions of dollars from FedBizOpps, he enlisted the help
of his childhood friend, David Packouz (“Packouz”), to
expand the business. Id. ¶4. Packouz’s role was to locate suitable munitions contracts, bid on them and
(assuming AEY won) to work with arms dealers and
others to deliver the weapons to the U.S. Government
as cheaply as possible. Id. ¶4. In the summer of 2006,
AEY bid on its biggest contract to date – a $300 million
2

The material facts underlying this Motion are set forth in
full in Defendants’ Statement of Undisputed Facts (“SOF”), which
is ﬁled concurrently herewith. Unless otherwise indicated, all of
the facts about AEY set forth below are reported in the Book and
are indisputably true.

App. 165
contract to arm the Afghan security forces so that they
could ﬁght the Taliban as part of the United States’
War on Terror (the “Afghan Contract”). Id. ¶5-6. The
single largest component of this order was a provision
requiring 100-million rounds of AK-47 ammunition. Id.
¶7. AEY was able to source this ammunition from a
Swiss middleman, Heinrich Thomet, who was able to
obtain the whole order from surplus stockpiles in
Albania and offer an extremely competitive price. Id.
¶8. Based in large part on its exclusive opportunity to
buy Albanian ammunition cheaply, AEY beat out much
more established competitors and won the Afghan
Contract. Id. ¶6.
Packouz set to work trying to handle the logistics
of the various components of the Afghan Contract, including how to transport 100-million rounds of ammunition scattered around Soviet-era bunkers in Albania
to U.S. Army bases in Afghanistan. Id. ¶7. Quickly realizing that he needed someone on the ground in Albania, he enlisted his childhood friend Alex Podrizki
(“Podrizki”), who had some international experience
from time spent in France working for the French military. Id. ¶10. While Packouz stayed in Miami to handle
the global logistics, Podrizki travelled to Tirana, the
Albanian capital, in May 2007. Id. ¶11.
In Tirana, Podrizki met Ylli Pinari, the head of
MEICO – a state-owned company created by the Albanian government to dispose of the immense stockpiles
of weapons left over from the Cold War. Id. ¶11-12. AEY
was set to purchase AK-47 ammunition from MEICO
on the following terms: a Cyprus shell company run by

App. 166
Swiss middleman Thomet would buy the ammunition
from MEICO and then sell it to AEY. Id. ¶7-9. Unbeknownst to AEY, Thomet bought ammunition from
MEICO for about half the price at which he resold it to
AEY. Id. ¶7-9, 15. It was understood that Thomet used
the difference in price to bribe Albanian ofﬁcials like
Pinari, which is not uncommon in the world of arms
dealing. Id. ¶16.
In his role as Logistics Coordinator, Podrizki
started inspecting the Albanian ammunition to ensure
that it was serviceable (i.e., would ﬁre correctly). Id.
¶12. Although the ammunition was very old, it seemed
to work properly when Podrizki tested it. Id. However,
Podrizki discovered Chinese markings on the crates
and metal cans in which the ammunition was packed.
Id. ¶13. This posed a problem for AEY since there was
a long-standing embargo barring American companies
from selling Chinese made ammunition. Id. AEY conﬁrmed with the U.S. Government that it could not ship
Chinese ammunition under the Afghan Contract. Id.
Diveroli and Packouz decided to ship the ammunition anyway and worked to conceal the Chinese marking through repacking. In order to accomplish the
considerable work of repacking 100 million rounds of
ammunition, Podrizki engaged local Albanian businessman Kosta Trebicka, who agreed to provide
enough boxes and labor to handle the job. Id. ¶13-14.
Soon after the repackaging project began,
Trebicka discovered that Thomet was marking up
the price of the ammunition he was purchasing from

App. 167
MEICO and told Diveroli. Id. ¶15. Feeling cheated,
Diveroli travelled to Albania personally in late May
2007 to meet with Pinari and renegotiate the price
(preferably in a way that would remove Thomet from
the deal). Id. ¶17. Soon after he arrived, Diveroli and
Podrizki met Pinari at his ofﬁce in the Albanian Ministry of Defense. Id. ¶18. Diveroli tried to renegotiate
the price using documents forged by Packouz to make
it look like AEY had cheaper offers elsewhere, but
Pinari recognized that the documents were fake. Id.
After the meeting reached an impasse, Pinari suggested that they meet with someone else to discuss the
price. Id. ¶19.
After travelling to another ofﬁce in a half-constructed building, Pinari introduced Diveroli and Podrizki to a thuggish-looking man named Mihail
Delijorgji. Id. Delijorgji offered to give Diveroli a discount on the price of the ammunition in return for cutting Trebicka out of the repackaging deal and paying
Delijorgji’s company to do the job instead. Id. ¶20. Also
present in the meeting was a young man, who looked
to be in his mid-20s (like Podrizki). Id. ¶21. The young
man was not introduced and did not say anything. Id.
¶22. After the meeting ended, Podrizki and Diveroli
felt like they had just met with dangerous individuals,
associated with an Albanian maﬁa. Id. ¶101.
The next day, Podrizki met Diveroli and Trebicka
at the hotel where Diveroli was staying. Id. ¶22. Diveroli and Trebicka told Podrizki that the unidentiﬁed
man at the meeting was plaintiff Shkelzen Berisha,
the son of the Albanian prime minister – with Diveroli

App. 168
indicating that he had learned this from Pinari and
Trebicka indicating that he had learned it from a
source in the Albanian government. Id. ¶23. Although
Podrizki stayed in Albania to supervise the ammunition deliveries, Diveroli left Albania soon after, having
decided to cut Trebicka out of the repackaging deal in
order to get a discount on the Albanian ammunition.
Id. ¶24. Delijorgji took over the repackaging project
soon thereafter. Id.
Angered by the sudden reversal in fortune,
Trebicka started to look for ways to expose the kickbacks he believed were going to Albanian ofﬁcials as
part of the AEY deal. Id. ¶25. He began speaking with
reporters from Albanian publications and the New
York Times. Id. In an effort to incriminate Diveroli and
create a record of his corruption, Trebicka recorded one
of their phone calls. Id. ¶26. In that call, Diveroli told
Trebicka to bribe Pinari with $20,000, but he lamented
that his hands were tied with regard to the repackaging deal because the corruption “went up higher, to the
prime minister, and his son,” adding “this Maﬁa is too
strong for me.” Id. ¶27.
Meanwhile, federal agents were investigating
AEY over its shipments of Chinese ammunition. Id.
¶28. On August 23, 2007, they raided AEY’s ofﬁces. Id.
By that time, Packouz had left AEY – after falling out
with Diveroli – but Podrizki was still in Albania and
had managed to deliver more than 30 million rounds
of repacked ammunition to Afghanistan. Id. ¶101.
Packouz found out about the raid and relayed the information to Podrizki. Id. Podrizki called AEY and one

App. 169
of its employees lied to him in an attempt to conceal
the truth about the raid. Id. Fearing that he was being
set up, Podrizki decided to leave Albania via a boat to
Italy. Id. ¶28. On the boat ride, Podrizki dropped his
company laptop into the Adriatic for fear that Diveroli
had planted something incriminating on it (although
he saved all of his correspondence to hand over to investigators). Id. ¶28.
Packouz and Podrizki cooperated fully with investigators in the hopes of avoiding an indictment. Id.
¶28-29. However, in March 2008, the New York Times
published a lengthy front page article about AEY, reporting that it was involved in a kickback scheme to
pay off Albanian ofﬁcials, including Pinari and Minister of Defense Fatmir Mediu (the “NYT Article”). Id.
¶3234. In reporting on the corruption involved in
AEY’s deal, the Times quoted Diveroli’s recorded statement to Trebicka that “it went up higher to the prime
minister and his son,” suggesting that Plaintiff was
part of a “maﬁa.” Id. ¶35. The NYT Article also reported that a terrible explosion had occurred days earlier, killing 26 people in a small Albanian town called
Gerdec, where munitions previously owned by MEICO
were being dismantled (“Gerdec”).3 Id. ¶30. Gerdec was
an enormous scandal in Albania. Id. Pinari and Delijorgji were eventually jailed for their involvement in
the events that led to Gerdec. Id. ¶31. Mediu evaded
3

Although AEY was not directly involved in Gerdec, the two
scandals were linked in numerous reports because the people and
entities involved overlapped (i.e., MEICO, Pinari, Delijorgji, Defense Minister Mediu and Plaintiff).

App. 170
justice by hiding behind parliamentary immunity. Id.
¶32. Despite compelling evidence that Plaintiff was involved – including phone records indicating that he
spoke with Delijorgi and Mediu on the day of the blast
– Plaintiff was never even questioned as part of the
investigation. Id. ¶30-33.
Back in the United States, the NYT Article created
a backlash against AEY. Id. ¶42. Packouz and Podrizki
were indicted on multiple fraud counts, together with
Diveroli. Id. Ultimately, Packouz, Podrizki and Diveroli
pleaded guilty to defrauding the U.S. Government. Id.
¶43. Packouz and Podrizki received house arrest, while
Diveroli was sentenced to four years in prison. Id. ¶44.
B. The Book and the Complaint
The Book at issue in this defamation action grew
out of a March 16, 2011 feature article that Lawson
wrote about AEY for Rolling Stone magazine, entitled
Aims & The Dudes: How Two Stoner Kids from Miami
Beach Became Big-Time Arms Dealers (the “RS Article”). Id. ¶45-48. Like the NYT Article, the RS Article
reported that the AEY deal was structured to pay Albanian ofﬁcials kickbacks and quoted the recorded
tape of Diveroli saying that the corruption went “all
the way to the prime minister and his son.” Id. ¶49.
Lawson also reported that the “repackaging job” was
transferred to “a friend of the prime minister’s son,
Mihail Delijorgji.” Id. ¶50. In order to write the RS
Article, Lawson contacted and began collaborating
with Packouz, who provided documentation and gave

App. 171
interviews to supplement the court ﬁles and news reports that were publicly available (such as the recording of Diveroli). Id. ¶47. The RS Article was a huge
success due to the incredible story it told about how 20something pot smoking “dudes,” Diveroli, Packouz and
Podrizki, had become international arms dealers. Id.
¶51. Lawson sold the movie rights to the article to
Warner Bros. – which turned it into the major motion
picture War Dogs – and, on June 28, 2011, he entered
into a publishing agreement with S&S to turn the RS
Article into a book. Id. ¶57. Recorded Books licensed
the right to record the audio version of the Book. Id.
¶61. No legal challenge, by Plaintiff or anyone else,
arose out of the RS Article; nor was there any correction or retraction, despite its reporting that Plaintiff
engaged in corrupt arms dealing and had “maﬁa” ties.
Id. ¶52. The RS Article remains available to this day.4
Id. ¶53.
Consistent with its standard procedures, S&S did
not fact check the Book (as per standard industry practice) and instead relied upon Lawson’s considerable
journalistic reputation and his contractual warranties
to ensure the Book’s accuracy. Id. ¶59. In the four years
he spent painstakingly researching the Book, Lawson
4

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
SOF ¶54. See Dixon v. Bie ue, No. 04-80827-CIV, 2005 WL
8156143, at 4 S.D. F a. Oct. 18, 2005), red sub nom. Dixon v. Bradshaw, 212 F. App’x 941 (11th Cir. 2007) (“In identifying genuine
issues of material fact, the ‘unsupported, self-serving statements
of the party opposing summary judgment are insufﬁcient to avoid
summary judgment.’ ”).

App. 172
reviewed tens of thousands of pages of documentary
evidence and interviewed scores of people. Id. ¶62. As
set forth in greater detail below (see infra Sections
II(B)-(C)), Lawson read and compiled a wealth of news
reporting and interview testimony concerning corrupt
arms dealing in Albania, including many articles published in reliable publications reporting that Plaintiff
was involved in the corruption. SOF ¶62. Lawson also
entered into life-rights agreements with Packouz and
Podrizki – which are common in the book publishing
world – and in return for payment, Packouz and Podrizki provided Lawson with documents, interviews,
and the beneﬁt of their ﬁrsthand experience working
for AEY. Id. ¶63. In June 2015, S&S published the
hardcover edition of the book and published a paperback version in July 2016, retitled War Dogs, to tie in
with the movie. Id. ¶71.
In the nearly ﬁve years it took Lawson to write the
Book, Plaintiff never communicated with Defendants
regarding the accuracy of his portrayal in Lawson’s
2011 RS Article. Id. ¶74. On June 8, 2017 – almost two
years after S&S published the work and mere days before the statute of limitations expired – Plaintiff ﬁled
this defamation action against Defendants. Plaintiff
challenges the handful of statements about him in the
Book, which amounts to approximately two paragraphs out of 244 pages. Speciﬁcally, Plaintiff ’s Complaint identiﬁes four statements in the Book that refer
to him:
a.

On page 150, the Book reports that
“Diveroli had agreed to cut Trebicka out

App. 173
of the repacking job, which was now being
done by a company called AlbDemil, an
entity seemingly controlled by the prime
minister’s son and Mihail Delijorgji;”
b.

In the Photograph section of the Book, a
photo of Plaintiff appears with the caption: “Also involved, the dudes discovered,
was the prime minister’s son, Shkelzen
Berisha;”

c.

On page 160, the Book quotes the recorded conversation between Diveroli and
Trebicka that was featured in the 2008
NYT Article, in which Diveroli said, “The
more it went up higher, to the prime minister, to his son—this Maﬁa is too strong
for me . . . I can’t ﬁght this Maﬁa. It got
too big. The animals got too out of control;” and

d.

On pages 139-40, the Book describes the
2007 meeting in Tirana between Podrizki,
Packouz, Pinari, Delijorgji, and “a young
man around their age sitting in the corner. Dressed in a baseball cap and a
sweater, he had dark hair, a soft chin, and
sharklike eyes. He wasn’t introduced.
This was Shkelzen Berisha, the son of the
prime minister of Albania, they would
later be told by Pinari. Shkelzen was part
of what was known in Albania as ‘the
family,’ the tight-knit and extremely dangerous group that surrounded and lived
at the beneﬁcence of the prime minister,
Sali Berisha. . . . Delijorgji said that if

App. 174
Diveroli wanted a discount he would have
to change the arrangements for the repacking operation at the airport . . . The
son of the prime minister remained silent” (the “Tirana Meeting”).5
Compl. ¶¶87, 99-106 (the “Statements”). Virtually everything in the Statements – and most certainly the defamatory “sting” of each Statement – was previously
reported by reliable news organizations, like the New
York Times, over the course of a decade.
C. Prior Reporting on Plaintiff ’s Involvement in Corrupt Arms Dealing and
Dangerous Mafia Activity
As Plaintiff has conceded in his Complaint and at
his deposition, the alleged defamatory gist of the Statements is that Plaintiff received “illegal kickbacks in
connection with illicit arms dealings” and was “part of
an extremely dangerous group” (or “maﬁa”). Compl.
¶¶ 99-106. But beginning in 2008 with the New York
Times, many news organizations and reliable sources
have reported precisely this information. SOF ¶¶34,
5

The Complaint also challenges two general references to
“Albanian mobsters” or “an Albanian Maﬁoso” that appear in the
Author’s Note and Chapter One, but neither of those two references refer to Plaintiff and are instead intended to refer to
Delijorgji. Compl. ¶¶ 101-102. Plaintiff also challenges two statements made to the media by Lawson concerning the Book, but one
refers to the “prime minister of Albania,” not Plaintiff, and the
other repeats the same gist as the Statements in the Book: Plaintiff was implicated in the corruption surrounding the AEY arms
deal. Compl. ¶¶ 107-108.

App. 175
40, 96. After the original NYT Article broke the story
of AEY, several months later, the Times again quoted
the recorded statements made by Diveroli about Plaintiff in an article reporting on whistleblower Trebicka’s
highly suspicious car accident just as the investigation
into Gerdec intensiﬁed. Id. ¶83. The clear implication
was that Plaintiff and his family were suspects in
Trebicka’s mysterious death. Id. ¶83-84. In 2010, a respected Albanian journalist, Ilva Tare, released a news
report on the Gerdec explosion, which presented damning evidence that Plaintiff was involved in the corrupt
arms deal and the backroom dealing that precipitated
Gerdec. Id. ¶88-89. The unmistakable conclusion of the
newscast was that Plaintiff should have been prosecuted as a result of his conduct but was the beneﬁciary
of a cover-up. Id. Then, as the Albanian investigation
intensiﬁed – with accusations against Plaintiff made
in the Albanian Parliament – leaked State Department
cables written by the U.S. Ambassador revealed that
the former head of the Albanian Army had come to
the Embassy in fear for his life after Plaintiff had personally pressured him to deliver heavy munitions to
Gerdec. Id. ¶92. As his declaration fully documents,
Lawson relied on numerous additional news reports,
books, and interviews with sources concerning Plaintiff ’s association with the arms deals, including Podrizki, who positively identiﬁed Plaintiff from a
photograph as the unnamed man at the Tirana Meeting. Id. ¶101. Over the course of nearly a decade, Plaintiff failed to sue any of the news organizations or
individuals that published these reports on his corruption. Id. ¶91, 95. Moreover, none of these reports have

App. 176
been corrected or retracted in response to a claim or
threat of legal action from Plaintiff. Id. ¶¶ 39, 52, 98,
91, 95.
For the reasons set forth below, Plaintiff cannot establish actual malice given the evidence that Defendants relied on the unchallenged prior reporting that
Plaintiff was involved in corrupt arms dealing and consorted with members of a dangerous “maﬁa.” Since
Plaintiff cannot establish an essential element of his
defamation claims, this action should be dismissed.
STANDARD OF REVIEW
A court “shall grant summary judgment if the movant shows that there is no genuine dispute as to any
material fact and movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). “A party seeking
summary judgment” must show an “absence of a genuine issue of material fact.” Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986). “Only disputes over facts that
might affect the outcome of the suit under the governing law will properly preclude the entry of summary
judgment.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986). “A mere ‘scintilla’ of evidence supporting the opposing party’s position will not sufﬁce; there
must be enough of a showing that the jury could reasonably ﬁnd for that party.” Brooks v. Cly. Comm’n of
Jefferson Cly., 446 F.3d 1160, 1162 (11th Cir. 2006) (citation omitted). Ultimately, “when a claimant fails to
produce ‘anything more than a repetition of [her] conclusory allegations,’ summary judgment for the

App. 177
movant is ‘not only proper but required.’ Santillana v.
Fla. State Court Sys., No. 6:09-CV-2095, 2011 WL 722765,
at *14 (M.D. Fla. Feb. 23, 2011) (quoting Morris v. Ross,
663 F.2d 1032, 1034 (11th Cir. 1981)), aff ’d, 450 F.
App’x 840 (11th Cir. 2012).
As the Eleventh Circuit has recognized, summary
dismissal of defamation cases is particularly appropriate because “there is a powerful interest in ensuring
that free speech is not unduly burdened by the necessity of defending against expensive yet groundless litigation.” Michel v. NYP Holdings, 816 F.3d 686, 702
(11th Cir. 2016) (holding that Iqbal/Twombly plausibility pleading standard must be satisﬁed to properly allege actual malice). In other words, "because of the
importance of free speech, summary judgment is the
‘rule,’ and not the exception, in defamation cases.”
Guitar v. Westinghouse Elec. Corp., 396 F. Supp. 1042,
1053 (S.D.N.Y. 1975) (citing Bon Air Hotel, Inc. v. Time,
Inc., 426 F.2d 858 (5th Cir. 1970)), aff ’d, 538 F.2d 309
(2d Cir. 1976); see also Trapp v. Southeastern Newspapers, No. CV182-251, 1984 U.S. Dist. LEXIS 24906, at
*19 (S.D. Ga. June 7, 1984) (“in the First Amendment
area, summary procedures are . . . even more essential
[than in other areas of civil litigation]” (citing Washington Post v. Keogh, 365 F.2d 965, 968 (D.C. Cir. 1966)).
Under Florida law, a party alleging defamation ultimately bears the burden of proving: (1) publication of
a statement to a third party; (2) falsity; (3) actual malice for public ﬁgures; (4) actual damages; and (5) that
the statement was defamatory. Turner v. Wells, 879
F.3d 1254, 1262 (11th Cir. 2018) (citing Jews For Jesus,

App. 178
Inc. v. Rapp, 997 So. 2d 1098, 1106 (Fla. 2008)). Where,
as here, the plaintiff is a public ﬁgure, falsity does not
sufﬁce; he must also demonstrate by clear and convincing evidence that each defendant acted with “actual
malice,” i.e., that each entertained serious doubts as to
the truth of the publication or was highly aware that
the published statement was false. Gertz v. Robert
Welch, Inc., 418 U.S. 323, 334-35, 342 (1974); see also
Michel, 816 F.3d at 702-03 (citing St. Amant v. Thompson, 390 U.S. 727, 731 (1968)).
For the reasons set forth below, Plaintiff has not
and cannot establish that any Defendant acted with
actual malice. Therefore, this Court should grant summary judgment.
ARGUMENT:
PLAINTIFF’S DEFAMATION ACTION SHOULD
BE DISMISSED BECAUSE THERE IS NO EVIDENCE DEMONSTRATING ACTUAL MALICE
This defamation action should be dismissed because the evidence conclusively demonstrates the absence of actual malice, which Plaintiff is required to
prove by clear and convincing evidence in order to satisfy the strict requirements of the First Amendment.
The First Amendment protects freedom of speech
by imposing a heavy burden on public ﬁgures, like
Plaintiff, who ﬁle defamation claims. In addition to
proving that the statements at issue are false and defamatory, public figures “must prove that the defendant acted with actual malice to establish liability.”

App. 179
Silvester v. American Broad. Cos., 839 F.2d 1491, 1493
(11th Cir. 1988) (citing N.Y. Times Co. v. Sullivan, 376
U.S. 254 (1964)). In his seminal opinion deciding Sullivan, Justice Brennan explained that the purpose of the
actual malice requirement reﬂects our “profound national commitment to the principle that debate on
public issues should be uninhibited, robust and wideopen.” N.Y. Times, 376 U.S. at 270. In other words, the
First Amendment secures the “breathing space” that
journalists, publishers and sources all require to critique powerful individuals, particularly in cases such
as this where Plaintiff seeks to silence and suppress
Defendants’ well-founded reporting that he was involved in corrupt arms dealing and “maﬁa” activity. Id.
at 272.
“The standard of actual malice is a daunting one.”
Howard v. Antilla, 294 F.3d 244, 252 (1st Cir. 2002)
(quoting McFarland v. Esquire Magazine, 74 F.3d 1296,
1308 (D.C. Cir. 1996)). In order to establish that Defendants “acted with actual malice by publishing defamatory material,” Plaintiff “must show that
[Defendants] acted with knowledge that it was false or
with reckless disregard of whether it was false or not.”
Silvester, 839 F.2d at 1498 (internal quotation marks
omitted). This is a strictly subjective analysis focused
solely on the defendant’s actual state of mind “at the
time of publication.” Bose Corp. v. Consumer Union of
U.S., Inc., 466 U.S. 485, 512 (1984). Establishing
“knowledge of falsity is self-explanatory” and requires
proof that the defendant was actually aware that the
statement in suit was false at the time it was

App. 180
published. Id. Reckless disregard for the truth is determined by a different “subjective test, focusing on
whether the defendant ‘actually entertained serious
doubts as to the veracity of the published account, or
was highly aware that the account was probably
false.’ ” Turner, 879 F.3d at 1273 (quoting Michel, 816
F.3d at 702-03).
“Negligence is not the appropriate standard for
proving actual malice.” Meisler v. Gannett Co., 12 F.3d
1026, 1030 (11th Cir. 1994). Actual malice is thus not
an objective test of whether a publisher acted reasonably with the beneﬁt of hindsight, but instead requires
a subjective inquiry into the publisher’s knowledge at
the time of publication:
[R]eckless conduct is not measured by
whether a reasonably prudent man would
have published, or would have investigated
before publishing. There must be sufﬁcient evidence to permit the conclusion that defendant in fact entertained serious doubts as to
the truth of his publication.
St. Amant, 390 U.S. at 731 (emphasis added). For journalists and publishers, even an “extreme departure
from professional standards” does not rise to the level
of actual malice. Harte-Hanks Commc’ns, Inc. v. Connaughton, 491 U.S. 657, 665 (1989). See also Durando
v. Nutley Sun, 37 A.3d 449, 459 (N.J. 2012) (“[T]he actual-malice test will shield careless acts of publication
that would be considered irresponsible by common
journalistic standards.”).

App. 181
As an additional safeguard for publishers, the
First Amendment requires defamation plaintiffs “to
prove actual malice by clear and convincing evidence.”
Levan v. Capital Cities/ABC, Inc., 190 F.3d 1230, 1239
(11th Cir. 1999) (citing Gertz, 418 U.S. at 342). This
standard of proof imposes “a heavy burden [on plaintiffs] far in excess of the preponderance sufﬁcient for
most civil litigation.” Eastwood v. National Enquirer,
Inc., 123 F.3d 1249, 1252 (9th Cir. 1997) (citation omitted). Moreover, actual malice “must be proved separately with respect to each defendant, and cannot be
imputed from one defendant to another absent an employer-employee relationship giving rise to respondeat
superior.” Secord v. Cockburn, 747 F. Supp. 779, 787
(D.D.C. 1990) (citation omitted).
Last, actual malice is a constitutional requirement
that stands separate and apart from the requirement
that a plaintiff must establish the falsity of the challenged statements. Per the Eleventh Circuit, “[t]he
mere existence of a false statement does not, on its
own, demonstrate . . . knowledge of its falsity.” Tobinick
v. Novella, 848 F.3d 945, 946 (11th Cir.) (“Tobinick II),
cert denied, 138 S. Ct. 449 (2017). See also Secord, 747
F. Supp. at 792 (“To argue that evidence of actual malice exists by the mere fact that subsequent events determine the falsity of a source or statement would be
tantamount to conﬂating the actual malice and falsity
elements of a libel action.”). Put another way, Plaintiff
is required to establish actual malice by clear and
convincing evidence regardless of whether he can
eventually prove that any (or all) of the Statements are

App. 182
false.6 Accordingly, courts routinely award summary
judgment against defamation plaintiffs for failure to
show actual malice, even after assuming for purposes
of the motion that the statements at issue are false.
See, e.g., Meisler, 12 F.3d at 1029-30 (assuming arguendo that challenged article “includes false statements” and granting summary judgment because “no
reasonable jury could ﬁnd actual malice by clear and
convincing evidence on this record”).
I.

PLAINTIFF IS UNQUESTIONABLY A PUBLIC FIGURE SUBJECT TO THE ACTUAL
MALICE STANDARD

In a brazen effort to evade the constitutional safeguards provided by the actual malice standard, Plaintiff
asserts in his Complaint that he is the “quintessential
private figure.” Compl. ¶133. This statement is patently
untrue: Plaintiff is a household name in Albania.7 Not
only does he enjoy prominence as the son of the former
prime minister (who held that position during the
6

Plaintiff denies any involvement with arms dealing, and
speciﬁcally denies that he was present at the Tirana Meeting.
Solely for purpose of this Motion, Defendants will assume the
Statements are false so as to avoid any questions of fact.
7
See Time, Inc. v. McLaney, 406 F.2d 565 (5th Cir. 1969)
(holding plaintiff was a public ﬁgure and actual malice applied
where plaintiff injected himself into an election campaign in a
small foreign country, actively participated in political activity in
a foreign nation, contributed substantial material aid in a foreign
nation, and lent direct inﬂuence to the national government for
the country, rendering himself proper subject of inquiry and public interest).

App. 183
times relevant to this action), but Plaintiff also became
notorious in his own right for the role he played in the
AEY and Gerdec corruption scandals that shook the
nation, the very subject of the challenged Statements.
See SOF ¶114. Given his public ﬁgure status, Plaintiff
must come forward with evidence sufﬁcient to prove
actual malice in order to survive summary judgment.
“The test for determining liability in a defamation
case turns on whether the libeled party is a public or
private ﬁgure and on whether the defamatory publication addresses a public or private concern. If the injured party is a public ﬁgure or ofﬁcial and the
defamatory material involves issues of legitimate
public concern, the plaintiff must prove that the defendant acted with actual malice to establish liability.”
Silvester, 839 F.2d at 1493. Courts must decide
whether the plaintiff is a “general” or “limited” public
ﬁgure. Turner, 879 F.3d at 1272. General public ﬁgures
are “individuals who, by reason of fame or notoriety in
a community, will in all cases be required to prove actual malice.” Id. “Limited public ﬁgures, on the other
hand, are individuals who have thrust themselves forward in a particular public controversy and are therefore required to prove actual malice only in regard to
certain issues.” Id. This Circuit applies a two-part test
to determine limited purpose public ﬁgure status:
“First, the court must determine whether the individual played a central role in the controversy. Second, it
must determine whether the alleged defamation was
germane to the individual’s role in the controversy.” Id.
at 1273 (citing Friedgood v. Peters Publ’g Co., 521 So.

App. 184
2d. 236, 239 (Fla. 4th DCA 2006)). Under this test, it
may be “possible for someone to become a public ﬁgure
through no purposeful action of their own.” Friedgood,
521 So. 2d at 239. “[P]ublic ﬁgure status ‘is a question
of law to be determined by the court.’ ” Turner, 879 F.3d
at 1271 (citation omitted).
Plaintiff is, at the very least, a limited purpose
public ﬁgure.8 First, there is no serious dispute that the
Statements in suit “involve[ ] issues of legitimate public concern” and are clearly “germane” to these issues
of public concern. Silvester, 839 F.2d at 1493. Indeed,
the challenged Statements all address quintessential
issues of legitimate public concern: Plaintiff ’s involvement in corruption relating to AEY’s U.S. Government
contract to ship millions of dollars of Albanian ammunition to the Afghan army during a time of war, together with Plaintiff ’s association with “maﬁa” thugs
associated with the deal. See, e.g., Silvester, 839 F.2d at
1493 (“The public is legitimately interested in all matters of corruption . . . ”); Rosanova, 580 F.2d at 861 (article describing plaintiff ’s “reported associations and
activities concerning organized crime are, without
dispute, subjects of legitimate public concern”). The
widespread reporting on these very issues powerfully
underscores that this topic is a subject of legitimate
public concern – starting with the front page NYT

8

As the son of the Prime Minister, and given Plaintiff ’s general notoriety in the Albanian community, with hundreds of news
reports concerning him, Plaintiff should be a general purpose
public ﬁgure. See SOF ¶¶114-121.

App. 185
Article implicating Plaintiff in the corruption. SOF
¶34-35.
Next, the Court must determine “whether the individual played a central role in the controversy.”
Plaintiff easily clears this bar. Plaintiff found himself
at the very heart of the AEY and Gerdec arms dealing
scandals, which were heavily reported in the Albanian
press, discussed in the Albanian Parliament, and reported on in the United States, including in the many
publications relied on by Lawson. SOF ¶114. Indeed,
Plaintiff ’s involvement in the corrupt arms deals was
front page news in Albania. SOF ¶¶114-15. Likewise,
Plaintiff ’s connection to an Albanian “maﬁa” was also
reported twice by the New York Times in 2008, was rereported in other articles and books published in the
U.S., and was the subject of an in-depth newscast that
concluded Plaintiff had escaped justice and was never
investigated for his role in Gerdec. SOF ¶¶34, 46, 83,
96, 114, 115. Given this pervasive press documenting
Plaintiff ’s arms dealing activities, it was not surprising that Lawson’s sources had no doubt concluding
that Plaintiff was involved in AEY and Gerdec. See,
e.g., SOF ¶41 (Albanian source testiﬁed that he believed widespread news reporting that MEICO was a
“maﬁa-style company” that was “backed up by” Plaintiff ). Plaintiff was so central to the “media circus” that
ensued after the Gerdec explosion that the United
States Ambassador to Albania felt compelled to write
about Plaintiff ’s reported involvement in arms dealing
in multiple conﬁdential State Department cables. SOF
¶¶92-93. Simply put, Plaintiff cannot seriously dispute

App. 186
his public ﬁgure status “given that [he] has been the
subject of more than a decade of media coverage” on
topics related to his involvement in corrupt arms dealing and maﬁa activity. Deripaska v. Associated Press,
282 F. Supp. 3d 133 (D.D.C. 2017).
Aside from playing a highly prominent role in a
series of corruption scandals in Albania, Plaintiff is
also a public ﬁgure because of his “prominence and access to media.” Friedgood, 521 So. 2d at 240. Plaintiff
acknowledges that he is the son of Sali Berisha, who
was Albania’s ﬁrst President after the fall of Communism in the early 1990s and who served as the country’s Prime Minister between 2005 and 2013. A person
who, through his or her associations – often family relationships – plays a signiﬁcant continuing role in public events may also ﬁnd himself or herself classiﬁed as
a public ﬁgure even though as a matter of personal
choice he or she might well have chosen a private life
instead. See, e.g., Meeropol v. Nizer, 381 F. Supp. 29, 34
(S.D.N.Y. 1974) (holding that children of Julius and
Ethel Rosenberg were public ﬁgures because, “[a]s children of [Ethel and Julius] Rosenberg[ ], the plaintiffs
spent much of their early years in the public spotlight”), aff ’d, 560 F.2d 1061 (2d Cir. 1977). Plaintiff
clearly enjoyed prominence by virtue of being the son
of the most powerful man in Albania and this prominence weighs heavily in favor of public ﬁgure status.9
9

See Rosanova v. Playboy Enters., 411 F. Supp. 440 (S.D. Ga.
1976) (plaintiff ’s associations with organized crime ﬁgures made
him a public ﬁgure), aff ’d, 580 F.2d 859 (5th Cir. 1978); Robert D.
Sack, 1 Sack on Defamation, § 5.3.11 at 5-72 (April 2018) (“The

App. 187
Plaintiff ’s public ﬁgure status is further cemented
by the fact that by the time the Book was published in
2015, Plaintiff “had long had ready access to the media.” Silvester, 839 F.2d at 1498. See also Turner, 879
F.3d at 1273 (holding that plaintiff “inserted himself
into the controversy even after it had made national
news” when he “took advantage of his familiarity with
the media by commissioning a response to [an allegedly defamatory] Report”). Here, Plaintiff admits that
he had direct access to the media, and testiﬁed that he
has a XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXX SOF ¶118-19. Plaintiff even uses Facebook to
disseminate his thoughts through the media. SOF
¶120.10 Indeed, unbeknownst to Lawson, Plaintiff injected himself into the allegations concerning his connection to the AEY deal and issued a statement that
certain Albanian news outlets published. SOF ¶118. In
sum, because Plaintiff “ ‘had ready access to the media,’
[he] had easily acquired limited public ﬁgure status at
the time of the” Book’s publication. Colodny v. Iverson,
Yoakum, Papiano & Hatch, 936 F. Supp. 917, 922 (M.D.
Fla. 1996) (citation omitted).

spouse or child of a U.S. president is properly classiﬁed as a public
ﬁgure.”).
10
Tellingly, the Albanian media frequently publishes Plaintiff ’s Facebook posts, even on topics as mundane as the Kosovar
soccer team joining the European Football Association. SOF
¶118-120. Similarly, Plaintiff ’s heavily publicized relationship
with an Albanian social media personality – which is breathlessly
followed by the Albanian press – is yet more evidence of Plaintiff’s
unrestricted access to the media. SOF ¶121.

App. 188
Perhaps most telling is Plaintiff ’s admission that
he has sued the Albanian media for libel no less than
ten times in the last seven years based on news reporting concerning him on topics such as Plaintiff ’s alleged
obstruction of an energy project, his mismanagement
of the Albanian National Lottery, his failure to pay
taxes, etc., but notably not a single suit challenged the
widespread news reports connecting him to corrupt
arms dealing. SOF ¶116. And Plaintiff admits that the
only reason he did not bring actions before 2011, despite highly critical coverage of him, XXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
SOF ¶116-118. Plainly, Plaintiff is a central subject of
Albanian news coverage and he employs the levers of
power to rebut and respond to charges, using the Albanian – and now the U.S. – court system.11
In sum, since Plaintiff is a public ﬁgure and the
Book’s reporting on his involvement in corrupt arms
dealing and dangerous mafia activity is a matter of

11

Indeed, unbeknownst to Lawson prior to the Book’s publication, Plaintiff procured and apparently sought to publicize a
(highly suspicious) afﬁdavit from Trebicka that supposedly attests to Plaintiff ’s lack of involvement in the AEY deal. SOF ¶118.
Yet, Plaintiff ’s attempt to leverage press on this topic sufﬁces in
and of itself to establish his public ﬁgure status. As the Eleventh
Circuit recently held, a plaintiff becomes a public ﬁgure by “pushing” a source “to make a statement to the press defending” the
plaintiff against negative publicity, which is exactly what Plaintiff has admitted doing here. Turner, 879 F.3d at 1273.

App. 189
legitimate public concern, Plaintiff must prove actual
malice by clear and convincing evidence.12
II.

DEFENDANTS DID NOT ACT WITH ACTUAL
MALICE BECAUSE THEY WERE ENTITLED
TO RELY ON THE MANY RELIABLE NEWS
REPORTS AND SOURCES STATING THAT
PLAINTIFF WAS INVOLVED IN CORRUPT
ARMS DEALING AND MAFIA ACTIVITY

The analysis should begin and end with the undisputed evidence showing that the defamatory “gist” of
the Statements at issue was widely reported well before the publication of the Book and that such reports
were reasonably relied upon by each Defendant. In
short, Plaintiff ’s defamation claims fail, and he cannot
establish actual malice, based on a decades-old fundamental principle: “[t]he subjective awareness of probable falsity required . . . cannot be found where, as here,
12

Plaintiff will no doubt argue that he did nothing to voluntarily inject himself into the AEY or Gerdec arms deals, but it is
well established that one can “become a public ﬁgure through no
purposeful action of their own.” Turner, 879 F.3d at 1273 (quoting
Friedgood, 521 So. 2d at 239) (plaintiff was witness in her father’s murder trial); see also Street v. National Broad. Co., 645
F.2d 1227, 1234 (6th Cir. 1981) (holding that rape victim, even if
she had done nothing to inject herself into the initial controversy,
was a public ﬁgure because the resulting trials of the Scottsboro
Nine “generated widespread press and attracted public attention
for several years”); Rosanova, 580 F.2d at 861 (“Comment upon
people and activities of legitimate public concern often illuminates that which yearns for shadow. It is no answer to the assertion that one is a public ﬁgure to say, truthfully, that one doesn’t
choose to be.”).

App. 190
the publisher’s allegations are supported by a multitude of prior reports upon which the publisher reasonably relied.” Rosanova, 580 F.2d at 862. In order to
reach this inevitable conclusion, the actual malice
analysis requires two steps: (i) determining the “gist”
of the Statements and (ii) establishing whether Defendants actually harbored serious doubts that the gist
of the Statements was false at the time the Book was
published.
A. The Defamatory Gist and Sting of the
Statements is that Plaintiff Was Involved in Corrupt Arms Dealing and
Was Associated with a Dangerous Mafia
The ﬁrst step in the actual malice analysis is “to
determine the gist or sting of the report.” Levan, 190
F.3d at 1240 (footnote omitted). As the Eleventh Circuit explained, courts “must determine what the report, taken as a whole, is actually alleging about
[plaintiff ], and then determine if [defendant] broadcast that meaning with actual malice.” Id. at 1240 n.28.
In determining the “gist,” the Court looks to “the effect
on the mind of the reader” of the allegedly defamatory
statements and, using “that meaning” as a starting
point, id., determines whether the defendant in fact
“ ‘entertained serious doubts’ that the underlying
thrust of the [statement] was true.” Id. at 1240-41. Unlike other elements of a defamation claim that might
require “factual ﬁndings, ascertaining the gist [for the
purposes of actual malice] does not depend on resolving credibility issues, which are better left to the

App. 191
factﬁnder.” Id. at 1240 n.30. Therefore, it is the Court’s
role to determine the gist of the Statements before determining whether Defendants acted with actual malice by publishing those Statements.
Here, the undisputed “gist” of the challenged
Statements is that Plaintiff was involved in corrupt
arms dealing and was associated with a dangerous Albanian “maﬁa.” Plaintiff concedes this conclusion.
Compl. ¶ 99 (challenged statements imply Plaintiff received “illegal kickbacks in connection with illicit arms
dealings” and was “part of an extremely dangerous
group” or “maﬁa”). In particular, at his deposition, XXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
In sum, the defamatory gist and sting of the Statements, by Plaintiff ’s own admission, is that they implicated Plaintiff in a corrupt arms deal and associated
him with a dangerous maﬁa. Thus, in order to establish
actual malice, Plaintiff must come forward with clear
and convincing evidence showing that Defendants “entertained serious doubts [about the] thrust” of the
Book’s reporting on Plaintiff ’s corruption and maﬁa involvement. Levan, 190 F.3d at 1241.

App. 192
B. There Can Be No Actual Malice Because Defendants Were All Aware of Reliable Prior Reports that Plaintiff Was
Involved in Corrupt Arms Dealing and
Was Associated with a Dangerous Mafia
The absence of actual malice in this case is conclusively established by the fact that all the Defendants
were aware at the time of the Book’s publication of reliable news articles that conﬁrmed Plaintiff ’s involvement in corrupt arms dealing and his relationship with
a dangerous maﬁa.
Time and again, courts have dismissed defamation claims at the summary judgment stage because
“good faith reliance on previously published reports in
reputable sources . . . precludes a ﬁnding of actual malice as a matter of law.” Liberty Lobby v. Dow Jones &
Co., 838 F.2d 1287, 1297 (D.C. Cir. 1988). Here, Defendants reasonably relied on one or more previously published news reports that Plaintiff was involved in
corrupt arms dealing and consorted with dangerous
thugs – including New York Times articles and other
news reports in the U.S. and Albania, two books, and a
damning investigative newscast. This undisputed fact
precludes a ﬁnding of actual malice against any of the
Defendants.
The Eleventh Circuit recently reafﬁrmed the basic
principle that a publisher’s reliance on “trustworthy
sources demonstrates his lack of subjective belief that
the [allegedly defamatory] articles [in suit] contained
false statements.” Tobinick II, 848 F.3d at 947. In that

App. 193
case, defendant Novella was a doctor who published articles on a blog that examined “issues related to science
and medicine.” Id. at 940. Novella published two articles suggesting that plaintiff operated “quack clinics”
and was “committing a health fraud.” Id. at 940-41. A
key source relied on by Novella was a previously published article in the Los Angeles Times, which reported
that the claims plaintiff made about his back treatment “led to an investigation by the California Medical
Board, which placed him on probation for unprofessional conduct and made him take classes in prescribing practices and ethics.” Id. at 940.
Tobinick brought defamation claims against Novella in the Southern District of Florida, which the
lower court dismissed under California’s anti-SLAPP
law for failure to establish a likelihood of demonstrating actual malice. Tobinick v. Novella, 108 F. Supp. 3d
1299 (S.D. Fla. 2015) (“Tobinick I”), aff ’d, 848 F.3d 935
(11th Cir. 2017). The lower court held that Novella
could not have acted with actual malice when he relied
on “the Los Angeles Times for some points in the articles, feeling that extensive fact-checking of the Times,
which is a reputable source, was not necessary.” Id. at
1310. The Eleventh Circuit affirmed and held that there
was no actual malice because “Dr. Novella consulted
the Los Angeles Times article, many of Dr. Tobinick’s
case studies, the [Medical Board’s] accusations and the
Tobinick Appellants’ own websites.” Tobinick II, 848
F.3d at 947. As the Eleventh Circuit explained, “the
evidence of Dr. Novella’s investigation, in which he
looked to trustworthy sources, demonstrates his lack

App. 194
of subjective belief that the articles contained false
statements.” Id.
Countless decisions of the Eleventh Circuit and
other courts have likewise held that there is no actual
malice where the statements in suit were based upon
reliable news reports. For instance, the Eleventh Circuit afﬁrmed a judgment against a libel plaintiff for
lack of actual malice where journalists relied on “other
news media who were investigating” the same subject
as the allegedly defamatory broadcast in suit and
“came up with much of the same allegations and support, which serves to corroborate defendants’ ﬁndings.”
Silvester, 839 F.2d at 1498. In another case, the Eleventh Judicial Circuit in Florida held that there was no
actual malice when journalists relied on prior coverage
of plaintiff in foreign media because “[t]he Peruvian
media is a reliable source of the information that was
broadcast.” Salazar v. Telemundo Network Grp., LLC,
No. 03-15272 CA 23, 2006 WL 1650723, at *3 (Fla. Cir.
Ct. May 30, 2006). See also Friedgood, 521 So. 2d at 242
(holding that there was no actual malice when the
allegedly defamatory statements “were hardly more
than a restatement of the news reports” previously
published about plaintiff ); Meisler, 12 F.3d at 1030 (no
actual malice where reporter relied in good faith on
factually incorrect Associated Press wire item).
In yet another analogous case, a court granted
summary judgment against a libel plaintiff because
the defendant reporter had exhibited ‘good faith reliance on previously published sources’ as to the matters
at issue.” Secord, 747 F. Supp. at 792 (citation omitted).

App. 195
As the D.C. Circuit made clear, the journalist in Secord
was entitled to rely on previously published nonﬁction
books as well as news articles from the New York
Times, Miami Herald and the Christian Science Monitor as the basis for her reporting that the plaintiff, a
retired Major General in the U.S. Army, was “a member
of a ‘secret team’ which had engaged in illegal drug
trafﬁcking, torture, murder and attempted assassination as part of its conspiracy to overthrow the Sandinista government.” Id. at 781.
The list of decisions dismissing libel claims when
the defendant relied on earlier news reporting goes on
and on. See, e.g., Liberty Lobby, 838 F.2d at 1296-97 (no
actual malice where author relied on an article in The
National Review, a newsletter, and a handful of other
publications); Montgomery v. Risen, 197 F. Supp. 3d
219, 260 (D.D.C. 2016) (no actual malice where publisher relied on “a plethora of other news articles, court
documents, and government records, pre-dating the
Chapter, which align with and corroborate the Chapter’s general thrust”), aff ’d, 875 F.3d 709 (D.C. Cir.
2017); Ryan v. Brooks, 634 F.2d 726, 732-33 (4th Cir.
1980) (no actual malice where book author relied on
New York Times article and published interview);
Rosanova, 580 F.2d at 861 (no actual malice where libel
plaintiff “has been the subject of published newspaper
and other media reports of his activities . . . concerning
organized crime”).
Here, the evidence establishes that each Defendant relied on reliable news articles about Plaintiff ’s
involvement in corrupt arms dealing and association

App. 196
with thugs or “maﬁa.” For this basic reason, Plaintiff ’s
defamation claims against every Defendant must be
dismissed. Indeed, there is no dispute that each Defendant (save Recorded Books) was familiar with the
NYT Article that ﬁrst reported Diveroli’s taped statement that the corruption and bribery involved in the
AEY deal went “higher to the prime minister and his
son” and that he could not “ﬁght this maﬁa.” The law is
clear that reliance on a single, credible report – like the
NYT Article – is sufﬁcient by itself to prove the absence
of actual malice. See, e.g., Fodor v. Berglas, No. 95 Civ.
1153 (SAS), 1995 WL 505522, at *6 (S.D.N.Y. Aug. 24,
1995) (no actual malice where book author relied on
single New Yorker article); Associated Fin. Corp. v. Fin.
Servs. Info. Co., No. CV-88-6636 SVW (Sx), 1989 U.S.
Dist. LEXIS 16263, at *20-23 (C.D. Cal. July 27, 1989)
(no actual malice where publisher relied on a single,
twelve-year-old article in Forbes).
But the evidence shows that the NYT Article was
only the beginning of Lawson’s reporting. In 2009, the
media ﬂoodgates opened after the Gerdec explosions
when evidence emerged of Plaintiff ’s highly suspicious
phone calls to Defense Minister Mediu and Delijorgji
on the day of the tragedy. Lawson was aware of this
reporting in Albania, reviewed the roundup of this
news in the classiﬁed cables written by the U.S. Ambassador to Albania (which included an allegation that
an ofﬁcial faced pressure by Plaintiff to deliver heavy
ammunition to the Gerdec explosion site), and watched
(and took notes on) the 2010 Ilva Tare newscast where
it was reported that Plaintiff had been involved in the

App. 197
corrupt AEY and Gerdec deals, but had managed to escape justice due to political corruption orchestrated by
his father. SOF ¶88-84. Tare’s report – which should be
watched to appreciate its full impact – goes far beyond
anything even alluded to in the Book and is highly incriminating of Plaintiff. Id. ¶¶30-33. At his deposition,
even Plaintiff conceded that Tare’s report was “damning” and “damaging.” Id. ¶90. And that is not all: Lawson reviewed multiple additional reports of Plaintiff ’s
corruption and involvement in the AEY/Gerdec deals –
a second New York Times article, an article in The New
Republic, two books published by reputable publishers,
the Feinstein and Klosi books, and other publications.
Of particular note, the Feinstein and Klosi books even
reported that Plaintiff had attended a meeting with
two of the key participants, Pinari and Delijorgji. Id.
¶100.
Lawson’s good faith belief in this wealth of prior
reporting was underscored by the fact that Plaintiff, by
his own admission, failed to sue any of these publishers
over these prior reports and did not obtain a single correction. Id. 91, 95. Indeed, all of these reports remain
freely available today and yet Plaintiff has only challenged the Book, nearly a decade after the ﬁrst NYT
Article. In short, “the evidence of [Lawson’s] investigation, in which he looked to trustworthy sources, demonstrates his lack of subjective belief that the [Book]
contained false statements” concerning Plaintiff ’s involvement in corrupt arms dealing and dangerous maﬁa activity. Tobinick II, 848 F.3d at 947.

App. 198
Much of this prior news reporting concerning
Plaintiff ’s involvement in the AEY deal and his association with “maﬁa” necessarily informed Lawson’s
2011 RS Article, which again reported that Plaintiff
was implicated in the corrupt AEY deal, along with
Diveroli’s taped “maﬁa” statements concerning Plaintiff. There is no dispute that the RS Article was fact
checked; no dispute that a correction or litigation never
arose out of the RS Article, which remains available on
Rolling Stone’s website even today. Similarly, there is
no dispute that all Defendants read the RS Article before the Book was published and all Defendants were
aware of the article’s reporting that Plaintiff was involved in the corrupt AEY deal. See SOF ¶¶46-56. The
law and basic common sense dictates that there was no
reason to doubt the accuracy of anything in the Book
when, on Plaintiff ’s own admission, the gist of the challenged Statements is entirely consistent with what
had been reported in the NYT Article, the RS Article,
and the other sourcing and prior reports that informed
Lawson’s RS Article. See supra at 18. Defendants’ reliance on these previously published reports from reputable publications “precludes a ﬁnding of actual
malice as a matter of law.” Liberty Lobby, 838 F.2d at
1297.
C. The Book’s Depiction of the Tirana
Meeting Does Not Support a Finding of
Actual Malice
Plaintiff does not – because he cannot – challenge
the existence of, or Defendants’ reliance on, all the

App. 199
previously published reports documenting his involvement with corrupt arms dealing or association with
“maﬁa” or “thugs.” Instead, Plaintiff wants this Court
to focus exclusively on the sourcing for the Book’s description of the Tirana Meeting, with Pinari and Delijorgji, where Diveroli attempted to reduce the price for
the AEY deal. The Book reports that Diveroli and Podrizki later learned that the “silent” man who sat in
the corner at the meeting was “the son of the Prime
Minister.” Book, p. 139-40. As the Book recounts the
meeting, Plaintiff neither says nor does anything; his
mere presence reﬂects that he had some association
with the AEY deal and/or Pinari and Delijorgji. Indeed,
as Plaintiff admits, the “gist” of the Book’s reporting on
the meeting was that Plaintiff was involved “in the
AEY deal, possible corruption” and was associated
“with a dangerous maﬁa.” SOF ¶79. In other words, the
description of the Tirana Meeting did not say anything
new, or different, about Plaintiff than all the other reporting in all the other press that the Defendants were
relying on.
Plaintiff ’s ﬁxation on the evidence concerning this
meeting – to the exclusion of everything else – ignores
the fundamental principle that facts and events do not
“occur in a vacuum but as part of a series of ongoing
events.” Dunn v. Air Line Pilots Ass ‘n, 193 F.3d 1185,
1200 (11th Cir. 1999). Lawson’s primary source for the
“color” of this meeting – where it took place, what people wore, and what was said – is the ﬁrsthand account
of Defendant Podrizki (who identiﬁed Plaintiff from a
photograph as the person in the meeting). But what

App. 200
made Podrizki’s account of the meeting entirely credible is the fact that there was no doubt in anyone’s mind
that Plaintiff was involved in the AEY and Gerdec
arms deals and did associate with seeming “thugs” like
Delijorgji, as the reporting that preceded the Book established. Indeed, the Book was not even the first to
report the fact of the meeting – two books were published in 2010 and 2012, respectively – and each reported that Plaintiff had attended at least one arms
deal meeting with the key players in the AEY and Gerdec scandals, Pinari and Delijorgji. SOF ¶100. But
even assuming that the meeting scene in the Book
added fresh color to the story of Plaintiff ’s involvement
in the AEY deal, any such new “color” does not add any
new or different defamatory meaning to the gist of the
Statements beyond what was widely reported well before the Book was published. In other words, assuming
arguendo that Plaintiff can establish an issue of material fact as to whether Plaintiff actually attended the
Tirana Meeting, he still cannot establish actual malice
because the Eleventh Circuit has squarely held that
errors in “isolated statements” such as this do not give
rise to an inference that the author entertained serious
doubts about the gist or sting of his or her reporting.
Tobinick II, 848 F.3d at 946 (“[In an effort to establish
actual malice, libel plaintiffs] point to isolated statements, which do not pertain to the article’s essential
criticism of Dr. Tobinick’s medical practices, as evidence that Dr. Novella recklessly included falsities in
the article. But, this evidence . . . does not [rise] to the

App. 201
level of reckless disregard needed to prove actual malice.”).13
In sum, actual malice is an exacting standard that
Plaintiff cannot even begin to meet given the weight of
reliable reporting on Plaintiff ’s involvement in corrupt
arms dealing that Defendants reviewed and relied
upon before publishing the ﬁrst edition of the Book in
2015 and subsequent versions thereafter.
D. None of the Evidence Produced in this
Action Is Remotely Capable of Establishing Actual Malice by Clear and Convincing Evidence
Since actual malice is precluded as a matter of law
by Defendants’ justiﬁable reliance on the prior reporting detailing Plaintiff ’s participation in corrupt arms
dealing and his maﬁa afﬁliation, this disposes of Plaintiff ’s claim and this Court need go no further. Yet even
if one independently assesses the random theories for
actual malice put forth by Plaintiff concerning each
Defendant, the evidence does not begin to support the
clear and convincing evidence required for a ﬁnding of
actual malice, despite having the beneﬁt of the nearly
20,000 documents produced by Defendants, depositions and declarations from interested parties.

13

See also Levan, 190 F.3d at 1240 n.31 (“Whether or not
these statements or images convey a false message to the viewer,
however, does not alter the gist of the story, which was that the
deals were grossly unfair – so much so that [the author] must
have known they were unfair.”).

App. 202
i.

There Is No Evidence Capable of Supporting a Finding of Actual Malice against
Lawson

Despite the overwhelming evidence of prior reporting and solid sourcing connecting Plaintiff to the
kickbacks paid as part of the AEY deal and dangerous
maﬁa activity, Plaintiff nevertheless makes a misguided effort to establish actual malice by making a
number of scattershot arguments attacking various
aspects of Lawson’s reporting process. None of these
arguments are sufﬁcient to establish actual malice by
clear and convincing evidence.
First, Plaintiff faults Lawson for not seeking comment from Plaintiff before publishing the Book. See
Compl. ¶ 110. But if the actual malice “caselaw is clear
on any point it is that an author is under no duty to
divulge the contents of a book prior to publication in
order to provide the subject an opportunity to reply.”
Secord, 747 F. Supp. at 788. See also D.A.R.E. Am. v.
Rolling Stone Magazine, 101 F. Supp. 2d 1270, 1284
n.3 (C.D. Cal. 2000) (“Plaintiffs’ suggestion that Defendants’ failure to contact [plaintiff ] before publishing [the] article evidences actual malice is . . . legally
misguided. Defendants were not required to contact
the subjects of the article before publication.”), aff ’d,
270 F.3d 793 (9th Cir. 2001). Here, the evidence shows
that Lawson was well aware that the New York Times
had reached out to Prime Minister Berisha and his
Defense Minister Mediu – but notably not Plaintiff –
for comment before the NYT Article ran and received
only threats in response. SOF ¶112. Relatedly, Plaintiff

App. 203
has questioned why Lawson did not attempt to contact
Mediu, Pinari, or Delijorgji before publishing the Book.
But given the staggering amount of readily available
sourcing demonstrating that Plaintiff was involved in
corrupt arms dealing, Lawson “was not required to continue [his] investigation until [he] found somebody who
would stand up for [Plaintiff ].” Levan, 190 F.3d at 1243
(rejecting argument that failure to speak with source
favorable to plaintiff constituted actual malice).
There is also no evidence that Lawson was aware
of any statement issued by Plaintiff denying involvement in AEY arms dealing or other corruption. SOF
¶122. But even assuming arguendo that Lawson was
aware of such a denial, there is still no grounds for ﬁnding actual malice. “A reporter is not required to accept
denials of wrongdoing as conclusive” and a decision not
to include “detailed refutations” in his or her reporting
does not establish actual malice. Silvester v. American
Broad. Co., 650 F. Supp. 766, 780 (S.D. Fla. 1986), aff ’d,
839 F.2d 1491, 1493 (11th Cir. 1988). It is also telling
that these denials did not stop other journalists, like
the New York Times, Ilva Tare, the Broward Palm
Beach New Times and The New Republic, from reporting Plaintiff ’s involvement in corrupt arms dealing
and his association with “maﬁa” ﬁgures. In short, the
fact that Lawson relied on publications detailing
Plaintiff ’s corruption in spite of the effort to cover it up
weighs heavily against a ﬁnding of actual malice.
Next, Plaintiff attacks Lawson for relying on “serial liars and convicted fraudsters” as sources (Compl.
¶ 3), but there is no evidence even hinting that Lawson

App. 204
entertained any doubts about the veracity of the information Podrizki provided him regarding Plaintiff or
his attendance at the AEY meeting. To the contrary,
Lawson afﬁrmed that Podrizki was an extremely reliable source because the information he provided consistently matched up with the other evidence available
to Lawson. SOF ¶65, 99. Nor did Podrizki’s failure to
identify a photograph during an interview with law enforcement cause Lawson to doubt Podrizki’s positive
identiﬁcation of Plaintiff from a clear photograph of
Plaintiff. SOF ¶102. When Podrizki honestly told Lawson that he did not recognize a photograph of one of
Plaintiff ’s associates who was also suspected of attending an AEY meeting, this justiﬁed Lawson’s belief that
Podrizki was telling the truth and not just telling him
what he wanted to hear. Id.
Reliance on convicted felons, like Podrizki and
Diveroli, does not support a ﬁnding of actual malice,
particularly when, as is the case here, the Book included information to “inform the viewing audience
that [Podrizki/Diveroli] was not an unimpeachable
source of information.” Silvester, 839 F.2d at 1498. See,
e.g., Compl. 11105 (quoting Book at 38) (Diveroli was
“a liar . . . [who] misled directly, indirectly, compulsively”)). Alerting readers to issues surrounding the
dudes’ credibility is evidence that cuts against a ﬁnding of actual malice. In Silvester, journalists relied on
information provided by a paid source named Ziskis,
whom law enforcement ofﬁcers had deemed “unreliable as a source of information.” 839 F.2d 1498. But the
Eleventh Circuit declined to ﬁnd actual malice because

App. 205
the journalists “included adequate footage in the
broadcast to inform the viewing audience that Ziskis
was not an unimpeachable source of information.” Id.
See also Turner, 879 F.3d at 1274 (holding that inclusion of “information [cutting] against [ ] Defendants’
general conclusions” allows “readers to decide for
themselves what to conclude” and makes “any allegation of actual malice less plausible”). Throughout the
Book, Lawson is scrupulous about indicating instances
in which he believes Diveroli or any other character is
lying or shading the truth.
In the context of everything else he knew, Lawson
had complete faith in the accuracy of Diveroli’s recorded statement implicating Plaintiff in corruption
and maﬁa activity. SOF In80, 122. Lawson was far
from alone in relying on Diveroli’s taped statement
that the corruption surrounding the AEY deal “went
up higher to the prime minister and his son.” That precise statement was previously reported in the New
York Times (twice), the Albanian press, The New Republic, Broward Palm Beach New Times and Lawson’s
2011 RS Article, all of which Plaintiff never challenged.
Moreover, the law is settled that “[t]he use of convicted
felons” as sources “cannot alone constitute a fact of actual malice.” Secord, 747 F. Supp. at 794.14

14

See also Cobb v. Time, Inc., 278 F.3d 629, 638 (6th Cir.
2002) (no actual malice where journalist relied on source who was
a drug user with “criminal background” and who was “paid” to
provide “bizarre” information). Finally, the fact that Lawson paid
Podrizki for his life rights and assistance in preparing the Book
also does not constitute actual malice in light of the total absence

App. 206
In sum, “there is persuasive evidence” that Lawson ﬁrmly believed the Statements were entirely accurate, “and the cumulative force of the evidence to the
contrary is very weak.” McFarlane v. Sheridan Square
Press, 91 F.3d 1501, 1514 (D.C. Cir. 1996). Since there
is no clear and convincing evidence that Lawson published the Statements with actual malice, Plaintiff ’s
defamation claims should be dismissed as a matter of
law.
ii. There Is No Evidence Capable of Supporting a Finding of Actual Malice Against
S&S or Recorded Books
It is well established that book publishers are “entitled as a matter of law” to rely on an author’s “reputation [ ] and experience,” and there will be no ﬁnding
of actual malice where, as here, they published a work
written by an author they believe to be reliable.15
of any evidence that Lawson harbored subjective doubts about the
accuracy of the information Podrizki provided. See, e.g., Silvester,
839 F.2d at 1498 n.5 (no actual malice even though producers of
news broadcast paid source “a total of $3,000 plus expenses”);
Cobb, 278 F.3d at 633 (offer to pay source $15,000 to contribute
information to article not actual malice).
15
In entering into the publishing agreement with Lawson,
S&S relied on Lawson’s considerable experience as an investigative reporter, his track record as an author of other non-ﬁction
books, and the fact that Lawson’s reporting on this subject had
been published by Rolling Stone. (SOF ¶¶45-57.) Moreover, Lawson represented and warranted in his publishing agreement that
the book would not contain libelous material, an undertaking that
the publisher is entitled to rely on. (SOF ¶57 Ex. 40); see also
Murray v. Bailey, 613 F. Supp. 1276, 1281 (N.D. Cal. 1985) (publisher did not act unreasonably where, among other things,

App. 207
McManus v. Doubleday & Co., 513 F. Supp. 1383, 1390
(S.D.N.Y. 1981); see also Rinaldi v. Holt, Rinehart &
Winston, Inc., 42 N.Y.2d 369, 382-83 (1977) (granting
summary judgment for publisher where it “placed its
reliance upon [the author’s] reportorial abilities”);
Fodor, 1995 WL 505522, at *5 (granting summary
judgment for publisher on ground that “sole reliance
on the experience and positive reputation of the author
does not demonstrate malice”). Since Lawson had
twenty years of experience as an investigative reporter
before he published the Book and had been nominated
for a national prize on the strength of his article for
Rolling Stone, S&S and Recorded Books were clearly
entitled to rely on his expertise.16
author represented and warranted in contract that book was not
libelous); Crescenz v. Penguin Grp. (USA), Inc., 561 F. App’x 173,
179 (3d Cir. 2014) (afﬁrming summary judgment in favor of defendant publisher where plaintiff provided no evidence that publishing industry norms disfavored reliance on warranties or
required independent duty to investigate facts).
16
The claims against Recorded Books, which is tantamount
to a secondary publisher, also fail for the independent reason that
actual malice cannot exist when a secondary publisher copies a
work that has already been published. See, e.g., Geiger v. Dell
Publ’g Co., 719 F.2d 515 (1st Cir. 1983) (republisher is entitled
to rely on the accuracy of previously published statements “absent a showing that the republisher ‘had, or should have had,
substantial reasons to question the accuracy of the articles or the
bona ﬁdes of [the] reporter”) (citation omitted); Cubby, Inc. v.
CompuServe, Inc., 776 F. Supp. 135, 140 (S.D.N.Y. 1991) (no liability where company had “little or no editorial control” and absent showing that it either knew or had reason to know of
defamation). Moreover, per industry norms, S&S provided warranty and indemniﬁcation to Recorded Books against libel claims.
(SOF ¶60, Licensing Agreement ¶¶ 14-15.) Accordingly, Recorded

App. 208
Plaintiff alleges that both S&S and Recorded
Books acted with actual malice because they failed to
perform their own independent fact checking of the
Book, but it is well established that a “[f ]ailure to investigate does not in itself establish bad faith.” St.
Amant, 390 U.S. at 732-33; see also Gertz, 418 U.S. at
331. The First Circuit explained the reason why book
publishers are not required to fact check works written
by reputable authors:
To require a book publisher to check, as a matter of course, every potentially defamatory
reference might raise the price of nonﬁction
works beyond the resources of the average
man. This result would, we think, produce
just such a chilling effect on the free ﬂow of
ideas as First Amendment jurisprudence has
sought to avoid.
Geiger, 719 F.2d at 518. Courts have thus consistently
held that a book publisher is not required to conduct
its own independent factual investigation unless the
publisher has actual, subjective doubts as to the accuracy of the story. See also Crescenz, 561 F. App’x at 180
(“[Defendant] Penguin did not have a duty to independently investigate the book’s facts, relied on a reputable author, and had the book vetted by experienced
outside counsel.”); Hotchner v. Castillo-Puche, 551
F.2d 910, 914 (2d Cir. 1977) (holding that book publisher’s “failure to conduct an elaborate independent
Books had utmost conﬁdence in S&S based on its reputation in
the publishing industry and the positive, professional history between the two companies. See SOF ¶¶60-61.

App. 209
investigation” to recreate author’s research “did not
constitute reckless disregard for truth”); Stern v.
Cosby, 645 F. Supp. 2d 258, 284 (S.D.N.Y. 2009) (“The
law is clear, however, that a book publisher has no independent duty to investigate an author’s story unless
the publisher has actual, subjective doubts as to the
accuracy of the story.”).
Nor has Plaintiff adduced any evidence that S&S
or Recorded Books harbored “actual, subjective doubt”
as to any of Lawson’s reporting. The publishing Defendants uniformly testiﬁed that they had no doubt as
to the accuracy of the Statements and had full conﬁdence in Lawson’s reporting. SOF ¶73. And Plaintiff ’s
argument does not gain traction when he claims, as he
did in his Complaint, that the Publisher Defendants
included the statements about Plaintiff because they
were “motivated to sell more books” and “they knew
that allegations of kickbacks to the families of foreign
leaders were likely to do just that.” The facts and the
law repudiate this argument. First, it is undisputed
that S&S actively discouraged Lawson from pursuing
the “subplot” of Albanian corruption, beyond facts that
involved the Dudes and the AEY deal, because it was
a diversion from the main plot. SOF ¶67. But even assuming an economic motivation existed – and there is
no evidence to support that lithe law is well settled
that a proﬁt motive is “immaterial” to the application

App. 210
of the “constitutional guarantees of freedom of speech
and of the press.” N.Y. Times, 376 U.S. at 265-66.17
In sum, since there is no clear and convincing evidence remotely capable of proving actual malice as to
S&S and Recorded Books, Plaintiff ’s claims against
these Defendants should be dismissed for these independent reasons.
iii. There Is No Evidence Capable of Supporting a Finding of Actual Malice Against
Alexander Podrizki
The defamation claims against Alexander Podrizki
– which arise from the statements he made to Lawson
about Plaintiff during interviews – must also be dismissed because there is no evidence that Podrizki had
any doubt about the identiﬁcation of Plaintiff, let alone
clear and convincing evidence. The record shows that
Podrizki believed what he told Lawson to be true. SOF
¶101. Speciﬁcally, there is no evidence that contradicts
Podrizki’s recollection of the meeting with Plaintiff:
Podrizki learned about Plaintiff ’s attendance from
Diveroli and Trebicka on the morning after and he
17

Plaintiff will no doubt argue that the claim letters S&S received from Chivers and Diveroli should have provoked doubts
about the accuracy of Lawson’s reporting on Plaintiff. But those
letters did not mention Plaintiff. SOF ¶70. Further, S&S resolved
those claims to its satisfaction prior to publishing the Book and
cannot be held to have acted with actual malice simply because
the claim letters were received. See, e.g., Readers Digest Ass’n v
Superior Court, 37 Cal. 3d 244, 260 (1984) (demand for a retraction or a threat of libel action does not establish that defendant
doubted “the truthfulness of its article or its sources”).

App. 211
independently recognized Plaintiff from a photograph
shown to him by Lawson. The fact that Podrizki could
not identify a different photograph of Plaintiff during
an interview with law enforcement is not evidence that
Podrizki experienced serious doubts, particularly in
light of Podrizki’s unrebutted testimony that the photograph he was shown was extremely faded and unrecognizable. SOF ¶102.18
In sum, there is no admissible evidence capable of
establishing that Podrizki acted with actual malice
and communicated information concerning Plaintiff
knowing it to be false or with serious doubts as to its
accuracy.19
18

Relying entirely on inadmissible hearsay, Plaintiff argues
that Podrizki received a phone call from Kosta Trebicka before he
left Albania, telling him that Plaintiff was not involved. Podrizki
states unequivocally that he never received such a call.
McNamara Ex. 70, No. 8. Obviously, Trebicka cannot testify in
court to the truth or falsity of the self-serving statement attributed to him by Plaintiff because he was killed in a mysterious
car accident shortly after this meeting purportedly took place.
The statement is clearly inadmissible hearsay. See, e.g., Herzog v.
Castle Rock Entm’t, 193 F.3d 1241, 1254-55 (11th Cir. 1999) (refusing to admit hearsay statement where there was “no way for
Defendants to verify the accuracy of the testimony or of the outof-court statements that the testimony reports, and the reliability
of the testimony cannot be taken for granted”).
19
Defendant Packouz has no role in this action. There is no
evidence that Packouz was a source for any information in the
Book concerning Plaintiff. Packouz Decl. ¶19. It is self-evident
that a defamation action requires at least some evidence that the
defendant made a defamatory statement about the plaintiff. See,
e.g., Mawk v Kaplan Univ., No. 6:13-CV-1469-ORL-22, 2015 WL
4694055, at *4 (M.D. Fla. Aug. 6, 2015) (defamation claim failed
because plaintiff did not provide any basis for holding defendant

App. 212
CONCLUSION
For the foregoing reasons, Defendants respectfully
request that this Court grant summary judgment in
Defendants’ favor and dismiss all of Plaintiff ’s claims
and award Defendants such other and further relief
as the Court deems necessary and proper, including
an expedited hearing and attorneys’ fees pursuant to
Florida’s anti-SLAPP statute as requested in Defendants’ accompanying motion.
August 8, 2018
Respectfully Submitted,
AKERMAN LLP
By: /s/ Ryan Roman
Michael C. Marsh (Florida Bar
No. 276383)
Ryan Roman (Florida Bar No.
025509)
Three Brickell City Center
98 S.E. 7th Street, Suite 1100
Miami, Florida 33131
Telephone: (305) 374-5600
Facsimile: (305) 374-5095
Primary e-mail:
michael.marsh@akerman.com
ryan.roman@akerman.com

liable for allegedly defamatory statements and failed to establish
the essential element of publication to third party).

App. 213
DAVIS WRIGHT TREMAINE LLP
Elizabeth A. McNamara (pro hac vice)
John M. Browning (pro hac vice)
1251 Avenue of the Americas,
21st Floor
New York, NY 10020
Phone: (212) 489-8230
Fax: (212) 489-8340
lizmcnamara@dwt.com
jackbrowning@dwt.com
Attorneys for Defendants
Guy Lawson, Alexander Podrizki,
David Packouz, Simon & Schuster,
Inc. and Recorded Books Inc.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on August 8, 2018, a
true and correct copy of the foregoing was served on
the following via ECF:
Jeffrey W. Gutchess
Daniel Tropin
Brandon Rose
AXS Law Group, PLLC
2121 NW 2nd Avenue, Suite 201
Wynwood, Florida 33127
jeff@axslawgroup.com
dan@axslawgroup.com
Brandon@axslawgroup.com

App. 214
Jason M. Zoladz
(pro hac vice)
1450 2nd Street
Santa Monica, California 90401
jason@zoladzlaw.com
/s/ John M. Browning
Attorney

App. 215
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF FLORIDA
Case No. 17-Civ-22144-COOKE
SHKËLZEN BERISHA,
Plaintiff,
vs.
GUY LAWSON, EFRAIM
DIVEROLL ALEXANDER
PODRIZKI, DAVID PACKOUZ,
SIMON & SCHUSTER, INC.,
RECORDED BOOKS, INC.,
AND INCARCERATED
ENTERTAINMENT, LLC,
Defendants.
PLAINTIFF SHKËLZEN BERISHA’S
MEMORANDUM OF FACTS AND LAW
IN OPPOSITION TO DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT
(Filed Aug. 23, 2018)
Plaintiff Shkëlzen Berisha (“Plaintiff ” or “Berisha”)
respectfully submits this opposition to Defendants’
Motion for Summary Judgment and Incorporated
Memorandum of Law (Dkt. No. [INSERT]; “Defs.’
Memo.”). As detailed below, the Court should deny Defendants’ motion.

App. 216
PRELIMINARY STATEMENT
“Never let the truth get in the way of a good story”
- Mark Twain
This case arises from the elaborate deceptions of
convicted con men and the slipshod, bad-faith reporting of Guy Lawson (“Lawson”)—a so-called investigative journalist. As detailed herein, Mr. Lawson
subverted the truth for a chance at notoriety.
In his “XXXXXXXXXXX” was “XXXXXXXXXXXXX
XXXXXXXXX.” And while he knew it was perhaps a
long shot, “XXXXXXXXXXXXXXXXXXXXXX.”
However, Lawson did not have evidence to back up
his grandiose theories. Instead of reconsidering assumptions, he cut, twisted – and in some cases manufactured – “evidence” to ﬁt within his preconceived
narrative. Unfortunately, this had disastrous consequences for the Plaintiff.
Simon & Schuster’s editors and lawyers indulged
Lawson’s extravagant theories far more than they
should. The result was a book full of half-sourced quotations and half-imagined scenes. It was XXXXXXXX”
that one of Lawson’s editors “XXXXXX.”
Now that the bill has come due for that indulgence, they wish to sidestep accountability by feigning
reliance on the stale reports of others; and demanding
that they be held to a lower standard by virtue of Plaintiff ’s parentage. In so doing, Defendants suggest that
the Court excuse them from their professional obligations and ignore the fundamental underpinnings of the

App. 217
actual malice standard: That a public ﬁgure—general
or limited—has voluntarily exposed himself to a higher
standard by virtue of his own actions.
STATEMENT OF FACTS
Given the page limits, it is not possible to both present the context and the material facts themselves.
Nevertheless, context is essential to understanding
the material facts here. Thus, Plaintiff refers the Court
to the Complaint (Dkt. No. 1)—in particular, ¶¶ 31
through 73—for the background. Plaintiff proceeds
here to address only those material facts, supported by
citations to the record, that are relevant to Defendants’
motion.
Lawson Knew that His Sources Were Liars and
Criminals
Lawson’s primary sources for the Book were Packouz and Podrizki. See generally Lawson Decl., Ex. 1.
Lawson knew that his sources had been convicted of
defrauding the United States Government. Plaintiff ’s
Statement of Facts in Opposition (“PS”) ¶ 65 (Zoladz
Decl., Ex. 1 (Lawson Tr., 133:8-12)); Lawson Decl. at
¶ 24. Among many other misdeeds, Lawson knew that:
Packouz had forged documents for Diveroli’s use at a
meeting allegedly involving Plaintiff (the “May 2007
Meeting”) PS ¶ 47 (Zoladz Decl., Ex. 2); Podrizki had
destroyed evidence in connection with AEY’s prosecution PS ¶ 65 (Zoladz Decl., Ex. 1 (Lawson Tr., 144:24145:16); Diveroli and Packouz hired Podrizki because

App. 218
Podrizki XXXXXXXXXXX” PS ¶ 10 (Zoladz Decl., Ex.
3); and Podrizki bribed Albanian ofﬁcials. PS ¶ 65
(Lawson Decl., Ex. 1 at 151.)
Lawson also knew of multiple instances where
Diveroli had, with Packouz, used the identities of innocent people in furtherance of their fraudulent schemes.
PS ¶ 138 (Zoladz Decl., Ex. 1 (Lawson Tr., 143:7-19))
(“Q. Would it surprise you that Mr. Diveroli would use
the identity of someone in order to buttress a fraud
that he commits? A. No. Q. And, in fact, you knew and
reported that he did it on several occasions, didn’t you?
A. . . . He did it with – yeah. I know of occasions where
that happened.”); PS ¶ 135 (Lawson Decl., Ex. 1 at xvi:
“I spent months paging through court transcripts.”);
PS ¶ 47 (Zoladz Decl., EL 1 (Lawson Tr., 143:7-19)
(Lawson read the trial transcripts); PS ¶ 47 (Excerpted
Testimony of Michael Mentavlos and David Packouz
from the Jury Trial at 123-124, U.S. v. Merrill, Case No.
08-20574 (Nov. 30, 2010) (in the fraudulent bid, Packouz and Diveroli used the identity of a retired Israeli
Army colonel, representing him as an ofﬁcer of AEY));
PS ¶ 138 (Lawson Decl., Ex. 1 at 43 (Diveroli would
pretend to be a colonel or general to get dirt on his competitors)).
Further, Lawson also knew that Podrizki had lied
to him about events related to the May 2007 Meeting.
Lawson had clear evidence that, the day after the May
2007 Meeting, Podrizki accompanied Diveroli and
Trebicka to meet representatives from the U.S. Embassy in Albania. Lawson knew that Trebicka had said
Podrizki was present PS ¶ 65 (Zoladz Decl., Ex. 4)

App. 219
(“[T]hree people of the US embassy in the meeting at
Sheraton Hotel in Tirana (Robert Newsome,
Vickymajer and a lady) and three of us (me, Efraim
and Alex).”); and Robert Newsome (“Newsome”) (from
the U.S. Embassy) told U.S. law enforcement that Podrizki was there. PS ¶ 65 (Zoladz Decl., Ex. 5).
Yet Podrizki told Lawson that he was not in attendance. PS ¶ 65 (Zoladz Decl., Ex. 6). Here, a reasonable jury could conclude that Podrizki lied because he
was attempting to minimize evidence of the false statements that he made to U.S. Embassy ofﬁcials.
Lawson Knew that Diver Packouz and Podrizki
Were Motivated to Silence Trebicka
First, Lawson admits that Diveroli lied to
Trebicka about the May 2007 Meeting on the very next
morning:
Diveroli could have told Trebicka the
truth about his encounter with Delijorgji:
AEY would get a discount on the AK-47
rounds only if Delijorgji’s company took over
the repacking job—cutting Trebicka out of the
deal. But Diveroli did what he’d become
accustomed to doing: he dissembled.
Diveroli said he’d been taken to a “hidden” place and threatened. The Albanians had said he’d be killed if he didn’t go
along with Thomet and Evdin as the middlemen. Diveroli told Trebicka that Ylli
Pinari of MEICO had warned him to

App. 220
keep his mouth shut because the prime
minister’s son had been in the meeting.
PS ¶ 41 (Lawson Decl., Ex. 1 at 141 (emphasis added)).
Second, Lawson knew that Podrizki was told by U.S.
Embassy ofﬁcials—weeks before the May 2007 Meeting—that AEY must allege corruption to enlist their
help (PS ¶ 41 (Lawson Decl., Ex. 1 at 123)) and that, in
fact, AEY did so on the day after the May 2007 Meeting
(PS ¶ 41(Lawson Decl., Ex. 1 at 141-42)). Third, Lawson knew that when AEY cancelled Trebicka’s repackaging contract, Trebicka “had tried to cause trouble.”
PS ¶ 41 (Lawson Decl., Ex. 1 at 158; see also Zoladz
Decl., Ex. 7 (Podrizki Tr., 126:10–132:25)). Finally,
Lawson received information from Gary Kokalari that,
after the May 2007 Meeting, “possibly in an effort to
intimidate Trebicka, [Diveroli] claims Pinari told him
to keep his mouth closed because the unidentiﬁed third
man was Shkelzen [sic] Berisha . . . ”. PS ¶¶ 101-02
(Zoladz Decl., Ex. 8 at _000925-926).
Lawson Motivated Packouz and Podrizki With
Money and the Prospect of Reputational Rehabilitation
Lawson also knew Packouz and Podrizki were motivated to say what he wanted to hear. First, Packouz
and Podrizki beneﬁted ﬁnancially from the publication
of the Book. Lawson entered into “life rights” agreements with them; XXXXXXXXXXXXXXXXXXXXXXX
XXXXs (PS ¶ 123 (Zoladz Decl., Ex. 1 (Lawson Tr., at
106:22-107:18))); XXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXX (PS ¶ 123 (Zoladz Decl., Ex. 1

App. 221
(Lawson Tr., at 109:20-110:16))). See also PS ¶ 123
(Zoladz Decl., Ex. 9). Lawson acknowledged that paying sources is “strictly forbidden” for magazine articles.
PS ¶ 123 (Zoladz Decl., Ex. 1 (Lawson Tr., 31:12-22)).
And for good reason: paid sources are motivated to
fabricate more compelling stories.
Further, Packouz and Podrizki received in-kind
compensation from Lawson: rehabilitation of their
public images. Lawson obtained his access in return for
portraying his sources positively—scapegoats for corruption:
•

April 2012 (renegotiating his payment to Packouz,
Lawson writes): XXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXX” PS ¶ 124 (Zoladz Decl., Ex. 10;
emphasis added).

•

October 2012 (Lawson to Packouz): “The people I
want the reader to cheer for are you and Alex. So
that’s what I’ve got to develop.” PS ¶ 124 (Zoladz
Decl., Ex. 11).

•

May 2014 (Podrizki to Lawson): XXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXX” PS ¶ 124 (Zoladz Decl., Ex. 12).

•

July 2014 (Lawson): XXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXX” PS ¶ 124 (Zoladz Decl., Ex. 13).

•

March 2016 (Podrizki to Lawson): “You were the
ﬁrst journalist to take our side of the story and we
really appreciate that.” PS ¶ 124 (Zoladz Decl., Ex.
14).

App. 222
•

March 2016 (Lawson to Packouz): “XXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXX PS ¶ 124
(Zoladz Decl., Ex. 15).

•

August 2016 (regarding a request by Podrizki that
Lawson speak to a reporter): “XXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXX” PS ¶ 124 (Zoladz Decl., Ex. 16).

Lawson had an Agenda Beyond Reporting the
Facts
Lawson knew it was in his interest—ﬁnancially
and professionally—to tell a new, bigger story in the
Book and to make the “dudes” sympathetic. See, e.g.,
PS ¶ 125 (Zoladz Decl., Ex. 17 & 18). To that end, Lawson decided—long before he ﬁnished his research—
that the Book would report a Pentagon conspiracy,
State Department bribery, biased federal prosecution,
and Albanian corruption:
•

December 2010: XXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXX” PS ¶ 125 (Zoladz Decl., Ex. 19).

•

December 2011: “The truth is that the federal government wanted gun runners and that’s what they
got. This book will prove that beyond any doubt . . .
[Simon & Schuster] should be forewarned that
very very powerful institutions are involved (DoD,
DoS, DoJ, NYT) and that this book will rake muck
. . . ” PS ¶ 125 (Zoladz Decl., Ex. 20).

App. 223
•

October 2012: XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXX PS ¶ 125 (Zoladz Decl., Ex. 21).

•

November 2012: “XXXXXXXXXXXXXXXXXXXX.”
PS ¶ 125 (Zoladz Decl., Ex. 22).

•

March 2013: XXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXX PS ¶ 125
(Zoladz Decl., Ex. 23).

Those statements (among many others) reﬂect
more than mere bluster about what Lawson might
write if only the facts checked-out. Rather, Lawson had
an agenda. See generally PS ¶ 125 (Zoladz Decl., Ex.
24). He intended to spin a counter-narrative that laid
blame, not at the feet of his fraudster sources (Diveroli,
Packouz and Podrizki), but on the “XXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX”
PS ¶ 125 (Zoladz Decl., Ex. 25).
Lawson was warned, time and again, that his conspiracy theories were not supported by the facts. See,
e.g., PS ¶ 126 (Zoladz Decl., EL 24) XXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX”);
PS ¶ 126 (Zoladz Decl., Ex. 67) (“XXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXX”); PS ¶ 126 (Zoladz Decl.,
Ex. 26 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXX”)).
But Lawson would not let the facts get in the way
of a “good” story. As detailed below, Lawson doctored

App. 224
and outright manufactured evidence to serve his preselected narrative.
Lawson Manufactured Entire Scenes
There isn’t enough space here to detail every example, but Lawson wrote dialogue—even entire
scenes—that were the product of his imagination.
These fabrications included critical scenes in Albania.
Some of the made-up material made it into the Book,
some did not.
Example 1:

Trebicka’s Threat to Kill Pinari

For example, in Chapter 8 of the published version
Books, Lawson writes:
After losing the contract, Trebicka continued
to stalk Podrizki in Tirana, claiming that they
were “friends,” muttering about exacting revenge against Ylli Pinari, trying to ﬁnd a way
to get back in on the deal.
Podrizki ﬁnally lost his patience and told him,
“You fucked up. You overstepped your boundaries. You got what you deserved.”
“I’m going to kill Pinari,” Trebicka said.
The threat was empty, perhaps. But when Podrizki next saw Ylli Pinari, he felt obligated to
warn him: “I don’t want to get in the middle of
this, but Trebicka’s been talking about killing
you.”

App. 225
“Everybody says this in Albania,” Pinari replied dismissively. “Trebicka is a nothing person.”
PS ¶ 127 (Lawson Decl., Ex. 1 at 158-59). Yet Lawson’s
source for that scene, Podrizki, testiﬁed at deposition:
“Q. Now, did Mr. Trebicka continue to stalk you in Tirana? A. I wouldn’t use the word stalk. But he called
me for a bit and then he just stopped calling. . . . Q. Do
you recall Mr. Trebicka ever saying that he was going
to kill Yili Pinari? A. No.” PS ¶ 127 (Zoladz Decl., Ex. 7
(Podrizki Tr., 128:10-129:6)).
Example 2:

Podrizki’s Moral Outburst

In an apparent attempt to bolster Podrizki’s credibility, Lawson manufactured a scene in which Podrizki confronted Diveroli moments after the May
2007 Meeting. ‘You would destroy the world to make
money?’ Podrizki demanded. Diveroli didn’t reply. ‘You
probably would,’ Podrizki said, shaking his head.” PS
¶ 127 (Zoladz Decl., Ex. 27 at _007973_218).
But when Lawson provided a draft of the Book to
Podrizki, Podrizki told Lawson: “This never happened.”
(id.); and “Pp. 217-218 (H76): When I am having a
moral outburst to Efraim. I can’t say this ever happened as I basically turned off my moral compass . . . ”
(id. at _007972_001).

App. 226
Example 3: U.S. Embassy Officials Travel with
Plaintiff and “Assorted Thugs”
Early drafts of the Book included a whole, fantastical chapter called the “The Prime Minister’s Job,”
alleging corruption in Albania PS ¶ 127 (Zoladz Decl.,
Ex. 28); a chapter that was ultimately cut from the
Book. Scenes in that chapter lacked any basis in fact,
including a detailed, imaginary scene reporting that
the U.S. Government was complicit with Plaintiff in
the corruption:
A local named Andy Belliu had watched
events in Gerdec with increasing suspicion . . .
Belliu had also seen new white Ford SUVs
coming and going from a military base on the
outskirts of . . . Gerdec. The mysterious vehicles had diplomatic license plate numbers
given to ofﬁcials of the United States Embassy in Albania . . . The Americans were accompanied by the same people who’d run
AEY’s contract—the businessman Mihail
Delijorgji, Prime Minister Sali Berisha’s son,
and the assorted thugs and bodyguards that
escorted them. These were the men who were
personally enriching themselves by looting
Albania’s surplus munitions . . .
Id. But Mr. Belliu never told Lawson this: “Q. Did you
ever tell Guy Lawson that Shkëlzen Berisha was present at the Gërdec site at any time? A. No.” (PS ¶ 127
(Zoladz Decl., Ex. 29 (Belliu Tr. 18:21-24))); “Q. Did
Mr. Shkëlzen Berisha, to your knowledge, ever travel
to the Gërdec site? . . . A. I never – I don’t know the guy.

App. 227
I never seen him. So if I’ve never seen him, how I can
see him in this situation?” (id. at 36:9-17).
At deposition, when asked about the sourcing of
these explosive allegations, Lawson gave an unbelievable answer: “I don’t remember.” PS ¶ 127 (Zoladz
Decl., Ex. 1 (Lawson Tr., 256:15-260:2)).
These fabrications are important—and highly
troubling—because the Book was sold as a work of
non-ﬁction, investigative journalism. The reader’s expectation is that the events described therein actually
happened; and when language is set off in quotes,
those words were actually said.
Indeed, both Lawson and Simon & Schuster admit that this kind of conduct is concerning. PS ¶ 127
(Zoladz Decl., Ex. 30 (Graff Tr., 61:8-23)) (it would be
concerning if an author included dialogue “that he
completely made up” “[b]ecause a nonﬁction book is
about what had happened, and what you’re describing
is not nonﬁction.”); PS ¶ 127 (Zoladz Decl., EL 1 (Lawson Tr., 72:17-24; 86:9-19)); id. at 89:8-11 (“I wouldn’t
in any context make up a scene.”).
The Defamatory Material
Some of Lawson’s inherently implausible material
was removed from the Book, but signiﬁcant statements
remained about Berisha, among others:
•

The ﬁrst stop was Ylli Pinari’s ofﬁce in the Ministry of Defense. . . . The conversation was going nowhere, it seemed: Diveroli demanded a reduction,

App. 228
and Pinari insisted on the agreed terms. . . . If you
want to change the price, you have to meet someone else,” Pinari said ﬁnally. Apparently, someone
was more powerful than the minister—a strange
assertion. Ylli Pinari escorted Diveroli and Podrizki to his Mercedes sedan. The pair were driven
around the streets of Tirana in a seemingly deliberately confusing route, so the Americans wouldn’t
be able to re-create where they’d gone. Finally,
they turned into an abandoned construction site
for a partially completed ofﬁce building. Pinari led
the pair up a set of stairs and along a corridor until
they reached a door. Stepping inside, they found a
sleek, stylish ofﬁce, like the suite of a corporate
law ﬁrm in a skyscraper in Miami. . . . Instead of
the kind of global businessman who might be expected to occupy such an ofﬁce, there was a hardlooking man—a real thug, Podrizki thought, fear
rising. . . . Diveroli and Podrizki then turned to see
a young man around their age sitting in the corner.
Dressed in a baseball cap and a sweater, he had
dark hair, a soft chin, and shark like eyes. He
wasn’t introduced. This was Shkëlzen Berisha, the
son of the prime minister of Albania, they would
later be told by Pinari. Shkëlzen was part of what
was known in Albania as “the family,” the tightknit and extremely dangerous group that surrounded and lived at the beneﬁcence of the prime
minister, Sali Berisha. . . . The son of the prime
minister remained silent. . . . “Did we just get out
of a meeting with the Albanian maﬁa?” Podrizki
joked. “Absolutely. Absofuckinglutely.” PS ¶ 128
(Lawson Decl., Ex. 1 at 138-40.)
•

Five thousand miles away, in the Balkan city of
Tirana, Albania, Packouz’s friends Efraim Diveroli

App. 229
and Alex Podrizki were also dealing with menacing and mysterious forces as they tried to arrange
for 100 million rounds of AK-47 ammo to be transported to Kabul. Alone in a notoriously lawless
country, Diveroli and Podrizki were trying to negotiate with an Albanian maﬁoso taking kickbacks,
as well as a Swiss gun dealer running the deal
through a Cyprus company seemingly as a way to
grease the palms of shadowy operators allegedly
associated with the prime minister of Albania. PS
¶ 128 (Lawson Decl., Ex. 1 at 2.)
•

Diveroli had agreed to cut Trebicka out of the repacking job, which was now being done by a company called Alb-Demil, an entity seemingly
controlled by the prime minister’s son and Mihail
Delijorgji. PS ¶ 128 (Lawson Decl., Ex. 1 at 150.)

•

In the “Photographs” section: “Also involved, the
dudes discovered, was the prime minister’s son,
Shkelzen [sic] Berisha.” PS ¶ 128 (Zoladz Decl.,
Ex. 31).

•

Wood took a breath and dived in, describing how
Albanian ofﬁcials were allegedly being paid kickbacks on AEY’s contract, including Diveroli’s recorded description of the Albanian “Maﬁa” and the
prime minister’s son. Media exploded. This is all
lies!’ he shouted. “I would like to know the details
of the AEY contract,” Wood said. “Especially the
pricing. The allegation is that MEICO is selling
the ammunition for twenty-two dollars a crate to
a Cyprus company, and that the price is marked
up to forty dollars for each crate when it’s sold to
AEY. The money is being used to pay kick-backs.”
Lies!” Mediu screamed, beside himself with fury,

App. 230
as the videographer ﬁlmed the outburst. “Turn off
the camera,” Mediu hissed. PS ¶ 128 (Lawson
Decl., Ex. 1 at 197.)
Further, Lawson made additional defamatory
statements in radio and television interviews about
Berisha as part of a promotional campaign. Speciﬁcally
(among others):
•

July 6, 2015 interview on Miami Public Radio:
Interviewer: “So, tell us how they ﬁnally got into
trouble?” Lawson: ‘Well, this guy Kosta Trebicka
you referred to was an Albanian businessman who
was doing the repackaging for them. The nefarious
repackaging. And he—they didn’t tell him why
they were doing it, and he grew suspicious. And
then eventually, as will happen in Albania, gangsters came along and wanted the contract for
themselves. These gangsters happened to be connected to the prime minister of Albania.” PS ¶ 128
(Zoladz Decl., Ex. 32).

•

March 16, 2016 Albanian television interview:
Interviewer: [in Albanian] “The son of the prime
minister is mentioned everywhere [in the book],
but what facts do you have that prove his involvement in the matter?” Lawson: [in English] “That’s
what you need an investigation to discover, you
know, the ex-prime-minister’s son met with the
Dudes when they were in Albania to arrange the
delivery and repackaging of these munitions at a
price that was, a, twice the price that the Albanian
government was getting. So the Albanian government was selling the munitions for two cents a
round; sold that to another company for four cents
a round, and then the [inaudible] were buying it

App. 231
for eight cents a round. So what happened to all
that money? Well, the implication is clear that the
prime minister’s son, and perhaps even the prime
minister, certainly the defense minister and other
ofﬁcials, were proﬁteers and the money was
shipped off to a Cyprus holding company and then
vanished.” PS ¶ 128 (Zoladz Decl., Ex. 33).
Lawson’s Deliberate Misrepresentations About
Berisha
“They Would Later be Told by Pinari”: Lawson
Purposefully Misrepresented the Quality of
His Sources for Berisha’s Attendance at the
Meeting
The primary basis for Lawson’s allegation that
Berisha was engaged in corruption and associated
with Albanian “maﬁa,” stems from Berisha’s purported
presence at the May 2007 Meeting. Yet the ultimate
source for Berisha’s alleged presence was Diveroli—a
pathological liar whom Lawson knew had an incentive
to lie to Trebicka about Berisha’s alleged involvement.
He wrote: “This was Shkëlzen Berisha, the son of
the Prime Minister of Albania, they would later be
told by Pinari.” Lawson Decl., Ex. 1, at 139; emphasis
added. At deposition, Lawson conceded that they were
not told; rather, Lawson assumed Diveroli was told. PS
¶ 129 (Zoladz Decl., Ex. 1 (Lawson Tr., at 136:1-4)) (“So,
yes, I did not say that Mr. Diveroli was the source for
Alex and that they were not both told by Mr. Pinari.”).
Podrizki did not tell Lawson that he was told that by
Pinari, but rather Podrizki gave Lawson inconsistent

App. 232
accounts of how he learned about Berisha’s alleged involvement; neither account involved learning it from
Pinari. PS ¶ 129 (Zoladz Decl., Exs. 34 & 27). Further,
Lawson admitted that it was unlikely that Trebicka
learned this from Pinari. PS ¶ 129 (Zoladz Decl., Ex. 1
(Lawson Tr., at 205:12-15) (“And then I realized that it
would have to be Pinari, because Trebicka couldn’t
know unless Pinari told him, and he and Pinari were
at odds.”). Thus, Trebicka learned this from Diveroli.
Lawson claims that his basis for assuming Pinari
was the source was “Alex Podrizki and common sense.”
PS ¶ 129 (Zoladz Decl., Ex. 1 (Lawson Tr., 254: 17-22)).
Let’s start with Podrizki as a source. To repeat, Podrizki never told Lawson that Pinari had told him that
Berisha was at the meeting. Rather, in 2013, Podrizki
told Lawson: “as far as I know, kosta told Efraim that
it was barishas [sic] son at the meeting.” PS ¶ 129 (Zoladz Decl., Ex. 34). In 2014, in a draft manuscript that
Lawson sent to Podrizki, Podrizki tells Lawson that “I
was told this by Kosta, not Pinari.” PS ¶ 129 (Zoladz
Decl., Ex. 27). As a result, initially, Lawson changed the
manuscript to “they were later told by Trebicka.” PS
¶ 129 (Zoladz Decl., Ex. 35). However, for the published
Book, Lawson changed it back to Pinari. See PS ¶ 129
(Zoladz Decl., Ex. 1 (Lawson Tr., 206:4-7) (“I came to
the conclusion, as you see in the ﬁnal book, that it had
to be Mr. Pinari, because Trebicka couldn’t possibly
have known.”)).
Lawson’s professed reasoning for this unsourced
alteration is so-called “common sense.” Without asking
Diveroli PS ¶ 129 (Zoladz Decl., EL 36) or Pinari PS

App. 233
¶ 129 (Zoladz Decl., Ex. 1 (Lawson Tr., 120:4-7]1, and
contrary to what Podrizki had told him, Lawson wrote
that Pinari told Podrizki and Diveroli—representing to
the reader he had eyewitness sourcing (i.e., Podrizki).
A reasonable jury could conclude that Lawson knew
Trebicka was not a compelling source (as Trebicka was
not at the May 2007 Meeting) and deliberately fabricated the sourcing of this information to support his
allegations against Berisha.
Lawson Purposefully Misrepresented Information from Nicholas Wood to Bolster His
Allegations Against Berisha
First, Lawson deliberately misrepresented an interaction between Albanian Defense Minister Fatmir
Mediu (“Mediu”) and New York Times reporter Nicholas
Wood (“Wood”) to make it appear that Mediu had an
emotional outburst when confronted about allegations
that Plaintiff was implicated in the AEY controversy.
The Book provides:
Wood took a breath and dived in, describing
how Albanian ofﬁcials were allegedly being
paid kickbacks on AEY’s contract, including
Diveroli’s recorded description of the Albanian ‘Mafia’ and the Prime Minister’s son.
Mediu exploded. ‘This is all lies!’ he shouted.”

1

Pinari never told Podrizki, Trebicka, Diveroli—or anyone
else—that Plaintiff was at the May 2007 Meeting. PS ¶ 129
(Zoladz Decl., Ex. 37 at ¶¶ 11-12)). And Diveroli admits that he
made-up the story about Plaintiff’s involvement to silence
Trebicka. Id.; PS ¶ 129 (Zoladz Decl., Ex. 38 at ¶¶ 15-16.)

App. 234
***
Wood texted. “Your associates are stealing our
tape from the interview. I suggest u call me. It
was not in my interest to write about u but I
may do so now.”
PS ¶ 130 (Lawson Decl., Ex. 1, at 197.)
But an earlier draft provided:
Wood took a breath and dove in. He repeated what
he’d learned from Kokolari about Medihu’s past. Wood
said that Medihu had been accused of drug trafﬁcking
in Italy. He’d been tried in absentia and found guilty.
He then started to outline Trebicka’s narrative about
the AK -47 ammunition. Medihu exploded. “This is all
lies,” he shouted.
***
Wood texted. ‘Tour associates are stealing our
tape from the interview. I suggest u call me. It
was not in my interest to write about u and
your past but I may do so now.”
PS ¶ 130 (Zoladz Decl., Ex. 39; emphasis added).
Yet Documentary evidence proves that Wood told
Lawson that Mediu’s outburst followed an accusation
of drug trafﬁcking—not an accusation that Plaintiff
was involved with AEY. Indeed, that earlier draft was
more consistent with what Wood had actually told
Lawson:
When I mentioned the [drug] conviction in the
interview he lost his temper (“its a lie its a lie
. . ”) and asked the camera to be switched off,

App. 235
and admitted there had been a conviction and
tried to explain the circumstances.
PS ¶ 130 (Zoladz Decl., Ex. 40).
More worryingly, Lawson admitted at deposition
that he doctored the quote provided by Wood (PS ¶ 130
(Zoladz Decl., Ex. 1 (Lawson Tr., 231:20-23)))—removing “and your past.”
Second, Lawson asked Wood to endorse a falsiﬁed
account of Wood’s meeting with Trebicka—one that
would implicate Plaintiff in corruption—for, in Lawson’s words, “dramatic purposes.” Lawson sent Wood
the following sentence for the Book: “The head of
MEICO, Ylli Pinari had told Trebicka that the Prime
Minister’s son was involved in the AEY contract, another even more ominous sign.” PS ¶ 131 (Zoladz Decl.,
Ex. 41). In the e-mail accompanying that sentence,
Lawson wrote:
The only thing I can see that might be a slight
stretch is how much Trebicka told you about
the threats/warnings he’d received when you
ﬁrst met. For dramatic purposes, it would
be great if I can keep in that he was under pressure from Medihu and knew
about the Prime Minister’s son – even if
you didn’t expressly discuss this at the
time. You knew about the Albanian mobster stuff, because of Trebicka’s conversation with Diveroli, so hopefully you’ll see
this as a very small license I’ve taken, and
that I’ve worded it so I’m directly saying you
two discussed those matters at that time.

App. 236
Hope this isn’t splitting hairs . . . Please
keep this between us only.
Id. (emphasis added)
Defendants have not produced a response to that
email2, but in the Book the language was replaced
with: “Trebicka had heard the allegation that the
prime minister’s son was involved in the AEY contract,
another even more worrying sign.” Lawson Decl., Ex.
1, at 196. A jury could infer that Wood (or someone else)
thought that the truth should come before “dramatic
effect.” In the abstract, Lawson professed agreement:
“Q. And is it your—is it your testimony that the truth
should come before any concerns for dramatic effect?
A. Yes . . . like, to a comical extent.” PS 131 (Zoladz
Decl., Ex. 1 (Lawson Tr., 52:25 – 53:7)).
“The Family”: Lawson Knew that his Source
for the Book’s Characterization of Plaintiff
was Biased
The sentence following “they would later be told
by Pinari” provides that “Shkëlzen was part of what
was known in Albania as ‘the family,’ the tight-knit and
extremely dangerous group that surrounded and lived
at the beneﬁcence of the Prime Minister, Sali Berisha.”
2

The vast majority of Lawson’s communications with Wood
were not produced until June 2018. Shortly thereafter, Plaintiff
moved the court to issue letters of request to obtain documents
and testimony from Wood, who is located in the United Kingdom.
The Court granted the request, but did not extend the discovery
schedule to permit Plaintiff to obtain evidence from Wood. For
that reason alone, summary disposition is inappropriate at this
time. See Fed. R. Civ. P. 56(d).

App. 237
Lawson Decl., Ex. 1 at 139. Lawson admits that the
source for this statement was Erion Veliaj (“Veliaj”), a
political opponent of Berisha’s father with an obvious
bias against the Berisha family. PS ¶ 132 (Zoladz Decl.,
Ex. 1 (Lawson Tr., at 137:23-138:9)). Lawson further
admits that he was aware of Veliaj’s bias. Lawson Decl.,
¶ 70.
Lawson’s Purposeful Avoidance of the Truth Concerning Berisha’s Lack of Involvement with AEY
In service of his preconceived narrative, Lawson
deliberately ignored credible information tending to
show that Berisha was not, in fact, present at any May
2007 Meeting.
Podrizki’s Failure to Identify Plaintiff and Podrizki’s Inconsistent Accounts
First, Lawson was aware that his only “eyewitness” source to the meeting (Podrizki), had been interviewed by U.S. criminal authorities in May 2008, and
during that interview “Podrizki was shown a photo of
the Prime Minister’s son but could not recognize him.”
PS ¶ 65 (Zoladz Decl., Ex. 42). Lawson conceded that
he was aware that Podrizki had failed to identify Berisha, but chose not to ask Podrizki about it. PS ¶ 65
(Zoladz Decl., Ex. 1 (Lawson Tr., 268:4-12)). Instead, in
October 2012, Lawson sent Podrizki an email with Berisha’s ﬁrst name in the subject line (“Shekel zen [sic]
again”) and asked: “Do you recognize the guy in this
photo? From Albania obviously.” Instead of attaching a

App. 238
photograph, Lawson’s e-mail contained a link to an internet article about Berisha that (presumably) included a photo of him. PS ¶ 65 (Zoladz Decl., Ex. 43);
PS ¶ 65 (Zoladz Decl., Ex. 1 (Lawson Tr., at 261:18268:12)).
Lawson credits an identiﬁcation he deliberately
suggested—“Shekel zen [sic] again . . . From Albania
obviously”—despite that it was highly implausible that
Podrizki would recognize Plaintiff in 2012, after failing
to recognize him in 2008. PS ¶ 65 (Zoladz Decl., Ex. 1
(Lawson Tr., at 267:7-12 (“Q. And that—and you
thought that his memory, at the time in 2012, was better than his memory back in 2008, didn’t you? A. No. I
thought his memory in 2012—that’s what I relied
on.”))).
Second, Podrizki provided inconsistent accounts of
events related to the May 2007 Meeting. As noted
above, Lawson knew that Trebicka and Newsome
placed Podrizki at a key meeting on the day after the
May 2007 Meeting. PS ¶ 65 (Zoladz Decl., Ex. 4; 5). But
Podrizki denied being present. PS ¶ 65 (Zoladz Decl.,
Ex. 6). likewise, at one time, Podrizki told Lawson that
he had been present with Trebicka and Diveroli at a
meeting with Mediu’s chief of staff to expose the alleged corruption. PS ¶ 65 (Zoladz Decl., Ex. 44). But
Podrizki also told Lawson he had not been present at
the same meeting. PS ¶ 65 (Zoladz Decl., Ex. 6). Lawson himself acknowledged the inconsistency. PS ¶ 65
(Zoladz Decl., Ex. 1 (Lawson Tr., at 219:12-224:2)).

App. 239
Lawson Ignored Sources That Said Berisha Was
Not Involved
Third, Lawson was informed that the silent attendee at the May 2007 Meeting was not, in fact, Berisha. Gary Kokalari informed Lawson it was someone
else: “earlier on their [sic] was some speculation it may
have been Sali Berisha’s son . . . the ﬁfth man [at the
meeting] was Rahman ‘Rafe’ Saliu (or Sahilillari [sic])
. . . I am also told he has a[t] least one tattoo on his
hand or arm and that Diveroli and/or Podrizki should
be able to conﬁrm this.” PS ¶ 133 (Zoladz Decl., Ex. 45).
Moreover, Lawson also knew that Trebicka had stated
publicly that he did not believe Berisha was involved.
PS ¶ 133 (Zoladz Decl., Ex. 1 (Lawson Tr., 187:25-188:3
(“ . . . I believe, later on, Mr. Trebicka recanted . . . that
Mr. Berisha was involved in it.”)).
Lawson Failed to Ask People With Knowledge
Fourth, Lawson made no effort to contact multiple
people who could have provided information concerning whether Berisha had attended the alleged meeting.
For example, Lawson did not attempt to contact Berisha, Pinari, or Mediu. PS ¶ 134 (Lawson Decl., at
¶¶ 85-87); PS ¶ 134 (Zoladz Decl., Ex. 1 (Lawson Tr., at
120:4-7; 124:3-125:13)). He also did not ask Ralph Merrill—a co-conspirator of the dudes whom Lawson interviewed—if the dudes ever mentioned meeting with the
Prime Minister’s son. PS ¶ 134 (Zoladz Decl., Ex. 45,
¶¶ 5-7); PS ¶ 134 (Zoladz Decl., Ex. 1 (Lawson Tr., at
282:25 – 238:15)).

App. 240
Lawson Ignored Red Flags from Packouz’s Account
Finally, Lawson claims that Packouz never told
him that Podrizki said that Berisha was present at the
May 2007 Meeting. PS ¶ 47 (Zoladz Decl., Ex. 1 (Lawson Tr., at 167:16-170:11; 168:15-22)). It is simply not
credible that Packouz and Podrizki did not discuss Berisha at the time.
Although Packouz was not in Albania, he was
“very good friends” with Podrizki and intimately involved in the events surrounding the May 2007 Meeting. PS ¶ 41 (Zoladz Decl., Ex. 1 (Lawson Tr., at 13:18-25;
15:16-19)). In April and May of 2007, Packouz supervised Podrizki’s acquisition and repacking of the ammunition. PS ¶ 41 (Zoladz Decl., Ex. 47 (Packouz Tr.,
34:3-20); Ex. 48), and they communicated frequently,
sometimes multiple times a day. PS ¶ 41 (Zoladz Decl.,
Ex. 47 (Packouz Tr., 16:8-17)). Podrizki informed Packouz when he had important meetings about AEY’s acquisition of the ammunition. PS ¶ 41 (Zoladz Decl., Ex.
47 (Packouz Tr.,at 50:7-11)). For example, Podrizki informed Packouz when Trebicka told Podrizki the price
that the Ministry of Defense was receiving for the ammunition. PS ¶ 41 (Zoladz Decl. Ex. 50.); PS ¶ 41 (Zoladz Decl., Ex. 47 (Packouz Tr., 48:1-7)). See also PS
¶ 41 (Zoladz Decl., Ex. 49; 50; 51). Packouz also communicated directly with Pinari, at times daily. PS ¶ 41
(Zoladz Decl., Ex. 47 (Packouz Tr., 32:621)).
When Diveroli traveled to Albania for the May
2007 Meeting, Packouz stayed in regular contact with

App. 241
Diveroli and Podrizki. In fact, Packouz helped Diveroli
and Podrizki prepare for the renegotiation with Pinari
by “forg[ing] documents from other suppliers to show
that we had better prices.” PS ¶ 41 (Zoladz Decl., Ex.
47 (Packouz Tr., 55:1-20); Ex. 52). Indeed, Lawson
knew that Packouz had falsiﬁed the documents for use
at the May 2007 Meeting. PS ¶ 47 (Zoladz Decl., Ex.
53).
In addition, Podrizki provided Packouz with details of the May 2007 Meeting, including that: “Pinari
was mostly ignoring Diveroli . . . and throwing the fake
documents in his face which Pinari ignored and took
one look at it and said, oh, that’s fake.” PS ¶ 41 (Zoladz
Decl., Ex. 47 (Packouz Tr., at 56:7-22)). And that: “there
was an agreement to lower the price a little bit in exchange for the repackaging contract to be brought over
to Pinari to do as well.” PS ¶ 41 (Zoladz Decl., Ex. 47
(Packouz Tr., at 57:15-22)). In connection with that
agreed price reduction, on the day following the May
2007 Meeting, Packouz drafted the re-negotiated
agreement that Podrizki and Diveroli discussed with
Pinari. PS ¶ 41 (Zoladz Decl., Ex. 54); See also PS ¶ 41
(Zoladz Decl., EL 55) (discussing Trebicka after the
meeting “does Kosta want to keep the job or is he
scared of pinari [sic]?”); PS ¶ 41 (Zoladz Decl., EL 56
(communicating with Pinari about buying Trebicka’s
extra packing material)).
Yet, according to Packouz, Podrizki never told him
that Berisha was present at any meeting with Pinari:
“He just said that Diveroli met with Pinari, that they
met with Pinari. He didn’t say that anyone else was

App. 242
there.” PS ¶ 41 (Zoladz Decl., EL 47 (Packouz Tr., at
57:4-14)). Incredibly, Packouz claims that Podrizki
never mentioned that Albanian maﬁa or the prime
minister’s son was involved in any way with AEY’s acquisition of ammunition from MEICO. Id. at 64:2-65:6.
If Diveroli and Packouz had actually met with
Albanian maﬁa and the prime minister’s son, Podrizki
would have, by Packouz’s own admission, told Packouz
that fact at the time. PS ¶ 41 (Zoladz Decl., Ex. 47
(Packouz Tr., at 16:8-17; 55:1-20; 64:2-65:6)). Yet Lawson completely ignores Packouz’ improbable denials.
Lawson also deliberately avoids the more likely conclusion; namely, Packouz conspired with Diveroli and
Podrizki to fabricate Berisha’s involvement in order
to pressure Trebicka to remain silent. PS ¶ 41 (Zoladz
Decl., Ex. 47 (Packouz Tr., at 134:14-16 XXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXX.)).3

3

Alternatively, a reasonable jury could reach the conclusion
that Packouz did, in fact, provide information to Lawson about
Berisha’s purported involvement in the meeting, but that Lawson
knew he was not credible, and that it was beneﬁcial to both Lawson and Packouz to remove Packouz as a source for the defamatory allegations at issue in this lawsuit. Indeed, in this action,
Lawson initially claimed Packouz as a source for his claims about
Berisha. Lawson’s responses to Plaintiff’s interrogatories provides: “Lawson responds by providing the following list containing the names of individuals he had conversations with
concerning Berisha: . . . David Packouz . Approximate Dates of
Communication [:] October 2009 to present". PS ¶ 47 (Zoladz
Decl., Ex. 63.)

App. 243
Simon & Schuster Recklessly Published Lawson’s
False Allegations
Simon & Schuster was aware of the ﬂaws in Lawson’s reporting. And knew Lawson’s primary sources
were convicted fraudsters (see generally PS ¶ 72 (Lawson Decl., Ex. 1)) and had been paid for their story PS
¶ 72 (Zoladz Decl., Ex. 57).
As set forth above, Simon & Schuster knew that
Lawson wanted to allege a XXXXXXXXXXXXXXXXXX
XXXXXXXXXX” (PS ¶ 67 (Zoladz Decl., Ex. 59)), XXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXX (PS ¶ 68
(Zoladz Decl., Ex. 20)), and other improbable allegations with insufficient factual support. Specifically,
Simon & Schuster was also copied on an email that C.J.
Chivers of the New York Times sent to Lawson stating:
“[I]t is apparent that the writing you have
submitted to Simon & Schuster, at least on
The Times, is almost certainly riddled with
unsupported surmises, factual errors, and
misleading conclusions. We’re especially concerned because your email string informs us
that you have ﬁnished a book manuscript and
only now, as you face a legal review at Simon
& Schuster, are you trying to nail down the
facts. . . . [Y]ou have written a factually
unsupportable tale and hope that it
might stick and that we might help you.”
PS ¶ 125 (Zoladz Decl., Ex. 60; emphasis added.). Indeed, it is not surprising that Lawson had a reputation
within Simon & Schuster as XXXXX” and XXXXXXX,”

App. 244
and that he XXXXXXXXXXXXX PS ¶ 45 (Zoladz Decl.,
Ex. 61).
Notably, Lawson testiﬁed that the decision to misrepresent Wood’s interview with Mediu—making it appear as though Mediu’s outburst concerned Plaintiff ’s
alleged involvement with AEY—was made in consultation with Simon & Schuster. See PS ¶ 130 (Zoladz
Decl., Ex. 1 (Lawson Tr., at 229:13-232:3)).
Most importantly, there are hundreds of communications, between Simon & Schuster and Lawson,
concerning veriﬁcation of Lawson’s allegations, that
Defendants have wrongfully withheld on grounds of
privilege. See PS ¶ 67 (Zoladz Decl., EL 62) XXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXX”). Those communications concern “subjects such as the sourcing for factual statements” in the
Book and potentially “defamatory statements about [ ]
living and identiﬁable person[s].” PS ¶ 59 (Dkt. No.
109-1, Declaration of Jonathan Karp (“Karp Decl.”),
11).
Lawson did not Reasonably—or Actually—
Rely on Prior Reporting for His Allegations
of Plaintiff ’s Involvement with AEY
Lawson attempts to justify his shoddy allegations
of Plaintiff ’s involvement with AEY by disclaiming responsibility for them. See Lawson Decl., ¶¶ 31-59. His
reckless reporting laid bare in discovery, Lawson now
postulates reliance on other media sources.

App. 245
Speciﬁcally, Lawson purports he relied upon: (1)
The New York Times (“NYT”); (2) The New Republic;
(3) so-called “widespread reporting’ in Albania; (3) a
book by Ardian Klosi (“Klosi”); (4) a book by Andrew
Feinstein (“Feinstein”); and (5) an Al Jazeera television
broadcast. Yet, as shown below, that purported reliance
is neither reasonable nor sincere.
The New York Times Articles
In his declaration, Lawson disingenuously claims
that two 2008 NYT articles “relying on Diveroli then
under scrutiny for fraud, reported that Plaintiff was
involved in corrupt deals involved in AEY’s efforts to
purchase Albanian ammunition . . . ” Lawson Decl.,
¶ 32. But those articles do not justify his allegations.
First, it is clear on the face of those articles that
the NYT did not “rely” on Diveroli and, instead, referenced only that Diveroli made statements about the
Plaintiff in a recorded conversation with Kosta Trebicka.
That is, the NYT did not report that Diveroli’s allegation was true.
Speciﬁcally, the NYT articles’ only passages concerning Plaintiff state—without elaboration—that:
•

“Mr. Diveroli recommended that Mr. Trebicka try
to reclaim his contract by sending ‘one of his girls’
to have sex with Mr. Pinari. [Diveroli] suggested
that money might help, too. ‘Let’s get him happy;
maybe he gives you one more chance,’ he said. ‘If
he gets $20,000 from you . . . ’ At the end, Mr
Diveroli appeared to lament his business with

App. 246
Albania. ‘It went up higher to the prime minister
and his son,’ he said. ‘I can’t ﬁght this maﬁa. It got
too big. The animals just got too out of control.’ PS
¶ 35 (Lawson Decl., Ex. 2).
•

“[Trebicka] recorded a phone call with AEY’s president, Efraim E. Diveroli, in which Mr. Diveroli
said the corruption went all the way up to the
Albanian prime minister, Sail Berisha, and his
son.” PS ¶ 84 (Lawson Decl., Ex. 6.).

Instead of endorsing the truth of Diveroli’s statement, the NYT articles reference the recorded conversation as evidence of Diveroli’s character and AEY’s
dealings with Trebicka. They do not elaborate on
Diveroli’s false allegation. Lawson himself admitted as
much at deposition:
Q. And what – what was published in the
New York Times with respect to Shkëlzen Berisha, to your knowledge?
A. I don’t think he was mentioned by name.
I just think it was by implication in the quote
that Diveroli said. It’s – and I – I’m going to
paraphrase, unless you want to give me the
document – something about it went all the
way up to the prime minister and his son.
PS ¶ 35 (Zoladz Decl., EL 1 (Lawson Tr., 96:18 – 97:3));
see also PS ¶ 35 (Zoladz Decl., Ex. 1 (Lawson Tr., 105:313)).
Second, by the time the Book is published in 2015,
Lawson admits—both in the book (see Lawson Decl.,
Ex. 1 at xv-xvi) and at his deposition (see PS ¶ 135

App. 247
(Zoladz Decl., Ex. 1 (Lawson Tr., 100:4 – 101:8))—that
he is aware of a lot more information:
Q. But your understanding of what was reported in the New York Times was . . . simply
a transcription of a portion of an audio tape
conversation between . . . Efraim Diveroli and
Kosta Trebicka; correct?
A. I don’t – I believe, at that time, I had
never even heard the name of Mr. Berisha’s –
the junior Mr. Berisha – just that little phrase
and his son. . . . And as I came to write the
book, I grew – I grew to know a lot more
about it.
Id. (emphasis added). As detailed supra, after publication of those two NYT articles, but long before the
Book’s release, Lawson was aware of—and deliberately
chose to ignore—evidence casting serious doubts on
Diveroli’s taped assertion.
The New Republic Article
The entirety of that article’s statement concerning
Plaintiff is:
“In 2008, on a secretly recorded phone call, an
American arms dealer complained that his
scheme to sell illegal ammo from Albanian
junkyards to the U.S. Army had become entangled in an Albanian “maﬁa” involving Berisha and his son.”
PS ¶ 97 (Lawson Decl., Ex. 16). Lawson’s supposed reliance on this single-sentence is unreasonable for the

App. 248
same reason that his purported reliance on the NYT
articles was unreasonable: it merely recounts the
statement of Diveroli, a fraudster that Lawson knew
was motivated to lie.
“Widespread Reporting”
Both at his deposition, and via declaration, Lawson asserts that he relied on so-called “widespread reporting’ in Albania for his allegations of Plaintiff ’s
corrupt involvement with AEY. See PS ¶ 136 (Zoladz
Decl., Ex. 1 (Lawson Tr., 151:1 – 153:16; 154:1 – 161:25));
PS ¶ 136 (Lawson Decl., ¶¶ 30, 48, & 53)). Yet Lawson
demonstrated at his deposition that he had no reasonable basis for that purported reliance:
Q. Do you know – have a knowledge of the
journalistic standards applied by Albanian
newspapers?
A.

I do not.

Q. Do you have a knowledge of which Albanian newspapers are considered to be reputable and which are not?
A.

I do not.

Q. And do you know whether Albanian
newspapers that reported allegations that Mr.
Berisha was involved in Gërdec were considered to be aligned with political parties opposed to Mr. Berisha’s father?
A.

I do not.

PS ¶ 136 (Zoladz Decl., Ex. 1 (Lawson Tr., 158:5-18)).

App. 249
Klosi’s Book: “The Gerdec Disaster”
Lawson also claims that he relied on an English
translation of Klosi’s book for assertion of Plaintiff ’s
involvement with AEY. See PS ¶ 100 (Zoladz Decl., Ex.
1 (Lawson Tr., 188:20-190:8)); PS ¶ 100 (Lawson Decl.,
¶¶ 46-47). Yet the only “reporting’ in Klosi’s book concerning Plaintiff and AEY is the following.
Some media editors, following Kosta Trebicka’s
tip-off and the phone calls he had sent them
for examination, were calling for further investigations. . . . Among other people, the
prime minister’s son was mentioned as present at a meeting with Pinari and Delijorgi.
PS ¶ 100 (Lawson Decl., Ex. 10). Lawson’s so-called reliance on that “reporting” is neither reasonable nor
actual. First, the statement about the existence of “the
[taped] phone calls [Trebicka] sent” is no different than
that recounted in the NYT articles. Second, when Lawson read Klosi’s book, Lawson knew that Trebicka’s
information about Plaintiff ’s alleged presence at the
May 2007 Meeting came from Diveroli. See PS ¶ 137
(Zoladz Decl., Ex. 1 (Lawson Tr., 176:8-11; 205:12-15;
206:1-7; 132:1-133:7)); PS ¶ 137 (Lawson Decl., Ex. 1 at
141). Thus, Lawson’s supposed reliance on Klosi
amounts to recklessly relying on Diveroli. Third, both
Lawson’s interrogatory answer and deposition cast
substantial doubt regarding whether Lawson actually
relied on Klosi. In his answers to Plaintiff ’s interrogatories 7 & 8, Lawson makes no mention of Klosi’s book
as a source for his statements about the Plaintiff. PS

App. 250
¶ 100 (Zoladz Decl., Ex. 63). At deposition, Lawson testiﬁed:
Q. And so Mr. Podrizki, then, is the only reliable source you assert of information that
Mr. Shkëlzen Berisha was present at the
meeting –
A. Mr. Klosi’s book is a source. Mr. Feinstein’s book is a source. The – again, I’m not
sure if it was related to the meeting. I’m not
asserting that. But there was widespread
cover in Alb-Demil. All of the things taken together were convincing to me. . . .
Q. . . . You just stated that you relied in part
on Mr. Klosi’s book; correct?
A. I provided the book to my attorney.
They’ve had it in their possession. I haven’t
looked at it, but very likely –
Q. Sir, I asked you what you relied upon. Did
you rely on Mr. Klosi’s book?
A.

I read the book, yes.

PS ¶ 100 (Zoladz Decl., Ex. 1 (Lawson Tr., 188:20 –
190:8)).
Feinstein’s Book: The Shadow World
Feinstein’s book includes only the following statement concerning the Plaintiff:
Importantly, the son of Sali Berisha, the
Prime Minister, was alleged to have been involved in at least one meeting with Delijorgji

App. 251
and Pinari, leading to speculation that he too
was in on the deal.
Lawson Decl., Ex. 15. But, as Lawson admits (see PS
¶ 100 (Lawson Decl., ¶ 55)), Feinstein footnotes Klosi
as his source of that information. So, in sum, Feinstein
relies on Klosi, Klosi relies on Trebicka, Trebicka relies
on Diveroli, and Lawson knows that Diveroli lies “directly, indirectly, compulsively.” PS ¶ 138 (Lawson
Decl., Ex. 1 at 38.)
Furthermore, documentary evidence proves that
Lawson did not, in fact, rely on Feinstein. Lawson
wrote:
“It happens that I am reading Shadow World
at the moment. I can’t speak for the rest of the
book, but the section regarding AEY is ﬁlled
with declarations that are incorrect and/or
misleading. . . . I don’t pretend to be an expert,
like Chris surely is; nor will I pretend to be an
expert, like Feinstein.”
PS ¶ 100 (Zoladz Decl., Ex. 64). Finally, like with Klosi,
Lawson makes no mention of his reliance on Feinstein’s book in answer to Plaintiff ’s interrogatories 7 &
8. PS ¶ 100 (Zoladz Decl., Ex. 63).
Al Jazeera Broadcast: Bullets and Bucks
Lawson claims further reliance on an October 6,
2010 Al Jazeera newscast concerning an explosion at
Gerdec, Albania (“Gerdec”) for his reporting of Plaintiff ’s involvement with AEY. That program made defamatory allegations of Plaintiff ’s involvement in

App. 252
events leading up to that explosion. PS ¶ 89 (Lawson
Decl., Ex. 8). Those defamatory allegations were made
by political opponents of then-prime minister, Sail Berisha. PS ¶ 90 (Berisha Decl., ¶ 38). Plaintiff informed
Al Jazeera of the falsity of those allegations PS ¶ 91
(Zoladz Decl., Ex. 69), but did not ultimately sue in deference to his father’s wishes. PS ¶ 91 (Zoladz Decl., Ex.
66 (Berisha Tr., 107:6-11)).
Even if that broadcast’s allegations about Plaintiff ’s role in Gerdec were true—and they are not—the
broadcast does not support Lawson’s reliance upon it
for allegations of Plaintiff ’s involvement with AEY. In
fact, the only mention in that broadcast of Plaintiff ’s
involvement with AEY was a reference to the NYT article:
“[Trebicka], the article said, claimed that several senior Albanian ofﬁcials including Defence Minister Fatmir Mediu and Ylli Pinari
from the MEICO arms company were involved in the scam along with the Prime Minister’s son, Shkelzen Berisha . . . ”
PS ¶ 89 (Lawson Decl., Ex. 8). Lawson cannot reasonably assert that the Al Jazeera broadcast about Gerdec
provided support for his allegations concerning Plaintiff about AEY.
Plaintiff is a Private Citizen
Plaintiff is the son of the former prime minister of
the Republic of Albania. PS ¶ 139 (Berisha Decl, ¶ 2).
He has never run for, or held, any public ofﬁce. PS

App. 253
¶ 139 (Berisha Decl, ¶ 9). He has attempted to lead a
private life. PS ¶ 139 (Berisha Decl, ¶ 10)
Contrary to Lawson’s false allegations, Berisha
has never had any involvement in arms dealing and
does not know anyone in the Albanian “maﬁa.” He has
most certainly has never been in a room with Diveroli
or Podrizki. PS ¶ 139 (Berisha Decl, ¶ 14; Zoladz Decl.,
Ex. 38).
On several occasions, in response to false allegations manufactured by opponents of Plaintiff ’s father,
Plaintiff has issued public statements. See e.g., PS
¶ 139 (Zoladz Decl., Ex. 66 (Berisha Tr., 162:5 –
163:10)). Yet, Plaintiff has never voluntarily sought
media attention (PS ¶ 139 (Berisha Decl, ¶ 10)) and
the written statements Plaintiff sent to reporters were
brief replies to false allegations. PS ¶ 139 (Zoladz
Decl., Ex. 66 (Berisha Tr., 163:4 – 10)). Berisha does not
have, and has never had, privileged access to the media. Some news outlets have published Plaintiff ’s refutations, but others have not. PS ¶ 139 (Zoladz Decl.,
Ex. 66 (Berisha Tr., 163:22 – 164:14)). Plaintiff ’s partner (Armina Mevlani) has a large social media following, Plaintiff has speciﬁcally requested that she limit
the posting of photographs that include Plaintiff. PS
¶ 139 (Zoladz Decl., Ex. 66 (Berisha Tr., 154:7 – 155:2)).
As a result, Ms. Mevlani has posted very few images of
herself and Berisha. Id.

App. 254
ARGUMENT
I.

SUMMARY JUDGMENT STANDARD

On summary judgment, “[i]f the record presents
factual issues, the Court must not decide them; it
must deny the motion and proceed to trial.” Schiller v.
Viacom, Inc.,, 2016 WL 9280239, at *4 (S.D. Fla. Apr. 4,
2016). “[T]he dispute about a material fact is ‘genuine,’
. . . if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Anderson v.
liberty Lobby, Inc., 477 U.S. 242, 248 (1986). “The Court
must resolve all ambiguities and draw all justiﬁable
inferences in favor of the non-moving party.” Schiller,
at *4.
The summary judgment standard is not different
in defamation cases, as Defendants suggest. (Defs.’
Memo at 10-11). See Lavin v. New York News, Inc., 757
F.2d 1416, 1419 (3d Cir. 1985) (“A substantial dispute
of material fact does not disappear merely because a
media defendant is being sued. . . . and plaintiff ’s right
to a jury trial is entitled to no less respect. . . . carving
out exceptions to Fed. R. Civ. P. 56 is neither permissible, nor helpful.”)
For the reasons set forth herein, a reasonable jury
could—and should—ﬁnd that the Defendants did not
meet their standard of care, and instead acted negligently, or with actual malice, in making the defamatory statements about Berisha.

App. 255
II.

BERISHA IS NOT A GENERAL PURPOSE
PUBLIC FIGURE

General purpose public ﬁgures are persons that
have “assumed roles of especial prominence in the affairs of society.” See Gertz v. Robert Welch, Inc., 418
U.S. 323, 345 (1974). “[P]ublic ﬁgures have voluntarily
exposed themselves to increased risk of injury from
defamatory falsehood concerning them.” Id.” No such
assumption is justiﬁed with respect to a private individual [because] [h]e has not accepted public ofﬁce or
assumed an inﬂuential role in ordering society.” Id. (internal quotes omitted); see also Partington v. Bugliosi,
825 F. Supp. 906, 917 (D. Haw. 1993), aff ’d, 56 F.3d
1147 (9th Cir. 1995) (“Such persons knowingly relinquish their anonymity in return for fame or fortune
[and] [i]t is thus reasonable to attribute a public character to all aspects of their lives.”) (internal quotations
omitted).
Defendants do not contend seriously that Berisha
is a general purpose public ﬁgure; they relegate this
argument to a three-line footnote. (See Defs.’ Memo. at
14, n. 8.) Nonetheless, that argument is without merit
because there is no evidence that Plaintiff “voluntarily
exposed [himself ] to increased risk of injury from defamatory falsehoods” or “assumed an inﬂuential role in
ordering society.” See Gertz, 418 U.S. at 345.
Plaintiff has led—and continues to lead—a private
life. He does not forfeit a private person’s protection
from defamation simply because his father is a politician. See id.

App. 256
III. BERISHA IS NOT A LIMITED PURPOSE
PUBLIC FIGURE BECAUSE HE DID NOTHING TO VOLUNTARILY THRUST HIMSELF
INTO THE AEY CONTROVERSY
Defendants’ primary argument is that Plaintiff is
a “limited-purpose public ﬁgure.” Yet that designation
requires proof that Plaintiff voluntarily inserted himself into the AEY controversy—a burden Defendants
cannot carry.
The Supreme Court has held repeatedly that the
determinative factual issue is whether a plaintiff took
voluntary action to make himself a public ﬁgure. Gertz,
418 U.S. at 345 (“[T]hose classed as public ﬁgures have
thrust themselves to the forefront of particular public
controversies in order to inﬂuence the resolution of the
issues involved”); Wolston v. Reader’s Digest Ass’n,
Inc., 443 U.S. 157, 166–68 (1979) (criminal defendant
was not a limited purpose public ﬁgure because “[i]t
would be more accurate to say that petitioner was
dragged unwillingly into the controversy.”); Time, Inc.
v. Firestone, 424 U.S. 448, 454 (1976) (“Nor did respondent freely choose to publicize issues as to the propriety of her married life.”) (citations omitted).
To be a limited purpose public ﬁgure “the plaintiff
either (1) must ‘purposely [try] to inﬂuence the outcome’ of the public controversy, or (2) ‘could realistically have been expected, because of his position in the
controversy, to have an impact on its resolution.’ In
general, public ﬁgures voluntarily put themselves into
a position to inﬂuence the outcome of the controversy.”

App. 257
Silvester v. Am. Broad. Companies, Inc., 839 F.2d 1491,
1496 (11th Cir. 1988) (citations omitted); Mitre Sports
Int’l Ltd. v. Home Box Ofﬁce, Inc., 22 F. Supp. 3d 240,
251 (S.D.N.Y. 2014) (“Voluntary attention-seeking, or
voluntary participation in a particular controversy is a
key factor in determining limited public ﬁgure status.”)
Being the subject of news reports is insufﬁcient.
Id. at 251–52 (“General news reports regarding public
controversy” are insufﬁcient to make plaintiff a public
figure with respect to the issue because they “fall
short of meeting the requirements for a limited purpose public ﬁgure under Gertz and the line of cases
that consistently require ‘afﬁrmative steps,’ purposeful
activity,’ ‘voluntary’ injection, or ‘invit[ing] public attention.’ ”) Plaintiff has done nothing to “invite attention” here.
First, Plaintiff has never held a position for which
he could have expected to be at the center of the AEY
controversy. That is, Plaintiff has never been involved
with arms dealing in any way.
Second, Berisha has never injected himself into
the AEY story. Rather, Berisha was “dragged unwillingly into the controversy” by Diveroli’s lies.
Defendants claim that, despite Lawson having
purportedly reviewed “tens of thousands of pages of
documentary evidence and interviewed scores of people,” (Defs.’ Memo. at 7-8), he was not “aware of any
statement issued by Plaintiff denying involvement in
AEY arms dealing or other corruption.” (Defs.’ Memo.
at 25.) Yet Defendants cannot have it both ways. They

App. 258
cannot claim credibly that Plaintiff used “ready access
to the media” for inﬂuence, (Defs.’ Memo. at 16), and
also fault him for not doing more to publicly deny false
allegations. Further, as shown below, Berisha’s truthful statements refuting the allegations—reasonable
public replies to the false allegations made against
him—do not transform him into a limited purpose public ﬁgure.
A. Plaintiff ’s Right to Reply does not
Transform him into a Limited Purpose
Public Figure
The only voluntary activity cited by Defendants is
the handful of statements that Berisha made over the
years responding to false allegations leveled against
him. Yet Berisha’s statements fall squarely within the
right of a private ﬁgure to respond to serious, false allegations.
In Foretich v. Capital Cities/ABC, Inc., 37 F.3d
1541, 1559–60 (4th Cir. 1994), the Fourth Circuit held
that the plaintiffs did not become limited purpose
public ﬁgures by making “reasonable replies” to statements that constituted per se defamation. Id. at 1564
(“We see no good reason ‘why someone dragged into a
controversy should be able to speak publicly only at the
expense of foregoing a private person’s protection from
defamation."‘). The Foretich Court found support for
the right of reply in the Supreme Court’s Firestone
decision: “[T]he Court was not swayed by the fact that
Firestone had held several press conferences ‘during

App. 259
the divorce proceedings in an attempt to satisfy inquiring reporters. . . .” Foretich, 37 F.3d at 1557.
Since Foretich, the right of reply has been adopted
by other courts. See Lluberes v. Uncommon Prods.,
LLC, 663 F.3d 6, 19 (1st Cir. 2011) (“[A]n individual
should not risk being branded with an unfavorable status determination merely because he defends himself
publicly against accusations, especially those of a heinous character.”). “Indeed, the cases have suggested
that ordinarily something more than a plaintiff ’s short
simple statement of his view of the story is required;
he renders himself a public ﬁgure only if he voluntarily
‘draw[s] attention to himself or uses his position in the
controversy ‘as a fulcrum to create public discussion.’ ”
Clyburn, 903 F.2d 29, 32 (D.C. Cir. 1990); see also Wells
v. Liddy, 186 F.3d 505, 537 (4th Cir. 1999) (“Firestone
makes clear that voluntary discussion of events with
the press does not per se indicate that a defamation
plaintiff has ‘thrust herself to the forefront of [a public] controversy.’ ”) “Rather, when an individual has
had contact with the press, the proper questions are
whether he has attempted to inﬂuence the merits of a
controversy, ‘draw[n] attention to himself in order to
invite public comment,’ Wolston 443 U.S. at 168, or ‘invited that degree of public attention and comment . . .
essential to meet the public ﬁgure level,’ Hutchinson v.
Proxmire, 443 U.S. 111, 135 (1979).” Wells, 186 F.3d at
537.4

4

To the extent that there are factual issues concerning
whether Berisha’s statements fall within the right to reply, they

App. 260
B. Defendants’ Position—That Accusations Connected to a Public Controversy Make Plaintiff a Public Figure—
was Rejected by the Supreme Court in
the 1970s
In essence, Defendants’ public ﬁgure argument
boils down to the assertion that by virtue of his birth
and bad luck, Berisha is a public ﬁgure because he
“found himself at the very heart” of a scandal that was
“front page news” and a “matter of public concern.”
(Defs.’ Memo. at 13-16.) But that statement of law
hasn’t been true since the 1970s. In Gertz, and multiple cases that followed, the Supreme Court expressly
repudiated prior case law holding that the actual malice standard should extend to defamatory falsehoods
relating to private persons if the statements involved
matters of public or general concern. Gertz, 418 U.S. at
346.
Without directly saying so, Defendants would
have this Court hold that Berisha is a unicorn—the
“exceedingly rare” involuntary public ﬁgure. Yet the
Supreme Court has never found someone to be in the
category of “truly involuntary public ﬁgure,” and courts
and scholars alike have questioned whether such a
category can exist. See Wells, 186 F.3d at 538–39;
David L. Wallis, Note, The Revival of Involuntary
are not appropriate for resolution at summary judgment. See
Lluberes, 663 F.3d at 14 (the inquiry into whether someone is
a limited purpose public figure “is ‘inescapably fact-specific,’
Mandel v. Bos. Phoenix, Inc., 456 F.3d 198, 204 (1st Cir. 2006),
and does not always lend itself to summary judgment”).

App. 261
Limited–Purpose Public Figures–Dameron v. Washington Magazine, Inc., 1987 B.Y.U. L.Rev. 313, 323.
But as the Fourth Circuit held, such a ﬁnding
would gut the holding of Gertz and mark a return to
the pre-Gertz rule:
We are hesitant to rest involuntary public ﬁgure status upon “sheer bad luck.” Gertz tells
us that involuntary public ﬁgures “must be
exceedingly rare,” and, unfortunately, bad
luck is relatively common. The Dameron deﬁnition of an involuntary public ﬁgure, someone who by bad luck is an important ﬁgure in
a public controversy, runs the risk of returning us to the Rosenbloom plurality’s conception of defamation law. Under Rosenbloom, all
defamation plaintiffs were required to prove
actual malice when the allegedly defamatory
statements occurred during “discussion and
communication involving matters of public or
general concern, without regard to whether
the persons involved are famous or anonymous.” The Supreme Court expressly repudiated the “public interest” test in Gertz, and
further disavowed it in Wolston, (“To accept
such reasoning would in effect reestablish the
doctrine advanced by the plurality opinion in
Rosenbloom . . . which concluded that the
New York Times standard should extend to
defamatory falsehoods relating to private persons if the statements involved matters of
public or general concern. We repudiated this

App. 262
approach in Gertz and in Firestone, however,
and we reject it again today.”).
Wells, 186 F.3d at 538–39 (citations omitted).
IV. A REASONABLE JURY COULD DECIDE
THAT THE DEFAMATORY STATEMENTS
WERE MADE WITH ACTUAL MALICE
As a private ﬁgure, Berisha need prove only that
Defendants acted negligently in publishing the defamatory statements. Rubin v. U.S. News & World Report,
Inc., 271 F.3d 1305, 1308 (11th Cir. 2001) (“negligence
is an element in a defamation suit by a private ﬁgure
in a matter of public concern”), citing Miami Herald
Publishing Co. v. Ane, 458 So.2d 239, 242 (Fla.1984).
Yet, as set forth below, even if Berisha were a public
ﬁgure, there is sufﬁcient evidence from which a reasonable jury could conclude that Defendants acted with
reckless disregard for the truth.
Plaintiff may rely on circumstantial evidence to
show that Defendants acted with actual malice. Hunt,
720 F.2d at 643 (“Absent an admission by the defendant that he knew his material was false or that he
doubted its truth, a public ﬁgure must rely upon circumstantial evidence to prove his case.”); Sharon v.
Time, Inc., 599 F. Supp. 538, 564 (S.D.N.Y. 1984) (“[A]
plaintiff is entitled to rely on circumstantial evidence
to prove that a defendant published with actual malice,
including the defendant’s conduct.”) Actual malice
“may be proved by inference, as it would be rare for a
defendant to admit such doubts. A court typically will

App. 263
infer actual malice from objective facts.” Bose Corp. v.
Consumers Union of United States, Inc., 692 F.2d 189,
196 (1st Cir.1982) (citations omitted).
The Court should consider plaintiff ’s evidence of
actual malice in the aggregate, and not whether each
individual piece of evidence by itself demonstrates
reckless disregard for the truth. See Stern v. Cosby, 645
F. Supp. 2d 258, 278 (S.D.N.Y. 2009) (citing Tavoulareas v. Piro, 817 F.2d 762, 794 n. 43 (D.C. Cir. 1987)
(en banc) (“We recognize that each individual piece of
evidence cannot fairly be judged individually . . . Plaintiffs are entitled to an aggregate consideration of all
their evidence to determine if their burden has been
met.”)); Celle v. Filipino Reporter Enterprises Inc., 209
F.3d 163, 183 (2d Cir. 2000) (citing Bose Corp., 692 F.2d
at 196 (“accumulation of the evidence and appropriate
inferences may support[ ] the existence of actual malice.’ ”)).
“The proof of ‘actual malice’ calls a defendant’s
state of mind into question, and does not readily lend
itself to summary disposition.” Hutchinson, 443 U.S. at
120 n. 9 (citations omitted).
A. Lawson Had Obvious Reason to Doubt
the Veracity of His Sources
A reasonable jury could discount Lawson’s selfserving assertion that he believed his sources to be
credible, and that he believed that the statements to
be accurate, because Lawson had obvious reason to
doubt the veracity of his sources. Hunt, 720 F.2d at 645

App. 264
(“[A]n inference of actual malice can be drawn when a
defendant publishes a defamatory statement that contradicts information known to him, even when the defendant testiﬁes that he believed that the statement
was not defamatory and was consistent with the facts
within his knowledge.”).
As the Eleventh Circuit explained in Hunt:
“[W]hen an article is not in the category of ‘hot news,’
that is, information that must be printed immediately
or it will lose its newsworthy value, ‘actual malice may
be inferred when the investigation for a story . . . was
grossly inadequate in the circumstances.’ ” Id. at 643
(citations omitted). An investigation is grossly inadequate “where there are obvious reasons to doubt the
veracity of the informant or the accuracy of his reports.” Id.; Gertz v. Robert Welch, Inc., 680 F.2d 527,
538 (7th Cir.1982) (“[A] publisher cannot feign ignorance or profess good faith when there are clear indications present which bring into question the truth or
falsity of defamatory statements.”); Connaughton v.
Harte Hanks Commc’ns, Inc., 842 F.2d 825, 847 (6th
Cir. 1988) (“Accordingly, this court concludes that the
Journal’s decision to rely on [source’s] highly questionable and condemning allegations without ﬁrst verifying those accusations through [key witness] and
without independent supporting evidence constituted
an extreme departure from the standards of investigation and reporting ordinarily adhered to by responsible
publishers which demonstrated a reckless disregard as
to the truth or falsity of [source’s] allegations.”).

App. 265
Further, knowledge of a source’s bias or unreliability can provide reason to doubt the veracity of the
information. See Stern, 645 F. Supp. 2d at 281 (“A
reasonable jury could ﬁnd that [the author’s] reliance
on these two sources for such an explosive allegation is
evidence of actual malice, because [she] was aware of
their possible bias and/or unreliability. Cf. Secord v.
Cockburn, 747 F.Supp. 779, 789 (D.D.C.1990) (holding
that actual malice requirement met where ‘author was
subjectively aware that the source was unreliable’)”);
Hunt, 720 F.2d at 645 (“the jury could reasonably conclude that [publisher] did not follow up on his doubts
about [informant’s] neutrality prior to publication.”).
As detailed in the Facts section above, Lawson had
obvious reason to doubt the veracity of his sources because Lawson knew the following. (1) the sourcing for
Berisha’s presence at the May 2007 Meeting was ultimately Diveroli, a pathological liar; (2) Packouz and
Podrizki had been convicted, along with Diveroli, of
conspiracy to defraud the U.S Government, and had
used the identities of real people to perpetuate AEY’s
fraudulent scheme; (3) Podrizki lied to Lawson about
key events related to the May 2007 Meeting; (4) Packouz and Podrizki were motivated to tell Lawson what
he wanted to hear because they had a ﬁnancial interest
in the Book, and wanted to rehabilitate their images;
(5) Podrizki had previously failed to identify Berisha
from a photograph as part of a law enforcement interview in 2008, and had provided Lawson inconsistent
accounts of key events related to the May 2007 Meeting, and (6) Lawson’s source for the statement that

App. 266
Berisha “was part of what was known in Albania as
‘the family,’ the tight-knit and extremely dangerous
group that surrounded and lived at the beneﬁcence of
the Prime Minister, Sail Berisha” was a political opponent of Berisha’s father with an obvious bias.
B. Lawson Had an Agenda, Which Caused
Him to Fabricate Certain Facts that
Supported His Storyline and Discount
Those that Did Not
As demonstrated above, Lawson had his own biases and agenda. Speciﬁcally, Lawson wanted to sell a
Pentagon conspiracy, State Department bribery, biased
federal prosecution, and Albanian corruption, while
minimizing the culpability of his sources: Packouz and
Podrizki.
But Lawson did not have sufﬁcient facts to prove
his counter-narratives. So instead of abandoning inadequately sourced allegations, he fabricated facts and
quotes. For instance, Lawson drafted dialogue for an
entire scene, portraying Podrizki in a positive light,
that never happened. In another instance, Lawson
asked a reporter for permission to alter facts about
allegations against Berisha for “dramatic purposes.”
Recently, this Court found similar facts sufﬁcient to
preclude summary judgment:
Michael Bay . . . testiﬁed that “Pain & Gain”
took “certain facts in the case and we twisted
them for our own beneﬁt to make a fun
movie.” This evidence, when placed in the

App. 267
light most favorable to Plaintiff, demonstrates that Defendants . . entertained “serious doubts” as to the truth of their publication,
thereby precluding summary judgment.
Schiller v. Viacom, Inc., 2016 WL 9280239, at *7 (S.D.
Fla. Apr. 4, 2016) (record cites omitted).
Here, Lawson changed facts provided by his
sources to bolster his allegations against Berisha. Despite Podrizki telling Lawson that Trebicka was the
source of his belief that Berisha was the silent attendee at the May 2007 Meeting, Lawson wrote “they
would later be told by Pinari.” When Podrizki pointed
out the error in a draft, Lawson initially changed it to
“they would later be told by Trebicka,” and then
changed it back to Pinari. Moreover, Lawson admits
that didn’t believe that “they”—meaning both Diveroli
and Podrizki—were told by Pinari. Instead, he admits
that he thought only Diveroli was told by Pinari. From
those efforts to bolster the quality of his sourcing, a
reasonable jury could ﬁnd this evidence that Lawson
acted with reckless disregard for the truth. See Masson
v. New Yorker Magazine, Inc., 832 F. Supp. 1350, 1356–
57 (N.D. Cal. 1993) (“One possible conclusion the jury
might draw. . . . [is] that the quotations were changed
back as a result of a conscious decision to sacriﬁce accuracy to creativity.”)
Further, Lawson, in consultation with his editors
at Simon & Schuster, intentionally misrepresented a
scene (and doctored quotations) to make it appear as
though Mediu responded emotionally to allegations

App. 268
about Plaintiff and AEY—and not drug trafﬁcking—to
bolster Lawson’s corruption claims against Plaintiff.
Schiavone Const. Co. v. Time, Inc., 847 F.2d 1069, 1092
(3d Cir. 1988) (“Smith’s decision to simply delete language that cast a very different and more benign light
on the facts he reported, could itself serve as a basis for
a jury’s ﬁnding by clear and convincing evidence that
Time acted with knowledge of probable falsity.”)
Likewise, Lawson’s bias led him to credit facts
that supported his storyline, and discredit those that
did not. As detailed above, Lawson purposefully
avoided facts that suggested that Berisha was not involved in corruption, including. (1) not asking Podrizki
about his failure to identify Berisha in 2008, and instead crediting a suggestive identiﬁcation—that Lawson induced—in 2012; (2) ignoring a statement from
one of his sources that another man was actually the
silent attendee at the May 2007 Meeting; (3) failing to
contact people who could have shed light on whether
Berisha was involved in corruption, including Berisha,
Pinari and Mediu; (4) failing to ask Merrill about his
contemporaneous communications with the Dudes in
May 2007; and (5) and ignoring red ﬂags in Packouz’
improbable account that he did not discuss Berisha
with Diveroli and Podrizki in May 2007.
Again, a reasonable jury could ﬁnd these facts, especially in the aggregate, to be evidence that Lawson
acted with actual malice. See Sharon, 599 F. Supp. at
585 (“But a jury could ﬁnd signiﬁcant the fact that . . .
[reporter] failed to ask any questions that would have
led his source to deny the hypothesis that he had set

App. 269
out to test.”); id. (“The inconsistency among these
statements could lead a jury to ﬁnd that [editor] based
his ﬁle on nothing more than speculation.”); Schiavone,
847 F.2d at 1092 (“[H]is choice to credit only the portions that were damaging to Schiavone and not the
portion that would have neutralized those damaging
statements bears on his subjective state of mind and
may point to actual malice.”); id. at 1090 (‘Where the
defendant ﬁnds internal inconsistencies or apparently
reliable information that contradicts its libelous assertions, but nevertheless publishes those statements
anyway, the New York Times actual malice test can be
met.”)
C. Lawson Cannot Rely on Prior Reporting
Because His Book Went Further
As set forth above, the prior reporting concerning
Plaintiff and AEY cited only the recorded conversation
between Diveroli and Trebicka. By contrast, the Book
was qualitatively different. It was the detailed report,
of an investigative journalist, that Plaintiff actually
attended the May 2007 Meeting, was engaged in corruption, and associated with “maﬁa.” See Stern, 645
F. Supp. 2d at 271 (“[T]here is a qualitative difference
between comments made on a tabloid television show
and written statements in a book purporting to be
the product of legitimate ‘investigative journalism,’
written by—as appears on the cover of the Book—an
‘Emmy–Award Winning Journalist.’. . . . Second, much
of the conduct detailed in the Book is fundamentally

App. 270
different from the conduct that was the subject of the
allegations swirling in the tabloid media.”)
D. Lawson Cannot Rely on Prior Reporting
Since He Had Evidence to Refute It
Moreover, courts have explicitly rejected the argument that Defendants can rely on reports of reputable
news organizations to the exclusion of contrary evidence. Defendants are well aware (as Defendants’
counsel’s law ﬁrm argued the case) that the Ninth Circuit has held:
Defendants were not uninvolved third parties
who clearly lacked access to the facts behind
the published reports. If they knew that the
news reports were false or had information
from other sources that raised obvious doubts,
then they didn’t “rely” on the news stories;
they simply hid behind them. What defendants actually want is a rule that purported
reliance on reputable news sources cannot
constitute actual malice—but that is not the
law.
Flowers v. Camille, 310 F.3d 1118, 1130 (9th Cir. 2002)
(emphasis in original). This is because:
“Talebearers are as bad as talemakers,” each
repetition of a defamatory statement by a new
person constitutes a new publication, rendering the repeater liable for that new publication. . . . The law deems the repeater to “adopt
as his own” the defamatory statement. Liability for repetition of a libel may not be avoided

App. 271
by the mere expedient of adding the truthful
caveat that one heard the statement from
somebody else.
Id. at 1128. “Likewise, a defamatory statement isn’t
rendered nondefamatory merely because it relies on
another defamatory statement.” Id. at 1129. “[I]f someone knows that the news story is false, he can’t sanitize
his republication by purporting to rely on the news
source. Nor can he claim immunity if he has conﬂicting information from another source and recklessly
disregards it.” Id. at 1130. See also Stern, 645
F. Supp. 2d at 270-71 (S.D.N.Y. 2009) (“That someone
has been falsely called a thief in the past does not
mean that he is immune from further injury if he is
falsely called a thief again.”).
As shown above, a reasonable jury could ﬁnd that
Lawson had reason to doubt the veracity of his sources,
fabricated facts to ﬁt his agenda, and discounted conﬂicting information. His purported reliance on prior
news reports cannot sanitize statements made with actual malice.
E. Simon & Schuster Acted With Actual
Malice
While Simon & Schuster did not have all the information that Lawson had, it had enough for a reasonable jury to ﬁnd it acted with reckless disregard for the
truth. Speciﬁcally, Simon & Schuster knew that: (1)
Lawson wanted to pursue implausible storylines
that put the Book on ‘‘XXXXXXXXXXXXXXXXXXXX”;

App. 272
(2) Lawson’s primary sources were convicted of conspiring to defraud the U.S. Government, and had been
paid by Lawson for their stories; (3) one of Lawson’s
sources—C.J. Chivers, a New York Times Reporter—
believed that the draft manuscript submitted to Simon
& Schuster was “XXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXX”; and (4) that
Lawson had a reputation within Simon & Schuster as
XXXXXXXX” ‘‘XXXXXXXXX,” and a ‘‘XXXXXXX.” Most
signiﬁcantly, there is evidence that certain of Lawson’s
decisions to alter facts about Berisha—speciﬁcally the
decision to make it appear that Mediu was upset about
being confronted with the allegations about Berisha—
were made in consultation with Simon & Schuster.
Further, it would be premature to grant summary
judgment here because Simon & Schuster is wrongfully withholding as privileged pre-publication communications with Lawson, that bear directly on Simon
& Schuster’s state of mind. See Lluberes, 663 F.3d at
26 (overturning summary judgment where district
court’s erroneous privilege holding prevented Plaintiff
showing actual malice); see also Fed. R. Civ. P. 56(d).
As set forth in Plaintiff ’s Objections to Magistrate
Judge Louis’ August 3, 2018 order (Dkt. No. 145), those
documents concern “subjects such as the sourcing for
factual statements” and potentially “defamatory statements about [ ] living and identiﬁable person[s]” made
in the Book. (See Dkt. No. 109-1, (Karp Decl., ¶ 11).)
What Lawson did—or did not—tell Simon & Schuster
about the factual sourcing for the statements about
Berisha (or other factual errors in the Book) is highly

App. 273
relevant to whether Simon & Schuster published with
reckless disregard for the truth.5
August 22, 2018

Respectfully Submitted,
/s/ Jason M. Zoladz
Jason M. Zoladz
Admitted pro hac vice
New York State Bar No. 4250593
California State Bar No. 237921
1450 2nd Street
Santa Monica, California 90401
Tel: (347) 851-7141
jason@zoladzlaw.com

5

It is not appropriate to grant summary judgment for Podrizki
or Packouz either. Construing the facts and inferences in favor of
Berisha – as the Court must do on summary judgment – a reasonable jury could find that, in 2007, Podrizki and Packouz
conspired with Diveroli to fabricate Berisha’s involvement to
pressure Trebicka to keep quiet. And, because they were being
paid and wanted to rehabilitate their reputations, they provided
false information to Lawson knowing that it would be published.
Admittedly, if actual malice is the appropriate standard—and it
is not for the reasons set forth above—there are insufﬁcient facts
to show that Recorded Books acted with reckless disregard for the
truth.

App. 274
Jeffrey W. Gutchess
Florida State Bar No. 702641
Brandon P. Rose
Florida State Bar No. 99984
AXS LAW GROUP, PLLC
2121 NW 2nd Avenue, Suite 201
Wynwood, Florida 33127
Tel: (305) 297-1878
jeff@axslawgroup.com
brandon@axslawgroup.com
Attorneys for Plaintiff
Shkëlzen Berisha
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that, on June 12, 2018, I
electronically ﬁled the foregoing with the Clerk of the
Court using the CM/ECF system which will send a notice of electronic ﬁling via electronic mail to all attorneys of record.
/s/ Brandon P. Rose
Attorney for Plaintiff Shkëlzen Berisha

App. 275
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF FLORIDA
SHKËLZEN BERISHA,
Plaintiff,

Case No. 17-cv-22144

vs.

COMPLAINT
GUY LAWSON, EFRAIM
JURY TRIAL
DIVEROLI, ALEXANDER
PODRIZKI, DAVID PACKOUZ, DEMANDED
SIMON & SCHUSTER, INC., (Filed Jun. 8, 2017)
RECORDED BOOKS, INC.,
AND INCARCERATED
ENTERTAINMENT, LLC,
Defendants.
Plaintiff SHKËLZEN BERISHA (“Berisha” or “Plaintiff ”) sues GUY LAWSON (“Lawson”), EFRAIM DIVEROLI (“Diveroli”), ALEXANDER PODRIZKI (“Podrizki”),
DAVID PACKOUZ (“Packouz”), SIMON & SCHUSTER,
INC. (“Simon & Schuster”), RECORDED BOOKS, INC.
(“Recorded Books”), and INCARCERATED ENTERTAINMENT, LLC (“Incarcerated Entertainment”) (collectively referred to as “Defendants”) for false, incendiary,
and defamatory allegations of Plaintiff ’s involvement
in organized crime, corruption and a scheme to defraud
the United States Government.
INTRODUCTION
1. This action arises from the elaborate deceptions of convicted con men and the slipshod, bad-faith

App. 276
reporting of a so-called investigative journalist. It is an
action for defamation. Yet, as set out in painstaking
detail herein, it is fundamentally a story of how greed,
fraud and the careless pursuit for notoriety, combined
to destroy the reputation of a good man.
2. In June 2015, Simon & Schuster published a
fantastical tale of international arms dealing titled
Arms and the Dudes: How Three Stoners from Miami
Beach Became the Most Unlikely Gunrunners in History (the “Dudes Book”). In the Dudes Book—and a repackaged version of it, published in July 2016, titled
War Dogs (the “War Dogs Book”)—Lawson wrote of
how three arms dealers defrauded the United States
Government (the “Government”) on a military contract
worth hundreds of millions of dollars.
3. Lawson’s primary eyewitness sources for the
Dudes Book, however, were serial liars and convicted
frauds. A mere recitation of their rap sheets though
does not convey the breadth and audacity of the deceptions they perpetrated. As demonstrated by proof at
trial evidence that Lawson knew well—Podrizki, Packouz and Diveroli lied shamelessly and compulsively to
protect their interests. They lied to obtain the military
contract; lied to keep it; lied in its execution; lied to
cheat their business partners; lied to boost their profits; and lied to scare their enemies. They forged documents, faked invoices and destroyed evidence.
4. As a result, Lawson himself doubted the veracity of his sources. He knew that, without credible

App. 277
corroboration, it was reckless to rely on their word.
When asked about his sources, Lawson stated:1
Interviewer:
source?

Was he [Packouz] your chief

Lawson: My chief source was the documents. You know, it’s one thing to hear
from somebody about this or that—they
had this or that happen, and it’s great.
And I hope that the book gives you a real
sense of inside that voyage. But, you know,
there’s nothing that can beat research
and primary documents. So that was my
main source.
(emphasis added).
5. Nevertheless, Lawson did not have “research
and primary documents” to justify the entire story that
he wished to tell. Not satisﬁed with a book merely
recounting the gunrunning exploits of drug-addled
twenty-somethings, Lawson coveted an even “bigger”
story—one of geopolitical intrigue, Albanian “maﬁa”
and the purported corruption of a prime minister’s son.
6. Therefore, based solely upon his lying sources’
false recounting of an inherently improbable meeting, Lawson recklessly accused the Plaintiff (to whom
he has never attempted to speak) of associating with
1

Topical Currents: How Three Stoners from Miami Beach
Became the Most Unlikely Gunrunners in History (Miami Public
Radio WLRN radio broadcast, July 6, 2015), available at http://
wlrn.org/post/how-three-stoners-miami-beach-became-most-unlikelygunrunners-history (last visited June 3, 2017).

App. 278
organized crime, cheating his own country, and conspiring to defraud the United States. In lieu of reporting an honest story, Lawson played upon the vague
prejudices of his readers—the one-dimensional caricature of Albanians as corrupt. To that end, he leveled
disastrous allegations with full knowledge that his
sources were not only untrustworthy, but motivated ﬁnancially to lie about Plaintiff ’s involvement. Worst of
all, he spread his sources’ lies despite knowing that
this was not the ﬁrst time that they exploited an innocent person in service of fraud.
7. With absolutely no credible evidence that Mr.
Berisha was involved in criminality, Lawson and his
publishers recklessly elected to destroy Plaintiffs reputation in hopes of selling more books. Like the many
sensationalists that preceded them, Lawson and his
publishers relied on the fact that, although cruelly defamed, most victims of defamation will not sue. In this
case, however, their reliance was misplaced. Mr. Berisha brings this action to vindicate his rights and restore his reputation.
THE PARTIES
Defendant Lawson
8. Guy Lawson is a New York citizen and resident, author, and investigative journalist. With direction and editorial assistance from Simon & Schuster,
Lawson authored the Dudes Book, and contracted with
Simon & Schuster for its national and international
distribution.

App. 279
9. Over the last several years, Lawson has spent
signiﬁcant time working in Florida to prepare books
and articles. In fact, Lawson’s most recent large projects—the Dudes Book, War Dogs Book and The Dukes
of Oxy: How a Band of Teen Wrestlers Built a Smuggling Empire—concern events and individuals situated in Florida.
10. In addition to his work on Florida-based stories, Lawson has personally marketed his books in
Florida. For example, on July 6, 2015, Lawson promoted the Dudes Book via a ﬁfty-minute interview
broadcast on Miami Public Radio WLRN; he promoted
the War Dogs Book by way of an August 12, 2016 interview published in the Miami Herald. Furthermore,
Lawson has promoted the Dudes Book and the War
Dogs Book in many interviews broadcasted nationally
and internationally.
Defendants Diveroli, Packouz and Podrizki
11. Diveroli, Packouz and Podrizki are Florida
residents and citizens, liars and felons. In 2009, they
were convicted of: (1) conspiring to commit major fraud
against the United States; (2) conspiring to commit
wire fraud; and (3) conspiring to make false statements.
12. Diveroli is the primary author of a book, published in May 2016, titled Once a Gunrunner . . . The
Real Story (the “Gunrunner Book”). He is a managing
member of Incarcerated Entertainment.

App. 280
Defendant Simon & Schuster
13. Simon & Schuster—publisher of the Dudes
Book and its movie tie-in version War Dogs Book—edits, publishes, promotes and disseminates adult and
children’s consumer books in printed, digital and audio
formats in the United States and internationally.
14. Simon & Schuster is a citizen of Delaware
and New York because it is incorporated in Delaware
and its principal place of business is in New York. It is
a wholly-owned subsidiary of CBS Corporation.
15. Simon & Schuster does and solicits business
in Florida, and that Florida business includes the promotion and dissemination of the Dudes Book and War
Dogs Book in print and digital formats.
Defendant Recorded Books
16. Recorded Books—the “largest independent
publisher of unabridged audiobooks”—records, publishes, promotes and disseminates audiobooks in the
United States and internationally.2 On August 8, 2016,
Recorded Books published distinct audiobook versions
of the Dudes Book and War Dogs Book.3

2

See Recorded Books, Inc., About, http://www.recordedbooks.
com/about (last visited June 3, 2017).
3
Via its website, Recorded Books represents that “before any
title is released to the market, the audiobook is sent to proofers
for their critical feedback and recommendations.” See Recorded
Books, Inc., Our Story, http://www.recordedbooks.com/about/ourstory (last visited June 3, 2017).

App. 281
17. Recorded Books is a citizen of Delaware and
Maryland because it is incorporated in Delaware and
its principal place of business is in Maryland.
18. Recorded Books does and solicits business in
Florida. That Florida business includes the promotion
and dissemination of the Dudes Book and War Dogs
Book in audiobook formats (e.g., mp3 CD and eAudio)
via, among other outlets, its website and third-party
vendors (e.g., Audible, Inc.).
Defendant Incarcerated Entertainment
19. Incarcerated Entertainment’s business is “focused on monetizing . . . ‘Once a Gunrunner . . . The
Real Story’, the content associated with www.EfraimDiveroli.com, [and] Mr. Diveroli’s life and movie
rights . . . ”4
20. Incarcerated Entertainment is a citizen of
Florida because its principal place of business is in
Florida and it was organized under Florida law.
21. Incarcerated Entertainment is owned and
controlled by Ross Reback and Diveroli.
Plaintiff Berisha
22. Shkëlzen Berisha is a father, lawyer and
businessman. He is a resident and citizen of Albania.

4

Complaint at 2-3, Incarcerated Ent., LLC v. Warner Bros.
Ent., Inc., et al., Case No. 16-CV-00732, April 28, 2016.

App. 282
JURISDICTION
23. This Court has jurisdiction over the subject matter of this lawsuit pursuant to 28 U.S.C.
§ 1332(a)(2) because: (1) the amount in controversy exceeds $75,000; (2) Defendants are citizens of Florida,
New York, Delaware and Maryland; and (3) Plaintiff is
a citizen and resident of Albania.
24. This Court may exercise personal jurisdiction over each of the Defendants pursuant to
§ 48.193(1)(a)(2), Fla. Stat. (2016) because each of the
Defendants caused injury to Plaintiff in Florida by
committing a tortious act in Florida.
25. This Court may exercise personal jurisdiction over Defendants Diveroli, Packouz, Podrizki,
and Incarcerated Entertainment because they reside
in Florida.
26. This Court may exercise personal jurisdiction over Defendants Lawson, Simon & Schuster
and Recorded Books because they have had continuous and systematic business contact with Florida,
and are thereby subject to jurisdiction pursuant
to § 48.193(1)(a)(1), Fla. Stat. (2016). In addition,
Defendants Lawson, Simon & Schuster, and Recorded Books are subject to jurisdiction pursuant
to § 48.193(1)(a)(6), Fla. Stat. (2016), because they
caused injury in Florida through the release of a product consumed in Florida.
27. Moreover, this case is brought properly in
this Court because signiﬁcant events giving rise to

App. 283
Mr. Berisha’s complaint—and signiﬁcant damage to
Mr. Berisha’s reputation—occurred within Florida.
VENUE
28. Venue is proper in this District pursuant to:
(1) 28 U.S.C. § 1391(b)(2) because a substantial part of
the events giving rise to Plaintiffs claim occurred in
Miami, Florida; and (2) 28 U.S.C. § 1391(b)(3) because
Defendants are subject to personal jurisdiction in this
District and there is no other district in which this action may be brought under § 1391(b)(1) or (b)(2).
29. Additionally, Diveroli, Packouz and Podrizki
reside in this District.
FLORIDA DEFAMATION
NOTICE COMPLIANCE
30. On May 31, 2017 and June 1, 2017, Plaintiff
complied with § 770.01 Fla. Stat. (2016) by providing
written notice—more than ﬁve days before instituting
this action—to each defendant that he would be sued
for circulating the false and defamatory allegations
speciﬁed herein.
FACTUAL BACKGROUND
Diveroli Assumes Control of AEY and Partners
with Merrill
31. In early 2004, at age 18, Diveroli took control
of AEY, Inc. (“AEY”)—a shell company incorporated by

App. 284
his father. Shortly after acquiring control, Diveroli began using the company to bid on Government contracts
for military equipment, including weapons and ammunition.
32. Neither Diveroli, nor AEY, manufactured
weapons or any other equipment. Instead, Diveroli
sought proﬁt as a middleman—locating and purchasing military equipment for markup and resale to the
Government.
33. Diveroli could not ﬁnance AEY’s nascent
arms brokering business by himself. Most Government
military contract solicitations provided for payment
thirty-days after equipment delivery. Since AEY
needed to obtain military materiel before receiving
payment from the Government, Diveroli sought a ﬁnancier.
34. In 2004, Diveroli contacted Ralph Merrill
(“Merrill”) to obtain ﬁnancing in connection with a bid
on a Government contract to supply equipment for the
Iraqi police and army.5 In exchange for repayment and
a cut of the proﬁts, Merrill agreed to supply $550,000
in ﬁnancing for the deal.6
35. From 2004 through 2006, Merrill partnered
with AEY on at least six Government contracts. To that
end, Merrill risked approximately $1,500,000 in the
5

See Excerpted Testimony of Ralph Merrill from the Jury
Trial of Ralph Merrill at 14, U.S. v. Merrill, Case No. 08-20574
(Dec. 8, 2010).
6
Id. at 16.

App. 285
joint venture and helped Diveroli locate suppliers and
logistics support.7 At the conclusion of each contract,
Merrill reinvested in AEY.8
Seeking Profit, Diveroli and Merrill Lie to the
Government
36. During 2005 and 2006, Diveroli and AEY developed a reputation for unreliability and deceit with
several Government ofﬁcials responsible for overseeing AEY’s contracts. For example: (1) in July 2005, unbeknownst to Diveroli and Merrill, the U.S. State
Department referred AEY to criminal authorities for
illegally procuring Chinese-made AK-47s and fraudulently repackaging and re-marking the guns to conceal
their true origin;9 and (2) in February 2006, a U.S.
Army Contracting Ofﬁcer canceled an AEY contract for
provision of “J-Point Scopes” because AEY sought to
provide “cheap copies of an actual patented J-Point
system.”10
37. Moreover, in late 2005, AEY failed to deliver
on a $5.6 million contract to supply Beretta pistols to
Iraqi Security Forces (the “Beretta Deal”). Government
contracting ofﬁcers concluded that AEY provided a
7

See id. at 16-20.
Id.
9
See Excerpted Testimony of Michael Mentavlos and David
Packouz from the Jury Trial at 6-7, U.S. v. Merrill, Case No. 0820574 (Dec. 8, 2010).
10
House Committee on Government Oversight and Reform,
Majority Staff Analysis, The AEY Investigation at 13 (June 24,
2008).
8

App. 286
series of false excuses for its failure to perform, including that: (1) a plane crash destroyed key documents;
(2) the German government was interfering; and (3) a
hurricane hit Miami.11 A contracting ofﬁcer, responsible for the Beretta deal, remarked: “[W]e could tell
there was no hurricane in Miami. It wasn’t like we
didn’t have Internet in the Green Zone.”12 Another
noted: “I couldn’t take anything [Diveroli] said credibly.”13 The truth was that Diveroli and Merrill couldn’t
get their Beretta supplier to perform.14 As a result, the
contracting ofﬁcers cancelled the deal.15
38. Diveroli and Merrill knew that AEY’s poor
performance on the Beretta Deal could imperil AEY’s
prospects for obtaining Government contracts. Thus,
Merrill and Diveroli concocted a scheme to “get back
on the bidders list in good graces, and continue

11

See House Committee on Oversight and Government Reform, Transcribed Interview of Commander Robert Brooks (June
13, 2008); House Committee on Oversight and Government Reform, Transcribed Interview of Commander Frank Futcher (June
13, 2008).
12
House Committee on Oversight and Government Reform,
Transcribed Interview of Commander Frank Futcher (June 13,
2008).
13
House Committee on Oversight and Government Reform,
Transcribed Interview of Commander Robert Brooks (June 13,
2008).
14
See Government’s Trial Exhibit EM-036 (1/27/07 e-mail
from Merrill to AEY), U.S. v. Merrill, Case No. 08-20574.
15
House Committee on Oversight and Government Reform,
Transcribed Interview of Commander Robert Brooks (June 13,
2008).

App. 287
business as usual.”16 Merrill would vouch for Diveroli’s
false excuses and misrepresent his involvement in
AEY.17 In Merrill’s own words at trial:18
Q. So Efraim Diveroli told you to lie to the
Government and you went ahead and did so?
A. I didn’t regard it, really, as a lie-lie. It was
kind of one of those white lies that you tell to
try to correct something that has clearly gone
wrong.
***
Q. And so, to further your ﬁnancial interest
in this contract, you falsely represented yourself to be something you were not?
A. That sounds a little harsh. But that –
Q. That’s accurate. Right?
A. You know, it – it is what it is.
39. Merrill’s and Diveroli’s lies concerning the
Beretta Deal foreshadowed more elaborate frauds to
come, and demonstrated a modus operandi that Diveroli, and his coconspirators, would employ in the future.
Namely, Merrill, Packouz, Podrizki and Diveroli would

16

See Government’s Trial Exhibit EM-004 (3/17/06 e-mail
from Merrill to Sgt. Martinez, with attached letter) at Bates No.
YGAC-009658, U.S. v. Merrill, Case No. 08-20574
17
Id.
18
See Jury Trial Tr. at 61-62, U.S. v. Merrill, Case No. 0820574 (Dec. 9, 2010).

App. 288
exploit uninvolved people, companies and events in
service of their deceptions.
Packouz, Merrill and Diveroli Lie and Falsify
Documents in a Fraudulent Bid for the Afghanistan Contract
40. In late July 2006, the Government solicited
bids to provide an enormous quantity of “non-standard
ammunition”19 to the Afghanistan National Army and
Afghanistan National Police (the “Solicitation” or “Afghan Solicitation”).20 Among other items, the Government sought a large supply of 7.62 x 39mm rounds—
the caliber used in AK-47 Assault Riﬂes. The solicitation was for a “[o]ne ﬁrm ﬁxed-price award, on an all
or none basis . . . two year Requirements contract”;21
meaning that the entire contract would be sourced
from one company that would supply the Government’s requirements, if any, on-demand. The sheer
magnitude of the solicitation assured that the winning
contractor would be paid hundreds of millions of dollars.
41. Given the importance of the Government’s
goal (i.e., arming Afghan forces to stem the Taliban’s
advance), the Solicitation required that each bidder
19

“Non-standard ammunition” refers to ammunition not typically ﬁred by U.S. forces.
20
See generally Government’s Trial Exhibit 3 (AEY “Solicitation” for Afghanistan Contract, dated 9/11/06), U.S. v. Merrill,
Case No. 08-20574.
21
Id. at ASC 01304.

App. 289
provide substantial evidence of experience and success
with sourcing, qualifying, testing and delivering similar military materiel.22
42. In early August 2006, Merrill, Diveroli and
Packouz decided to bid on the Afghan Solicitation.23
Diveroli, Packouz and Merrill understood that past
performance “weigh[ed] more heavily than price” in
the Government’s evaluation of AEY’s bid.24 But they
also understood that AEY didn’t have the capital, expertise or experience needed to warrant the Government’s trust. AEY—led by a 20-year-old high school
dropout—was generally ill-prepared to deliver on such
a large contract.
43. Instead of abandoning the bid—and developing the resume needed for success on large Government solicitations—Diveroli, Packouz and Merrill

22

See id. at ASC 01339-40.
See Excerpted Testimony of Michael Mentavlos and David
Packouz from the Jury Trial at 118, U.S. v. Merrill, Case No. 0820574 (Nov. 30, 2010). Six months before the Government issued
the Afghan Solicitation, David Packouz—a 25-year-old part-time
masseuse with no prior education or experience in arms dealing—
joined AEY. See id. at 103-106. Packouz joined AEY as an “account executive” but later changed his business card to read “Vice
President.” Id. at 106.
24
See Government’s Trial Exhibit EM-012 (9/10/06 e-mail
Merrill to Thomet), U.S. v. Merrill, Case No. 08-20574; Excerpted
Testimony of Michael Mentavlos and David Packouz from the
Jury Trial at 119, U.S. v. Merrill, Case No. 08-20574 (Nov. 30,
2010).
23

App. 290
conspired to execute an elaborate fraud.25 The trio fabricated documents, cooked books and lied shamelessly
about AEY’s experience and operations.26
44. Packouz, Merrill and Diveroli constructed a
“Past Performance” tender comprising more ﬁction
than fact.27 In it, the trio submitted a document titled
“Past Performance System Integrator” containing,
among many others, the following outright lies:28
a. “AEY . . . has twenty years of experience brokering foreign weapons systems.” At trial, Packouz admitted:29
Q. How long was the history of AEY, to begin
with?
A. I think Efraim had been doing business
under AEY at that point for almost two years.
b. “Two of our ofﬁcers are former army personnel. One of these ofﬁcers is a retired Israeli colonel . . .
25

See Excerpted Testimony of Michael Mentavlos and David
Packouz from the Jury Trial at 119-37, U.S. v. Merrill, Case No.
08-20574 (Nov. 30, 2010).
26
See generally id.
27
See generally Government’s Trial Exhibit 3A, U.S. v. Merrill, Case No. 08-20574; Excerpted Testimony of Michael Mentavlos and David Packouz from the Jury Trial at 118-37, U.S. v.
Merrill, Case No. 08-20574 (Nov. 30, 2010); Excerpted Testimony
of David Packouz from the Jury Trial at 25-26, U.S. v. Merrill,
Case No. 08-20574 (Sept. 16, 2010.
28
See id.
29
Excerpted Testimony of Michael Mentavlos and David
Packouz from the Jury Trial at 122-23, U.S. v. Merrill, Case No.
08-20574 (Nov. 30, 2010).

App. 291
Another company ofﬁcer owns a manufacturing company in the U.S., which currently builds 4 different
weapons systems.” In the words of David Packouz:30
Q. Was this true or false?
A. I mean, Efraim was the only ofﬁcer in the
– the legal ofﬁcer in the company. So no.
Q. And to your knowledge, had he ever served
in the Army?
A. Efraim Diveroli, the president, never
served in the Army. No.
***
Q. “One of these ofﬁcers is a retired Israeli
Army colonel who has used many of these systems.” Do you have any retired Israeli Army
colonels afﬁliated with AEY?
A. Afﬁliated, yes. But he was not an ofﬁcer of
the company. He’s talking about one of our
suppliers, which is Talon Limited. But he’s just
a supplier, not an actual ofﬁcer of AEY.
Q. So he’s somebody you’re buying from – or
potentially AEY might be buying from?
A. Could potentially buy from. Yes.
Here again, Diveroli, Merrill and Packouz use an uninvolved person in their fraud.
c. “Personal, on site [sic] inspections of manufacturing facilities to review quality control capabilities,
30

Id. at 123-24.

App. 292
and on site [sic] inspections of existing stocks to assess
storage practices, condition of ammunition, and packaging.” Packouz confessed:31
Q. Did anybody at AEY do personal on-site
inspections of manufacturing facilities?
A. That I’m aware of we hadn’t done that ever
at – until that point. No.
d. “Knowledge of ammunition testing methods
and practices, and the location of laboratories and testing facilities to certify all types of ammunition. Experience having done this.” Packouz conceded:32
Q. Did AEY have any experience in testing
and certifying ammunition?
A. I am not aware that AEY ever tested or certiﬁed ammunition.
e. “AEY has dealt with all of the Suppliers of foreign ammunition, both factories and MODs, and has
qualiﬁed the better plants and arsenals from the marginal ones.” Packouz testiﬁed:33
Q. Had AEY dealt with the foreign suppliers,
Ministries of Defense and factories and qualiﬁed the better plants and arsenals from the
marginal ones?
A. Not that I’m aware of No.

31
32
33

Id. at 126.
Id. at 127.
Id. at 129.

App. 293
f. “We also know which of these historically adhere to their schedules, and which have capacity and
which are backlogged.” Packouz admitted:34
Q. Did you know which ones historically had
adhered to their schedules and which had capacity and which were backlogged?
A. No.
g. “AEY through its European ofﬁce, has visited
all plants and/or MOD storage facilities involved in
sourcing the ammunition included in this tender, and
has inspected the available goods for qualiﬁcation.” At
trial, Packouz conceded:35
Q. [D]id AEY have a European ofﬁce?
A. No. We just had Henri Thomet.
Q. He didn’t work for AEY? He had his own
business?
A. No. He was a supplier of AEY, but he was
based in Europe.
***
Q. Had anyone from AEY visited all plants
and Ministry of Defense storage facilities involved in sourcing the ammunition included
in this tender?
A. Deﬁnitely not.

34
35

Id.
Id. at 128-29.

App. 294
45. Since AEY did not have the proﬁciency required to warrant the Government’s award of the
contract, Packouz, Diveroli, and Merrill invented experience that did not exist. For example, in their “Past
Performance” submission, the trio fabricated the following invoice for a non-existent contract (the “Vector
Arms Contract”) between AEY and another company
owned by Merrill, Vector Arms, Inc. (“Vector Arms”):36

36

See Government’s Trial Exhibit 3A (AEY “Past Performance” for Afghanistan Contract, dated 9/11/06) at ASC 01360,
U.S. v. Merrill, Case No. 08-20574.

App. 295
46. The Vector Arms Contract was an important
part of AEY’s “Past Performance” submission. As a result, in October 2006, a Government contracting ofﬁcer
contacted Merrill—Merrill was president of Vector
Arms—with eighteen speciﬁc questions concerning
AEY’s performance on the phony contract.37 Merrill responded with elaborate details regarding a contract
that never happened.38
47. Regarding the invoice, contract, and Men-ill’s
response, Packouz testiﬁed:
Q. And when Merrill was listed as a reference
for AEY’s past performance, did anybody tell
the Army that he also stood to gain 50 percent
of the proﬁts if this contract were granted to
AEY?
A. Of course not.
Q. Did Mr. Merrill provide the response that
he wanted AEY to submit to the Army to convince Ms. Porschke that AEY merited receiving
this contract?
A. I believe Efraim and myself actually wrote
that response and sent it to Merrill, to Ralph.
And he sent it to the Army.
***

37

See Government’s Trial Exhibit EM-016 (10/05/06 e-mail
from Merrill to AEY, forwarding a 10/02/06 e-mail from K. Porschke to Merrill), U.S. v. Merrill, Case No. 08-20574.
38
See Government’s Trial Exhibit EM-017 (10/06/06 e-mail
from Merrill to AEY), U.S. v. Merrill, Case No. 08-20574.

App. 296
Q. Did AEY ever actually provide Vector Arms
with 29 million rounds of 7.62-millimeter ammunition from the Czech Republic to Utah?
A. No.
***
Q. And does the rest of this e-mail basically
laud the performance of AEY on the deal that
never occurred?
A. Yes.
48. Further, in late December 2006, the Defense
Contract Management Agency sent a letter to AEY,
seeking to verify AEY’s “ﬁnancial capability to perform
on the requirements under Solicitation” including “Ammunition[ ] in the estimated amount of $298,824.919.”39
Among other items, the requested data included “copies of any corporate or personal guaranty and any unusually favorable creditor/vendor payment terms.”40
49. Because Merrill, Packouz, and Diveroli
wanted “to make AEY look as ﬁnancially capable as
possible”, the trio again conspired to fabricate documents.41 In particular, they concocted “Financial

39

See Government’s Trial Exhibit EM-029 (12/26/06 e-mail
from AEY to Merrill) at SWG 02117788-90, U.S. v. Merrill, Case
No. 08-20574.
40
Id.
41
See Excerpted Testimony of David Packouz from the Jury
Trial at 27-31, U.S. v. Merrill, Case No. 08-20574 (Sept. 17, 2010).

App. 297
Support” declarations42 from various entities containing fake provisions.43
50. As a result of the aforementioned lies—and
many others—Packouz, Diveroli and Merrill convinced
the Government to award the Afghan Solicitation to
AEY.44 In the words of David Packouz:45
Q. So what ultimately happened with your
bid[ ] and all of the information you provided
to the Army for the Afghanistan solicitation?
A. Well, we won the bid.
Motivated by Greed, Podrizki, Packouz, Merrill
and Diveroli Concoct Elaborate Forgeries and
Lies in Executing the Afghanistan Contract
51. AEY’s primary supplier in its contract with
the Government (the “Afghanistan Contract” or the
“Contract”) was Heinrich Thomet (“Thomet”).46 Thomet
was an international arms dealer who operated via several shell companies, including Talon Ltd. (an Israeli
42

See Government’s Trial Exhibits EM-030 (12/29/06 e-mail
from AEY to Merrill), EM-31 (12/31/06 e-mail from AEY to Merrill), and EM-32 (1/1/07 e-mail from Merrill to AEY), U.S. v. Merrill, Case No. 08-20574.
43
See Excerpted Testimony of David Packouz from the Jury
Trial at 27-31, U.S. v. Merrill, Case No. 08-20574 (Sept. 17, 2010).
44
See Excerpted Testimony of David Packouz from the Jury
Trial at 33-34, U.S. v. Merrill, Case No. 08-20574 (Sept. 17, 2010.
45
Id.
46
See Excerpted Testimony of David Packouz from the Jury
Trial at 22, U.S. v. Merrill, Case No. 08-20574 (Dec. 1, 2010).

App. 298
company), BT International (a Swiss entity), and
Evdin, Ltd. (“Evdin”) (a Cyprus company).47 Thomet organized Evdin for use speciﬁcally in his dealings with
AEY on the Afghan contract. Like AEY, Thomet was
merely a broker; he had no manufacturing capacity or
inventory.48
52. AEY’s contracts with Evdin concerned mostly
7.62 x 39mm (i.e., AK-47 caliber) ammunition sourced
from military caches in Albania.49 Initially, AEY agreed
to purchase AK-47 ammunition for $0.0431 per round;50
ammunition that it would sell to the Government, via
the Afghanistan Contract, for $0.0989 per round.51
53. For historical reasons, Albania was an obvious source for the Afghanistan Contract’s ammunition
requirements. From 1945 to 1991, Albania was a communist dictatorship. However, by allying itself with
47

See Excerpted Testimony of David Packouz from the Jury
Trial at 16-17, 24, U.S. v. Merrill, Case No. 08-20574 (Sept. 16,
2010).
48
See Government’s Trial Exhibit EM-073 (3/23/07 e-mail
from Merrill to Diveroli), U.S. v. Merrill, Case No. 08-20574. Also
like AEY, Thomet had earned himself a place on U.S. State Department watch list for illicit arms trafﬁcking. See House Committee on Government Oversight and Reform, Majority Staff
Analysis, The AEY Investigation at 7 (June 24, 2008).
49
See, e.g., Government’s Trial Exhibit EM-103 (04/17/07
e-mail from Packouz to Podrizki, attaching Evdin contract) at
SWG04-005143 - 53, U.S. v. Merrill, Case No. 08-20574.
50
Id. at SWG04-005142.
51
See Government’s Trial Exhibit 3B (AEY “Price” submission for Afghanistan Contract, dated 9/11/06) at ASC 01297, U.S.
v. Merrill, Case No. 08-20574.

App. 299
China, Albania largely avoided falling within the
U.S.S.R.’s sphere of inﬂuence during the Cold War.
To deter the (perceived) threat of military encroachment by NATO, Yugoslavia, and the U.S.S.R., Enver
Hoxha—Albania’s dictator from 1945 to 1985—oversaw the construction of approximately 175,000 military bunkers in Albania. Due to Albania’s alliance with
China, Albania’s military bunkers were stocked largely
with Chinese-manufactured ammunition.
54. With the end of the Cold War, in 1991, Albania’s communist dictatorship dissolved and the country reconstituted itself as a parliamentary democracy,
allying itself with other western democracies. To that
end, Albania sought entry to NATO. NATO was receptive to Albania’s admission on condition that Albania
secure and reduce its enormous ammunition stockpiles.
55. Albania’s Ministry of Defense (“MOD”) authorized a company—Albania’s Military Export Import
Company (“MEICO”)—to, among other things, sell or
dispose of Albania’s aging surplus ammunition.52 In
2007, and throughout the course of AEY’s execution
on the Afghanistan Contract, Ylli Pinari (“Pinari”)

52

See Excerpted Testimony of David Packouz from the Jury
Trial at 31, U.S. v. Merrill, Case No. 08-20574 (Dec. 1, 2010); See
Government’s Trial Exhibit EM-102 (04/17/06 e-mail from Diveroli to Pinari and Thomet, cc’ing Packouz, Podrizki and Merrill),
U.S. v. Merrill, Case No. 08-20574.

App. 300
was the president of, and AEY’s primary contact at,
MEICO.53
56. In April 2007, Alexander Podrizki joined
Diveroli and Packouz (collectively, the “AEY Conspirators”) at AEY to work on the Afghanistan Contract.54
On April 18, 2007, Podrizki travelled to Albania to
oversee the shipment of ammunition to Afghanistan.55
57. Shortly after arriving in Albania, Podrizki
learned that nearly all of the ammunition that MEICO
intended to supply was manufactured by a Chinese
military company.56 The ammunition was packed in
metal boxes, arranged in wooden crates.57 Both the
wooden crates and metal boxes contained markings
that demonstrated the ammunition’s Chinese origin.
On April 20, 2007, Packouz requested that Podrizki
“get pictures of the packaging and all of the markings on the crates and metal tins [because] we’re trying to figure out if the chinese [sic] markings could
fuck us.”58 Podrizki sent photographs to Packouz—
53

See id. at 31
Id. at 29.
55
See id.
56
See Government’s Trial Exhibits EM-114 (04/20/07 e-mail
from Podrizki to Packouz, attaching photos of Chinese ammunition), EM-115 (04/20/07 e-mail from Podrizki to Packouz, attaching photos of Chinese ammunition), EM-116 (04/20/07 e-mail from
Packouz to Podrizki), and EM-118 (04/20/07 e-mail from Packouz
to Diveroli and Merrill, attaching photos of Chinese ammunition),
U.S. v. Merrill, Case No. 08-20574.
57
See id.
58
See Government’s Trial Exhibit EM-116 (04/20/07 e-mail
from Packouz to Podrizki), U.S. v. Merrill, Case No. 08-20574.
54

App. 301
photos forwarded to Merrill and Diveroli—demonstrating the Chinese origin of the ammunition.59
58. Packouz’ worry about the “chinese [sic]
markings” was well-founded in both the Afghanistan
Contract and U.S. law. The Contract contained an
amendment prohibiting acquisition of military materiel manufactured by Chinese companies.60 Moreover,
to receive payment, AEY was required to certify the
name and location of the ammunition’s manufacturer.61
59. Yet even if the Contract did not contain an
amendment forbidding the supply of Chinese-manufactured ammunition, the AEY Conspirators knew
that it was illegal to broker its sale. The United States
established an arms embargo against China following
the Tiananmen Square massacre. In Packouz’ own
words:
Q. When you received this amendment, was it
any surprise to you?
A. No.
Q. And why was that?
59

See Government’s Trial Exhibit EM-118 (04/20/07 e-mail
from Packouz to Diveroli and Merrill, attaching photos of Chinese
ammunition), U.S. v. Merrill, Case No. 08-20574.
60
See Government’s Trial Exhibit 2A (11/20/06 “Amendment
of Solicitation/Modiﬁcation of Contract”) at ASC 00720, U.S. v.
Merrill, Case No. 08-20574.
61
See Excerpted Testimony of Michael Mentavlos and David
Packouz from the Jury Trial at 4852, U.S. v. Merrill, Case No. 0820574 (Nov. 30, 2010).

App. 302
A. Well, it was widely known in the arms industry that there is an embargo against China
and that US companies cannot buy or sell to
Chinese companies Munitions List items.
Q. So at the time you received this amendment, you already knew that you couldn’t do
what this amendment says you can[’t] do?
A. That’s right.
60. On April 20, 2007—the very day that Podrizki discovered the Chinese origin of the ammunition—the AEY Conspirators agreed to defraud the
Government.62 Initially, the AEY Conspirators thought
that they could conceal the Chinese origin by repainting the metal boxes and scraping the Chinese markings from wooden crates. On April 23, 2007, Podrizki
sent an email to Pinari stating: “As I’m sure you know
the USA has had an embargo on China since 1989 . . .
we will need to have the metal cases repainted over.”63
On April 25, 2007, Merrill sent an email to Diveroli and
Packouz attaching photos “showing three suggested
methods of cleaning wooden crates.”64
61. Ultimately, however, Podrizki discovered
that the metal tins of ammunition contained stencil
paper betraying its Chinese origin. As a result, the
62

See Government’s Trial Exhibit EM-119 (04/20/07 e-mail
from Packouz to Podrizki), U.S. v. Merrill, Case No. 08-20574.
63
See Government’s Trial Exhibit EM-123 (04/23/07 e-mail
from Packouz to Podrizki), U.S. v. Merrill, Case No. 08-20574.
64
See Government’s Trial Exhibit EM-137 (04/25/07 e-mail
from Merrill to Diveroli and Packouz), U.S. v. Merrill, Case No.
08-20574.

App. 303
AEY Conspirators decided to remove the ammunition
from the metal tins, discard the stencil paper, and repack it in cardboard boxes. In support of their fraud,
Packouz e-mailed a U.S. military ofﬁcer in Afghanistan:65
“In order to conﬁrm that all of the ammunition we are shipping is undamaged and serviceable without qualiﬁcation as required by
the contract, we opened every metal can of
ammunition to perform a complete, visual inspection along with an extensive sample of
test ﬁring . . . To ensure packaging stability
and efﬁciency, we repackaged the ammunition
in cardboard boxes strapped to euro pallets
(see attached pictures of packaging conﬁguration). . . . [W]e wanted to conﬁrm with you
that this packaging conﬁguration will not
cause any issues . . . ”
Yet at trial, Packouz admitted:66
Q. When you say “we opened every metal [can
of ] ammunition to perform a complete visual
inspection,” was that, in fact, true?
A. No.
***

65

See Government’s Trial Exhibit EM-136 (04/25/07 e-mail
from Packouz to Maj. Walck, attaching photos), U.S. v. Merrill,
Case No. 08-20574.
66
See Excerpted Testimony of David Packouz from the Jury
Trial at 79-80, U.S. v. Merrill, Case No. 08-20574 (Dec. 1, 2010).

App. 304
Q. And what was the reason for your plans to
have the ammunition packaged in cardboard
boxes?
A. In order to remove the Chinese lettering.
Q. Did it have anything to do with corroded
tins or bullets?
A. Not really. No.
62. Packouz’ fraudulent e-mail worked—the U.S.
military ofﬁcer consented to delivery in cardboard
boxes—and so Packouz informed Podrizki and Pinari
that they could proceed with concealing the origin of
the Chinese ammunition.67
63. The AEY Conspirators suspected that neither MEICO nor Evdin would ultimately agree to perform the repackaging operation. As a result, Podrizki
located a company to do the repackaging.68 That company, Xhoi, Ltd. (“Xhoi”), was owned by a man named
Kosta Trebicka (“Trebicka”).69
64. The AEY Conspirators’ suspicion was correct—MEICO and Evdin would not (at least initially)

67

See Government’s Trial Exhibit EM-138 (4/25/07 e-mail
from Packouz to Pinari and Podrizki), U.S. v. Merrill, Case No.
08-20574.
68
See Government’s Trial Exhibit EM-150 (4/27/07 e-mail
from Podrizki to Diveroli and Packouz), U.S. v. Merrill, Case No.
08-20574.
69
Id.

App. 305
agree to repackage the Chinese ammunition.70 Thomet
informed AEY:71
Any additional customized packing requirements were at no point included in this offer
. . . If AEY desires additional packing as requested now . . . all costs will be forwarded as
received by MEICO to the buyer.
In a bizarre attempt to cover-up the illegal scheme,
Diveroli responded:72
AEY was never aware of or excepted [sic] Chinese ammunition for the delivery [on] US
Government contracts and we will only accept
the loose packed ammunition in cardboard
boxes in lieu of the Chinese . . . AEY has been
told that we will be allowed to repack the ammunition using its own packing company in
Albania . . .
Regarding this deception, Packouz testiﬁed:73
Q. When he’s talking about loose-packed ammunition in lieu of Chinese, what is he really
saying?
A. He’s covering himself He’s just trying to
say, “Hey, you know, this” – to leave like a trail
70

See Excerpted Testimony of David Packouz from the Jury
Trial at 82, 94, U.S. v. Merrill, Case No. 08-20574 (Dec. 1, 2010).
71
See Government’s Trial Exhibit EM-157 (4/29/07 e-mail
from Diveroli to Merrill, Packouz and Thomet), U.S. v. Merrill,
Case No. 08-20574.
72
Id.
73
See Excerpted Testimony of David Packouz from the Jury
Trial at 95, U.S. v. Merrill, Case No. 08-20574 (Dec. 1, 2010).

App. 306
– you know, that we didn’t actually deliver
Chinese. But he – you know, he knows he’s going to be delivering Chinese.
Shortly thereafter, the AEY Conspirators hired Trebicka to perform the repackaging.74
65. Trebicka wasn’t satisﬁed with his proﬁt on
the repackaging contract. He wanted a piece of the ammunition deal. Merrill writes Evdin:75
As you probably know by now, Pinari would
not repack the ammo, so our agent, Alex,
found a company that would do it . . . The
owner of that company is a guy by the name
of Kosta. It seems that when Kosta discovered
what was going on, he became enterprising,
and went to the MOD on his own, to see if they
would sell him the ammo. He then calculated
to offer it to us at a reduced price, thinking to
cut out both Pinari and Evdin. Kosta and
Pinari were friends until this happened, and
Pinari found out about it. Before Pinari found
out about it, he tried to cut Kosta out of the
game by offering Efraim to repack the ammo
and earn the money himself . . . In the process
of all this intrigue, Kosta revealed to Alex the
MOD sell price of $20 per K [i.e., $0.020 per
round]. Efraim is upset that Evdin and Pinari
74

See Government’s Trial Exhibit EM-167 (5/6/07 e-mail from
Packouz to Trebicka, cc’ing Podrizki and Diveroli), U.S. v. Merrill,
Case No. 08-20574.
75
See Government’s Trial Exhibit EM-175 (5/16/07 e-mail from
Diveroli to Merrill, Packouz and Thomet), U.S. v. Merrill, Case
No. 08-20574.

App. 307
are making alot [sic] of money, and we are
loosing [sic] money.
In reality, Trebicka was not in a position to cut Pinari
and Evdin out of the ammunition deal. Yet Pinari and
Evdin were concerned that Trebicka would expose the
scheme. Thomet writes Diveroli and Merrill:76
The events produced in the past few days are
most disturbing and unpleasant. . . . By having AEY representatives on the ground and by
all the discussions for cheaper packing . . . too
many people became interested in this
business and all what Evdin has tried to
keep smooth and low proﬁle has hit the
fan.
(emphasis added).
66. Based upon the price that Trebicka quoted,
Diveroli believed that he could renegotiate for a lower
price on the ammunition. To that end, Diveroli decided
to meet with Pinari in Albania. In advance of the meeting, Diveroli, Packouz and Podrizki conspired to manufacture documents reﬂecting phony, lower prices on the
same ammunition that MEICO was selling AEY. Packouz admitted:77
Q. And what was the purpose of [Diveroli]
traveling to Albania?
76

See Government’s Trial Exhibit EM-178 (5/21/07 e-mail
from Thomet to Diveroli and Merrill), U.S. v. Merrill, Case No.
08-20574.
77
See Excerpted Testimony of David Packouz from the Jury
Trial at 119-20, U.S. v. Merrill, Case No. 08-20574 (Dec. 1, 2010).

App. 308
A. To try to work out a deal with Pinari to
lower the price.
Q. And did you assist in preparing Efraim
for the negotiations that he was going to be undertaking?
***
A. I concocted a bunch of fake documents
that he could use in the negotiations.
Q. And what type of information was contained in those documents?
A. There were quotes that were modiﬁed to
show prices that we could use as leverage to
show Pinari that—say, “Hey, we got other options” when, really, we didn’t really have options.
67. On May 23, 2007, Diveroli and Podrizki met
with Pinari in Albania to renegotiate the price of ammunition.78 Ultimately, Evdin and Pinari agreed to
grant AEY a tiny price reduction. But, in exchange for
a lower price, Pinari insisted that AEY cancel its contract79 with the “enterprising” Trebicka and instead
hire another company—Alb-Demil—to perform the repackaging.

78

See Government’s Trial Exhibit EM-181 (5/23/07 e-mail
from Diveroli to Merrill), U.S. v. Merrill, Case No. 08-20574.
79
See Government’s Trial Exhibit EM-167 (5/6/07 e-mail
from Packouz to Trebicka, cc’ing Podrizki and Diveroli, attaching
the repackaging contract), U.S. v. Merrill, Case No. 08-20574.

App. 309
Podrizki, Packouz, and Diveroli Conspire to Silence a Potential Whistleblower
68. Diveroli and Packouz coveted the price reduction, but it presented a new problem—how to make
Trebicka go away quietly. Trebicka both knew that the
ammunition was Chinese and was in possession of a
contract (signed by AEY) describing his job as: “Removing ammunition from wooden crates and metal tins
and repacking the ammunition into strong plastic
bags sealed within 5 ply cardboard [b]oxes.”80 Moreover, Trebicka was aware that Evdin (i.e., Thomet) was
taking a substantial cut on a deal that would’ve been
much more proﬁtable to Albania if Evdin was not sitting in the middle of the transaction.
69. Therefore, on May 23, 2007—shortly after
that day’s meeting with PinariDiveroli, Packouz and
Podrizki formulated a plan to silence Trebicka.81 They
would try to scare him into remaining silent about the
repackaging work by concocting yet another phony
story.
70. The next morning, on May 24, 2007, Podrizki
and Diveroli met with Trebicka and lied to him. They
told Trebicka that Albanian “mafia,” and the prime
minister’s son, were present at the meeting with
80

See Government’s Trial Exhibit EM-167 (5/6/07 e-mail
from Packouz to Trebicka, cc’ing Podrizki and Diveroli, attaching
the repackaging contract), U.S. v. Merrill, Case No. 08-20574.
81
After the meeting, Diveroli contacted Merrill to discuss
cancelling Trebicka’s contract. See Excerpted Testimony of Ralph
Merrill from the Jury Trial at 182, U.S. v. Merrill, Case No. 0820574 (Dec. 1, 2010).

App. 310
Pinari, and that the “maﬁa” threatened to kill them if
they didn’t cancel Trebicka’s repackaging contract.
Further, Diveroli and Podrizki told Trebicka that
Pinari warned them to keep quiet because the prime
minister’s son was involved. These claims were completely false. What’s more, Podrizki and Diveroli
concealed the reason that AEY cancelled Trebicka’s
contract; namely, AEY wanted a lower price on the ammunition.
71. Trebicka was incensed by the cancellation of
his repackaging contract, and informed Diveroli and
Podrizki that he intended, later that day, to tell Diveroli’s story of corruption to U.S. ofﬁcials. Diveroli—
frightened that Trebicka would disclose the repackaging deal—agreed to sit down with American diplomats.
In his account to U.S. ofﬁcials, Diveroli concealed both
the repackaging contract and the price renegotiation.
72. Nevertheless, the AEY Conspirators’ lie backfired. Trebicka would not go away quietly. In June
2007, Trebicka recorded a telephone conversation with
Diveroli, in which Trebicka and Diveroli discussed the
cancellation of Trebicka’s repackaging contract:82
Trebicka: So what’s happening with your pal
Pinari?
Diveroli: I don’t know, you tell me. Did you
make a deal with him for the boxes?

82

See Efraim Diveroli talks with Kosta Trebicka, https://
www.youtube.com/watch?v=B3Tur7Hlw7k&list=PLWXgJA_3LG
skE6hsGQfcyEW3si5XceOsf&index=1 (last visited June 3, 2017).

App. 311
Trebicka: I don’t want to make a deal with
him. You know that he’s a crook You told me
before that he’s a maﬁa guy, didn’t you?
Diveroli: I think he is. Yeah – either he’s Maﬁa or the Maﬁa is controlling him . . .
Diveroli feigned innocence in the repackaging contract’s cancellation:
Diveroli: I’ve been 100% with you. I did not
remove you from this job . . . I had nothing to
do with this. Nothing. Even though Pinari
asked me to – he forced me to. I have never supported this decision.
Pinari: I understand. I understand.
Diveroli: I’m very, very upset. I’m very concerned . . .
Pinari: Is he [Pinari] still working with
Henri – with Henri Thomet?
Diveroli: I think he’s still working with Henri
– I’m still working with Henri. I have to work
with Henri . . . I can’t play monkey business
with the maﬁa . . .
Later in the call, Trebicka implicitly threatened to expose Diveroli to the United States Government:
Trebicka: Probably I will be invited in Washington, D.C. – you know, from the CIA guys and
from my friends over there. And we will be
meeting in one week or two weeks from now –
I will come in Florida to shake hands with you
and to discuss future deals.

App. 312
Diveroli: I like that, let’s do that.
Trebicka: I found good partners and I think
I can continue the job . . . But for me, it’s ﬁne. I
will not talk I will not open my mouth . . .
Diveroli ﬁred back with the same threatening lie he
told in Albania:
Diveroli: You protect me, I protect you kind of
thing . . .
***
Diveroli: The more it went up higher, to the
prime minister, to his son . . . This maﬁa is too
strong for me.
Trebicka ultimately delivered a recording of that conversation to Gary Kokalari (“Kokalari”)—Albanian
contact in the United States. Kokalari, in turn, sent the
recording to the New York Times (the “Times”). On
March 27, 2008, the Times published a story that led
to the investigations concerning, and criminal fraud
convictions of, Podrizki, Packouz, Diveroli and Merrill.83
Diveroli Fabricates a Fake Investor to Cheat
Merrill
73. A few days after Diveroli conspired with Podrizki and Packouz to slander Mr. Berisha, Diveroli

83

C.J. Chivers, Supplier Under Scrutiny on Arms for Afghans, N.Y. Times, Mar. 27, 2008.

App. 313
laid the groundwork for yet another fraud. Merrill testiﬁed:84
Q. Did Diveroli call you when he returned
from Albania?
A. Yes, he did.
***
Q. And what did he tell you when he returned?
A. . . . [He said] that he had succeeded in getting an even better price on the ammunition.
And I think he mentioned that he ﬁred Kosta
and hired – Pinari was back in the action and
Pinari was now doing the repackaging.
***
Q. . . . Did he raise any issues with respect to
your potential proﬁt from the contract?
A. Yes, he did.
Q. Tell us what he said to you regarding your
deal with him.
A. . . . He was grateful for the ﬁnancial support that I had given so far, but my million and
a half, whatever I had invested at that point,
was insufﬁcient to carry on with this very
large contract and that AEY needed additional ﬁnancing.
***
84

See Excerpted Testimony of Ralph Merrill from the Jury
Trial at 182-83, U.S. v. Merrill, Case No. 08-20574 (Dec. 1, 2010).

App. 314
Q. Did you have a subsequent conversation
with him about your percentage interest in the
contract?
A. . . . He called back a few days later and
said he found someone that he knew from
years back, that it was family that came over
from the Ukraine after the wall went down, a
wealthy Jewish family in this case, and that
the son of this family had 2 or $3 million that
he could put into the contract and he was interested, but he drove a very hard bargain. He
said the – this guy’s name was Danny and that
he wanted – in return, he wanted 70 percent of
the proﬁts.
Packouz revealed:85
Q. . . . [Diveroli] tried to cut Ralph out or reduce Ralph’s proﬁt percentage. Right?
A. Right.
***
Q. Because he’s greedy?
A. Yes.
***
Q. . . . [T]he way Diveroli tried to reduce
Ralph’s percentage of proﬁt, that was by creating a false investor, Danny. Right?
A. Right.
85

See Excerpted Testimony of David Packouz from the Jury
Trial at 30-32, U.S. v. Merrill, Case No. 08-20574 (Dec. 2, 2010).

App. 315
Q. Modeled after Daniel Doudnik?
A. Right.
Q. Did you ﬁnd that Diveroli had done
that with other facts, take a true fact like
somebody’s name and then use that as the
foundation or basis for a lie?
A. I’m not really sure what you mean.
Q. Well, here’s what I mean. Danny was
a real person. Right?
A. Yes.
Q. But everything surrounding Danny
and the investment was false?
A. That’s true.
Q. And it all came out of Diveroli’s
mouth. Right?
A. Right.
(emphasis added). Here, Diveroli employs—just like
his phony tale about the prime minister’s son—the
signature tactic of successful pathological liars: the
use of real details in deception. It is true that Daniel
Doudnik (“Doudnik”) is Jewish, and that his family
hails from the Ukraine.86 But Doudnik never invested
money in AEY.87 In fact, Doudnik was a low-level AEY

86

See Excerpted Testimony of David Packouz from the Jury
Trial at 36-37, U.S. v. Merrill, Case No. 08-20574 (Dec. 1, 2010).
87
See Excerpted Testimony of David Packouz from the Jury
Trial at 30-32, U.S. v. Merrill, Case No. 08-20574 (Dec. 2, 2010).

App. 316
employee.88 Likewise, the plaintiff, Shkëlzen Berisha,
is in fact the son of Albania’s former prime minister.
But he has never been in a room with Efraim Diveroli,
nor has he ever been involved, in any manner whatsoever, with the sale of arms.
Podrizki, Packouz and Diveroli Slander Mr.
Berisha in Interviews with Lawson
74. In 2011, shortly after their fraud convictions,
Lawson contacted Diveroli, Packouz, Merrill and Podrizki (the “AEY Sources”) in hopes of writing a story
about the Afghanistan Contract.89 In Florida, and
elsewhere, Lawson extensively interviewed the AEY
sources.90
75. In those interviews, Diveroli, Packouz and
Podrizki slandered Mr. Berisha, knowing and intending that their false statements about the Plaintiff
would appear in Lawson’s published works. In particular, Diveroli, Packouz and Podrizki lied to Lawson
regarding Mr. Berisha’s presence at the May 2007
meeting in which Diveroli and Podrizki sought to renegotiate ammunition prices.91

88

See Excerpted Testimony of David Packouz from the Jury
Trial at 155, U.S. v. Merrill, Case No. 08-20574 (Sept. 21, 2010).
89
Guy Lawson, War Dogs xix-xx (2016).
90
See id. xviii-xx.
91
In the War Dogs Book and the Dudes Book, Lawson includes a photograph of Mr. Berishaalongside a photo of Ylli
Pinari behind bars—with a caption: “Also involved, the dudes

App. 317
76. Diveroli, Packouz and Podrizki well knew
that their defamatory statements would be published
throughout the United States and abroad. They were
also aware that Lawson’s story was being adapted for
the screen, and therefore Diveroli, Packouz and Podrizki knew, or should have known, that many other
publications would carry their defamatory statements
contemporaneous with the adaptation’s theatrical release.
Lawson Promises Merrill, Packouz, Podrizki and
Diveroli a Favorable Story in Exchange for Access
77. Lawson knew that the AEY Sources were motivated to have someone give a favorable account of
their fraudulent behavior. In the War Dogs Book, Lawson writes:92
I knew from experience—this is a trick of the
trade—that the best time for a journalist to
approach criminal defendants is after they’ve
been sentenced and their legal jeopardy is at
an end. So I waited until David Packouz and
Alex Podrizki were about to be sentenced for
the federal fraud counts they’d pleaded guilty
to.
As young, convicted felons, Packouz, Podrizki and
Diveroli wanted to clean up their public personas. In a
discovered, was the prime minister’s son, Shkelzen [sic] Berisha.”
Guy Lawson, War Dogs, (photographs section) (2016).
92
Id. xviii.

App. 318
nationally televised interview, Lawson described the
desperate—albeit self-inflicted—situation of his sources:
“A federal felony offense is a big obstacle in your life
when you are in your twenties. It’s easy to forget the
wound that this puts on people . . . these are real people and it had real consequences.”93
78. To entice potential publishers, Lawson wanted
to tell the most fantastical story possible. In his own
words:94
As a writer for Rolling Stone, I knew the
magazine was always looking for a certain
kind of story—“tales about young people doing f—ked-up things,” to use the precise words
of my editors. The three friends from Miami
Beach certainly seemed to qualify. . . . The
improbable voyage Packouz, Diveroli, and
Podrizki had taken included geopolitical intrigue, Albanian mobsters, a shady Swiss
arms dealer, and an underhanded conspiracy
to repackage millions of ancient surplus Chinese-made AK-47 cartridges—all leading to
federal indictments for fraud . . .
Therefore, in exchange for an incredible—and, in Mr.
Berisha’s case, utterly false—tale, Lawson agreed to
rehabilitate the reputations of the AEY Sources.
79. Lawson held up his end of the bargain. In the
War Dogs Book, and several interviews, Lawson sought
93

BOOKTV: Arms and the Dudes (C-SPAN2 television broadcast June 20, 2015), available at https://www.c-span.org/video/
?326840-1/arms-dudes (last visited June 3, 2017).
94
Guy Lawson, War Dogs xvii-xviii (2016).

App. 319
to rehabilitate the reputations—and thereby the credibility—of his sources. For example, in a nationally televised interview, Lawson stated:95
The truth is that the kids didn’t defraud the
Government—not in any way that crime is
currently understood.
***
[Podrizki] is more like a Che Guevara guy, and
he really feels beaten up by this, because he
did really very marginal things wrong. . . .
Ralph Merrill—that’s an older guy that was
their ﬁnancier . . . [He’s] like the most
straight-laced Utah Mormon guy you’ve ever
met.
80.

On Miami Public Radio, Lawson said:96

Lawson: In contrast to the New York Times
portrait of these kids as sleazy fools, they were
anything but [sleazy fools].
When challenged, however, Lawson backpedaled:97
Interviewer: . . . When you say they were
mistakenly portrayed as sleazy, that kind of
95

BOOKTV: Arms and the Dudes (C-SPAN2 television broadcast June 20, 2015), available at https://www.c-span.org/video/
?326840-1/arms-dudes (last visited June 3, 2017).
96
Topical Currents: How Three Stoners from Miami Beach
Became the Most Unlikely Gunrunners in History (Miami Public
Radio WLRN radio broadcast 07/06/15), available at http://wlrn.
org/post/how-three-stoners-miami-beach-became-most-unlikely.
gunrunners-history (last visited June 3, 2017).
97
Id.

App. 320
rubs me a little bit the wrong way because
they were greedy, they were reckless, they
were unethical, they were immoral, they
didn’t care where the arms were really going—
Lawson: . . . What you just said was true, of
course.
Interviewer:

Okay.

Yet Lawson continued:98
[Merrill] is really the one who got the worst
end of the stick in all this because he effectively did nothing wrong . . . He didn’t plead
guilty. And the way that these prosecutors
work is if you don’t do what they say, they’re
gonna double down on you . . . This is as political a prosecution as you’re ever going to see.
81. Moreover, in an August 2015 interview for
Beyond 50 Radio, Lawson stated:99
When the New York Times ran a story about
this, in 2008, on the front page, it made it
seem like these kids were just these sleazy
proﬁteers . . . but really, almost everything
was the opposite. It was—the kids were doing
exactly what the Government wanted them to
do.

98

Id.
Beyond50Radio.com: Arms & The Dudes (Beyond50 podcast August 2, 2015), available at https://www.youtube.com/watch
?v=uV8bwnQ5q1c (last visited June 3, 2017).
99

App. 321
Furthermore, in June 2015, for the speciﬁc purpose of
rehabilitating Packouz’ reputation, Lawson arranged
for Packouz to appear on an episode of a National Public Radio (“NPR”) show called Snap Judgment.100 Lawson received a producer credit for the episode.101
Lawson Knew that His Sources Were Compulsive
Liars and Serial Fraudsters
82. In the War Dogs Book, Lawson boasted that
he “spent months paging through court transcripts,
studying defense-contract regulations, and drafting
Freedom of Information requests.”102 As a result, Lawson was fully aware of the countless lies, phony documents and forgeries executed by his sources. What’s
more, Lawson knew that the AEY Sources often used
the names of real people in their fraudulent schemes.103
83. Lawson detailed some of their deceptions in
the War Dogs Book itself. For example, Lawson wrote:
Diveroli was a genius. He was also a liar.
He misled directly, indirectly, compulsively—

100

Topical Currents: How Three Stoners from Miami Beach
Became the Most Unlikely Gunrunners in History (Miami Public
Radio WLRN radio broadcast, July 6, 2015), available at http://
wlrn.org/post/how-three-stoners-miami-beach-became-most-unlikely.
gunrunners-history (last visited June 3, 2017).
101
Id.
102
Guy Lawson, War Dogs xix (2016).
103
Id. at 213-13.

App. 322
almost as if telling a lie were better than telling the truth as a matter of principle.104
***
Diveroli begged the procurement ofﬁcer not to
cancel the contract. His voice was shaking and
his eyes were welling with tears. He said that
if the deal fell through he’d be ruined. His tiny
business would go into bankruptcy. He was
going to lose his house. His children would go
hungry. His wife would leave him. He was begging for his life and all of it was completely
made up. But he was totally convincing. The
procurement ofﬁcer backed down. “I’d never
seen more skillful lying,” Packouz said. “I
didn’t know if Efraim was psychotic, or if he
was acting. But he believed what he was saying—at least while he was talking.”105
***
To gain their attention, Packouz told the companies that AEY already had won the contract
with the Pentagon. To be taken seriously, he
considered the lie a necessity. He also faxed
AEY’s ﬁrearms license from the ATF, even
though it had nothing to do with international
arms dealing—it looked ofﬁcial, and he hoped
it would impress the Eastern Europeans.106
***

104
105
106

Id. at 48.
Id. at 49-50.
Id at 79-80.

App. 323
Giddy, Diveroli leaped up and high-ﬁved Packouz. “Now you’re going to modify the contract
and put in a fake price that the government is
paying us,” Diveroli instructed Packouz. “Put
it like we’re only making three percent proﬁt
on the deal. But make sure the fake documents are fucking beautiful. We got millions
riding on this.” “Yes, sir,” said Packouz, awed
by Diveroli’s gift for dissembling. “We’re going
to have a twenty-ﬁve-percent proﬁt margin on
a twentysix-million-dollar deal. Holy fuck,
dude!” “Stick with me, buddy. You and me,
we’re going places.”107
***
Before AEY had been awarded the contract, it
had been audited by the Army to make sure it
had the ﬁnancial wherewithal to sustain the
contract on the government’s net-thirty-day
terms. Reams of documents had been produced by Diveroli and Packouz, many of them
exaggerated to show that AEY had far more
money than it actually did. None of the ledger
high jinks had been detected.108
***
The Army didn’t care about AEY’s proﬁt margins—it expected the deliveries to be made as contracted. So Diveroli dissembled with the Army. He told
the procurement officers in Rock Island that AEY
couldn’t ship because of delays in governments’ issuing
107
108

Id. at 110.
Id. at 103.

App. 324
the export permits needed to move the ammo across
national frontiers. It was a lie, but a necessary one to
make the contract economically viable.109
***
[Podrizki said:] “Don’t worry, Kosta. The
simple reason is that the ammo passes over
different countries during transportation. If
the authorities in another country stop the
ﬂight and see that part of the ammunition is
from Albania and part is from China they will
start an investigation.”110
***
Diveroli checked his e-mails and found the
documents Packouz had doctored, showing
false prices for AK-47 ammo. Packouz had
done an excellent job changing the numbers,
doctoring quotes from other suppliers to show
the Hungarians and the Bulgarians could
beat MEICO’s price by a signiﬁcant amount.
Diveroli and Podrizki were ready.111
***
Podrizki stepped out of the bar onto the deck
of the ferry. He looked around to be sure no
one was watching. He quietly slipped his laptop overboard, the computer disappearing
into the black Adriatic Sea.112
109
110
111
112

Id. at 117.
Id. at 163-64.
Id. at 173.
Id. at 227.

App. 325
***
Diveroli wanted AEY to write an e-mail to the
Kyrgyz military that was forged to look as if it
came from the US military—the dudes could
threaten all kinds of dire consequences that
way.113
84. In fact, Lawson himself entertained serious
doubts as to the veracity and accuracy of the reports of
the AEY Sources. He knew that, without other credible
evidence, it was reckless to rely on their word. In a radio interview, Lawson stated:114
Interviewer:
source?

Was he [Packouz] your chief

Lawson: My chief source was the documents. You know, it’s one thing to hear
from somebody about this or that—they
had this or that happen, and it’s great.
And I hope that the book gives you a real
sense of inside that voyage. But, you know,
there’s nothing that can beat research
and primary documents. So that was my
main source. But, you know, David and Alex
and, to a lesser extent, Efraim, and then the
older gentleman [Merrill].
(emphasis added).
113

Id. at 182.
Topical Currents: How Three Stoners from Miami Beach
Became the Most Unlikely Gunrunners in History (Miami Public
Radio WLRN radio broadcast, July 6, 2015), available at http://
wlrn.org/post/how-three-stoners-miami-beach-became-most-unlikely.
gunrunners-history (last visited June 3, 2017).
114

App. 326
85. But Lawson didn’t have documents to support the entire story that he wanted to tell. In particular, Lawson had absolutely no credible evidence for his
claims that Shkëlzen Berisha was involved with AEY,
corruption or the Albanian “maﬁa”; he had only the
word of serial liars and convicted fraudsters.
86. Unfortunately, it mattered little to Lawson
that he had no reliable proof that Mr. Berisha was involved in corruption, so long as the anecdote made the
story more sensational—so long as it sold more books.
Lawson Knew that His Sources’ Account of the
Alleged Meeting Was Inherently Improbable and
Likely False
87. Lawson had obvious reasons to doubt—and,
in fact, did doubt—the truth of the AEY Sources’
claims about Mr. Berisha. His sources could provide
no details that might corroborate the purported meeting. Lawson wrote, regarding Podrizki’s and Diveroli’s
price-renegotiation meeting with Pinari, that:115
The ﬁrst stop was Ylli Pinari’s ofﬁce in
the Ministry of Defense. More raki was
poured and cigarettes were passed around.
Diveroli placed a stack of documents on the
table. He said they were quotes from other
Eastern European countries for the same ammunition he was buying from MEICO.

115

Guy Lawson, War Dogs 173-76 (2016).

App. 327
“These are the standard prices,” Diveroli said.
“Any more than this, I will walk away.”
Pinari inspected the sheet. He’d been in the
business for decades. He knew the real prices
of surplus nonstandard munitions. He looked
up and shook his head with contempt. “These
are fake.”
Diveroli had been busted. Stumbling for what
to say next, he forged on, “Your ammo is old.
Some of it is nearly ﬁfty years old. It doesn’t
warrant the price.”
Pinari was unmoved.
“It’s steel-cased, not brass,” Diveroli said. “It’s
not as good.” Pinari said nothing.
“The only place you can sell your ammo is in
Africa. The Africans can’t afford to pay as
much as the government of the United States.”
The conversation was going nowhere, it seemed:
Diveroli demanded a reduction, and Pinari insisted on the agreed terms. All the extra costs
AEY had incurred, for the repacking, the
higher airfreight prices, the unexpected licenses and fees at Tirana’s airport—those
were issues for Diveroli to take up with Henri
Thomet, not MEICO, Pinari said.
Diveroli asked to see the Albanian minister of
defense.
If you want to change the price, you have to
meet someone else,” Pinari said ﬁnally.

App. 328
Apparently, someone was more powerful than
the minister—a strange assertion. Ylli Pinari
escorted Diveroli and Podrizki to his Mercedes sedan. The pair were driven around
the streets of Tirana in a seemingly deliberately confusing route, so the Americans wouldn’t be able to re-create where
they’d gone. Finally, they turned into an
abandoned construction site for a partially completed ofﬁce building. Pinari led
the pair up a set of stairs and along a corridor
until they reached a door. Stepping inside,
they found a sleek, stylish ofﬁce, like the
suite of a corporate law ﬁrm in a skyscraper in Miami. The incongruity was disorienting. So was the sight of the man rising
from his seat behind the desk. Instead of the
kind of global businessman who might be expected to occupy such an ofﬁce, there was a
hard-looking man—a real thug, Podrizki
thought, fear rising. Gegh was the Albanian word for such a man: muscular, darkskinned, with what appeared to be prison
tattoos on his forearms, a native of the tribal
mountains.
This was Mihail Delijorgji. Diveroli and Podrizki then turned to see a young man around
their age sitting in the corner. Dressed in a
baseball cap and a sweater, he had dark hair,
a soft chin, and sharklike eyes. He wasn’t introduced. This was Shkëlzen Berisha,
the son of the prime minister of Albania,
they would later be told by Pinari.
Shkëlzen was part of what was known
in Albania as “the family,” the tight-knit

App. 329
and extremely dangerous group that surrounded and lived at the beneﬁcence of
the prime minister, Sali Berisha.
Delijorgji didn’t speak English, so Pinari
translated Diveroli’s reasons for wanting a
price reduction. Diveroli’s brash manner disappeared, as did his idea of cutting Thomet
out of the deal. Diveroli and Podrizki were obviously in the presence of seriously connected
men. “Diveroli’s complexion turned pale. Now
his main complaint was that the vast majority
of the rounds AEY was buying had steel casings. Brass casings were much more valuable,
Diveroli claimed. Steel casings damaged the
barrels of weapons, shortening their life span.
Diveroli wanted to pay 3.7 cents a round.
Delijorgji said that if Diveroli wanted a discount he would have to change the arrangements for the repacking operation at the
airport. If AEY was going to pay less for the
ammo, the money would have to be made up
another way—by giving the contract to repack
to Delijorgji’s company. The son of the
prime minister remained silent. Henri
Thomet’s name was never mentioned. Nor
was the fact that Diveroli knew MEICO was
selling the rounds to Thomet for just over two
cents a round.
Diveroli and Podrizki departed.
“That guy looked stupid enough to be dangerous,” Diveroli said of Delijorgji.

App. 330
“Did we just get out of a meeting with the
Albanian maﬁa?” Podrizki joked.
“Absolutely. Absofuckinglutely.”
(emphasis added).
88. Lawson’s sources provided exactly the kind of
improbable account that should—and did—raise the
specter in Lawson’s mind that their story was likely
false.
89. Lawson asked his sources where the meeting occurred, and Podrizki, Diveroli and Packouz responded, in essence, that “the pair were driven . . . on
a seemingly confusing route, so [they] . . . couldn’t recreate where they’d gone”—despite that Podrizki had
been living in Tirana for over a month at the time.
90. Lawson asked his sources what the meeting
building looked like—since distinctive details might
verify the alleged meeting’s location—and his sources
responded “an abandoned construction site for a partially completed ofﬁce building.”
91. Lawson’s asked his sources about what Mr.
Berisha said at the meeting; they told him that “[t]he
prime minister’s son remained silent.” This too, conveniently, prevented the exploration of any corroborative detail.
92. In short, Lawson knew that his sources’ account was calculated to be unveriﬁable. He also knew
that—when combined with his sources’ lack of credibility—it was highly unreliable and likely false.

App. 331
93. Nonetheless, Lawson recklessly defamed Mr.
Berisha based on the false recounting of a single alleged meeting. He stamped the imprimatur of investigative journalism on a supposed gathering in a
nondescript building, with no known location; a meeting in which the Plaintiff was purportedly silent; a
meeting that never actually happened.
Lawson Knew that His Sources Were Highly Motivated to Silence Kosta Trebicka and Secure Better Contract Terms
94. Lawson’s false and defamatory assertions
are all the more reckless because he knew that his
sources were motivated to lie. In addition to the court
transcripts and other documents that Lawson “spent
months paging through,”116 the Dudes Book itself
demonstrates that Packouz, Podrizki and Diveroli had
ulterior motives.
95. First, Lawson admits that Podrizki and
Diveroli lied to Trebicka regarding the very same alleged meeting:117
“The next morning, Kosta Trebicka was pacing in the lobby of the Sheraton, desperate to
hear about Diveroli’s meetings the day before.
As ever eager to please, Trebicka provided a
BMW and a driver for the rest of Diveroli’s
stay in Albania. Trebicka would also supply
an attractive young woman for Diveroli’s
116
117

Id. at xix.
Id. at 176-77.

App. 332
pleasure, an offer the young arms dealer
gladly accepted.
Diveroli could have told Trebicka the
truth about his encounter with Delijorgji:
AEY would get a discount on the AK-47
rounds only if Delijorgji’s company took over
the repacking job—cutting Trebicka out of the
deal. But Diveroli did what he’d become
accustomed to doing: he dissembled.
Diveroli said he’d been taken to a “hidden” place and threatened. The Albanians had said he’d be killed if he didn’t go
along with Thomet and Evdin as the middlemen. Diveroli told Trebicka that Ylli
Pinari of MEICO had warned him to
keep his mouth shut because the prime
minister’s son had been in the meeting.
Trebicka was outraged—something had
to be done. He readily agreed to try to help
Diveroli escape the clutches of men he considered gangsters. Trebicka arranged a meeting
with an ofﬁcial in the Albanian Ministry of
Defense who could supposedly help. But it
turned out that the ofﬁcial was far too young
and junior to do anything. Trebicka obviously
wasn’t as connected as he believed . . .
Trebicka had planned for Diveroli to
meet with US Embassy ofﬁcials, so they
went for a sit-down in the lobby of the Sheraton. The diplomat Robert Newsome was in his
late forties or early ﬁfties and gave off the
aura of being involved in the intelligence
world. Newsome was with military attaché Victor Myev, a former soldier turned

App. 333
diplomat nearing retirement age—the man
Podrizki had talked to on the phone
weeks earlier.
(emphasis added). In that passage, Lawson recounts
that Diveroli lied about the purported meeting in a
“hidden place” to justify cancellation of Trebicka’s repackaging contract. That is, Lawson concedes that
Diveroli lied about threats of murder and being
warned “to keep his mouth shut because the prime
minister’s son had been in the meeting.” Moreover,
Lawson himself acknowledged that Podrizki, Packouz
and Diveroli had good reason to silence Trebicka:118
After the Albanian businessman had been cut
out of the repacking deal months earlier, he’d
complained constantly to Diveroli, calling and
e-mailing to try to be put back on the deal, or
at least to be paid for the thousands of dollars’
worth of useless cardboard boxes he’d been
left stuck with.
Refusing to go away quietly, Trebicka had initially tried to cause trouble for the Albanians
who’d taken over the repacking job. He’d told
the workers he’d hired that they were being
ﬁred because of corruption inside the Ministry
of Defense.
***
After losing the contract, Trebicka continued
to stalk Podrizki in Tirana, claiming that
they were “friends,” muttering about exacting
118

Id. at 199.

App. 334
revenge against Ylli Pinari, trying to ﬁnd a
way to get back in on the deal.
Podrizki ﬁnally lost his patience and told him,
“You fucked up. You overstepped your boundaries. You got what you deserved.”
96. Second, Lawson knew that Diveroli told a different story regarding the very same alleged meeting to
U.S. Embassy ofﬁcials later that same day:119
He described the meeting the day before, with
the prime minister’s son and Mihail Delijorgji,
who were controlling the contract to sell the
ammo. Diveroli said that he’d been told that if
he didn’t pay bribes he wouldn’t be able to get
delivery of the ammo, which would imperil
America’s ability to arm the Afghans.
The story wasn’t entirely true. He shaded certain inconvenient facts, like the possibility
that selling Albanian-Chinese ammo was
against the law. Or the reality that AEY had
yet to pay MEICO for any of the rounds, which
would explain the delays in delivery. Or that
he’d cut Kosta Trebicka out of the deal. In essence, Diveroli didn’t want to disclose that he
was actually trying to get a better price from
the Albanians, instead casting himself as the
innocent victim of corruption.
97. Third, Lawson knew that Packouz, Podrizki
and Diveroli were told—weeks before the purported May
23, 2007 meeting—that they must allege corruption to

119

Id. at 178.

App. 335
enlist the U.S. Embassy to put pressure on MEICO.
Lawson writes:120
“MEICO isn’t delivering,” Podrizki said. “I
need help.”
“I can’t help unless there’s an allegation
of corruption,” Myev said. Since AEY was
a private company, even though it was doing
business with both the American and Albanian governments, it would have to solve its
troubles directly with the Albanians. But
Myev sympathized. Doing business in Albania
was frustrating, Myev allowed—especially inside the government. “That’s just the way
things are done here,” Myev said, sighing.
Podrizki wrote to Diveroli to say he’d tried the
US Embassy: “I spoke with the US Embassy
to see if they could do something to help—like
put pressure on Pinari, MEICO, or the Minister of Defense. Or all three. They said that
unless something illegal is happening
they can’t do anything. They also said this
type of treatment and attitude (laziness) is
typical of the region and especially Albania.”
Diveroli called Podrizki to discuss the situation.
(emphasis added). In fact, Lawson knew Diveroli used
Mr. Berisha’s alleged involvement in corruption to
convince the U.S. State Department to cajole MEICO
into reaching more favorable terms with AEY. Lawson

120

Id. at 154.

App. 336
recounts an e-mail from the U.S. Ambassador in Albania to senior ofﬁcials in the U.S. State Department:121
“We have a Florida company here called AEY
that has a Department of Defense contract to
provide Soviet and Chinese arms to the Afghan government,” Newsome wrote. “The validity of the contract has been veriﬁed. AEY
contacted us because they are having problems (‘informality’ issues) with MEICO.”
“Informality” was a reference to corruption allegations. Newsome said the embassy wouldn’t
intervene on AEY’s behalf unless a request
came from higher authorities in State or Defense.
“We’re bringing this to your attention as AEY
has a legitimate contract to provide arms to
the Afghan government and the implications
this might have for Coalition efforts in Afghanistan.”
98. In sum, Lawson recklessly credits a story told
by utterly unreliable sources, despite knowing that:
(1) his sources’ account was unveriﬁable and improbable; (2) his sources were highly motivated to lie; (3) his
sources had concocted similar phony stories when motivated to lie; and (4) his sources lied about the very
same purported meeting two times on the same day.
However, Lawson intentionally and recklessly disregarded these facts because he was far more interested

121

Id. at 179-80.

App. 337
in telling a “good” story than he was in reporting a true
one.
Motivated by Greed and Celebrity, Lawson Recklessly Libels Mr. Berisha Despite Obvious Reasons
to Doubt the Veracity of His Sources
99. Lawson’s account of an alleged meeting between Podrizki, Diveroli and the Plaintiff is unequivocally false and defamatory per se. Lawson—relying on
wholly discredited sources—accused Mr. Berisha of:
(1) receiving illegal kickbacks in connection with illicit
arms dealings; (2) conspiring to defraud the U.S. Government; (3) being “part of an extremely dangerous
group”; and (4) working with an organized criminal enterprise (i.e., “Albanian maﬁa”). Yet Mr. Berisha has
never been done business with MEICO, Pinari or Delijorgi, nor is he “part of an extremely dangerous group”
or associated with “Albanian mafia.” Moreover, he was
not involved, in any manner whatsoever, with AEY
and he has never been in a room with Diveroli or Podrizki.
100. Nonetheless, based solely upon a false—and
inherently improbable—account of a single fantastical
meeting, Lawson recklessly defamed Berisha throughout the Dudes Book and the War Dogs Book. Several of
those false and defamatory statements are set out below.

App. 338
101. In the “Author’s Note” section, Lawson
writes:122
The improbable voyage Packouz, Diveroli, and
Podrizki had taken included geopolitical intrigue, Albanian mobsters, a shady Swiss
arms dealer, and an underhanded conspiracy
to repackage millions of ancient surplus Chinese-made AK-47 cartridges.
***
The US government had used a string of brokers like Packouz and Diveroli and Podrizki to
insulate it from the dirty work of arms dealing
in the Balkans—the kickbacks and bribes and
double-dealing.
Taken in context, Lawson’s references to “geopolitical
intrigue, Albanian mobsters, a shady Swiss arms
dealer, and an underhanded conspiracy” and “the dirty
work of arms dealing in the Balkans—the kickbacks
and bribes” falsely, and recklessly, accuse the Plaintiff
of criminal activity.
102.

In Chapter One, Lawson states:123

Five thousand miles away, in the Balkan city
of Tirana, Albania, Packouz’s friends Efraim
Diveroli and Alex Podrizki were also dealing
with menacing and mysterious forces as they
tried to arrange for 100 million rounds of AK47 ammo to be transported to Kabul. Alone in
a notoriously lawless country, Diveroli and
122
123

Id. at xviii.
Id. at 2.

App. 339
Podrizki were trying to negotiate with
an Albanian maﬁoso taking kickbacks, as
well as a Swiss gun dealer running the deal
through a Cyprus company seemingly as a
way to grease the palms of shadowy operators allegedly associated with the
prime minister of Albania.
(emphasis added). Again, Lawson cruelly and falsely
asserts—without credible evidence—that Plaintiff was
a “shadowy operator” involved with “maﬁoso taking
kickbacks.”
103.

In Chapter Eight, Lawson writes:124

After returning to Miami, Diveroli had come
to an agreement with the Albanians. AEY
would receive a discount of two-tenths of a
penny on each round of ammo, reducing the
price to 3.8 cents. In return, Diveroli had
agreed to cut Trebicka out of the repacking job, which was now being done by
a company called Alb-Demil, an entity
seemingly controlled by the prime minister’s son and Mihail Delijorgji.
(emphasis added). Here, like elsewhere, Lawson falsely
reports Mr. Berisha’s alleged criminal activity as fact.
Yet he utterly fails to explain why he chose to rely on
wholly discredited sources to support his conclusion.
104. In the “Photographs” section, Lawson includes the following picture, captioned: “Also involved,

124

Id. at 188-89.

App. 340
the dudes discovered, was the prime minister’s son,
Shkelzen [sic] Berisha.”

Also involved, the dudes discovered, was the prime
minister’s son, Shkelzen Berisha. Credit: Gent Shkullaku
In addition to the false and defamatory caption, the
photograph appears alongside a picture of Pinari behind bars—deliberately implying Plaintiff ’s association with criminal activity.
105. In Chapter Eight, Lawson recounts the recorded telephone conversation between Trebicka and
Diveroli:125
Diveroli urged Trebicka to try to ﬁnd an accommodation. “Why don’t you kiss Pinari’s ass
125

Id. at 201-02.

App. 341
one more time? Call him up, beg him, kiss
him, send one of your girls to fuck him. Let’s
get him happy. Maybe he gives you a chance
to do the job. Maybe you give him a little
money. He’s not going to get much from this
deal. If he gets twenty thousand dollars from
you, I’m okay with that.”
“I understand,” Trebicka said, luring Diveroli
further into his plot.
“The more it went up higher, to the prime minister, to his son—this Maﬁa is too strong for
me,” Diveroli said. “I can’t ﬁght this Maﬁa. It
got too big. The animals got too out of control.”
Here, Lawson repeats the false and defamatory statements of Efraim Diveroli—a man Lawson described as
“a liar . . . [who] misled directly, indirectly, compulsively.”126
106. Lawson recklessly made the aforementioned false and defamatory statements despite obvious reasons to doubt the veracity of his sources.
Moreover—given Lawson’s knowledge of his sources’
pervasive lies, fraud and improbable tales—Lawson
did, in fact, doubt that Mr. Berisha was involved in
criminal activity related to the Afghanistan Contract.
But Lawson didn’t care about Plaintiff ’s reputation,
and the impact that grave, criminal allegations would
have on Mr. Berisha’s business, community involvement and family life. Lawson wanted a bestseller, so he
told a “bigger” story.
126

Id. at 48.

App. 342
Lawson Slanders Mr. Berisha in Interviews
107. Lawson continues to slander Mr. Berisha in
television and radio interviews. For example, Lawson
slandered the Plaintiff during a July 6, 2015 interview
on Miami Public Radio:127
Interviewer: So, tell us how they ﬁnally got
into trouble?
Lawson: Well, this guy Kosta Trebicka you
referred to was an Albanian businessman who
was doing the repackaging for them. The nefarious repackaging. And he – they didn’t tell
him why they were doing it, and he grew suspicious. And then eventually, as will happen
in Albania, gangsters came along and wanted
the contract for themselves. These gangsters
happened to be connected to the prime minister of Albania.
108. In a March 16, 2016 television interview,
Lawson further slandered Mr. Berisha:128
Interviewer: [in Albanian] The son of the
prime minister is mentioned everywhere [in

127

Topical Currents: How Three Stoners from Miami Beach
Became the Most Unlikely Gunrunners in History (Miami Public
Radio WLRN radio broadcast 07/06/15), available at http://wlrn.
org/post/how-three-stoners-miami-beach-became-most-unlikely.
gunrunners-history (last visited June 3, 2017).
128
Dritare: Exclusive Interview with Guy Lawson, (Vizion
Plus Albania television broadcast 3/16/16), available at https://
www.youtube.com/watch?v=mRRNBzQCnho (last visited June 3,
2017).

App. 343
the book], but what facts do you have that
prove his involvement in the matter?
Lawson: [in English] That’s what you need
an investigation to discover, you know, the
ex-prime-minister’s son met with the Dudes
when they were in Albania to arrange
the delivery and repackaging of these
munitions at a price that was, a, twice
the price that the Albanian government
was getting. So the Albanian government
was selling the munitions for two cents a
round; sold that to another company for four
cents a round, and then the [inaudible] were
buying it for eight cents a round. So what happened to all that money? Well, the implication is clear that the prime minister’s
son, and perhaps even the prime minister, certainly the defense minister and
other ofﬁcials, were proﬁteers and the
money was shipped off to a Cyprus holding
company and then vanished.
(emphasis added).
109. Lawson—without performing the “investigation” that “you need”—accused Mr. Berisha of conspiring to defraud the United States and acting as an
illegal “proﬁteer” at the expense of his own country.
Again, Lawson bases his allegations on the word of serial fraudsters; on a single uncorroborated anecdote
from his lying “Dudes.”

App. 344
Lawson Purposely Avoided Further Investigation with Intent to Avoid the Truth
110. In violation of basic journalistic standards129—the very norms meant to prevent publication
of defamatory falsehoods—Lawson never afforded Mr.
Berisha an opportunity to respond before publishing
incendiary criminal accusations against him.
111. Had Lawson contacted Mr. Berisha he
would have learned that: (1) Mr. Berisha has never
done business with MEICO, Pinari or Delijorgji;
(2) Mr. Berisha was not involved, in any manner
whatsoever, with AEY; and (3) Mr. Berisha has never
been in a room with Efraim Diveroli.
112. Lawson purposely avoided contacting Mr.
Berisha because Lawson feared that Mr. Berisha
would cast further doubt on his sources already dubious claims.
Simon & Schuster and Recorded Books Published
the Dudes Book and War Dogs in Reckless Disregard of Obvious Reasons to Doubt the Reliability
of Lawson’s Sources
113. Simon & Schuster and Recorded Books
(the “Publisher Defendants”) published, marketed and
129

“Journalist practice—and basic fairness—require that if a
reporter intends to publish derogatory information about anyone,
he or she should seek that person’s side of the story.” See Sheila
Coronel, Steve Coll, and Derek Karvitz, Rolling Stone and UVA:
The Columbia University Graduate School of Journalism Report,
Rolling Stone, Apr. 5, 2015.

App. 345
disseminated the Dudes Book and the War Dogs Book
with reckless and/or intentional disregard of the truth
of Lawson’s allegations concerning Mr. Berisha.
114. Despite speciﬁc and obvious reasons to
doubt Lawson’s claims about the Plaintiff (e.g., the
AEY Sources’ elaborate frauds, their improbable recounting of the alleged May 23, 2007 meeting, and
their evident motivation to silence Trebicka), the Publisher Defendants failed recklessly to fact-check Lawson’s claims.
115. Moreover, the Publisher Defendants knew
that Lawson never contacted Mr. Berisha to obtain his
response to the extraordinarily damaging allegations
leveled against him—notwithstanding that the charges
were sourced to convicted, serial liars. Again, the Publisher Defendants did nothing to verify Lawson’s slipshod reporting.
116. Like Lawson, the Publisher Defendants
were motivated to sell more books; and they knew that
allegations of kickbacks to the families of foreign leaders were likely to do just that.
Diveroli and Incarcerated Entertainment Knowingly Libeled Plaintiff
117. In May 2016, Incarcerated Entertainment
published the Gunrunner Book, authored by Efraim
Diveroli and Matthew Cox (“Cox”). Like Diveroli, Cox
is a felon and con man who ﬂeeced his victims using

App. 346
falsiﬁed documents and stolen identities.130 Diveroli
and Cox co-wrote the Gunrunner Book while incarcerated at a federal prison in Florida.
118. The Gunrunner Book is Diveroli’s selfserving account of his arms trafﬁcking activities and
fraud concerning the Afghanistan Contract. As a felon
convicted of crimes of dishonesty, Diveroli can no
longer compete for Government military contracts.
Therefore, via the Gunrunner Book, Diveroli seeks to
burnish his reputation, and proﬁt from the story of his
crimes.
119. Like in his interviews with Lawson, Diveroli intentionally defamed Mr. Berisha in the Gunrunner Book. However—despite being one of Lawson’s two
“eyewitness” sources to the May 23, 2007 purported
meeting with Mr. Berisha (and its aftermath)—Diveroli’s account differs substantially from the version presented by Lawson.
120. In Lawson’s account from War Dogs, Diveroli’s ﬁrst renegotiation meeting in Albania was at “Ylli
Pinari’s ofﬁce at the Ministry of Defense.”131 During
that purported ﬁrst meeting, Lawson states that
Diveroli asked to see the Albanian Minister of Defense,
and upon that request Pinari drove Diveroli and Podrizki to a second meeting in a “sleek, stylish ofﬁce, like
the suite of a corporate law ﬁrm in a skyscraper in

130

Jeff Testerman, Swindler Cox gets 26 years, Tampa Bay
Times, Nov. 17, 2007.
131
Guy Lawson, War Dogs 173 (2016).

App. 347
Miami” located inside “a partially completed ofﬁce
building.”132
121. Yet, in the Gunrunner Book, Diveroli says
that there was only one meeting and that it was held
“around a chipped wooden table” at a “possibly condemned building” in a “damp” ofﬁce with “[y]ellow [ ]
paint peeling off the walls.” Diveroli writes:133
I arrived on May 23rd of 2007, at the International Airport just outside of Tirana. I checked
into the Sheraton Hotel; it was tall and opulent, a luxurious onyx tower and without a
doubt the nicest structure in the entire country.
Pinari’s driver picked Alex and me up in a
20-year-old brown Mercedes—a rusted out
beater. On the drive to the meeting, it crossed
my mind that this was the type of move that
could get me killed. Meeting with high-ranking ofﬁcials of dubious character to cut murky
arms deals was dangerous in a country as corrupt and backward as Albania. People went
missing and had “accidents” all the time in
that country. We were taken to an abandoned
ofﬁce building; it appeared to be under heavy
renovation or possibly even condemned.
THE OFFICE WAS FILLED WITH SMOKE;
it smelled like mildew and cigars. Pinari and
several other hard-looking characters were
132

Id. at 174.
Efraim Diveroli and Matthew B. Cox, Once a Gunrunner
. . . The Real Story, Kindle Edition, at locations 2278-90 (2016).
133

App. 348
sitting at a chipped wooden table cluttered
with paperwork and boxes of 7.62 mm rounds,
having a heated discussion in Albanian. Yellow paint was peeling off the walls and it was
damp. Pinari was an overweight balding Eastern European in his late 40s, wearing a cheap
suit. Mihal [sic] Delijorgji and his bodyguard
were heavy, thick-necked and weathered; both
had rudimentary gulag style tattoos on their
hands and arms. A third, Scandinavian type,
with light features, Skelzen [sic] Berisha, sat
quietly listening to the discussion—turns out
he was Sali Berisha, the Albanian Prime Minister’s son. Based on the tone of their conversation, it was pretty obvious Delijorgji was
calling the shots, dictating terms for the sale
of military equipment and munitions—stateowned assets.
122. In Lawson’s account, Diveroli and Podrizki
are told during the second meeting that “if Diveroli
wanted a discount he would have to change the repackaging operation . . . by giving the contract to repack to
Delijorgji’s company.”134
123. But in the Gunrunner Book, Diveroli asserts that he received word—of both the ammunition
discount and that the fact that he needed to cancel
Trebicka’s repackaging contract—on the day after the
purported meeting with Mr. Berisha. Furthermore,
Diveroli attributes the price reduction to his May 24,

134

Guy Lawson, War Dogs 175 (2016).

App. 349
2007 meeting with U.S. Embassy ofﬁcials. Diveroli
writes:135
Newsome grunted his understanding, and
Myev said, “I don’t want to be rude, Mister
Diveroli, but we really can’t get involved in
the internal workings of the Albanian government, especially when it relates to a commercial contract—which is technically what you
have.” Which was bullshit: The U.S. did it all
the time. I’m not an expert in geopolitics, but
any semi-intelligent person knows that the
U.S. inﬂuences and manipulates the laws and
decisions of so-called “sovereign” nations all
the time, especially in politically unstable,
economically depressed shitholes like Albania.
I looked him in the face and said, “This is a
crucial operation to the war on terror—and
you can’t make a couple of calls?”
Myev leaned back into his chair and glanced
at Newsome. No one spoke for several seconds,
and then Myev said, “I’ll look into it . . . Give
me a call in a couple of days if there’s no movement on your end.”
“Gentlemen,” I smiled, “that’s all I’m asking
for.”
WHEN NEWSOME GOT BACK TO THE EMBASSY, he shot off an email to the State Department:
135

Efraim Diveroli and Matthew B. Cox, Once a Gunrunner
. . . The Real Story, Kindle Edition, at locations 2328-47 (2016).

App. 350
“FYI: We have a Florida company here called
AEY, that has a DOD contract to provide
Soviet & Chinese arms to the Afghan government . . . They are having problems (“informality” issues) with MEIKO, the MOD
arms contracting company. AEY wants to buy
arms & munitions from MEIKO and ship to
Afghanistan. They have been unable to come
to terms with MEIKO to date.”
He then wrote the embassy wasn’t planning
to intervene:
“We’re bringing this to your attention as AEY,
has legitimate DOD contract to provide arms
to the Afghan government and the implication
this might have for Coalition efforts in Afghanistan.
Please respond on the classiﬁed side as you
deem appropriate.”
NOW I DON’T KNOW WHAT THEIR “CLASSIFIED” response was, but several hours
after that email, Heinrich [Thomet]
called and said, “Okay Efraim, I don’t
know what you did, but Pinari will do
twenty-seven per one thousand . . . but
he wants the repackaging contract as
well, okay?” I didn’t have a problem with
that, although I knew Trebicka would.
(emphasis added).
124. Moreover, Lawson asserts that Diveroli and
Podrizki met with Trebicka ﬁrst thing “the next morning” (i.e., May 24, 2007) in “the lobby of the Sheraton”

App. 351
and at that time Diveroli told Trebicka that “he’d
[Diveroli] be killed if he didn’t go along with Thomet
and Evdin as middlemen.”136 Lawson reported further
that “Trebicka had planned for Diveroli to meet with
US Embassy ofﬁcials” later that day.137
125. Yet again, Diveroli’s story is different.
Diveroli makes no mention of meeting Trebicka on the
day after the purported renegotiation meeting(s), and
asserts that he—not Trebicka—“called the U.S. Embassy and asked to meet with someone regarding an
issue of national interest.”138
126. Inconsistencies aside, however, one thing is
certain: both Lawson’s and Diveroli’s accounts of Mr.
Berisha’s involvement are utterly false and defamatory. Diveroli is clearly a compulsive liar, and it was
reckless for Lawson to rely on him.
Defendants’ Widely Disseminated Defamatory
Statements are Republished in Media Outlets,
Compounding and Continuing Harm to the
Plaintiff
127. Defendants’ publication of cruel lies about
Mr. Berisha ignited a media ﬁrestorm. It was a reaction that Lawson anticipated. In a July 6, 2015 interview, Lawson stated: “The Book is being published
136

Guy Lawson, War Dogs 176 (2016).
Id. at 177.
138
Efraim Diveroli and Matthew B. Cox, Once a Gunrunner
. . . The Real Story, Kindle Edition, at locations 2322 (2016).
137

App. 352
today, as it happens, in Albania. And it’s on the front
page of a few Albanian newspapers because it really is
a big deal in that country.”
128. Lawson was right. In addition to his books’
worldwide distribution, Lawson’s highly defamatory
allegations were repeated—and continue to be repeated—by international media outlets. For example:
•

A September 9, 2016 article in Balkan Insight—a media outlet aimed at Balkan peoples living in the United States—reads in
part:139 “Lawson investigated the complicated
scheme by which AEY, its broker Heinrich
Thomet, and Albanian contractors repacked
Chinese ammunition that was under a US
embargo in Albania and sold it on to US forces
ﬁghting in Afghanistan. Lawson alleged in the
book that high-level Albanian ofﬁcials and the
son of former Albanian Prime Minister Sali
Berisha were involved in the trade.”

•

An August 8, 2016 article on Dritare.net—a
popular Albanian news portal—repeats Lawson’s false and defamatory accusations alongside photos of Mr. Berisha.140 The article’s
title—“Traﬁku i armeve, ﬁlmi hollivudian per

139

Fatjona Mejdini, Albanians Feel Left out of Hollywood Blockbuster, Balkan Insight, Sept. 9, 2016, http://www.balkaninsight.
com/en/article/war-dogs-disappointed-albanians-expectancies-09-092016 (last visited June 3, 2017).
140
Trafiku i armëve, filmi hollivudian për Diverolin dhe Shkelzen
Berishën “Qentë e Luftës, Dritare.net, Aug. 8, 2016, http://www.
dritare.net/2016/08/08/trafiku-i-arnieve-filmi-hollivudianper-diverolindhe-shkelzen-berishen-qente-e-luftes/1 (last visited June 3, 2017).

App. 353
Diverolin dhe Shkëlzen Berishen “Qente e
Luftes”—translates roughly to “Hollywood
Film War Dogs to Feature Arms Trafﬁcking,
Shkelzen Berisha.”
•

Lawson’s allegations were referenced in an
August 18, 2016 Macedonia Shqiptare article
titled “Filmi i Shkëlzenit dhe Kosta Trebickës,
këtë javë në kinematë amerikane.” The article’s title translates roughly to: “Shkelzeni
and Kosta Trebicka ﬁlm in American cinemas
this week.”

•

In September and October 2016, Lawson’s accusations regarding Mr. Berisha were read
aloud, during Albanian parliamentary sessions, by political opponents of Mr. Berisha’s
father.141

129. In fact, Lawson made certain that his defamatory allegations against Mr. Berisha would be a
“big deal.” Encouraged and prompted by Lawson, media outlets spread Lawson’s defamatory allegations
against Mr. Berisha. For example:
•

141

On August 2, 2015, Lawson gave an interview
to Gazeta Dita—an Albanian newspaper—
during which he was asked: “[in Albanian]
You’ve said that Fatmir Mediu, Shkelzen
Berisha, etc. were involved. Is the former
prime minister Berisha implicated in this

Autori i librit për Gërdecin, Guy Lawson, ka një pyetje për
Taulant Ballën, VOAL: Voice of Albanians, Sept. 28, 2016, https://
www.voal.ch/autori-i-librit-per-gerdecin-guy-lawson-ka-njepyetjeper-taulant-ballen/ (last visited June 3, 2017).

App. 354
corruption?” Lawson responded: “I don’t know,
but his son was involved.”142
•

On March 14, 2016, during an interview aired
on Albanian television, Lawson stated: “the
implication is clear that the prime minister’s
son, and perhaps even the prime minister, certainly the defense minister and other ofﬁcials,
were proﬁteers.”143

Mr. Berisha is a Private Figure
130. The true story, as it pertains to Mr. Berisha,
is entirely uncontroversial. Mr. Berisha is a private citizen, an Albanian-trained lawyer and businessman,
and a father of two.
131. Mr. Berisha works primarily as a legal consultant and advisor for international companies seeking to invest in Albania. In particular, Mr. Berisha’s
practice focuses on companies aiming to invest in real
estate and energy projects in Albania. Most of his clients and business partners are located in the United
States and Europe.

142

Ekskluzive nga SHBA/ Flet Guy Lawson, autor i librit për
tragjedinë e Gërdecit: Rihapeni Gërdecin, Gazeta Dita, Aug. 2,
2015, available at http://www.gazetadita.al/ekskluzive-nga-shbafletguy-lawson-autor-i-librit-per-tragiedine-e-gerdecit-rihapeni-gerdecin2/ (last visited June 3, 2017).
143
Dritare: Exclusive Interview with Guy Lawson, (Vizion
Plus Albania television broadcast 3/16/16), available at https://
www.youtube.com/watch?v=mRRNBzQCnho (last visited June 3,
2017).

App. 355
132. Although Plaintiff is the son of a former
prime-minister, he has never held or run for public
ofﬁce, never worked for a political party, nor participated—even indirectly—in government affairs.
133. Apart from his mere relation to an Albanian
politician, Mr. Berisha is the quintessential private ﬁgure.
Mr. Berisha has Suffered Severe Reputational
and Financial Harm
134. Defendants’ false and per se defamatory
statements continue to harm Mr. Berisha personally
and professionally. Everyday, Defendant’s widelydistributed criminal allegations serve to impeach
Plaintiff ’s integrity, honesty and virtue.
135. As a lawyer and businessman, Plaintiff remains hindered in his professional dealings—particularly with new clients and contacts. Obviously, Mr.
Berisha may become unemployable if potential clients
and business partners believe that he is involved in organized crime and corruption.
136. Further, the damage to Plaintiff ’s personal
reputation is itself extraordinary. Given the nature of
the internet—and the resultant global media environment—Defendants’ defamatory allegations are permanently on display, available to everyone in the world;
including Mr. Berisha’s children, who are exposed often
to Defendants’ viciously false reports that their father
cheated his own country.

App. 356
137. Moreover, Plaintiff has been forced to deal
with unwanted and unsolicited attention. For example,
in September 2016, political opponents of Mr. Berisha’s
father read Lawson’s false and defamatory allegations
during Albanian parliamentary sessions broadcast on
Albanian television.
138. Unwillingly thrust into the spotlight by Defendants’ accusations, Plaintiff is regularly threatened,
harassed and heckled. As a result, Mr. Berisha has
been forced to take extra security precautions.
139. As a direct and proximate result of Defendants’ false and defamatory allegations of fraud, criminality and association with organized crime, Plaintiff
has suffered damages, professionally and personally.
Based upon on Defendants’ wide dissemination of malicious lies, Plaintiff believes, and thereby alleges, that
his damages exceed the sum of $60 million (although
the exact amount is presently unknown).
Defendants’ Conduct Warrants Punitive Damages
140. Defendants’ libelous publications and slanderous statements about Mr. Berisha were knowingly
and/or recklessly made for ﬁnancial gain and personal
advantage.
141. Diveroli, Podrizki and Packouz knew that
their statements about the Plaintiff were false when
they made them. Initially, Diveroli, Podrizki and Packouz intentionally defamed Plaintiff in a failed attempt
to keep secret their fraudulent repackaging scheme.

App. 357
Later, they cruelly maintained the concocted story to,
among other ends, salvage their own reputations and
curry favor with Lawson.
142. Lawson, Simon & Schuster, and Recorded
Books do not purport to have a reliable source for their
viciously false assertions. They failed recklessly to corroborate the claims of known fraudsters. Yet they knew
that the inclusion of purported kickbacks to the families of foreign politicians would make the “Dudes” tale
more marketable. In short, they recklessly destroyed a
man’s reputation to sell more books.
COUNT I: DEFAMATION
(All Defendants)
143. Plaintiff re-alleges the allegations contained in Paragraphs 1 through 142 as though fully set
forth herein.
144. Defendants made and published statements purported to be facts, in an intentionally false,
malicious, or otherwise defamatory manner (i.e., with
knowledge that their statements were false or with
reckless disregard of the truth) and distributed the
same in Florida and throughout the world.
145. All of the defamatory statements made and
published by Defendants concerning Plaintiff are false.
146. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff was involved in
arms trafﬁcking. That is false.

App. 358
147. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff met with Diveroli
and Podrizki. That is false.
148. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff was involved in a
scheme to defraud the United States Government by
disguising the origin of Chinese ammunition. That is
false.
149. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff accepted and/or facilitated illegal payments in connection with arms trafﬁcking. That is false.
150. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff was associated
with organized crime. That is false.
151. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff was involved
with the criminal misappropriation of Albanian stateowned assets. That is false.
152. Defendants caused the false and defamatory statements to be published with knowledge of the
statements’ falsity and/or with reckless disregard for
the truth.
153. Defendants knew and/or intended that
their defamatory statements would be widely disseminated in the United States and abroad.
154. Defendants’ statements had, and continue
to have, a defamatory effect, because they have

App. 359
resulted in damage to the reputation and community
standing of the Plaintiff. In particular, Defendants’ defamatory statements have damaged Plaintiff ’s reputation and standing with businesspeople whom he has
done, was in the process of doing, or plans to do business with in the future.
155. Defendants’ false and defamatory statements about Plaintiff had, and continue to have, the
effect of impeaching Plaintiff ’s honesty, integrity and
morals. Plaintiffs positive character has opened doors
for him in community life. Defendants’ actions have already caused, and will continue to cause, harm to the
Plaintiffs standing in the Albanian community (and
other communities) in the United States and abroad,
which is of utmost importance in his day-to-day dealings.
COUNT II: DEFAMATION PER SE
(All Defendants)
156. Plaintiff re-alleges the allegations contained
in Paragraphs 1 through 155 as though fully set forth
herein.
157. Defendants made and published statements purported to be facts, in an intentionally false,
malicious, or otherwise defamatory manner (i.e., with
knowledge that their statements were false or with
reckless disregard of the truth) and distributed the
same in Florida and throughout the world.

App. 360
158. All of the defamatory statements made and
published by Defendants concerning Plaintiff are false.
159. All of the defamatory statements made and
published by Defendants concerning the Plaintiff are
defamatory per se. That is, each false and defamatory
statement: (1) asserts that Plaintiff has been involved
with criminal activity; and (2) speciﬁcally injures
Plaintiff in his profession (i.e., law practice) and other
business ventures.
160. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff was involved in
arms trafﬁcking. That is false.
161. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff met with Diveroli
and Podrizki. That is false.
162. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff was involved in a
scheme to defraud the United States Government by
disguising the origin of Chinese ammunition. That is
false.
163. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff accepted and/or facilitated illegal payments in connection with arms trafﬁcking. That is false.
164. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff was associated
with organized crime. That is false.

App. 361
165. Defendants speciﬁcally and unambiguously
stated and/or implied that Plaintiff was involved with
the criminal misappropriation of Albanian stateowned assets. That is false.
166. Defendants caused the false and defamatory statements to be published with knowledge of the
statements’ falsity and/or with reckless disregard for
the truth.
167. Defendants knew and/or intended that
their defamatory statements would be widely disseminated in the United States and abroad.
DAMAGES
168. As a direct and proximate cause of Defendants’ defamatory statements, Plaintiff has suffered
and continues to suffer compensable and pecuniary
damages. Moreover, Plaintiff has lost business opportunities because associates believed the false
statements made by Defendants and concluded that
Plaintiff was criminally dishonest and immoral.
169. The actions of Defendants set forth in this
Complaint demonstrate malice, egregious defamation,
and grave insult. Such actions were taken with malicious intent or reckless disregard of the falsity of the
speech and its effect on Plaintiff. Accordingly, Plaintiff
requests an award of punitive damages and attorneys’
fees beyond those damages necessary to compensate
Plaintiff for injuries resulting from Defendants’ conduct.

App. 362
PRAYER FOR RELIEF
Plaintiff prays that this Court provide the following relief:
(1) An order requiring Simon & Schuster to remove the defamatory language from the
Dudes Book and War Dogs;
(2) An order requiring Recorded Books to remove
the defamatory language from the Dudes
Book and War Dogs;
(3) An order requiring Incarcerated Entertainment to remove the defamatory language
from the Gunrunner Book;
(4) Compensatory and consequential damages of
$60 million, or such other and greater sum as
shall be found;
(5) Punitive damages to punish Defendants’ reprehensible conduct and to deter its future occurrence; and
(6) Further relief as this Court shall deem just
and proper.

App. 363
JURY DEMAND
Plaintiff respectfully requests a trial by jury on all
issues raised by this Complaint which are triable by
right of a jury.
DATED: June 8, 2017 Respectfully Submitted,
s/ Jeffrey W. Gutchess
Jeffrey W. Gutchess
Florida State Bar No. 702641
Daniel Tropin
Florida State Bar No. 100424
AXS LAW GROUP, PLLC
2121 NW 2nd Avenue, Suite 201
Wynwood, Florida 33127
Tel: (305) 389-3646
jeff@axslawgroup.com
dan@axslawgroup.com
Jason M. Zoladz
(pro hac vice application pending)
New York State Bar No. 4250593
California State Bar No. 237921
600 Third Avenue, Second Floor
New York, New York 10016
Tel: (347) 851-7141
jason@zoladzlaw.com
Counsel for Plaintiff
Shkëlzen Berisha

